<html>
<title> - EXAMINING HOW FEDERAL INFRASTRUCTURE POLICY COULD HELP MITIGATE AND ADAPT TO CLIMATE CHANGE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
  EXAMINING HOW FEDERAL INFRASTRUCTURE POLICY COULD HELP MITIGATE AND 
                        ADAPT TO CLIMATE CHANGE

=======================================================================

                                (116-3)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                            ______
                          

              U.S. GOVERNMENT PUBLISHING OFFICE 
 35-381 PDF                WASHINGTON : 2020                             
                             
                             
                             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair
ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland             Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
    Georgia                          JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
    Chair                            BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Salud O. Carbajal, a Representative in Congress from the 
  State of California, and Vice Chair, Committee on 
  Transportation and Infrastructure:
    Opening statement............................................     1
    Prepared statement of Hon. Peter A. DeFazio, a Representative 
      in Congress from the State of Oregon, and Chair, Committee 
      on Transportation and Infrastructure \1\...................     3
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure:
    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, prepared statement.................................   157

                               WITNESSES
                                Panel 1

Daniel Sperling, Board Member, California Air Resources Board:

    Oral statement...............................................     6
    Prepared statement...........................................     8
Vicki Arroyo, Executive Director, Georgetown Climate Center:

    Oral statement...............................................    11
    Prepared statement...........................................    13
Thomas P. Lyon, Professor, Stephen M. Ross School of Business, 
  University of Michigan:

    Oral statement...............................................    26
    Prepared statement...........................................    27
Ben Prochazka, Vice President, Electrification Coalition:

    Oral statement...............................................    33
    Prepared statement...........................................    35
Nancy N. Young, Vice President, Environmental Affairs, Airlines 
  for America:

    Oral statement...............................................    41
    Prepared statement...........................................    43

                                Panel 2

Kevin DeGood, Director, Infrastructure Policy, Center for 
  American Progress:

    Oral statement...............................................   104
    Prepared statement...........................................   106
James M. Proctor II, Senior Vice President and General Counsel, 
  McWane, Inc.:

    Oral statement...............................................   107
    Prepared statement...........................................   109
Whitley Saumweber, Director, Stephenson Ocean Security Project, 
  Center for Strategic and International Studies:

    Oral statement...............................................   116
    Prepared statement...........................................   118

----------
\1\ Hon. Carbajal delivered the prepared statement of Hon. DeFazio, who 
was unable to attend the hearing due to a snowstorm in Oregon.
Lynn Scarlett, Vice President, Public Policy and Government 
  Relations, The Nature Conservancy:

    Oral statement...............................................   120
    Prepared statement...........................................   121

                       SUBMISSIONS FOR THE RECORD

Post-hearing supplements to testimony submitted by Ben Prochazka. 


Article, ``Climate Impact of Increasing Atmospheric Carbon 
  Dioxide,'' Science, Vol. 213, No. 4511, August 28, 1981, 
  submitted for the record by Hon. Perry of Pennsylvania.........   159
Statement of the American Short Line and Regional Railroad 
  Association, submitted for the record by Hon. Graves of 
  Missouri.......................................................   169
Statement of Ian J. Jeffries, President and Chief Executive 
  Officer, Association of American Railroads, submitted for the 
  record by Hon. Graves of Missouri..............................   170
Comments of the Southern Environmental Law Center, submitted for 
  the record by Hon. DeFazio of Oregon...........................   174
Letter of February 22, 2019, from Matthew J. Strickler, Secretary 
  of Natural Resources, Commonwealth of Virginia, submitted for 
  the record by Hon. DeFazio of Oregon...........................   181

                                APPENDIX

Questions from Hon. Henry C. ``Hank'' Johnson, Jr. for Daniel 
  Sperling.......................................................   185
Questions from Hon. Mark DeSaulnier for Daniel Sperling..........   185
Questions from Hon. Mark Meadows for Daniel Sperling.............   187
Question from Hon. Jesus G. ``Chuy'' Garcia for Vicki Arroyo.....   187
Question from Hon. Henry C. ``Hank'' Johnson, Jr. for Vicki 
  Arroyo.........................................................   188
Questions from Hon. Mark DeSaulnier for Vicki Arroyo.............   188
Questions from Hon. Mark Meadows for Vicki Arroyo................   192
Question from Hon. David Rouzer for Vicki Arroyo.................   193
Questions from Hon. Scott Perry for Vicki Arroyo.................   193
Questions from Hon. Rick Larsen for Thomas P. Lyon...............   198
Question from Hon. Henry C. ``Hank'' Johnson, Jr. for Thomas P. 
  Lyon...........................................................   199
Question from Hon. David Rouzer for Thomas P. Lyon...............   199
Question from Hon. Henry C. ``Hank'' Johnson, Jr. for Ben 
  Prochazka......................................................   200
Question from Hon. Lloyd Smucker for Ben Prochazka...............   201
Question from Hon. Henry C. ``Hank'' Johnson, Jr. for Nancy N. 
  Young..........................................................   201
Question from Hon. Garret Graves for Nancy N. Young..............   202
Question from Hon. Henry C. ``Hank'' Johnson, Jr. for Kevin 
  DeGood.........................................................   203
Questions from Hon. Scott Perry for Kevin DeGood.................   203
Question from Hon. Henry C. ``Hank'' Johnson, Jr. for James M. 
  Proctor II.....................................................   204
Question from Hon. David Rouzer for James M. Proctor II..........   205
Questions from Hon. Rick Larsen for Whitley Saumweber............   206
Question from Hon. Henry C. ``Hank'' Johnson, Jr. for Whitley 
  Saumweber......................................................   206
Question from Hon. Henry C. ``Hank'' Johnson, Jr. for Lynn 
  Scarlett.......................................................   207
Question from Hon. Debbie Mucarsel-Powell for Lynn Scarlett......   207

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           February 22, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Committee on Transportation and 
Infrastructure
    FROM:   Staff, Committee on Transportation and 
Infrastructure
    RE:       Full Committee Hearing on ``Examining How Federal 
Infrastructure Policy Could Help Mitigate and Adapt to Climate 
Change''

                                Purpose

    The Committee on Transportation and Infrastructure 
(Committee) will meet on Tuesday, February 26, 2019, at 10 a.m. 
in HVC-210, the Capitol Visitors Center, to receive testimony 
related to ``Examining How Federal Infrastructure Policy Could 
Help Mitigate and Adapt to Climate Change.'' The purpose of 
this hearing is to examine the role the transportation sector 
plays in global warming, understand the dual track approach of 
mitigation and resiliency, and learn from individuals in the 
public and private sectors whom have demonstrated pragmatic 
solutions for reducing carbon emissions and building resilient 
infrastructure.
    The first panel will focus on ways to mitigate the effects 
of climate change, by reducing carbon emissions to reduce the 
accumulation of greenhouse gases in the atmosphere. The 
Committee will hear from representatives of the California Air 
Resources Board, Georgetown Climate Center, Stephen M. Ross 
School of Business at the University of Michigan, 
Electrification Coalition, and Airlines for America. The second 
panel will address how to make infrastructure more resilient 
and protect people, infrastructure, and ecosystems from the 
impacts of climate change. The Committee will hear from 
representatives of the Center for American Progress, McWane 
Inc., Center for Strategic and International Studies, and The 
Nature Conservancy.

                               Background

    The United Nations Intergovernmental Panel on Climate 
Change (IPCC) estimates that human activities have caused 
approximately 1.0 +C of global warming above pre-industrial 
levels, and are likely to cause a 1.5 +C increase between 2030 
and 2052 if warming continues at the current rate.\1\ Impacts 
from global warming are already apparent.\2\ Unless we take 
action to quickly reverse course, these trends will persist for 
centuries and will continue to cause further long-term changes 
to the environment, such as sea level rise, changing 
precipitation patterns, more acidic oceans, and increasing 
frequency and intensity of extreme weather events.\3\
---------------------------------------------------------------------------
    \1\ Global warming of 1.5 +C: Summary for Policymakers. 
Intergovernmental Panel on Climate Change. October 2018.
    \2\ Ibid.
    \3\ Ibid.
---------------------------------------------------------------------------

                               Mitigation

THE U.S. TRANSPORTATION SECTOR'S CONTRIBUTION TO GLOBAL WARMING

    In 2017, the emissions from transportation accounted for 
about 28.7 percent of total U.S. greenhouse gas emissions, 
making it the largest contributor of U.S. greenhouse gas 
emissions.\4\ Historically, electricity generation has been the 
largest contributor to greenhouse gas emissions, but the 
replacement of many coal plants with cheaper natural gas and 
rising vehicle miles traveled (VMT) has recently pushed 
transportation into the forefront as the largest contributor.
    Within the U.S. transportation sector, passenger vehicles 
and freight trucks added together account for 83 percent of 
greenhouse gas emissions. Aviation contributes only 10 percent 
of emissions. Other modes such as rail and shipping play a 
minor role.\5\
---------------------------------------------------------------------------
    \4\ Inventory of U.S. Greenhouse Gas Emissions and Sinks: 1990-
2017. Environmental Protection Agency. February 2019. Table 2-10.
    \5\ Inventory of U.S. Greenhouse Gas Emissions and Sinks: 1990-
2017. Environmental Protection Agency. February 2019. Table 2-13.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


PASSENGER VEHICLES, LIGHT-DUTY VEHICLES, AND FREIGHT TRUCK MITIGATION

    There are three methods to reduce emissions from passenger 
vehicles and trucks, which combined account for 83 percent of 
greenhouse gas emissions, and a robust decline in emissions 
will require all three methods.
    1.   Improved Vehicle Efficiency--Reducing the amount of 
fuel necessary to move a vehicle will reduce greenhouse gas 
emissions. Traditionally, Congress has used CAFE standards to 
reduce fuel consumption and related carbon emissions, although 
the current Administration is considering changes to these 
standards with a final rule pending.\6\ CAFE standards are 
within the jurisdiction of the Energy and Commerce Committee.
---------------------------------------------------------------------------
    \6\ https://www.nhtsa.gov/corporate-average-fuel-economy/safe
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    2.  Switch to Fuel with Less Carbon: Shifting away from 
fossil fuels and toward electricity, fuel cells, biodiesel, and 
fossil fuels with less carbon content than gasoline or diesel 
can reduce emissions. In the current market place, 
electrification is viewed as the most plausible replacement for 
fossil fuel and has the lowest carbon profile.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    To find the impact of carbon reduction from switching to a 
hybrid or electric car in your State see this link: https://
afdc.energy.gov/vehicles/electric_emissions.html

    3.  Reduce Vehicle Miles Traveled. Reducing the number of 
miles driven will reduce carbon emissions. Providing incentives 
for more efficient travel planning, eliminating the need for 
some trips, and shifting to more efficient modes will reduce 
vehicle miles traveled.

AVIATION MITIGATION

    Aviation emissions come largely from commercial carrier jet 
fuel. According to the IPCC, aviation represents approximately 
2 to 3 percent of the total annual global CO2 emissions from 
human activities.\7\ While the United States does not currently 
have standards for aircraft emissions (generally or carbon 
dioxide specifically), the Federal Aviation Administration 
(FAA) supports several emission-reduction programs and the 
industry has taken on initiatives to reduce emissions.
---------------------------------------------------------------------------
    \7\ European Union Aviation Safety Agency, European Aviation 
Environmental Report 2019, available at https://www.easa.europa.eu/
eaer/system/files/usr_uploaded/219473_
EASA_EAER_2019_WEB_HI-RES.pdf; see also EPA's most recent final GHG 
inventory report, issued in April 2018, US commercial aviation is only 
2 percent of the nation's domestic GHG emissions inventory. EPA 
Inventory of U.S. Greenhouse Gas Emissions and Sinks: 1990-2016, 
available at: https://www.epa.gov/ghgemissions/inventory-us-greenhouse-
gas-emissions-and-sinks-1990-2016
---------------------------------------------------------------------------
    The International Civil Aviation Organization (ICAO), a 
specialized UN agency made up of 192 member states, is the 
primary international body for regulating global aviation 
standards. In 2016, ICAO reached an agreement on the (1) first 
international carbon dioxide standards for newly built aircraft 
and (2) first-of-its-kind carbon offsetting scheme known as the 
Carbon Offsetting and Reduction Scheme for International 
Aviation (CORSIA).\8\ CORSIA is an emissions offsetting program 
aimed at achieving carbon neutral growth after 2020 for 
operators that fly internationally and produce more than 10,000 
metric tons of annual carbon dioxide emissions. CORSIA has the 
support of the United States, U.S. airline industry, and 73 
other ICAO member nations representing 75.96 percent of the 
international aviation industry.\9\
---------------------------------------------------------------------------
    \8\ International Civil Agency Organization, ICAO Council Reaches 
Landmark Decision on Aviation Emissions Offsetting (June 27, 2018), 
available at https://www.icao.int/Newsroom/Pages/ICAO-Council-reaches-
landmark-decision-on-aviation-emissions-offsetting.aspx
    \9\ National Business Aviation Association, Carbon Offsetting and 
Reduction Scheme for International Aviation (CORSIA): Introduction & 
Expectations on the Submission of Emissions Monitoring Plan (Oct. 16, 
2018), available at https://nbaa.org/wp-content/uploads/events/
20181011_Overview-of-CORSIA-EMP_NBAA-BACE-2018.pdf
---------------------------------------------------------------------------

FAA EMISSION REDUCTION PROGRAMS AND INITIATIVES

    1.  CORSIA Implementation--To comply with the recent ICAO 
agreements, the FAA and the Environmental Protection Agency 
(EPA) are required to develop regulations regarding aircraft 
design standards, emissions data collection, and monitoring. In 
addition, the agencies are tasked with implementing the new 
carbon offsetting system for U.S aircraft operators. Unlike how 
the Clean Air Act sets standards for other modes, here, the EPA 
must consult with the FAA on developing any emissions standards 
for aircraft, giving the FAA a central role in creating and 
enforcing the new ICAO environmental standards.\10\
---------------------------------------------------------------------------
    \10\ See ICAO, supra note 10.
---------------------------------------------------------------------------
    2.  Continuous Lower Energy, Emissions and Noise (CLEEN) 
Program--The CLEEN program is a collaboration between the FAA 
and industry to drive the development of new aircraft and 
engine technologies that increase fuel efficiency, reduce 
emissions, decrease noise, and advance sustainable aviation 
fuels. During the first iteration of CLEEN, the FAA partnered 
with five companies and had a total investment value of more 
than $250 million by end of the original agreement in 2015.\11\ 
Through cost-sharing partnerships with industry, CLEEN projects 
developed technologies that reduce noise, emissions, and fuel 
burn. The second iteration, CLEEN II, currently has the FAA 
partnered with eight companies and is scheduled to continue 
through 2020.
---------------------------------------------------------------------------
    \11\ Federal Aviation Administration, Continuous Lower Energy, 
Emissions and Noise (CLEEN) Program (2018), available at https://
www.faa.gov/about/office_org/headquarters_offices/apl/research/
aircraft_technology/cleen/
---------------------------------------------------------------------------
    3.  Voluntary Airport Low Emissions (VALE) Program--Through 
participation in the Voluntary Airport Low Emissions (VALE) 
Program, airports can use Airport Improvement Program (AIP) 
funds and Passenger Facility Charge (PFC) revenue to finance 
low-emission vehicles, refueling and recharging stations, gate 
electrification, and other airport air quality improvements. 
Through September 2018, this program funded 105 projects at 51 
airports and is expected to reduce ozone emissions by 1,192 
tons per year over the next five years.\12\
---------------------------------------------------------------------------
    \12\ Federal Aviation Administration, Voluntary Aviation Lower 
Emissions Program (VALE) (2018), available at https://www.faa.gov/
airports/environmental/vale/
---------------------------------------------------------------------------
    4.  NextGen Implementation--The FAA continues to develop 
and implement NextGen technologies and procedures to modernize 
the air traffic control system. NextGen programs include 
Performance-Based Navigation procedures (GPS-satellite based 
flight paths) and Terminal Flight Data Manager (TFDM) 
deployment (a surface management solution), which will reduce 
aircraft fuel burn and create a more predictable and efficient 
flight and ground transportation system at airports.\13\ The 
TFDM system alone is expected to create 313 million gallons of 
fuel savings and reduce more than three million metric tons of 
carbon emissions over the life of the system.\14\
---------------------------------------------------------------------------
    \13\ United States. Cong. House. Committee on Transportation and 
Infrastructure. Subcommittee on Aviation. Hearing on Putting U.S. 
Aviation At Risk: The Impact of the Shutdown Feb. 13, 2019. 116th 
Congress 1st sess. p. 12 (Statement of Paul Rinaldi, President, 
National Air Traffic Controllers Association).
    \14\ Id.
---------------------------------------------------------------------------
    5.  Commercial Aviation Alternative Fuels Initiative 
(CAAFI)--CAAFI is a coalition of airlines, aircraft and engine 
manufacturers, energy producers, researchers, international 
participants, and U.S. government agencies working to promote 
alternative jet fuels for commercial aviation. CAAFI has led 
efforts in research and development, environmental assessment, 
fuel testing, and demonstration and commercialization of 
alternative aviation fuels. CAAFI efforts contributed to the 
creation of testing protocols and new alternative fuel 
specifications that have enabled approvals for aviation to use 
new fuels in commercial service. According to the FAA, this is 
helping to pave the way to large-scale production and use of 
these fuels. This leadership has also helped make aviation a 
major target market for the alternative fuels sector.\15\
---------------------------------------------------------------------------
    \15\ United States Aviation Greenhouse Gas Emissions Reduction 
Plan, submitted to ICAO, June 2015. Available at: https://www.icao.int/
environmental-protection/Lists/ActionPlan/Attachments/30/
UnitedStates_Action_Plan-2015.pdf
---------------------------------------------------------------------------

COMMERCIAL AVIATION

    U.S. airlines have increased fuel efficiency by more than 
125 percent between 1978 and 2017, and they have moved 28 
percent more passengers and cargo in 2016 than 2000, using 3 
percent less fuel.\16\ This reflects the industry's interest in 
maximizing fuel efficiency, largely attributed to the fact that 
fuel consistently ranks as their largest or second largest 
expense.\17\ Furthermore, the U.S. airline industry has 
committed to ICAO goals to increase fuel efficiency and reduce 
its environmental footprint. These goals include (1) achieving 
annual fuel efficiency improvement of 1.5 percent starting in 
2010, (2) achieving carbon neutral growth starting in 2020, and 
(3) reducing net carbon dioxide emissions by 50 percent over 
2005 levels by 2050.\18\
---------------------------------------------------------------------------
    \16\ Airlines for America, Policy Priority: Energy and the 
Environment (2018), available at http://airlines.org/policy-priorities-
learn-more/#energy
    \17\ See Victoria Bryan, Higher Wages, Fuel Prices Turn Up Cost 
Pressure on Airlines, Reuters, Feb. 14, 2018, available at https://
www.reuters.com/article/us-airlines-wages-inflation-analysis/higher-
wages-fuel-prices-turn-up-cost-pressure-on-airlines-idUSKCN1FY292
    \18\ Airlines for America, A4A's Climate Change Commitment, 
available at http://airlines.org/a4as-climate-change-commitment/
---------------------------------------------------------------------------
    To achieve these goals, airlines are investing in fleet 
design standards with greater fuel efficiency, prioritizing the 
adoption of NextGen technologies, and developing industry 
coalitions such as the CAAFI to promote and deploy sustainable 
aviation fuels within the commercial aviation industry.\19\
---------------------------------------------------------------------------
    \19\ CAAFI is a coalition of airlines, aircraft and engine 
manufacturers, energy producers, researchers, international 
participants and U.S. Government agencies working to promote 
alternative jet fuels for commercial aviation.
---------------------------------------------------------------------------

MARITIME MITIGATION

    The maritime industry is taking steps to mitigate its 
environmental impacts. Overall, the maritime industry is 
responsible for approximately 2.6 percent of global CO2 
emissions from fossil fuel uses.\20\ However, the industry is 
working to reduce those emissions through several means, 
including slow steaming, conversion to low sulfur fuels, and 
the implementation of mandatory emission reductions in 2020. 
There has been worldwide cooperation across the maritime 
industry to pursue that goal.
---------------------------------------------------------------------------
    \20\ The International Council on Clean Transportation, Greenhouse 
Gas Emissions From Global Shipping, 2013-2015 (October 2017).
---------------------------------------------------------------------------

                               Resiliency

    The impacts of climate change such as rising sea levels and 
extreme weather events can have a serious impact on our ports, 
airports, rail lines, roads, bridges, tunnels, locks, canals/
channels, waste water systems, transit systems, pipelines, 
public buildings, and other critical infrastructure. Climate 
trends affect the design of transportation infrastructure, 
which is expensive and designed for long life (typically 50 to 
100 years). As climatic conditions shift, portions of this 
infrastructure will increasingly be subject to climatic 
stresses that will reduce the reliability and capacity of 
transportation systems and other infrastructure.

HIGHWAYS

    Climate resiliency activities are eligible for Federal 
Highway Administration (FHWA) funding, including vulnerability 
assessments and design and construction of projects or features 
to protect assets from damage associated with climate change. 
The Moving Ahead for Progress in the 21st Century (MAP-21) Act 
(P.L. 112-141) required states to develop risk-based asset 
management plans for the National Highway System and to 
consider alternatives for facilities repeatedly needing repair 
or replacement with federal funding. The Fixing America's 
Surface Transportation (FAST) Act (P.L. 114-94) added a new 
requirement for states and metropolitan planning organizations 
consider projects and strategies to ``improve the resiliency 
and reliability of the transportation system and reduce or 
mitigate stormwater impacts of surface transportation'' as part 
of their planning process.

WATER RESOURCES

    The United States has over 95,000 miles of coastline and 
approximately 3.4 million square miles of ocean within its 
territorial sea. Some 53 percent of the total U.S. population 
lives on the 17 percent of the land in the coastal zone, and 
these areas become more crowded every year. Demands on coasts 
are increasing, and as coastal areas become more developed, 
these communities are vulnerable to hurricanes, storm surges, 
and flooding events.
    Similarly, inland communities are vulnerable to a changing 
climate, especially communities that rely on rivers and 
streams, and associated water resources infrastructure, for 
transportation, water supply, power, and flood protection. For 
example, in 2017, the U.S. Army Corps of Engineers Institute 
for Water Resources released a report on the impacts of climate 
change to the Ohio River Valley--home to more than 27 million 
people who live within this 204,000 square mile area.\21\ This 
report modeled how increasingly potent storms could cause 
increased river levels and the likelihood of flooding in low-
lying areas; how more frequent and heavy droughts could reduce 
river volumes in localized areas, adversely impacting 
navigation and power generation that all rely on river flows; 
and the possible economic losses from the potential events.
---------------------------------------------------------------------------
    \21\ U.S. Army Corps of Engineers and Ohio River Basin Alliance, 
Ohio River Basin--Formulating Climate Change Mitigation/Adaptation 
Strategies through Regional Collaboration with the ORB Alliance (May 
2017), available at https://www.lrh.usace.army.mil/Portals/38/docs/
orba/USACE%20Ohio%20River%20Basin%20CC%20Report_MAY%202017.pdf.
---------------------------------------------------------------------------

WATER RESILIENCY ACCOMPLISHMENTS

    Through the biennial Water Resources Development Acts, the 
Committee has taken initial steps to ensure that the impacts of 
climate change are taken into account in the planning, design, 
and construction of water resources development projects, such 
as flood risk reduction projects and hurricane and storm damage 
reduction projects, as well as to promote greater use of 
natural and nature-based infrastructure systems that seek to 
mimic nature's resiliency and reduce the effects of extreme 
weather events, and seek to develop integrated water resources 
projects that address multiple project purposes. Similarly, the 
Committee amended the Clean Water Act in the Water Resources 
Reform and Development Act of 2014 (P.L. 113-121) to make 
projects increase the resiliency of water-related 
infrastructure from the impacts of natural and man-made 
disasters, including extreme weather events and sea-level rise.

FEMA RESILIENCY ACCOMPLISHMENTS

    In 2017, Executive Order 13690--the Federal Flood Risk 
Management Standard (FFRMS), which amended the longstanding 
floodplain management Executive Order 11988, was repealed. In 
2018, Congress enacted language in the John S. McCain National 
Defense Authorization Act (NDAA) for Fiscal Year 2019 (P.L. 
115-232) to establish minimum flood mitigation requirements for 
all military construction within the 100-year floodplain.
    The FFRMS was developed with significant interagency 
coordination during the Obama Administration. It was intended 
to assist in reducing the risk and cost of future flood 
disasters by ensuring that Federal investments in and affecting 
floodplains were constructed to better withstand the impacts of 
flooding. The FY19 NDAA language (Sec. 2805(a)(4)) is a similar 
step toward resiliency--albeit limited to the Department of 
Defense--requiring construction of non-mission critical 
buildings to two feet above the base flood elevation (BFE) and 
construction of mission-critical buildings to three feet above 
the BFE.
    Congress advanced two additional provisions to incentivize 
greater resiliency for future projects receiving Federal 
funding via the Federal Emergency Management Agency (FEMA).
    First, in the Disaster Recovery Reform Act (DRRA) of 2018 
(P.L. 115-254), the Committee authorized the National Public 
Infrastructure Pre-Disaster Mitigation (PDM) fund which will be 
funded as a six percent set aside from disaster expenses. This 
will be a more consistent stream of funding for PDM, allowing 
for greater investment in public infrastructure mitigation 
before a disaster. Additionally, DRRA clarifies what may be 
eligible for mitigation funding, ensuring Federal investments 
are cost effective and reduce risk. Until enactment of DRRA, 
PDM grants were inadequately and inconsistently funded by 
annual and supplemental appropriations.
    Second, in the Bipartisan Budget Act (BBA) of 2018 (P.L. 
115-123), Congress authorized the President to adjust the 
Federal cost share for FEMA Public Assistance grants on a 
sliding scale for States and Tribes that have invested in 
measures that increase readiness for, and resilience from, a 
major disaster (Sec. 20606).

MARITIME RESILIENCY

    The U.S. Arctic, as defined in statute \22\, encompasses 
U.S. territory north of the Arctic Circle and along the Alaskan 
coast, including the Aleutian Islands. Three Arctic seas--the 
Bering, the Chukchi, and the Beaufort--border Alaska, and these 
seas have historically been frozen for more than half the year. 
The U.S. Arctic Exclusive Economic Zone contains 568,000 square 
nautical miles (SNM), of which less than half is considered by 
NOAA to be ``navigationally significant.'' The National Oceanic 
and Atmospheric Administration (NOAA) has designated 38,000 SNM 
of the navigationally significant areas as survey priority 
locations in the Arctic and estimates that it could take up to 
25 years to conduct modern hydrographic surveys in the priority 
locations, if resources remain at their current level.\23\
---------------------------------------------------------------------------
    \22\ The Arctic Research and Policy Act of 1984, as amended (Public 
Law 98-373).
    \23\ NOAA National Ocean Service, https://oceanservice.noaa.gov/
economy/arctic/, accessed February 19, 2019.
---------------------------------------------------------------------------
    Currently, most cargo ship traffic is not trans-Arctic; 
rather it is regional, focusing on the transport of natural 
resources and general cargo to and from widely dispersed 
communities. While there has been a recent increase in shipping 
activity, that increase is more related to a rise in commodity 
prices than with the melting of Arctic ice.\24\ However, the 
January 2019 Arctic sea ice extent was the sixth smallest in 
the 41-year record, six percent below the 1981-2010 
average.\25\ While all areas of the Arctic are seeing increased 
vessel activity, the Northern Sea Route along the Eurasian 
Arctic coast continues to account for the bulk of Arctic 
shipping activity.\26\
---------------------------------------------------------------------------
    \24\ Ronald O'Rourke, Congressional Research Service. Changes in 
the Arctic: Background and Issues for Congress. February 7, 2019.
    \25\  National Snow & Ice Data Center, https://nsidc.org/
arcticseaicenews/, accessed February 19, 2019.
    \26\ O'Rourke.
---------------------------------------------------------------------------
    Numerous governmental and academic reports have identified 
infrastructure and operational challenges to maritime 
transportation in the U.S. Arctic, including limited satellite 
coverage and architecture to support voice and data 
communications, the lack of a deep-draft port (accommodating 
ships with a draft of up to 35 feet), hazardous weather and ice 
conditions, and the lack of channel marking buoys and other 
floating visual aids to navigation, which are not possible due 
to continuously moving ice sheets.\27\ In order to ensure safe 
and efficient maritime transportation in the region, it is 
necessary to conduct surveys to improve nautical charts, 
improve communications capabilities, improve weather 
forecasting and modeling, construct a deep-draft U.S. Arctic 
port, and develop community and regional emergency response 
networks in preparation for vessel and aircraft accidents and 
environmental damage related to increased ship traffic and 
industry.
---------------------------------------------------------------------------
    \27\ Arctic Council (2009) Arctic Marine Shipping Assessment; U.S. 
White House (2013) National Strategy for the Arctic Region; U.S. 
Government Accountability Office (2014) Maritime Infrastructure: Key 
Issues Related to Commercial Activity in the U.S. Arctic over the Next 
Decade; Alaska Arctic Policy Commission (2015) Final Report; U.S. 
Committee on the Marine Transportation System (2016) A Ten-Year 
Prioritization of Infrastructure Needs in the U.S. Arctic; Council on 
Foreign Relations (2017) Arctic Imperatives, Reinforcing U.S. Strategy 
on America's Fourth Coast; Center for Strategic and International 
Studies (2017) Maritime Futures, the Arctic and the Bering Strait 
Region; Homeland Security Operational Analysis Center (2018) 
Identifying Potential Gaps in the U.S. Coast Guard Arctic Capabilities; 
U.S. Committee on the Marine Transportation System (2019) Revisiting 
Near-Term Recommendations to Prioritize Infrastructure Needs in the 
U.S. Arctic.
---------------------------------------------------------------------------
    While climate change is causing the Arctic to become an 
emergent area, it will not solely affect the polar regions. 
Rising sea level projections mean that port infrastructure at 
all latitudes could be at risk of inundation, higher storm 
surge, and loss of economic function costing hundreds of 
millions if not billions of dollars to mitigate threats or 
rebuild/relocate existing infrastructure.

                              Witness List

PANEL I

    <bullet>  Dr. Daniel Sperling, Board Member, California Air 
Resources Board
    <bullet>  Ms. Vicki Arroyo, Executive Director, Georgetown 
Climate Center
    <bullet>  Professor Thomas P. Lyon, Stephen M. Ross School 
of Business, University of Michigan
    <bullet>  Mr. Ben Prochazka, Vice President, 
Electrification Coalition
    <bullet>  Ms. Nancy Young, Vice President, Environmental 
Affairs, Airlines for America

PANEL II

    <bullet>  Mr. Kevin DeGood, Director, Infrastructure 
Policy, Center for American Progress
    <bullet>  Mr. James M. Proctor II, Senior Vice President 
and General Counsel, McWane, Inc.
    <bullet>  Dr. Whitley Saumweber, Director, Stephenson Ocean 
Security Project, Center for Strategic and International 
Studies
    <bullet>  Ms. Lynn Scarlett, Vice President, Policy and 
Government Affairs, The Nature Conservancy


  EXAMINING HOW FEDERAL INFRASTRUCTURE POLICY COULD HELP MITIGATE AND 
                        ADAPT TO CLIMATE CHANGE

                              ----------                              


                       TUESDAY, FEBRUARY 26, 2019

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Salud O. Carbajal 
(Vice Chairman of the committee) presiding.
    Mr. Carbajal. The committee will come to order. I ask 
unanimous consent that the Chair be authorized to declare 
recess during today's hearing.
    Without objection, so ordered.
    Welcome, everyone. Unfortunately, due to an unusually heavy 
snow storm in Oregon, the chairman remains stuck and is unable 
to attend today's hearing.
    This is the latest evidence, many will say, that climate 
change increases extreme weather events, and those events 
negatively affect our transportation system. Today I will 
deliver the following remarks on behalf of Chairman DeFazio.
    Today we bring the full committee together for our second 
hearing of the year, to examine how Federal infrastructure 
policy could help mitigate and adapt to climate change. The 
Transportation and Infrastructure Committee has traditionally 
worked in a bipartisan manner. We don't always agree, but we do 
always strive to find common ground.
    Today we tackle a topic that has divided Congress for a 
long time. I urge every member of this committee to approach 
today's hearing with an open mind and a willingness to listen 
and learn, and to respectfully engage with each other and 
today's panel.
    The transportation sector is now the largest contributor to 
global warming. Within the transportation sector, passengers 
and freight vehicles contribute 83 percent of the global 
warming emissions. I intend to respond appropriately to this 
challenge as we move legislation and direct investment to 
transportation activities this Congress.
    I suspect many on both sides of the aisle will want to spar 
over the Green New Deal. While proponents tout it as critical 
to avoiding a climate crisis, others have called it a plan that 
will undermine our economy and way of life. It is difficult to 
reconcile these two portrayals, but it is not what we are here 
to do today. If you want to debate the underlying arguments or 
ideas of the Green New Deal, this is not the venue.
    The authors of the Green New Deal set an ambitious goal, 
one which I support, but their plan encompasses issues far 
beyond the jurisdiction of this committee. In fact, it was 
referred to 11 committees, and the resolution provides no 
details. Rather than debate this resolution, our job is to find 
pragmatic approaches to address the challenges of our changing 
climate.
    I believe our best chance of mitigating further damage and 
creating sustainable, resilient infrastructure is to look for 
areas of common ground.
    Many would be surprised to learn that my district is not so 
different from our ranking member's district. His district is 
the 40th largest district in the Nation at 18,198 square miles. 
My district is the 41st largest district in the Nation at 
17,274 square miles. We both have population areas. The ranking 
member has the northern suburbs of Kansas City, while I have 
two university towns. Moreover, we both have large rural 
constituencies who make an honest living in agriculture, in Mr. 
Graves's district, and in timber, fishing, and agriculture in 
my district.
    Ranking Member Graves and I represent similar people, 
facing similar struggles, and worrying about similar things, 
some in the rural areas and some in more urban areas. We owe it 
to our constituents to be pragmatic, thoughtful, and 
deliberate.
    Also on this committee are members with vastly different 
districts. Mr. Espaillat's district, parts of Manhattan and the 
Bronx, is so small and dense that one can stroll from one side 
of the district to the other with a leisurely walk. On the 
other side of the spectrum, it takes a lengthy plane ride to 
get across Mr. Young's vast district.
    Today I want the witnesses to offer pragmatic, yet 
effective, solutions to climate change that reflect these 
differences and that will inform the committee's efforts to 
mitigate carbon emissions and provide for resilient 
infrastructure in different disparate districts.
    Despite the differences among Member districts, our 
constituents rely on airports, bridges, drinking water, 
highways, ports, public buildings, rail, transit, tunnels, and 
wastewater systems. Protecting critical infrastructure unites 
us, and firmly within this committee's jurisdiction. I want to 
be proactive, working with all Members to address this 
challenge.
    I would also ask that Members give thoughtful consideration 
to the options presented today, and look for areas of future 
opportunity. For example, many of today's witnesses will 
support electrification of passenger and freight vehicles 
because of the overwhelming contribution to global warming 
emissions by today's fleet.
    Some Members may be tempted to blast away at this idea, 
raising concerns about the economic consequences. Before they 
do, they should know that over four-fifths of battery electric 
vehicles and nearly two-thirds of plug-in hybrid electric 
vehicles are assembled in the United States. I think we can all 
agree we should support more domestic manufacturing.
    So let's get down to business. If you want to do the hard, 
messy work of legislating to reduce carbon emissions from 
transportation, and build resilient infrastructure in an effort 
to tackle global warming, I look forward to working with you. I 
welcome our witnesses who are here to inform us of pragmatic, 
but effective, strategic strategies this committee can take.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
 Statement of Hon. Peter A. DeFazio, a Representative in Congress from 
    the State of Oregon, and Chair, Committee on Transportation and 
                             Infrastructure
    The following are opening remarks as prepared for delivery by 
committee Vice Chair Salud O. Carbajal, on behalf of Chair Peter A. 
DeFazio, who was unable to attend today's hearing due to a snowstorm in 
Oregon.
    Welcome. Unfortunately, due to an unusually heavy snowstorm in 
Oregon, the chairman remains stuck there and is unable attend today's 
hearing. This is the latest evidence that climate change increases 
extreme weather events and those events negatively affect our 
transportation system. I will deliver the following remarks on behalf 
of the chairman.
    Today we bring the full committee together for our second hearing 
of the year, to examine how Federal infrastructure policy could help 
mitigate and adapt to climate change. The Transportation and 
Infrastructure Committee has traditionally worked in a bipartisan 
manner--we don't always agree, but we do always strive to find a common 
ground. Today, we tackle a topic that has divided Congress for a long 
time. I urge every member of this committee to approach today's hearing 
with an open mind and a willingness to listen and learn, and to 
respectfully engage with each other and today's panel.
    The transportation sector is now the largest contributor to global 
warming in the U.S. Within the transportation sector, passenger and 
freight vehicles contribute 83 percent of global warming emissions. I 
intend to respond appropriately to this challenge as we move 
legislation and direct investment to transportation activities this 
Congress.
    I suspect many Members on both sides of the aisle will want to spar 
over the Green New Deal. While proponents tout it as critical to 
avoiding a climate crisis, others have called it a plan that will 
undermine our economy and way of life. It is difficult to reconcile 
these two portrayals, but that is not what we are here to do today.
    If you want to debate the underlying arguments or ideas of the 
Green New Deal, this is not the venue. The authors of the Green New 
Deal set an ambitious goal, one which I support, but their plan 
encompasses issues far beyond the jurisdiction of this committee, in 
fact it was referred to eleven committees, and the resolution provides 
no details. Rather than debate this resolution, our job to is find 
pragmatic approaches to addresses the challenges of our changing 
climate.
    I believe our best chance of mitigating further damage and creating 
sustainable, resilient infrastructure is to look for areas of common 
ground. Many would be surprised to learn that my district is not so 
different from the ranking member's district. His district is the 40th 
largest district in the nation at 18,198 square miles. My district is 
the 41st largest district in the nation at 17,274 square miles.
    We both have populous areas, the ranking member has the northern 
suburbs of Kansas City, while I have two university towns. Moreover, we 
both have large rural constituencies who make an honest living--in 
agriculture in Mr. Graves's district--and timber, fishing, and 
agriculture in my district.
    Ranking Member Graves and I represent similar people, facing 
similar struggles, and worrying about similar things, some in rural 
areas and some in more urban areas. We owe it to our constituents to be 
pragmatic, thoughtful, and deliberate.
    Also on this committee are members with vastly different districts. 
Mr. Espaillat's district, parts of Manhattan and the Bronx, is so small 
and dense that one can stroll from one side of the district to the 
other with a leisurely walk. On the other side of the spectrum, it 
takes a lengthy plane ride to get across Mr. Young's vast district.
    Today, I want the witnesses to offer pragmatic, yet effective, 
solutions to climate change that reflect these differences and that 
will inform the committee's efforts to mitigate carbon emissions and 
provide for resilient infrastructure in disparate districts.
    Despite the differences among Member districts, our constituents 
rely on airports, bridges, drinking water, highways, ports, public 
buildings, rail, transit, tunnels, and wastewater systems. Protecting 
critical infrastructure unites us, and is firmly within this 
committee's jurisdiction. I want to be proactive, working with all 
Members to address this challenge.
    I would also ask that Members give thoughtful consideration to the 
options presented today, and look for areas of future opportunity. For 
example, many of today's witnesses will support electrification of 
passenger and freight vehicles because of the overwhelming contribution 
to global warming emissions by today's fleets.
    Some Members may be tempted to blast away at this idea, raising 
concerns about the economic consequences. Before they do, they should 
know that over four-fifths of battery electric vehicles and nearly two-
thirds of plug-in hybrid electric vehicles are assembled in the United 
States. I think we can all agree we should support more domestic 
manufacturing.
    So let's get down to business. If you want to do the hard, messy 
work of legislating to reduce carbon emissions from transportation and 
build resilient infrastructure in an effort to tackle global warming, I 
look forward to working with you. I welcome our witnesses who are here 
to inform us of pragmatic, but effective, strategies this committee can 
take.

    Mr. Carbajal. I will now turn it over to Ranking Member 
Graves.
    Mr. Graves of Missouri. Thank you, Mr. Chairman. I think we 
can all agree that we want clean air and clean water for our 
communities, and we have to be prepared for the challenges that 
are posed by a sometimes harsh environment.
    And as a farmer myself, I know that the environment is 
important for both quality of life, and it is obviously 
important for the economy. And I also know we need to work 
together to find solutions that actually work.
    We don't have to live in a fairy tale. And that is where 
ideas like the Green New Deal come from. There is no other way 
to describe this idea to completely make over our 
transportation network.
    Who actually believes that we can make aviation unnecessary 
by building some vast high-speed rail system? Because right 
here in the real world, the poster child, obviously, for high-
speed rail in California has simply run off the tracks right 
before our eyes. And by the way, this massive shift would put 
11 million people in the aviation sector out of jobs, or out of 
work.
    There are some real consequences of pursuing the goals of 
this fantasy proposal. And that is just one example of the 
Green New Deal goals and the trillions of dollars it would 
likely cost.
    Infrastructure is an issue that we can find common ground 
and bipartisan agreement on, with real-world solutions. In 
recent years, we have passed some really good bipartisan 
infrastructure legislation that has addressed environmental 
issues.
    For instance, the FAA reauthorization, among other things, 
established the FAA industry partnership for developing low-
energy and low-emission technologies. The Disaster Recovery Act 
focused on making our communities more resilient to disasters. 
And we passed three Water Resources Development Acts that 
address ecosystem restoration, flood risk reduction, and storm 
risk reduction projects.
    Instead of taking the Government-knows-all or one-size-
fits-all approach, these laws provide the State, local, and 
private-sector partners with the tools and flexibility to 
address their needs and to innovate.
    In fact, it is the private sector that is responding to 
industry-driven and consumer-driven market demands for cleaner 
energy and cleaner technology. As a result, we continue to have 
more fuel-efficient cars, trains, trucks, aircraft, and to 
develop cleaner alternative fuels.
    The airline industry, represented here today, is making 
considerable progress in reducing emissions, and I look forward 
to hearing more about their efforts.
    The freight rail industry is making progress, implementing 
technologies to limit greenhouse gases, increase fuel 
efficiency, and reduce their carbon footprint.
    At the Federal level we need to ensure that our partners 
have the ability to keep innovating. We don't need sweeping 
mandates that ignore economic reality and differing needs 
within our communities. And that heavy-handed approach, which 
is envisioned in the Green New Deal, just simply doesn't work, 
and it just drives entire industries and communities right into 
the very earth that we are trying to protect.
    Today I hope our panelists are going to talk about real, 
practical, and bipartisan solutions within this committee's 
jurisdiction which will build the infrastructure, and improve 
and respond to our environment.
    [Mr. Graves's prepared statement follows:]

                                 
  Statement of Hon. Sam Graves, a Representative in Congress from the 
State of Missouri, and Ranking Member, Committee on Transportation and 
                             Infrastructure
    We can all agree that we want clean air and clean water for our 
communities, and that we have to be prepared for the challenges posed 
by a sometimes harsh environment.
    As a farmer, I know that the environment is important to both 
quality of life and the economy.
    I also know that we need to work together to find solutions that 
actually work.
    We don't live in a fairy tale. That's where ideas like the Green 
New Deal come from. There's no other way to describe this idea to 
completely make over our transportation network.
    Who actually believes that we can make aviation ``unnecessary'' by 
building some vast high-speed rail system? Because here in the real 
world, the poster child for high-speed rail in California has run off 
the rails right before our eyes. And by the way, this massive shift 
would put 11 million people with aviation-related jobs out of work. 
Those are some of the real consequences of pursuing the goals of this 
fantasy proposal.
    That's just one example of the Green New Deal's goals and the 
trillions of dollars it would likely cost.
    Infrastructure is an issue where we can find common ground and 
bipartisan agreement on ``real world solutions.''
    In recent years, we passed good bipartisan infrastructure 
legislation that addressed environmental issues.
    For instance, the FAA bill, among other things, establishes an FAA-
industry partnership for developing low-energy and low-emission 
technologies. The Disaster Recovery Reform Act focuses on making our 
communities more resilient to disasters. And we passed three Water 
Resources Development Acts that address ecosystem restoration, flood 
risk reduction, and storm risk reduction projects.
    Instead of taking the ``government-knows-best,'' ``one-size-fits-
all'' approach, these laws provide our State, local, and private sector 
partners with the tools and flexibility to address their needs and to 
innovate.
    The fact is that the private sector is responding to industry-
driven and consumer-driven market demands for cleaner energy and 
cleaner technology. As a result, we continue to have more fuel-
efficient car, truck, train, and aircraft engines, and to develop 
cleaner alternative fuels.
    The airline industry, represented here today, is making 
considerable progress in reducing emissions, and I look forward to 
hearing more about their efforts.
    The freight rail industry is also making progress, implementing 
technologies to limit greenhouse gases, increase fuel efficiency, and 
reduce its carbon footprint.
    At the Federal level, we need to ensure that our partners have the 
ability to keep innovating.
    We don't need sweeping mandates that ignore economic reality and 
the differing needs of our communities.
    That heavy-handed approach, envisioned by the Green New Deal, 
doesn't work. It just drives entire industries and communities right 
into the very earth we're all trying to protect.
    Today, I hope our panels can talk about real, practical, and 
bipartisan solutions--within the Committee's jurisdiction--for building 
infrastructure, and improving and responding to our environment.

    Mr. Graves of Missouri. And with that, I look forward to 
hearing from all of our witnesses, and I would yield back.
    Mr. Carbajal. Thank you, Representative Graves. I would 
like now to welcome the witnesses on our first panel. We first 
have Dr. Daniel Sperling, board member, California Air 
Resources Board; Ms. Vicki Arroyo, executive director, 
Georgetown Climate Center; Professor Thomas P. Lyon, with the 
Stephen M. Ross School of Business, University of Michigan; Mr. 
Ben Prochazka, vice president, Electrification Coalition; and 
Ms. Nancy Young, vice president, environmental affairs, 
Airlines for America.
    Thank you to each of you for being here today, and I look 
forward to your testimony.
    Without objection, our witnesses' full statements will be 
included in the record.
    Since your written testimony has been made part of the 
record, the committee would request that you limit your oral 
testimony to 5 minutes each.
    With that, Dr. Sperling, you may proceed.

  TESTIMONY OF DANIEL SPERLING, BOARD MEMBER, CALIFORNIA AIR 
 RESOURCES BOARD; VICKI ARROYO, EXECUTIVE DIRECTOR, GEORGETOWN 
  CLIMATE CENTER; THOMAS P. LYON, PROFESSOR, STEPHEN M. ROSS 
SCHOOL OF BUSINESS, UNIVERSITY OF MICHIGAN; BEN PROCHAZKA, VICE 
PRESIDENT, ELECTRIFICATION COALITION; AND NANCY N. YOUNG, VICE 
     PRESIDENT, ENVIRONMENTAL AFFAIRS, AIRLINES FOR AMERICA

    Mr. Sperling. Good morning, distinguished members of the 
committee. Thank you for the opportunity to speak today. My 
name is Dan Sperling. I am a professor of engineering and 
environmental science and policy and founding director of the 
Institute of Transportation Studies at the University of 
California, Davis. I am also a board member for the California 
Air Resources Board, holding the transportation seat for the 
past 12 years, first appointed by Governor Schwarzenegger.
    I am here to share experiences from California, and my 
insights from over 30 years studying the transportation system 
of this country. Let me frame the challenges before us.
    The number-one priority for California, like the rest of 
America, is to maintain and repair our deteriorating road 
infrastructure. That is widely accepted. The point of my 
testimony, however, is to address the additional goal of 
aligning transportation spending with environmental goals, as 
well as with social goals.
    First, we need to acknowledge that our transportation 
system is failing. Not only are our roads deteriorating, but 
congestion, traffic deaths, transit ridership, and greenhouse 
gases are all worsening. And many people are marginalized with 
poor access to jobs, health, and education. We can fix this. We 
have a once-in-a-lifetime opportunity to do so, thanks to the 
waves of transformational innovations starting to sweep through 
transportation.
    I refer to these innovations as the three transportation 
revolutions: electrification, shared mobility, and automation. 
The challenge is to refocus and restructure how we fund and 
manage our transportation system, such that we direct these 
many innovations toward the public interest.
    The State and Federal DOTs were called upon in the 20th 
century to build and operate a massive new highway and rail 
transit system. They were amazingly successful with this 
engineering mission. But the organizational culture that was 
created, and the set of rules and formulas that were put in 
place are now outdated and, frankly, have been for some time.
    As we approach reauthorization of the FAST Act, we need a 
paradigm shift in how we address transportation. It means 
focusing on new formulas and performance standards to stimulate 
innovation, expand the mission of our transportation 
institutions, and knock down silos within transportation.
    Back to California. We have made extraordinary progress in 
some ways. We instituted the most successful cap and trade 
program in the world, an effective low-carbon fuel standard, 
and a variety of requirements for electrification of cars and 
buses. Together these initiatives continue to fund many 
billions of dollars in electric cars, trucks, buses, as well as 
charging stations and hydrogen stations, and much more. I 
provide a description of these many programs in my written 
testimony.
    We have been less successful in addressing vehicle use, 
both passenger and freight. We are now shifting our programs 
and incentives in California to fix this shortcoming. I would 
characterize California's evolving strategy on vehicle use as 
fourfold.
    One, encourage more mobility and accessibility. That means 
more passenger miles traveled, but at the same time reducing 
vehicle use, vehicle miles traveled.
    Number two is create more choice for travelers, and that 
means electric scooters, bikes, pooled services by Lyft, Uber, 
Via, and others, car sharing, and much more.
    Number three is increase investment in protected lanes in 
infrastructure for these scooters and bikes.
    And number four is to electrify all passenger vehicles and 
passenger services, as well as most of the freight vehicles, as 
well.
    In conclusion, transportation is in desperate need of a 
fix. Fortunately, innovation is sprouting everywhere in 
transportation. In a major way, for the first time in half a 
century, California is pioneering some initiatives, but so are 
many others. Much more can be done, especially in urban areas, 
but also in rural areas, as well. Our top priority should be to 
reform Federal and State policies to incentivize change to 
encourage innovation to flourish.
    Thank you very much.
    [Mr. Sperling's prepared statement follows:]

                              
  Prepared Statement of Daniel Sperling, Board Member, California Air 
                            Resources Board
    Good morning Mr. Chairman and distinguished members of the 
committee. Thank you for the opportunity to testify today.
    My name is Daniel Sperling. I hold two different positions: (1) 
Distinguished Professor of engineering and environmental science and 
policy and founding Director of the Institute of Transportation Studies 
at the University of California, Davis; and (2) Board member for the 
California Air Resources Board, holding the transportation seat (first 
appointed by Governor Arnold Schwarzenegger in February 2007). CARB, as 
we call it, is the agency in California principally responsible for 
administering its climate policies.
    I am here to share thoughts on what California is doing to reduce 
greenhouse gas emissions from transportation, what we have learned, and 
what the Federal Government might do, with a focus on new approaches to 
funding and incentives. The opportunity exists for the first time in 
half a century to create a truly sustainable transportation--
economically, environmentally and socially.
California has been a pioneer in reducing greenhouse gas emissions 
        while improving the economy and the mobility and accessibility 
        of its residents . . .
    California is home to some of the world's strongest environmental 
protections, while growing to become the fifth largest economy in the 
world. California policies have created markets for energy efficiency, 
energy storage, low carbon fuels, renewable power and zero-emission 
vehicles. California is home to nearly half of the zero-emission 
vehicles in the U.S., 40 percent of North American clean fuels 
investments, the world's best known electric car manufacturer, and the 
world's leading ride-sharing services.
    California has demonstrated that one can invest in clean energy, 
efficient buildings and sustainable transportation, to gain a healthy 
environment while also growing the economy. Since 2010, California's 
economy, per-capita income and the size of the private workforce have 
all grown significantly faster than the national average, while at the 
same time reducing its carbon emissions back to the level they were at 
in 1990.
    California is not an island--an especially important understanding 
in crafting solutions to climate change, a global problem. With ports, 
industries, water supplies, wild fires, and many communities all 
vulnerable to climate change, California aims to be a leader and model.
    California's strategy is to employ a suite of policy approaches, 
combining carbon pricing with other complementary programs, including 
market-based compliance mechanisms, performance standards, technology 
requirements, and incentives.
    A large variety of approaches are needed to grow the economy, solve 
environmental problems, and adapt to climate change. We have learned 
over the past decade that climate change is happening more quickly and 
with greater impact than we imagined, and that we need to pay special 
attention to transportation. What we see in California is that, despite 
the rapidly growing number of low and zero emissions vehicles, 
emissions are stubbornly rising.
The important role of transportation and its link to land use. . . .
    California's transportation system underpins its economy. The 
extensive freight system moves trillions of dollars of goods each year 
and supports nearly one-third of the State economy and more than 5 
million jobs.
    Transportation is also the largest source of GHG, criteria, and 
toxic diesel particulate matter emissions in the State (mobile sources 
account for almost 50 percent of greenhouse gas emissions in 
California, 85 percent of nitrogen oxides, and 90 percent of diesel 
particulate matter). This is not unique to California.
    Where and how population grows will also have implications for 
traffic congestion, demand for new infrastructure (including roads, 
transit, and active transportation infrastructure), and demand for 
maintenance and upkeep of existing infrastructure. Historic patterns of 
growth continue to shape the country. While California has grown to be 
the fifth largest economy in the world, with world-class cities and 
thriving communities, many residents have no choice but to spend 
significant time and money driving from place to place.
    The way we grow imposes and often reinforces long-standing racial 
and economic injustices by placing a disproportionate burden on low-
income residents, who end up paying the highest proportion of their 
wages for housing and commuting. These residents also often live in 
communities with the most health impacts from lack of active 
transportation infrastructure and transportation pollution. Communities 
are at the heart of California's efforts to address climate change: 
urban and rural ones, and big and small ones. We cannot meet our goals 
without re-envisioning the way we plan and build them.
Innovative California initiatives in place . . .
    I'd like to present a sampling of major California initiatives to 
reduce transportation greenhouse gas emissions, which also bolster the 
economy, enhance public health, revitalize disadvantaged communities, 
improve mobility, and strengthen resilience to disasters and changing 
climate, are often the same strategies that reduce transportation 
sector GHG emissions.
    <bullet>  California's Sustainable Communities Program, SB 375, is 
a law that sets targets for metropolitan areas to reduce greenhouse gas 
emissions from passenger transportation. The law has been highly 
successful at motivating leaders and community groups to reframe how to 
align transportation and environmental strategies and investments--
truly a paradigm shift for the transportation community. What we 
learned, though, is that strong carrots and perhaps some sticks are 
needed to go the next step of accomplishing actual change at the local 
level.
        <bullet>  One example of going the next step: a variety of 
        policy and funding processes are being explored to infuse 
        environmental criteria more deeply into transportation funding 
        decisions.
        <bullet>  As we continue to develop new approaches to 
        transportation planning, it is important that we continue to 
        measure and assess what we have. The transportation system is 
        rapidly changing, so it's important that we have up-to-date 
        data to inform our decisions
    <bullet>  California is investing in infrastructure that supports a 
suite of low-carbon transportation choices.
        <bullet>  The Low Carbon Fuel Standard is structured to 
        incentivize the supply of transportation fuels that are lower 
        emitting and supports zero-emissions technology. For example, 
        zero emissions technology use is credited to the low carbon 
        fuel supplier, such as the electric utility or transit agency. 
        Those credits are valued at over $0.10 per kWh; they are used 
        to fund electric vehicle charging and hydrogen fuel stations, 
        and are expected to be converted into rebates to electric 
        vehicle buyers (estimated to be about $2000 per vehicle).
        <bullet>  The California Energy Commission has committed $276 
        million for charging infrastructure and $141 million for 
        hydrogen stations, to be fully spent within about 3 years.
        <bullet>  Funding from the Volkswagen settlement, $1.2 billion, 
        is being made available in California over 10 years mostly for 
        electric vehicle charging stations, electric transit and school 
        buses, electric trucks, electric forklifts and other equipment 
        at ports, electric airport ground support equipment, electric 
        ferries and tug boats, and low NOx combustion engine trucks, 
        locomotives, and ships.
    <bullet>  Proceeds from California's Carbon Cap and Trade program 
are used for investments and incentives to reduce emissions from 
transportation. Of $9.4 billion available for public spending since 
2012, more than $7 billion is being used to reduce GHG emissions from 
transportation, through a variety of programs. These include incentives 
and funding for clean cars, buses, and trucks, and off-road vehicles, 
high speed rail, active transportation, and more. Innovative efforts 
include linking affordable housing, transit, bike paths, car sharing, 
and urban greenery.
    <bullet>  Recent increases in California's gasoline/diesel tax 
(SB1) provides billions of transportation dollars to support 
California's air pollution, climate and public health priorities.
        <bullet>  Over $800 million is allocated to active 
        transportation, Sustainable Communities planning grants, 
        transit and rail investments, and a new Congested Corridors 
        program.
        <bullet>  ``The Solutions for Congested Corridors'' program 
        provides competitive funding based on performance measures tied 
        to funding. The program requires that regions have an adopted 
        Sustainable Communities Strategy (based on SB375) as part of 
        their Regional Transportation Plan (RTP). Project applications 
        are scored and selected based on metrics for accessibility, 
        economic development, job creation and retention, air pollution 
        and greenhouse gas emission reductions; and efficient land use.
Looking to the future, we need to rethink how transportation dollars 
        are spent . . .
    <bullet>  In California alone over $1.1 trillion will be spent on 
transportation infrastructure over the life of current transportation 
plans--yet these spending plans often do not reflect key sustainability 
goals. Federal and State governments, including California, need to 
update transportation funding to better align projects with health, 
equity, economic, and environmental priorities.
        <bullet>  In California 24 counties have passed local 
        transportation sales tax measures, which comprise a significant 
        portion of many regions' transportation funds. These measure 
        often list specific projects, locking them in for years or 
        decades. Often, these measure do not fully fund their listed 
        projects, with the result that they go on to capture a region's 
        otherwise-flexible State and Federal funds. While some of these 
        projects or measures have been remarkably supportive of 
        sustainability goals, others are not.
    <bullet>  Fiscally sustainable and equitable methods for funding 
the transportation system are needed; they should be designed and 
adopted in a manner that aligns transportation goals with environmental 
and health goals. This alignment can be achieved through project 
performance criteria, funding formulas that account for environmental 
outcomes, and road user charges that account for congestion and 
environmental externalities.
    <bullet>  Funding programs could be created to fund pilot tests of 
strategies for improving transportation efficiency, such as shuttles, 
enhanced transit service, pooling facilitated by ride-hailing, 
protected bike lanes, and bike- and scooter-sharing, possibly to make 
travel easier in key zones that are currently highly congested, such as 
urban downtowns.
Looking to the future, we also need to use policy to direct new 
        mobility services toward the public interest . . .
    New mobility options offer an extraordinary opportunity to improve 
accessibility to jobs, school, health and more. Outside dense core 
cities, public transit is not efficient and does not serve many people 
well. An important goal is to improve mobility and accessibility for 
everyone--but to do so in a way that reduces vehicle miles traveled. It 
is possible and desirable--but only if the right policies are put in 
place. If we don't intervene, the likely outcome is higher costs for 
travelers and infrastructure, greater environmental impacts, and 
reduced accessibility and mobility by the most disadvantaged segments 
of our population. California is just beginning to pursue policies that 
direct these many new services, technologies, and business models 
(including demand-responsive ride-hailing companies, micro-transit vans 
and small buses, and micro-mobility options such as dockless scooters 
and bikes) toward the public interest. These initiatives include:
    <bullet>  Regulations to accelerate the use of electric vehicles 
and passenger ``pooling'' by Lyft, Uber, and other ``transportation 
network companies'' are being adopted in response to a new law, SB 1014 
(2018)--the Clean Miles Standard and Incentive Program--which calls for 
innovative ways to curb greenhouse gas emissions. This new program will 
be aligned with future changes to the Advanced Clean Cars automaker 
regulations, as well as the SB 375 program--the Sustainable Communities 
and Climate Protection Act (which requires regional GHG reductions from 
passenger transportation).
    <bullet>  Pilot testing of innovative ideas and services to speed 
the adoption of clean, efficient transportation solutions. Promote the 
use of pilot projects that bring together innovators, technical 
experts, community members, and decisionmaking partners to find 
creative solutions for accelerating a change in travel choices away 
from single-occupancy vehicles while improving accessibility and access 
to opportunity, particularly for low-income communities.
        <bullet>  In our capital city of Sacramento, the regional 
        metropolitan planning organization, SACOG, is developing a 
        ``Green Means Go'' pilot program that incentivizes and 
        accelerates infill development, reduces vehicle miles traveled, 
        and increases electric vehicle use within designated ``Green 
        Zones'' or opportunity areas. Green Zones complement SACOG's 
        Civic Lab pilot program, which focuses on targeted innovative 
        transportation solutions and new ideas that can be scaled up 
        throughout the region.
    <bullet>  Emerging public private partnerships are also helping to 
pave the way, and incentive funding to explore innovative solutions are 
key,
        <bullet>  For example, the Car-Free Living Program is a first-
        of-its-kind partnership that encourages residents to use public 
        transportation and ride share, providing a more affordable 
        alternative to car ownership. The real estate developer is 
        enthusiastic because they do not provide as much (expensive) 
        parking garage spaces. New residents who participate in the 
        Car-Free Living Program receive a $100 monthly transportation 
        credit per apartment to use with Getaround, Clipper card 
        (transit fare card in the San Francisco Bay Area), and Uber. 
        Any resident can also catch a ride in an UberPool from 
        Parkmerced to nearby public transit stations for a flat rate of 
        $5.
In conclusion . . .
    Transportation is in need of a fix, not just because of greenhouse 
gas emissions, but also because of degrading road infrastructure, 
worsening traffic congestion, declining transit ridership, and large 
numbers of people with poor access to jobs, health, and education.
    Transportation is also an opportunity. Innovation is everywhere. 
California is pioneering some initiatives, as are others. But much more 
can be done. Reforming Federal and State policies to encourage 
innovation and incentivize change should be a top priority. Funding 
should be used to support initiatives that promote environmental, 
social, and economic goals.
    Thank you and I look forward to answering any questions you might 
have.

    Mr. Carbajal. Thank you, Dr. Sperling.
    Ms. Arroyo, you may proceed.
    Ms. Arroyo. Good morning, Mr. Chairman, Ranking Member, and 
committee members. Thank you for the opportunity to share what 
States and cities are doing to promote clean and resilient 
transportation. I am Vicki Arroyo, executive director of the 
Georgetown Climate Center, and professor from practice at 
Georgetown Law.
    I also currently chair the Executive Committee of the 
Transportation Research Board of the National Academies, and 
recently chaired TRB's Task Force on Resilience and 
Sustainability. My comments are my own.
    As the Fourth National Climate Assessment makes clear, the 
U.S. is experiencing serious impacts of climate change. There 
is an urgent need to transition to a low-carbon transportation 
system, not only to fight climate change, but to protect public 
health, provide mobility options, and catalyze economic growth 
and investment.
    States and cities are working to make this transition 
happen by promoting adoption of cleaner vehicles and fuels, 
improving public transportation, and enacting pathways to fund 
clean transportation innovation: just a few examples.
    California is investing in transit electric vehicles and 
clean buses, and requiring investment in disadvantaged and 
underserved communities using funds from their State cap and 
trade program that covers transportation fuels. Oregon law 
makers are working to adopt a similar program.
    Twelve States from New England through the mid-Atlantic 
plus DC participate in the Transportation and Climate 
Initiative, or TCI, which our center facilitates. Ten TCI 
jurisdictions recently announced a bipartisan agreement to 
design a regional low-carbon transportation policy proposal 
that would cap and reduce carbon emissions from transportation, 
allowing participating States to invest proceeds in low-carbon 
and more resilient transportation options.
    Due to policies and market shifts, the electricity sector 
is decarbonizing, leaving the transportation sector the largest 
source of emissions. A key strategy for reducing these 
emissions is to switch to zero-emission vehicles. TCI States 
collaborate on regional, interstate corridor planning, with 
over 2,500 miles of EV corridors designated by FHWA. Federal 
funding to support implementation would be helpful.
    Beyond funding, Federal action could allow EV charging 
icons at highway logo signs, and exempt EV charging stations 
from current restrictions on commercial activity along the 
interstate right-of-way.
    Zero-emission buses provide opportunities to expand 
benefits of clean transportation. Last year FTA provided over 
$80 million for 52 electric bus transit projects in 41 States. 
States are also exploring opportunities for zero-emission ships 
and trucks. Washington State plans to use 45 percent of its VW 
settlement funds to electrify public vessels, including ferries 
which are responsible for significant air pollution. Hydrogen 
fuel cells provide another option for zero-emission green 
transport.
    Beyond clean fuels, States and cities are also working to 
reduce vehicle miles traveled by promoting more compact, 
livable communities, and providing options such as transit, 
biking, and walking. For example, the Dallas Area Rapid Transit 
system's GoPass allows easy payment for different transit 
services, even integrating microtransit and scooters.
    Arlington, Virginia, where I lived, has enjoyed tremendous 
economic growth, while holding emissions down by implementing 
transit-oriented development, including bike paths and more, 
taking roughly 50,000 vehicle trips off the road each work day. 
Increasing the Federal match for public transit operating 
expenses from current levels of 50 percent would help in these 
efforts, which provide multiple benefits.
    In addition to being the largest source of emissions, 
transportation is quite vulnerable to climate impacts. Since 
1980 the U.S. has experienced 241 extreme weather events, 
costing $1.6 trillion.
    There is a tremendous human toll, as well. My mother and 
other family members lost their homes in Katrina. Our work on 
Katrina, Irene, and Sandy identified opportunities to improve 
how communities can rebuild.
    Vermont faced challenges with Federal reimbursement in 
building back culverts and bridges to withstand future storms 
after Irene. Incorporating lessons from this and other recent 
disasters, some Federal funds are now flowing to more resilient 
investments.
    LA SAFE, Louisiana's program initially funded through 
disaster recovery dollars, works with parishes to design 
customized projects that improve community resilience, like 
``complete streets'' and nature-based flood mitigation.
    Building on reforms in MAP-21, the FAST Act, and the 
Disaster Recovery Reform Act, funding recipients should be 
required to consider how climate change will affect 
infrastructure, making investments designed to withstand future 
conditions.
    Beyond infrastructure, improving operations and evacuation 
protocols can save lives. In 2004, my father's, Sidney 
Arroyo's, heart failed during a stressful evacuation from New 
Orleans in anticipation of Hurricane Ivan, which struck Alabama 
instead. The next year many people chose not to leave New 
Orleans before Katrina, some recalling the evacuation 
challenges the year before, others without access to 
transportation or not willing to leave behind beloved pets.
    Congress swiftly acted to pass the Pet Evacuation and 
Transportation Standards Act--yes, it spells PETS--and it saved 
lives in subsequent storms. Congress should again act more 
comprehensively, joining States and communities in addressing 
climate change, while preparing communities for the disruptive 
challenges to come. Thank you.
    [Ms. Arroyo's prepared statement follows:]

                                 
  Prepared Statement of Vicki Arroyo, Executive Director, Georgetown 
                             Climate Center
    Good morning, Chairman DeFazio, Ranking Member Graves, and members 
of the Committee. Thank you for the opportunity to testify today about 
the steps that states and cities are taking to reduce greenhouse gas 
pollution from transportation and to make our communities more 
resilient to the serious consequences of climate change.
    Many states and cities are taking bold action to reduce emissions 
and improve resilience, offering both substantial progress in the fight 
against climate change and examples of successful action that others 
could emulate and that the federal government could be helpful in 
scaling up. However, more action is needed.
    I'm Vicki Arroyo and I serve as Executive Director of Georgetown 
Climate Center, which is based at Georgetown University Law Center. I 
am also a member of the full-time faculty, serving as a Professor from 
Practice and as Assistant Dean for Centers and Institutes.
    The nonpartisan Georgetown Climate Center was established over ten 
years ago to serve as a resource to states on issues relating to 
climate change policy and clean energy and to inform the federal 
dialogue with the lessons of the states.\1\ We work with state and city 
officials on a bipartisan basis at their request to support their 
transition to cleaner energy sources in important sectors, including 
the power sector and transportation, and to prepare for the impacts of 
a changing climate.
---------------------------------------------------------------------------
    \1\ About Us, Georgetown Climate Center, https://
www.georgetownclimate.org/about-us/index.html (last visited Feb. 19, 
2019).
---------------------------------------------------------------------------
    I am also currently Chair of the Executive Committee of the 
Transportation Research Board of the National Academies of Sciences, 
and recently chaired TRB's Task Force on Resilience and Sustainability 
\2\ which made recommendations regarding how TRB might incorporate 
considerations of a changing climate and the role of transportation--
and impacts to transportation infrastructure--into its important work.
---------------------------------------------------------------------------
    \2\ TRB Executive Committee, National Academies of Sciences 
Engineering Medicine (2019), http://www.trb.org/CommitteeandPanels/
ExecutiveCommitteeOverview.aspx.
---------------------------------------------------------------------------
    While I am proud of these roles and affiliations, my comments today 
are my own.
    Given the urgent need to address climate change, it's my privilege 
to be with you today to share examples of what states and cities are 
doing to promote cleaner transportation options and to prepare for 
climate impacts. I hope these examples will help inform your own work.
    As the Fourth National Climate Assessment, released in November, 
describes, the United States is already experiencing serious impacts of 
climate change--and the risks to communities all across the country are 
growing rapidly.\3\
---------------------------------------------------------------------------
    \3\ Climate Assessment, Volume II: Impacts, Risks, and Adaptation 
in the United States--Summary Findings, National Climate Assessment 
(2018), https://nca2018.globalchange.gov/
---------------------------------------------------------------------------
    These findings, along with those in the 2018 Intergovernmental 
Panel on Climate Change (IPCC) report, are clear and should be a call 
to immediate action. Even if we manage to limit planetary warming to 
just 2 degrees C, the world will still face increased chances of 
economic and social upheaval from more severe flooding, droughts, 
heatwaves, and other climate impacts as well as devastating 
environmental consequences, the IPCC report warns.\4\
---------------------------------------------------------------------------
    \4\ Global Warming of 1.5 +C, IPCC (2018), https://www.ipcc.ch/
sr15/
---------------------------------------------------------------------------
    The scientific consensus as described in the IPCC Special Report is 
that countries around the world must rapidly decarbonize their 
economies, cutting greenhouse gas emissions in half by 2030 and to near 
zero by 2050.\5\
---------------------------------------------------------------------------
    \5\ Id.; Climate Assessment, Volume II, supra note 3.
---------------------------------------------------------------------------
    Yet the current trends are going in the wrong direction. Despite 
our increasing understanding of the narrowing window to act, U.S. GHG 
emissions increased by 3.4 percent in 2018, according to a January 
report from the Rhodium Group. Clearly more action is needed.\6\
---------------------------------------------------------------------------
    \6\ Energy & Climate Staff, Preliminary U.S. Emissions Estimates 
for 2018, Rhodium Group (Jan. 8, 2019), https://rhg.com/research/
preliminary-us-emissions-estimates-for-2018/
---------------------------------------------------------------------------
    The encouraging news is that many states and cities have committed 
to taking action. They are taking steps to reduce emissions through 
legislation, executive orders, and pledges made in collaborations such 
as the US Climate Alliance--now covering roughly half the US population 
and GDP.\7\
---------------------------------------------------------------------------
    \7\ U.S. Climate Alliance Fact Sheet, United States Climate 
Alliance, https://www.usclimatealliance.org/us-climate-alliance-fact-
sheet (last visited Feb. 19, 2019).
---------------------------------------------------------------------------
    In my testimony, I will be focusing on the transportation sector, 
which is the largest contributor of GHG emissions in the United 
States,\8\ and is already facing significant impacts from climate 
change.
---------------------------------------------------------------------------
    \8\ Sources of Greenhouse Gas Emissions, EPA, https://www.epa.gov/
ghgemissions/sources-greenhouse-gas-emissions (last visited Feb. 19, 
2019).
---------------------------------------------------------------------------
    Federal standards have been important in increasing efficiency and 
reducing emissions, yet transportation-sector emissions are increasing 
as more vehicle miles are driven, more freight is transported in 
trucks, and airline travel continues to grow. Transportation is 
becoming an increasingly large share of U.S. economy-wide emissions as 
the power sector decarbonizes as a result of market shifts and 
policy.\9\
---------------------------------------------------------------------------
    \9\ Transportation Sector Emissions, EPA, https://www.epa.gov/
ghgemissions/sources-greenhouse-gas-emissions#transportation (last 
visited Feb. 19, 2019).
---------------------------------------------------------------------------
    There is an urgent need, therefore, to transition to a low-carbon 
transportation system. Such a transition would not only reduce 
emissions and fight climate change, it also would bring additional 
important benefits, including protecting public health by reducing 
conventional air pollution, providing more mobility options, and 
driving innovation and economic growth through policy action and 
through public and private investment.

        State Leadership Reducing Emissions from Transportation:

    Fortunately, states and cities in the US are already investing in 
low-carbon transportation solutions, and innovation by governments and 
the private sector has created opportunities to enable low-carbon 
economic growth.
    States are enabling the transition to zero-emission, electric 
transportation--promoting adoption of cleaner vehicles and fuels; 
developing strategies to improve public transportation while reducing 
vehicle miles traveled and congestion; and enacting pathways to fund 
this clean transportation innovation--including by pricing the 
emissions that cause climate change.\10\ Cities across the country are 
also reducing air pollution and GHGs through land use policies; by 
increasing transportation options through investments in public 
transit, bike and pedestrian facilities, and new mobility solutions; 
and by switching to alternative fuels such as electricity, hydrogen, 
and natural gas. Many cities are committing to deep decarbonization by 
transitioning to zero-emission public fleets,\11\ including replacing 
100 percent of their fossil-fueled buses with electric transit 
buses.\12\
---------------------------------------------------------------------------
    \10\ Cal. Health & Safety Code Sec.  38566 (West 2017).
    \11\ Climate Mayors Electric Vehicle Purchasing Collaborative, 
Climate Mayors (2018), https://driveevfleets.org/.
    \12\ Zero Emissions Vehicles, C40 Cities, https://www.c40.org/
networks/zero-emission-vehicles (last visited Feb. 19, 2019).
---------------------------------------------------------------------------
        state funding for low-carbon transportation investments
    Here are some specific examples:
    California's economy-wide cap-and-trade program covers 
transportation fuels and uses the proceeds generated from selling 
allowances to invest in transit, electric vehicles, and clean transit 
buses. It also requires investment in projects serving disadvantaged 
and underserved communities to ensure that the benefits of this new, 
low-carbon transportation system are more equitably shared.\13\
---------------------------------------------------------------------------
    \13\ CCI Funded Programs, California Air Resources Board (Aug. 31, 
2018), https://ww2.arb.ca.gov/our-workprogramscalifornia-climate-
investments/cci-funded-programs.
---------------------------------------------------------------------------
    Oregon lawmakers are considering adopting an economy-wide cap-and-
trade program that could be linked to California's program.\14\
---------------------------------------------------------------------------
    \14\ H.B. 2020, 80th Leg. Assemb., Reg. Sess. (Or. 2019).
---------------------------------------------------------------------------
    In the Northeast, the Transportation and Climate Initiative of 12 
northeast and mid-Atlantic states and the District of Columbia 
(``TCI'') was launched in 2010. Facilitated by our Georgetown Climate 
Center, TCI has worked to develop the clean energy economy in the 
region, improve transportation, and reduce carbon emissions in the 
transportation sector.
    Projects over the years have included eliminating barriers to the 
use of cleaner transportation fuels and technologies; sharing best 
practices in promoting smart growth; understanding freight flows into 
and through the region to consider ways to enhance efficiency and 
reduce congestion and air pollution; and even working to defeat a 
patent troll who tried to inhibit sharing of platforms that provide for 
real-time information on arrivals of subways and buses.
    Since 2012, TCI jurisdictions have explored potential regional 
policy solutions with analysis that demonstrated the economic benefits 
of moving to cleaner transportation alternatives. In 2015, the TCI 
jurisdictions announced plans \15\ to work together on potential 
market-based policies and in 2017 \16\ began to conduct extensive 
public outreach.
---------------------------------------------------------------------------
    \15\ Five Northeast States and DC Announce They Will Work Together 
to Develop Potential Market-Based Policies to Cut Carbon Emissions from 
Transportation, Transportation & Climate Initiative (Nov. 24, 2015), 
https://www.transportationandclimate.org/main-menu/five-northeast-
states-and-dc-announce-they-will-work-together-develop-potential-
market.
    \16\ Northeast and Mid-Atlantic States Seek Public Input As They 
Move Toward a Cleaner Transportation Future, Transportation & Climate 
Initiative (Nov. 13, 2017), https://www.transportationandclimate.org/
northeast-and-mid-atlantic-states-seek-public-input-they-move-toward-
cleaner-transportation-future.
---------------------------------------------------------------------------
    In 2018, TCI regional outreach engaged 500 diverse stakeholders--
including from businesses, local governments, community groups, and 
NGOs--and over 100 state officials in a series of regional listening 
sessions, with further outreach through statewide efforts in 
Massachusetts, New York, and Rhode Island.\17\
---------------------------------------------------------------------------
    \17\ Listening Session Summary Report, Transportation & Climate 
Initiative (Nov. 13, 2018), https://www.transportationandclimate.org/
tci-news-and-updates.
---------------------------------------------------------------------------
    Those efforts led to a landmark announcement on December 18th, 2018 
by nine states plus DC to work together on a bipartisan basis to design 
a regional low-carbon transportation policy proposal. The proposed plan 
would cap and reduce carbon emissions from the combustion of 
transportation fuels and allow each TCI jurisdiction to invest the 
proceeds in low-carbon and more resilient transportation 
infrastructure.\18\ This approach is modeled on the successful Regional 
Greenhouse Gas Initiative (RGGI), which has reduced emissions and 
generated substantial economic benefits in the region. Analysis of the 
first ten years of the RGGI program estimates that the program has 
created a net economic benefit of $4 billion dollars for the 
participating states, while reducing carbon emissions from the power 
sector by nearly 50 percent.\19\
---------------------------------------------------------------------------
    \18\ Nine States and D.C. to Design Regional Approach to Cap 
Greenhouse Gas Pollution from Transportation, Transportation & Climate 
Initiative (Dec. 18, 2018), https://www.transportationandclimate.org/
nine-states-and-dc-design-regional-approach-cap-greenhouse-gas-
pollution-transportation.
    \19\ The Economic Impacts of the Regional Greenhouse Gas Initiative 
on Nine Northeast and Atlantic States, Analysis Group: Economic, 
Financial And Strategy Consultants (Apr. 17, 2018), https://
www.analysisgroup.com/globalassets/uploadedfiles/content/insights/
publishing/
analysis_group_rggi_report_april_2018.pdf.
---------------------------------------------------------------------------
    We believe that the TCI effort can offer similar large benefits and 
are proud to support this bipartisan group of states in this important 
initiative.
    TCI states are not alone in working to cut transportation 
emissions--or in recognizing the importance of sustainable funding 
sources to support needed investments in low-carbon and more resilient 
transportation infrastructure.
    Other states are exploring mileage-based user fees. The state of 
Oregon conducted two pilots and has now expanded to launch a permanent 
voluntary program to charge drivers for road usage.\20\ Several other 
states, including California and Hawaii, are conducting research or 
pilot programs to assess the feasibility of mileage-based user fees as 
an alternative or complement to motor fuel taxes.\21\
---------------------------------------------------------------------------
    \20\ About, OReGO, http://www.myorego.org/about/ (Feb. 19, 2019).
    \21\ Susan Handy & Marlon Boarnet, A Framework for Projecting the 
Potential Statewide Vehicle Miles Traveled(VMT) Reduction from State-
Level Strategies in California, National Center For Sustainable 
Transportation (Mar. 2017), https://ncst.ucdavis.edu/wp-content/
uploads/2017/03/State-Level-VMT-Strategies-White-Paper_FINAL-
03.2017.pdf.
---------------------------------------------------------------------------
      state action to support electric and zero-emission vehicles:
    For many years now, states have been leaders in supporting a 
transition to zero-emission vehicles that reduce air pollution, improve 
public health, and cut greenhouse gas emissions. Today this committee 
is hearing from California, given its leadership. But critical 
investments and policy support for zero-emission vehicles are underway 
in states and cities across the country. Indeed, it is becoming more 
widely recognized that moving from a transportation system entirely 
dominated by petroleum-fueled vehicles to electric and other zero-
emission transportation options can provide significant benefits for 
both the environment and the economy.
    It is important to understand that switching to electric vehicles 
significantly reduces GHG emissions even when emissions from power 
plants that generate the electricity for the electric vehicles are 
included. For example, in Oregon, a recent analysis showed that an 
electric vehicle in 2018 would be the equivalent of a gas car with 94 
MPG rating.\22\ Even in Missouri, where (as of 2015 data) coal power 
makes up more than 75 percent of electricity generation,\23\ an 
electric vehicle would be equivalent to a 35 miles per gallon gas 
vehicle.\24\ And of course, the opportunities for emissions reductions 
from adopting electric vehicles will improve throughout the country as 
the electricity grid decarbonizes (due to fuel switching and the 
falling prices of wind and solar power for baseload and peak power 
generation).\25\ As the grid becomes cleaner, an electric vehicle sold 
this year will effectively become lower- and lower-emitting throughout 
its life.
---------------------------------------------------------------------------
    \22\ David Reichmuth, New Data Show Electric Vehicles Continue to 
Get Cleaner, Union of Concerned Scientists (2018), https://
blog.ucsusa.org/dave-reichmuth/new-data-show-electric-vehicles-
continue-to-get-cleaner?_ga=2.65610987.430581647.1520949632-
566757794.1516988670.
    \23\ State Energy Analysis Tool, Georgetown Climate Center, https:/
/www.georgetownclimate.org/clean-energy/sea.html (last visited Feb. 19, 
2019).
    \24\ Reichmuth, supra note 22.
    \25\ See, e.g., Robert Walton, Utility Dive, Xcel solicitation 
returns `incredible' renewable energy, storage bids (January 8, 2018) 
https://www.utilitydive.com/news/xcel-solicitation-returns-incredible-
renewable-energy-storage-bids/514287/; Hawaiian Electric Company Press 
Release: ``New solar-plus-storage projects set low-price benchmark for 
renewable energy in Hawaii'' (January 3, 2019) https://
www.hawaiianelectric.com/new-solar-plus-storage-projects-set-low-price-
benchmark-for-renewable-energy-in-hawaii
---------------------------------------------------------------------------
    Electric vehicles thus present a very important opportunity for 
reducing emissions and helping states and cities--along with the United 
States--reach GHG emission reduction commitments. Eventually--and 
perhaps within the next decade--electric vehicles will be cheaper to 
buy and to drive than gas vehicles. However, as is the case with many 
new technologies, public sector support through research, early 
deployment, and infrastructure installation will be vital to enabling 
this market to grow. Continued federal support will be critical in this 
regard to complement, expand upon, and scale the efforts underway in 
states throughout the country.
                 incentives for zero-emission vehicles:
    States across the country are providing incentives to drivers to 
lower the upfront cost of zero- emission vehicles, including battery 
electric and hydrogen fuel cell vehicles. Fourteen states currently 
offer a financial incentive, such as a tax credit, and many electric 
utilities and local or regional governments offer additional financial 
or non-monetary incentives to drivers.
    Some jurisdictions are exploring ``fee-bate'' structures--a 
revenue-neutral incentive mechanism where more polluting vehicles pay a 
fee inversely proportional to vehicle emissions and lower polluting or 
zero-emission vehicles receive an incentive or rebate.\26\ The District 
of Columbia will be implementing a version of a fee-bate starting in 
2020, at which time the District of Columbia Department of Motor 
Vehicles will assess vehicle title excise tax based on the fuel 
efficiency of the vehicle, with vehicles that are more fuel efficient 
than a benchmark level receiving a discount and vehicles that are less 
fuel efficient paying an additional amount.\27\
---------------------------------------------------------------------------
    \26\ Natalie Mims & Heidi Hauenstein, Feebates: A Legislative 
Option to Encourage Continuous Improvements to Automobile Efficiency, 
Rocky Mountain Institute (Feb. 2008), https://www.rmi.org/wp-content/
uploads/2017/05/RMI_Document_Repository_Public-Reprts_
Feebate_final.pdf.
    \27\ District of Columbia Code 50-2201.03(j)(1A)).
---------------------------------------------------------------------------
    One challenge with reducing emissions from the United States fleet 
of 250 million passenger vehicles is the long lifecycle of 
vehicles.\28\ The average age of passenger vehicles in operation (as of 
2017) was 11.6 years, with many vehicles kept in operation for two 
decades or more.\29\ One way to incentivize the retirement of low-
efficiency older vehicles would be for the federal government to 
develop a scrappage and replacement program designed to reduce vehicle 
emissions. Such a program could learn valuable lessons from the Car 
Allowance Rebate System or ``Cash for Clunkers'' program of 2009, which 
was primarily designed as an economic stimulus, but still resulted in 
improved fuel economy of the vehicle fleet. A federal program could 
also learn from the scrap and replace programs implemented by two Air 
Quality Management Districts in California, which provide significant 
financial incentives to low-income residents who trade in an 
inefficient vehicle for zero- or near-zero emission replacement.\30\
---------------------------------------------------------------------------
    \28\ Number of U.S. Aircraft, Vehicles, Vessels, and Other 
Conveyances, Bureau of Transportation Statistics, https://www.bts.gov/
content/number-us-aircraft-vehicles-vessels-and-other-conveyances (last 
visited Feb. 20, 2019).
    \29\ Average Age of Automobiles and Trucks in Operation in the 
United States, Bureau of Transportation Statistics, https://
www.bts.gov/content/average-age-automobiles-and-trucks-operation-
united-states (last visited Feb. 20, 2019).
    \30\ Clean Cars 4 All, California Air Resources Board (Feb. 5, 
2019), https://www.arb.ca.gov/msprog/cc4a/cc4a.htm.
---------------------------------------------------------------------------
         electric vehicles charging along interstate corridors:
    One area where states are working together is the deployment of 
fast charging stations along highway corridors. Given ``range anxiety'' 
concerns, corridor fast charging is critical to grow the market for 
electric vehicles. People need to know that they can charge their 
vehicles, such as my 2018 Chevy Bolt, Bluebell, before they will use 
the vehicles for long distance trips.
    The Pacific Coast states have collaborated since 2011 to develop 
the West Coast Electric Highway, a network of DC fast charging stations 
along Interstate 5 and other major roadways.\31\ This project was first 
funded as part of the American Recovery and Reinvestment Act. Since the 
initial wave of funding, Washington, Oregon, and California have used 
public-private partnerships and state grant funding to build out EV 
charging infrastructure along corridors. The West Coast Electric 
Highway effort is notable for its focus on expanding consumer awareness 
of EV charging through outreach and branding. The states have shared 
their lessons with other regions, including states participating in the 
Transportation and Climate Initiative in this region.
---------------------------------------------------------------------------
    \31\ West Coast Electric Highway, Idaho National Laboratory: 
Advanced Vehicles, https://avt.inl.gov/project-type/west-coast-
electric-highway (last visited Feb. 19, 2019).
---------------------------------------------------------------------------
    TCI states have worked to develop EV charging infrastructure since 
the start of the regional partnership, and have collaborated since 2016 
on regional interstate corridor planning. The focused effort on 
corridor planning has included engagement with the Federal Alternative 
Fuel Corridors Program, including a regional nomination resulting in 
over 2,500 miles of EV corridors designated by U.S. Federal Highway 
Administration (FHWA) in the first round of designations.\32\
---------------------------------------------------------------------------
    \32\ U.S. Department of Transportation Designates Electric Vehicles 
Corridors in the Transportation and Climate Initiative Region, 
Transportation & Climate Initiative (Nov. 3, 2016), https://
www.transportationandclimate.org/us-department-transportation-
designates-electric-vehicles-corridors-transportation-and-climate.
---------------------------------------------------------------------------
    The Transportation and Climate Initiative has been a valuable forum 
for electric vehicle corridor planning, due to the leadership of state 
departments of transportation and given the inherent need to 
collaborate across state lines to allow residents to travel seamlessly 
and conveniently between cities, for work, and to tourism destinations. 
The TCI states have worked together to share best practices, engage 
with EV charging business and electric utilities, and apply together 
for grant funding programs.
    The TCI states have also worked together to conduct a regional 
analysis to identify priority locations for additional EV charging 
infrastructure investment. The technical analysis--launched in 2018--
includes an Excel-based tool that can be used to identify which highway 
exits may be good candidates for additional charging infrastructure 
investment, as well as an interactive GIS map that displays fast 
charging infrastructure along corridors in the region and priority 
investment locations.\33\ This corridor analysis was developed by the 
Georgetown Climate Center and M.J. Bradley & Associates to support the 
TCI states and was expanded to include Virginia, which joined TCI in 
September 2018.
---------------------------------------------------------------------------
    \33\ The regional EV corridor analysis is publicly available at no 
cost from Georgetown Climate Center. EV Corridor Analysis Tool for 
Northeast and Mid-Atlantic States, Georgetown Climate Center (July 26, 
2018), https://www.georgetownclimate.org/articles/ev-corridor-analysis-
tool-for-northeast-and-mid-atlantic-states.html.
---------------------------------------------------------------------------
    In the inter-mountain west states, another bipartisan coalition of 
governors from eight states launched the Regional Electric Vehicle Plan 
for the West, or ``REV West,'' with governors signing an MOU with the 
goal to promote a network of EV corridors.\34\
---------------------------------------------------------------------------
    \34\ Regional Electric Vehicle (REV) West Program, U.S. Department 
of Energy: Energy Efficiency & Renewable Energy, https://
afdc.energy.gov/laws/11874 (last visited Feb. 29, 2019).
---------------------------------------------------------------------------
Opportunity for Federal Leadership and Support
    While state and regional initiatives such as these are important in 
their own right and as models, the federal government can play a 
critical role in providing funding to stimulate greater investment in 
EV fast charging along highway corridors. The FAST Act instructed the 
U.S. Federal Highway Administration to designate corridors for 
alternative fuels (including electric vehicles), but did not provide 
any direct funding for infrastructure investment to support the build-
out of designated or pending corridors.\35\ Given that electric 
vehicles are a new technology with limited penetration in the vehicle 
market, there are very few viable business cases for investment in DC 
fast charging--particularly along highway corridors--in the absence of 
some public sector funding to support investment. Nevertheless, 
significant additional investment in EV fast charging will be needed to 
provide the minimum level of coverage necessary for the market to 
mature.\36\ Once a minimum level of EV fast charging coverage is in 
place and EV sales increase, consumer demand for charging will drive 
private investments. In order to jump-start this critical transition to 
transportation electrification, targeted public funding is needed.
---------------------------------------------------------------------------
    \35\ 23 U.S.C. Sec. 151 (2015).
    \36\ Eric Wood, New EVSE Analytical Tools/Models: Electric Vehicle 
Infrastructure Projection Tool (EVI-Pro), National Renewable Energy 
Laboratory (Jan. 24, 2018), https://www.nrel.gov/docs/fy18osti/
70831.pdf.
---------------------------------------------------------------------------
    Potential federal investment could expand on strategic planning 
efforts underway in states and regional partnerships to ensure that 
federal funding is strategically invested to grow the market for EVs 
while spurring economic development and improving transportation. For 
example, several states, including California, Washington, and New 
York, have undertaken modeling and analysis to better understand which 
highway corridors have been developed by the private market and which 
are the highest priorities for public funding to support a 
comprehensive network of EV charging.\37\ One strategy that this 
committee might consider is targeting investment in EV charging in 
rural and remote corridor locations which are currently underserved by 
the private market, as a business and economic development opportunity 
for those locations that would also provide access to EVs to a wider 
range of communities.
---------------------------------------------------------------------------
    \37\ Electric Vehicle Charging Infrastructure, Washington State 
Department of Transportation (2019), http://www.wsdot.wa.gov/funding/
partners/evib.
---------------------------------------------------------------------------
    In addition to strategically targeting geographic locations, a 
federal funding program could also provide additional public benefits 
by including requirements or incentives that ensure driver convenience 
and a robust private market for charging stations. There is an 
opportunity for such a federal program to incorporate lessons learned 
and policies from ongoing state efforts. States participating in the 
multi-state ZEV Task Force have worked to identify policy outcomes that 
can be achieved through requirements for EV charging stations installed 
with public funding. For example, states are exploring open payment 
requirements, to ensure that drivers know how much they will pay for a 
charge, can easily use a credit card to pay for charging, and are not 
required to have a charging station network membership. We've all 
gotten used to driving up to a gas station and knowing that we can pay 
with a credit card (for example), without the requirement of becoming a 
member of a fuel provider like Exxon or Shell. But that is not always 
the case with EV charging, which can create inconvenience and 
confusion. Similarly, requirements that charging station hardware, 
software, and network services be inter-operable could create a more 
flexible business market that allows for innovation and avoids stranded 
assets. I would encourage Congress to engage with states and U.S. 
national laboratories considering these issues when developing 
potential infrastructure funding programs.
Federal Support for Technical Analysis
    Federal technical and financial support could also help states and 
metropolitan planning organizations better identify gaps in EV charging 
infrastructure. This could include expansion of existing tools, for 
example the corridor analysis tool built to inform northeast and mid-
Atlantic states \38\ or the Electric Vehicle Infrastructure Projection 
(EVI-Pro) tool built by the California Energy Commission and National 
Renewable Energy Laboratory to assess charging infrastructure 
needs.\39\ The federal government could support a study (using EVI-Pro 
or other methodology) of specific charging infrastructure needs to 
support long-distance trips on a national level. This analysis has 
already been conducted for California, Colorado, and Columbus, Ohio, 
through existing programs or partnerships.\40\
---------------------------------------------------------------------------
    \38\ EV Corridor Analysis Tool for Northeast and Mid-Atlantic 
States, supra note 33.
    \39\ CEC EV Infrastructure Projection (California), National 
Renewable Energy Laboratory, https://maps.nrel.gov/cec/
?aL=0&bL=cdark&cE=0&lR=0&mC=36.8708321556463%2C-116.34521484375001&zL=6 
(last visited Feb. 19, 2019).
    \40\ Eric Wood, supra note 36.
---------------------------------------------------------------------------
Non-financial Policy Opportunities:
    Currently the federal Manual on Uniform Traffic Control Devices 
does not allow state DOTs to easily add an EV charging station logo to 
specific service (food/fuel/lodging) signs. The current manual is 
somewhat unclear on this subject, which has been vexing to many state 
agencies looking to develop EV charging signage guidance.\41\ One 
potential solution would be to create a new category of highway logo 
(specific service) signs for EV charging. This would improve EV driver 
convenience and provide a significant consumer awareness benefit. 
California has already taken this approach, modifying its state manual 
to create a new category for EV charging station logos, and other 
states are interested in this issue as well. It is important at a 
minimum that the federal manual maintain flexibility for states to 
experiment with the best ways to provide logo signs for electric 
vehicles as we develop an appropriate federal standard.\42\
---------------------------------------------------------------------------
    \41\ ``To qualify for a GAS logo sign panel, a business should 
have: (1) Vehicle services including gas and/or alternative fuels, oil, 
and water; (2) Continuous operation at least 16 hours per day, 7 days 
per week for freeways and expressways, and continuous operation at 
least 12 hours per day, 7 days per week for conventional roads; (3) 
Modern sanitary facilities and drinking water; and (4) Public 
telephone.'' U.S. Dep't of Transp., Manual on Uniform Traffic Control 
Devices Sec.  2J.01.10 (Dec. 2009).
    \42\ Cal. Dep't of Transp., Manual on Uniform Traffic Control 
Devices Sec.  2J.01 (Nov. 2014).
---------------------------------------------------------------------------
    Congress might also consider the feasibility and potential benefits 
and costs of exempting EV charging stations and renewable power 
installations from federal restrictions on commercial activity in the 
interstate right-of-way. These restrictions have been identified as a 
barrier in reports, including the recent Transportation Research Board 
Report to Congress on the Future of the Interstate Highway report.\43\
---------------------------------------------------------------------------
    \43\ Renewing the National Commitment to the Interstate Highway 
System: A Foundation for the Future, Transportation Research Board 
(Feb. 6, 2019), http://www.trb.org/Main/Blurbs/178485.aspx.
---------------------------------------------------------------------------
Opportunities for Research and Development:
    While there are many exciting developments underway that are 
helping to expand the uses of EVs and other low-carbon transportation 
options, there are still technical and logistical barriers where 
federal support of pilot programs, research, or public-private 
partnerships might be helpful.
    As we scale up the use of new transportation fuels and technologies 
over time, research and pilot deployments can help ensure that federal 
funds are invested efficiently in projects and technologies that reduce 
emissions, provide energy security, and stimulate economic growth. 
Additionally, research programs can effectively identify issues that 
might arise in the future. For example, the federal government could 
support additional research into questions on how the different zero-
emission or alternative fueling and charging infrastructures complement 
or interact with one another at individual sites or throughout the 
transportation system. There is significant investment in hydrogen 
fueling infrastructure in California and other states, due to the 
significant opportunity for hydrogen to serve as an energy-dense zero-
tailpipe emission fuel source for vehicles.\44\
---------------------------------------------------------------------------
    \44\ California Air Resources Board, California's Hydrogen 
Transportation Initiatives, https://www.arb.ca.gov/msprog/zevprog/
hydrogen/hydrogen.htm (last visited Feb. 20, 2019).
---------------------------------------------------------------------------
    For electric vehicle charging, key questions include the 
opportunities for managed EV fast charging (e.g., providing options for 
drivers where the cost and speed of charging vary based on electric 
grid capacity). A related topic for additional research is the 
interaction of EV charging with on-site storage to minimize 
distribution grid impacts. Electrify America and Tesla are making major 
investments in on-site storage co-located with DC fast charging 
facilities. This is an area where transportation system research--in 
conjunction with battery storage research underway at the U.S. 
Department of Energy and U.S. national laboratories--could prove 
valuable.
                  zero-emission electric transit buses
    Moving beyond passenger vehicles, zero-emission transit buses 
provide opportunities to expand access to cleaner electric 
transportation, cutting GHG emissions in addition to the smelly and 
dangerous fumes that affect riders and communities, including those 
that have been disproportionately harmed by air pollution.
    Cities across the country have added electric buses to transit 
fleets and made commitments for additional procurements. Electric bus 
pilots are underway everywhere from Anchorage, Alaska,\45\ to Honolulu, 
Hawaii.\46\ Here in the District of Columbia, the District Department 
of Transportation has added 14 electric buses to its Circulator 
service, which serves commonly traveled routes in the District and 
costs only $1 to ride.\47\ In Texas, the Dallas Area Rapid Transit is 
piloting electric buses on its free downtown D-Link route.\48\ These 
cities, and many others, are using phased pilots and early deployment 
to test this new technology and address any concerns related to bus 
performance, charging reliability, and operating costs.
---------------------------------------------------------------------------
    \45\ Casey Grove, Alaska's First Electric Bus for Public Transit 
Read for Anchorage Streets, Alaska Public Media (Jan. 15, 2018), 
https://www.alaskapublic.org/2018/01/15/alaskas-first-electric-bus-for-
public-transit-ready-for-anchorage-streets/.
    \46\ Press Release, Electric Bus Demonstration Showcases 
Unstainable Ground Transportation Future for Hawaii, Hawaii.gov (Apr. 
11, 2018), http://hidot.hawaii.gov/highways/electric-bus-demonstration-
showcases-sustainable-ground-transportation-future-for-hawaii/.
    \47\ New DC Circulator Electric Buses, Circulator, https://
www.dccirculator.com/new-electric-buses/ (last visited Feb. 20, 2019).
    \48\ Dana Branham, Dart's Fleet of Electric Buses Roll Out in 
Downtown Dallas, Dallas News (July 10, 2018), https://
www.dallasnews.com/news/transportation/2018/07/10/darts-fleet-electric-
buses-roll-downtown-dallas.
---------------------------------------------------------------------------
    Many cities have set ambitious economy-wide GHG emission reduction 
goals and are increasingly making commitments to fully electrify their 
transit fleets as a strategy to reduce transportation emissions. For 
example, Los Angeles, California, has committed to fully electrify its 
fleet by 2030;\49\ the Minneapolis and Saint Paul transit agency in 
Minnesota has announced a 2040 full electrification goal;\50\ and the 
New York Metropolitan Transit Agency--the largest transit fleet in the 
United States with more than 5,500 buses--has announced a target of 
transitioning to a zero-emission fleet by 2040.\51\
---------------------------------------------------------------------------
    \49\ Council File: 17-0739, LA City Clerk Connect (Nov. 9, 2017), 
https://cityclerk.lacity.org/lacityclerkconnect/
index.cfm?fa=ccfi.viewrecord&cfnumber=17-0739.
    \50\ Metro Transit's 100% Electric Bus Fleet Target Is a Big Step, 
Fresh Energy (Dec. 10, 2018), https://fresh-energy.org/metro-transit-
100-percent/.
    \51\ Phil McKenna, New York City Aims for All-Electric Bus Fleet by 
2040, Inside Climate News (Apr. 26, 2018), https://
insideclimatenews.org/news/26042018/nyc-air-pollution-electric-bus-
public-transportation-mta-clean-technology
---------------------------------------------------------------------------
    While electric transit buses provide significant air quality and 
GHG reduction benefits, along with lower operating and maintenance 
costs, transit bus electrification is impeded by the higher upfront 
purchase cost of electric buses and charging infrastructure, a limited 
economy of scale in manufacturing, and additional routing and charging 
requirements for fleet managers and operators.
    To offset the higher upfront costs, many states are providing 
funding to transit agencies to support bus electrification. States such 
as Colorado, Massachusetts, and Virginia have identified transit bus 
electrification as a priority for investment with the funding received 
from the Volkswagen diesel emissions settlement. Rhode Island has 
already launched early deployments of electric transit buses purchased 
with VW settlement funding \52\ and has prioritized routes that travel 
through neighborhoods that currently suffer from higher levels of air 
pollution.\53\ While these state investments will help to grow the 
number of zero-emission buses on the road, the scale of funding 
distributed to states from the VW settlement--$2.9 billion over ten 
years, distributed across the 50 states and U.S. territories--will not 
be sufficient to meet states' clean energy and climate goals.
---------------------------------------------------------------------------
    \52\ State of Rhode Island Press Release, Raimondo, Congressional 
Delegation Unveil RIPTA's First Electric Buses (October 22, 2018) 
https://www.ri.gov/press/view/34479
    \53\ State of Rhode Island, supra note 52.
---------------------------------------------------------------------------
    The U.S. Department of Transportation Federal Transit 
Administration's Low- or No-Emission (``Low-No'') Grant program has 
been instrumental in providing the funding needed by transit agencies 
to add zero-emission buses to their fleets. In the 2018 funding period 
alone, over $80 million in funding was awarded to support 52 electric 
transit bus projects in 41 states. The projects supported with this 
funding include electric bus deployment across a range of geographies, 
from the Philadelphia metro area--where the Southeastern Pennsylvania 
Transportation Authority (SEPTA) is adding electric buses--to rural 
Wisconsin, where the Wisconsin Department of Transportation will add 
electric buses to rural fleets statewide.
    The funding also allows transit agencies to innovative and explore 
different methods of recharging buses--whether at a central depot or 
in-route--as well as opportunities to power buses with renewable 
energy. For example, the 2018 FTA funding for Broward County Transit 
will not only replace aging buses with battery electric buses models, 
but will also include solar power installation.
    Due to the significant interest from cities and transit agencies, 
demand for electric bus funding from the ``Low-No'' Grant program far 
exceeds available funding levels. For fiscal year 2018, Congress 
appropriated an additional $29.45 million in funding--bringing the 
total to $84.45 million, but applications from transit agencies still 
exceeded 6 times the available funds.\54\
---------------------------------------------------------------------------
    \54\ ``FTA received 149 eligible proposals from 42 states 
requesting $557 million in Federal funds.'' U.S. Department of 
Transportation, Federal Transit Administration, Fiscal Year 2018 Low or 
No Emission Grant Program Project Selections, (October 12, 2018) 
https://www.transit.dot.gov/sites/fta.dot.gov/files/docs/funding/
grants/grant-programs/118881/fy18-low-no-project-selections-and-
guidance.pdf
---------------------------------------------------------------------------
Opportunity for Federal Leadership and Support
    Electric transit buses are already competitive with diesel buses on 
a total cost of ownership basis (when including fuel and maintenance 
costs), and will reach cost parity over the coming years.\55\ However, 
funding support and technical assistance are critical in the near term 
to offset the higher upfront costs and additional logistical 
challenges. As the cost of lithium ion battery packs continues to fall, 
and bus manufacturers increase the scale of production of electric 
transit buses, costs of buses will continue to decline, and electric 
transit buses may ultimately provide a lower cost alternative. In the 
near term, however, additional federal funding for converting 
combustion engine fleets to zero-emission electric propulsion would 
provide valuable support to local and state governments.
---------------------------------------------------------------------------
    \55\ Electric Buses in Cities: Driving Towards Cleaner Air and 
Lower CO2, C40 (Mar. 29, 2018), https://c40-production-
images.s3.amazonaws.com/other_uploads/images/1726_BNEF_C40_
Electric_buses_in_cities_FINAL_APPROVED_%282%29.original.pdf?1523363881
---------------------------------------------------------------------------
               zero emission ferries and marine transport
    In addition to electrifying passenger vehicles and transit fleets, 
states are exploring opportunities for zero-emission marine transport. 
Washington Governor Jay Inslee announced his Washington Maritime Blue 
2050 Initiative in 2017 to create and expand a sustainable ocean 
industry through the combined use of electric ferries and ships and 
zero-carbon-emissions port terminals.\56\ Washington State plans to use 
around 45 percent of its VW settlement money to fund the 
electrification of public vessels, with a particular focus on ferries, 
recognizing that in Washington State, ``ferries account for more than 
half of the air pollution generated by harbor vessels.'' \57\
---------------------------------------------------------------------------
    \56\ Tara Lee, Leading in the Maritime Sector: Washington Launches 
Maritime Blue 2050 Initiative, Washington Governor Jay Inslee (Dec. 12, 
2017), https://www.governor.wa.gov/news-media/leading-maritime-sector-
washington-launches-maritime-blue-2050-initiative.
    \57\ The Washington State Plan notes that Converting diesel to all-
battery electric ferries will significantly reduce diesel and carbon 
emissions, improve fleet reliability, virtually eliminate engine noise 
that can harm marine animals, and reduce ferry operating costs by up to 
20 percent. Brett Rude & Mike Boyer, State of Washington Volkswagen 
Beneficiary Mitigation Plan, Department of Ecology: State of Washington 
(Nov. 2018), https://fortress.wa.gov/ecy/publications/documents/
1802023.pdf.
---------------------------------------------------------------------------
    Hydrogen fuel cells may provide another viable option for zero-
emission marine transport. A study undertaken by Sandia National 
Laboratories concluded in July 2018 that it is both technologically and 
economically feasible to build research vessels powered by hydrogen 
fuel cells.\58\ The first commercial ship running on hydrogen and 
producing zero pollution was built in 2017.\59\
---------------------------------------------------------------------------
    \58\ Sandia National Laboratories, Diesel Doesn't Float This Boat--
Team Designs Zero-Emission Research Vehicle, Phys.org (July 2, 2018), 
https://phys.org/news/2018-07-diesel-doesnt-boatteam-zero-emissions-
marine.html.
    \59\ Anna Hirtenstein, There's Now Vessel That Produces Zero 
Pollution, Bloomberg (Nov. 29, 2017), https://www.bloomberg.com/news/
articles/2017-11-29/oceans-get-zero-emission-ship-in-step-toward-
cleaner-cargo.
---------------------------------------------------------------------------
    The United States could explore additional international 
partnerships for research and development and implementation. For 
example, Norway and Finland have deployed battery-electric ferries, and 
Norway is currently piloting hydrogen ferries.\60\ Norway has passed 
legislation to make its fjords zero emissions zones by 2026, only 
allowing electric ships into its waters.\61\
---------------------------------------------------------------------------
    \60\ Tjalve Magnusson Svedndsen, The First Hydrogen Ferry in 
Norway, Christian Michelsen Research, https://www.cmr.no/projects/
10568/hydrogen-ferry/ (last visited Feb. 20, 2019).
    \61\ Fred Lambert, Norway Is Making Its Fjords `The World's First 
Zero Emission Zone at Sea', Electrek (May 4, 2018), https://
electrek.co/2018/05/04/elecitrc-ferries-norway-fjords-worlds-first-
zero-emission-zone/.
---------------------------------------------------------------------------
              decarbonizing medium- and heavy-duty trucks
    As the movement of goods on our country's highway corridors 
continues to increase with the growth of e-commerce, decarbonizing 
truck transport will be critical to meeting state and national climate 
commitments. For both long-haul and local delivery by heavy-duty and 
medium-duty vehicles, a number of low- or zero-emission vehicle and 
fuel types may serve different use cases.
    For reducing emissions of criteria pollutants, natural gas- and 
propane-fueled vehicles offer a promising and potentially low-cost 
alternative. For reducing GHG emissions, the federal government could 
play a key role in enabling the deployment of battery electric and 
hydrogen fuel cell vehicles.
    Many vehicle and engine manufacturers have announced plans to 
release battery electric trucks over the coming years, and hydrogen 
truck pilots offer a promising alternative. The U.S. Department of 
Energy, Office of Energy Efficiency and Renewable Energy, has supported 
significant research and development efforts for hydrogen and fuel cell 
technologies, including through partnerships with U.S. national 
laboratories and private sector businesses, and has set ambitious goals 
for reducing the price of hydrogen fuel cells.\62\ This investment in 
hydrogen as a transportation fuel is as part of a broader opportunity 
role for hydrogen fuel in a decarbonized United State energy system.
---------------------------------------------------------------------------
    \62\ U.S. Department of Energy, Office of Energy Efficiency and 
Renewable Energy, Fuel Cell Technologies Office Accomplishments and 
Progress, https://www.energy.gov/eere/fuelcells/fuel-cell-technologies-
office-accomplishments-and-progress
---------------------------------------------------------------------------
    One critical challenge for both of these zero-emission technology 
types is the development of sufficient charging or fueling 
infrastructure along highway corridors. Similar to passenger vehicles, 
a minimum level of infrastructure coverage needs to be in place in 
order for the market to grow to the scale necessary to support private 
investment and unsubsidized growth.
    Heavy duty battery-electric trucks provide unique charging 
infrastructure and electric grid challenges. For example, the electric 
semi-truck specifications suggested by Tesla might require over 1 MW 
capacity charging per plug--equivalent to a Walmart SuperCenter. A 
truck stop depot with 10 of these chargers could have a peak electrical 
load similar to an industrial facility, but will often be located in a 
rural area far from available electrical power capacity.
    The federal government could play a critical role expanding 
research and pilot programs to determine the most cost effective and 
efficient means of providing this type of vehicle charging, including 
the role of stationary storage batteries and co-location of renewable 
power generation. This work could incorporate the freight corridor 
planning underway in many states through the FHWA Alternative Fuel 
Corridor program, and could engage key stakeholders, including electric 
utilities, the National Association of Truck Stop Operators, and 
vehicle manufacturers.
          reducing emissions by providing greater mode choices
    In addition to supporting infrastructure to enable a transition to 
zero- and low-emission vehicles, the federal government can play a key 
role in reducing the number of vehicle miles traveled by improving 
transportation efficiency; by promoting more compact, livable 
communities; and by providing more transportation choices, including 
public transit, biking and walking. While states generally control land 
use planning decisions, the federal government has a critical role to 
play through its administration of transportation funding and 
infrastructure investment.
    Many states are confronting the challenge of reducing air pollution 
and emissions while experiencing increases in vehicle miles traveled. 
The Minnesota Pollution Control Agency recently released a report on 
the state's emissions over the last 25 years and strategies needed to 
meet the state's greenhouse gas emission reduction targets. The report 
found that while Minnesota has successfully reduced its overall 
emissions while growing its economy, the state missed its 2015 emission 
reduction target; and transportation is now the largest source of 
emissions in the state. The report suggests that the trends of 
residents driving more miles and preferring larger vehicles are 
preventing a greater reduction of emissions, and suggests that 
additional transportation mode choices can be an effective strategy for 
the state moving forward.\63\
---------------------------------------------------------------------------
    \63\ Anne Claflin & Fawkes Steinwand, Greenhouse Gas Emissions in 
Minnesota: 1990-2016 7, Minnesota Pollution Control Agency: Department 
of Commerce (Jan. 2019), https://www.pca.state.mn.us/sites/default/
files/lraq-2sy19.pdf.
---------------------------------------------------------------------------
        state support for bicycle and pedestrian transportation
    There are many examples of state leadership in developing 
``complete streets'' that allow for safe and efficient movement of 
pedestrians and bicyclists, in addition to vehicles. New Jersey has a 
nationally recognized complete streets policy that includes significant 
engagement with counties and municipalities. New Jersey Department of 
Transportation provides training to its own engineers and planners, 
along with those from local agencies, on complete streets policies. New 
Jersey Department of Transportation also provides incentives through 
its Local Aid and Economic Development grant program to municipalities 
that meet Complete Streets policy objectives.\64\
---------------------------------------------------------------------------
    \64\ Complete Streets: Workshop and Training, Department of 
Transportation, https://www.state.nj.us/transportation/eng/
completestreets/training.shtm (last visited Feb. 20, 2019).
---------------------------------------------------------------------------
    Many states' active transit projects are funded through federal 
programs, including the Capital Investment Grant program, 
Transportation Alternatives Program, and Surface Transportation Block 
Grant.
         public transportation and transit oriented development
    Investment in public transit, including light rail systems, bus 
rapid transit, traditional bus routes, and new mobility applications 
such as dynamic-routing micro-transit provide additional transportation 
choices and can stimulate economic development while reducing 
emissions. Cities and states throughout the U.S. are pioneering 
innovative ways of making transit more convenient and accessible, while 
harnessing the benefits of transit for community development and 
economic growth.
    In Dallas, the Dallas Area Rapid Transit (DART) system has 
introduced the ``GoPass,'' a simple system that allows easy payment for 
different transit services while allowing frequent users to 
automatically take advantage of monthly or daily ride discounts when 
available.\65\ The GoPass was originally introduced nearly five years 
ago. DART introduced both the ``cash to mobile'' option and fare 
capping last year. These two items especially help low income 
populations. Last month, DART introduced GoPass 3.0 which begins to 
fully integrate other modes into the app, such as micro-transit 
services and scooters. The entire trip can be paid for on the app 
rather than bouncing back and forth between apps. This month DART is 
introducing Uber Pool as backup to the micro-transit services already 
offered, to make sure that the response times are maintained.
---------------------------------------------------------------------------
    \65\ When using a GoPass, transit riders ``never pay more than the 
price of a day pass in one day, or the price of a monthly pass in one 
month'' through an automated payment system. Dallas Area Rapid Transit, 
GoPass Frequently Asked Questions. https://www.gopass.org/customer-
service/questions-answers
---------------------------------------------------------------------------
    Arlington, Virginia, where I live has seen significant economic 
development and population increases over recent decades, but has 
successfully decoupled this growth from greenhouse gas emissions by 
implementing transit-oriented development, in which mixed use 
developments are clustered near Metro stations.\66\
---------------------------------------------------------------------------
    \66\ Billion Dollar Weather and Climate Disasters: Overview, NOAA: 
National Center For Environmental Information (2019), https://
www.ncdc.noaa.gov/billions/.
---------------------------------------------------------------------------
    To encourage more cities and regional governments to invest in 
critical public transit infrastructure, the federal government might 
consider increasing the federal match for public transit projects, from 
current levels of 50 percent (compared to 80 percent for road projects 
funded by the Highway Trust Fund).

                    Transportation System Resilience

    Despite innovation in the transportation sector and a shift to 
cleaner sources of electricity, including improved vehicles and fuels 
as a result of federal and state policy, we are already seeing the 
effects of climate change. Extreme weather events are becoming more 
frequent and intense, creating new challenges for infrastructure 
agencies that must consider how to prepare assets for these changing 
conditions and to do so on very limited budgets.
    Since 1980, the U.S. has experienced 241 extreme weather-related 
events with costs of more than $1 billion. The total estimated cost of 
these events adds up to more than $1.6 trillion. And the frequency and 
scale of these major disasters is increasing. Nearly one-third of total 
costs have come from events in just the past 5 years.\67\ In 2017 
alone, extreme weather events cost the U.S. over $300 billion, in large 
part due to Hurricanes Harvey, Irma, and Maria.\68\ These disasters 
have caused significant damages to infrastructure, which in some cases 
has led to years-long recovery efforts.\69\
---------------------------------------------------------------------------
    \67\ NOAA, Billion-Dollar Weather and Climate Disasters.
    \68\ Chris Mooney & Brady Dennis, Extreme Hurricanes and Wildfires 
Made 2017 the Most Costly U.S. Disaster Year on Record, Washington Post 
(Jan. 8, 2018) https://www.
washingtonpost.com/news/energy-environment/wp/2018/01/08/hurricanes-
wildfires-made-2017-
the-most-costly-u-s-disaster-year-on-record/.
    \69\ For example, Vermont experienced an estimated $250-300 million 
in infrastructure damage resulting from Tropical Storm Irene. Vermont's 
challenges of rebuilding culverts more resiliently during the recovery 
period, due to barriers at the time in federal law and disaster 
recovery programs, is explored in the report. Lessons Learned from 
Irene: Climate Change, Federal Disaster Relief, and Barriers to 
Adaptive Reconstruction, Georgetown Climate Center (Dec. 20, 2013), 
https://www.georgetownclimate.org/reports/lessons-learned-from-irene-
climate-change-federal-disaster-relief-and-barriers-to-adaptive-
reconstruction.html. In New York, the many transportation-related 
impacts resulting from Hurricane Sandy in 2012, summarized in the 
report Transportation During and After Sandy, have led to numerous 
efforts to improve resilience in transportation infrastructure. Sarah 
Kaufman, et al., Transportation During and After Hurricane Sandy, Rudin 
Center For Transportation: NYU Wagner Graduate School of Public Service 
(Nov. 2012), https://wagner.nyu.edu/files/faculty/publications/
sandytransportation.pdf. See, e.g., Post Hurricane Sandy Transportation 
Resilience Study in New York, New Jersey, and Connecticut, U.S. 
Department of Transportation (Oct. 2017), https://www.fhwa.dot.gov/
environment/sustainability/resilience/publications/hurricane_sandy/
fhwahep17097.pdf; Port Authority of New York and New Jersey--PATH 
System Resiliency and Recovery Improvements, Georgetown Climate Center: 
Adaptation Clearinghouse (Jan. 16, 2015), https://www.adaptation
clearinghouse.org/resources/port-authority-of-new-york-and-new-jersey-
path-system-resiliency-and-recovery-improvements.html. In Colorado, 
severe rains and flooding in September 2013 caused major road damage 
and wash-outs along US 34, which provides sole access to some areas. 
Recovery and reconstruction efforts extended into 2018, but resulted in 
a more resilient design of the highway. See US 34 Big Thompson Canyon, 
Colorado Department of Transportation, https://www.codot.gov/projects/
floodrelatedprojects/us-34-big-thompson-canyon-1 (last visited Feb. 20, 
2019).
---------------------------------------------------------------------------
    As many of you know from the communities you represent, the human 
toll from these events is huge. In 2005, many members of my family, 
including my mother, sister and brother-in-law, aunt and uncle, lost 
homes in Katrina. The year before, my father Sidney Arroyo died during 
a stressful evacuation from Hurricane Ivan. The human and economic toll 
of these events is staggering. It is vital that we capture lessons on 
how to improve infrastructure and operations to get people out of 
harm's way in advance of storms and to build back differently as these 
events become more common and more severe.
    Our work in communities after Hurricanes Katrina, Irene and Sandy 
demonstrate opportunities to improve how communities rebuild after 
storms.
                         what states are doing
    Many states and local governments are learning from recent extreme 
events and are working to prepare their infrastructure systems for 
additional impacts of climate change. We are seeing more dedicated 
funding for resilient investments. Innovative steps include nature-
based resilience strategies to help mitigate impacts of flooding and 
heat, new committees and task forces to examine climate change impacts 
and to design infrastructure to be more resilient, and new requirements 
to account for climate change in state or local planning and 
investments. For example, legislation and voter initiatives in 
Massachusetts, California, and Miami have committed funding for 
programs and projects that will build resilience in communities and 
infrastructure systems. In Massachusetts, state legislation authorized 
hundreds of millions of dollars for critical infrastructure protection 
and adaptation, implementation of the state's integrated hazard 
mitigation and climate adaptation plan, and other state and local 
resilience measures as part of a $2.4 billion package.\70\ Legislation 
in California (and subsequent voter approval) authorized over $4 
billion in bonds for conservation and resilience, parks and recreation, 
and water projects, including $443 million specifically for climate 
change preparedness and habitat resiliency, and $550 million for flood 
protection.\71\ And in Miami, voters approved a bond package with 
nearly $200 million for projects to mitigate impacts of sea-level rise 
and flooding.\72\
---------------------------------------------------------------------------
    \70\ An act promoting climate change adaptation, environmental and 
natural resource protection, and investment in recreational assets and 
opportunity, ch. 209, 2018 Mass. Sess. Laws.
    \71\ California Drought, Water, Parks, Climate, Coastal Protection, 
and Outdoor Access For All Act of 2018, Ch. 852, 2017-2018 Cal. Sess. 
Laws (subsequently approved by voters in June 2018 as Prop. 68).
    \72\ Adam Aton, Climate funding passes; vulnerable cities get new 
mayors, E&E News (Nov. 8, 2017), https://www.eenews.net/climatewire/
2017/11/08/stories/1060065971.
---------------------------------------------------------------------------
    States and local governments are also showing commitment to 
resilience through planning and programs, task forces and studies, and 
new design requirements and development and zoning regulations. The 
Louisiana's Strategic Adaptations for Future Environments (LA SAFE) 
Program, initially funded through disaster recovery dollars in 2012, 
works with parishes to co-design customized projects and programs that 
will improve community resilience like ``complete streets'' and nature-
based flood mitigation projects.\73\ California's Climate-Safe 
Infrastructure Working Group, established pursuant to legislation 
passed in 2016,\74\ completed its recommendations in 2018 for how the 
state can better integrate climate science into engineering and 
design.\75\ New York State established formal statewide sea-level rise 
projections by regulation in early 2018,\76\ implementing an important 
aspect of the state's Community Risk and Resiliency Act (2014), which 
is designed to integrate considerations of climate change impacts to 
proposed projects in certain funding and permitting processes overseen 
by state agencies.\77\ Maryland expanded its ``Coast Smart'' program in 
2018, now requiring that state-funded local projects (in addition to 
state capital projects) be sited and designed according to the state's 
``Coast Smart'' criteria, which were also updated in 2018 pursuant to 
the legislation.\78\ And a range of local governments in places like 
Houston, Broward County, and New York City are implementing new 
floodplain and zoning regulations and design requirements to ensure 
that infrastructure investments and other development either avoid 
high-risk areas or are built to withstand future storms and 
conditions.\79\
---------------------------------------------------------------------------
    \73\ Louisiana's Strategic Adaptations for Future Environments, LA 
Safe, https://lasafe.la.gov/ (last visited Feb. 20, 2019).
    \74\ Climate change: infrastructure planning, ch. 580, 2015-2016 
Cal. Sess. Laws.
    \75\ Paying It Forward: The Path Toward Climate-Safe Infrastructure 
in California, California Natural Resources Agency (Sept. 2018), http:/
/resources.ca.gov/climate/climate-safe-infrastructure-working-group/.
    \76\ NY Envtl. Conserv. Law Sec.  490 (2018).
    \77\ New York Community Risk and Resiliency Act (S06617B), 
Georgetown Climate Center: Adaptation Clearinghouse (Sept. 22, 2014), 
https://www.adaptationclearinghouse.org/resources/new-york-community-
risk-and-resiliency-act-s06617b.html.
    \78\ For more information, see Georgetown Climate Center, Maryland 
HB 1350/ SB 1006--Sea Level Rise Inundation and Coastal Flooding--
Construction, Adaptation, and Mitigation.
    \79\ Houston voted to update its Floodplain Management Ordinance, 
now regulating new development in the 500-year floodplain instead of 
just the 100-year. City of Houston, Ord. No. 2018-258 (Apr. 4, 2018). 
Broward County is now using ``future conditions'' maps that account for 
the impacts of sea-level rise on groundwater levels when approving 
drainage and other water management infrastructure, which will help 
ensure that infrastructure lasts in the future. Broward Cty., Fla., 
Ordinance No. 2017-16 (May 23, 2017). In New York City, the Mayor's 
Office of Recovery and Resiliency developed new Climate Resiliency 
Design Guidelines to be used in the planning and design of city capital 
projects.
---------------------------------------------------------------------------
                         what can congress do?
    In its recent report, the Committee for the Study of the Future 
Interstate Highway System highlighted the importance of preparing the 
Interstate Highway System and other roads and bridges for the impacts 
of climate change and more intense weather events.\80\ Congress should 
act on these recommendations to ensure that major federal 
infrastructure investments, including but not limited to the Interstate 
Highway System, are built to withstand flooding, increased heat, and 
other climate change impacts. Congress can build on steps already taken 
in MAP-21 and the FAST Act (integrating resilience and risk 
considerations in transportation planning processes), and in the 
Disaster Recovery Reform Act (authorizing a set-aside funding source 
from disaster expenses for pre-disaster mitigation grants for public 
infrastructure projects that will improve resilience, among other 
provisions designed to foster long-term resilience as part of disaster 
recovery).\81\ To ensure fiscal responsibility, recipients of federal 
funding should be required to consider how climate change will impact 
their infrastructure systems and assets in the future, and ensure that 
their investments are designed accordingly to withstand future 
conditions. States should be provided with the tools and information 
they need to adequately integrate these considerations into capital 
decision-making processes, and with strong incentives to engage in 
resilience planning and to modify codes and standards ahead of 
disasters to facilitate resilient rebuilding when funds are 
available.\82\ It is more important than ever to ensure that federal 
dollars are spent wisely and not wasted on investments that will not be 
built to last under future climate conditions and a ``new normal'' that 
includes increasingly severe weather events.
    In addition to infrastructure, we should understand that resilience 
to impacts depends on people as well and developing strategies to 
evacuate safely.
---------------------------------------------------------------------------
    \80\ National Academies of Sciences, Engineering, and Medicine, 
Renewing the National Commitment to the Interstate Highway System: A 
Foundation for the Future (2018).
    \81\ Federal Aviation Administration Reauthorization Act of 2018, 
H.R. 302, Div. D, 115th Cong. (2018). For example, the DRRA also 
clarifies that predisaster hazard mitigation funds may be used to 
establish and implement the latest hazard-resistant designs and 
criteria (modifying 42 USC 5133(e)), and it adds new evaluation 
criteria for predisaster hazard mitigation assistance awards, including 
the extent to which potential grantees have adopted the latest hazard-
resistant designs and codes, and ``the extent to which the assistance 
will fund activities that increase the level of resiliency'' (modifying 
42 USC 5133(g)). It also clarifies that Public Assistance funds can 
reimburse costs of rebuilding facilities according to ``the latest 
published editions of relevant consensus-based codes, specifications, 
and standards. . .'' or ``in a manner that allows the facility to meet 
the definition of resilient'' (which is to be developed by FEMA 
rulemaking) (modifying 42 USC 5172(e)).
    \82\ Standards-setting organizations like the American Society of 
Civil Engineers have been engaging for several years in discussions 
about how to modify infrastructure design to account for changing risk 
profiles as a result of climate change. ASCE's Committee on Adaptation 
to a Changing Climate recently published a new Manual of Practice with 
guidance for engineers and others involved in infrastructure 
decisionmaking to assist with integrating adaptive design and 
minimizing lifecycle costs given a changing climate. Climate-Resilient 
Infrastructure: Adaptive Design and Risk Management, Committee on 
Adaptation to a Changing Climate, ASCE; Edited by Bilal M. Ayyub, 
Ph.D., P.E. 2018.
---------------------------------------------------------------------------
    In Katrina, more than 1800 people who stayed behind died. Some 
didn't leave because of the difficulty in evacuating the year before 
during Ivan, Others didn't have affordable options for transportation 
or shelter, and still others didn't want to leave their pets behind 
after discovering that public transport and shelter options prohibited 
animals. Because of those hard lessons, Congress passed the Pet 
Evacuation and Transportation Standards Act--yes, ``PETS''--which no 
doubt has saved lives of countless pets and people in more recent 
storms.
    New programs like ``Evacuteers'' in New Orleans have sprung up to 
make sure people (and pets) can get out of harm's way, and portions of 
the I-10 twin spans, after sections were knocked out in Katrina, have 
been elevated.
    There is more to be done to prepare our communities for the changes 
we're experiencing now that will accelerate and worsen over time, even 
while states and cities work to do their share to tackle the emissions 
contributing to a changing climate.
    Thank you for considering how Congress might support them in these 
efforts.

    Mr. Carbajal. Thank you, Ms. Arroyo.
    Professor Lyon, you may proceed.
    Mr. Lyon. I wish to thank the chairman, ranking member, and 
other members of the committee for inviting me to today's 
hearing. My name is Tom Lyon, and I am a professor of economics 
at University of Michigan, with appointments in both the Ross 
School of Business and the School of Environment and 
Sustainability. The views I am presenting today are my own 
personal views and do not represent those of the university or 
any funders of my research.
    There is no question that U.S. infrastructure is in bad 
shape. The American Society of Civil Engineers gives U.S. 
infrastructure an overall grade of D-plus, with roads receiving 
a D. The time is ripe to come together to improve the 
situation.
    And it is wise to consider how infrastructure funding might 
affect greenhouse gas emissions. Total carbon emissions from 
the U.S. transportation sector rose 22 percent between 1990 and 
2017. And in 2017 transportation surpassed electricity as our 
largest emitter.
    My remarks today make two main points: first, market-
oriented solutions offer incentives for innovation and cost 
reduction that can help to contain the social costs of 
addressing climate change; second, the history of U.S. 
Government policy for alternative fuels displays an 
inconsistency that illustrates why it is wise to be cautious 
about picking particular technology solutions.
    Economists have long advocated market-based solutions to 
environmental problems. This approach minimizes the total cost 
of achieving a given level of environmental protection, and 
provides dynamic incentives for innovation in pollution 
control.
    A famous example of a market-oriented policy is congestion 
pricing, used in London since 2003. A related example comes 
from Los Angeles, where single-occupancy vehicles can use the 
high-occupancy vehicle lane by paying a toll that depends on 
the level of highway congestion. Theseprograms use market 
mechanisms to reduce congestion at a much lower cost than 
building more highways.
    Another market-based policy is funding roads through a tax 
on vehicle miles traveled, as has been supported by Chairman 
DeFazio and Ranking Member Graves. Economic research suggests 
that if the current schedule of increases in fuel economy 
standards is maintained, and if the VMT, vehicle miles traveled 
tax, is differentiated for urban and rural driving, then the 
VMT tax is likely to outperform a gasoline tax.
    Market-based instruments allow for innovation and 
flexibility on the part of the private sector. This is 
especially important in the heavy truck market, which relies 
primarily on diesel fuel. Cummins and Tesla are producing 
electric heavy trucks. Toyota is testing heavy trucks powered 
by hydrogen fuel cells. Natural gas trucks are also being 
developed. It is too early to tell which of these fuels will be 
best, so it is important for policy to allow for flexibility. 
Mandating a specific technology could lock the industry into an 
inferior option.
    This brings me to my second point. U.S. policy towards 
alternative fuels has vacillated over time, as favored 
technologies rose and fell. Policy support has switched from 
methanol to natural gas to battery electric vehicles to 
hydrogen to hybrid electric vehicles to biofuels, and now back 
to battery electrics. This has sent confusing signals, making 
it hard for the auto industry to make long-term investment 
plans for alternative fuel vehicles.
    A market-oriented approach would take a modest view of 
Government's ability to lead the deployment of any particular 
technology. Mandating technology choices in downstream markets 
risks creating cycles of hype and disappointment, or creating 
lock-in to an inferior technology.
    When it comes to encouraging the adoption of electric 
vehicles, research suggests that financing electric charging 
stations is more effective than subsidizing vehicle purchases 
directly. However, there are many possible sources of funding 
for charging stations, and a thoughtful approach to creating 
public-private partnerships seems warranted.
    It may also be useful to require compatibility in charging 
standards across manufacturers, which would decrease 
duplicative investments and expand the size of theelectric 
vehicle market.
    In summary, economic analysis cautions against picking 
technological winners, and supports the use of market-based 
instruments that allow flexibility and encourage innovation. 
This is especially important for medium and heavy-duty trucks, 
where multiple technologies all offer promise, and for the 
deployment of fueling infrastructure for alternative fuels such 
as electricity.
    Thank you again for allowing me to share my views, and I 
look forward to your questions.
    [Mr. Lyon's prepared statement follows:]

                                 
    Prepared Statement of Testimony of Thomas P. Lyon, Dow Chemical 
 Professor of Sustainable Science, Technology and Commerce, University 
                              of Michigan
    I wish to thank the chairmen, ranking members and other members of 
the Subcommittees and full Committee for inviting me to today's 
hearing. My name is Thomas Peyton Lyon and I hold the Dow Chemical 
Chair of Sustainable Science, Technology and Commerce at the University 
of Michigan, with appointments in both the Ross School of Business and 
the School of Environment and Sustainability. I am an economist by 
training, and at the Ross School my home department is Business 
Economics and Public Policy. At Michigan I teach an MBA-level graduate 
course entitled ``Energy Markets and Energy Politics.'' I have served 
as Director of the Erb Institute for Global Sustainable Enterprise and 
as Associate Director for Policy and Social Science at the UM Energy 
Institute. In the latter capacity I helped to launch the 
Transportation, Economics, Energy and Environment (TE3) conference, 
which for the last 5 years has brought together top academic 
researchers with leaders from industry and government to discuss these 
important issues. I have received research grants on transportation 
from the Sloan Foundation and the U.S. Environmental Protection Agency. 
I am currently the President of the Alliance for Research on Corporate 
Sustainability (ARCS), an international alliance of top business 
schools that have a commitment to understanding the links between 
business and sustainability.
    There is little question that U.S. infrastructure is in bad shape. 
The American Society of Civil Engineers (ASCE)'s 2017 Infrastructure 
Report Card gave U.S. infrastructure an overall grade of D+. Transit 
received a D^, Roads a D, and Bridges a C+; Rail topped the list at a 
grade of B. The relatively good performance of rail is largely due to 
private industry investment by the rail freight industry, although 
Federal funding also contributes. Passenger rail, in contrast, exhibits 
a ``large and growing backlog of capital needs.'' (ASCE, p. 75). ``More 
than two out of every five miles of America's urban interstates are 
congested and traffic delays cost the country $160 billion in wasted 
time and fuel in 2014. One out of every five miles of highway pavement 
is in poor condition.'' (ASCE, p. 77) ``The U.S. has been underfunding 
its highway system for years, resulting in a $836 billion backlog of 
highway and bridge capital needs . . . The Federal Highway 
Administration estimates that each dollar spent on road, highway, and 
bridge improvements returns $5.20 in the form of lower vehicle 
maintenance costs, decreased delays, reduced fuel consumption, improved 
safety, lower road and bridge maintenance costs, and reduced emissions 
as a result of improved traffic flow.'' (ASCE, p. 78) Similarly, 
``Despite increasing demand, the nation's transit systems have been 
chronically underfunded, resulting in aging infrastructure and a $90 
billion rehabilitation backlog.'' (ASCE, p. 89)
    Total greenhouse gas emissions from the U.S. transportation sector 
rose from 1,469.1 million tons of CO2-equivalent (MMTCO2E) in 1990 to 
1,794.2 (MMTCO2E) in 2017 (USEPA, 2019, p. 2-3), an increase of 22 
percent. Although emissions dropped sharply in 2008 and 2009 as a 
result of the Great Recession, they have been rising again since 2013. 
In fact, as of 2017, the transportation sector in the U.S. has 
surpassed the electricity sector as the largest emitter of greenhouse 
gases, as shown in the figure below (from USEPA, p. ES-24). Light-duty 
vehicles account for 60 percent of transportation emissions, with 
medium- and heavy-duty vehicles accounting for 23 percent of the 
total.\1\
---------------------------------------------------------------------------
    \1\ https://www.epa.gov/greenvehicles/fast-facts-transportation-
greenhouse-gas-emissions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    There are many opportunities to reduce transportation sector 
emissions, including reducing travel demand, making greater use of 
public transit, switching to more fuel-efficient vehicles, and adopting 
a wide range of alternative fuels such as electricity, hydrogen, 
biodiesel, and compressed natural gas. Emerging connected and automated 
vehicles (CAVs) offer opportunities to improve highway safety and fuel 
efficiency, although they may ultimately increase overall fuel 
consumption (Stephens et al., 2016).
    My remarks today will make two main points. First, market-oriented 
solutions offer incentives for innovation and cost-reduction that can 
help to contain the social costs of addressing climate change. Second, 
the history of U.S. government policy for alternative fuels displays an 
inconsistency that illustrates why it is wise for government policy to 
be cautious about picking particular technology solutions.
                 the value of market-oriented policies
    Economists have long argued for market-based instruments for the 
solution of environmental problems, such as emissions fees (Pigou, 
1920) or systems of tradable permits (Montgomery, 1972). The advantages 
of this approach are that it minimizes the aggregate cost of achieving 
a given level of environmental protection (Baumol and Oates, 1988), and 
provides dynamic incentives for the adoption and diffusion of cheaper 
and better pollution control technologies (Milliman and Prince, 1989). 
One of the most prominent applications of the approach was the U.S. 
sulfur dioxide (SO2) trading program, which is credited with reducing 
acid rain in the Northeastern U.S. at a cost lower than initially 
projected (Schmalensee and Stavins, 2013).
    In the transportation sector, a prominent example of a market-
oriented policy is the use of congestion pricing, as was famously done 
in London beginning in 2003 (Leape, 2006) and more recently in 
Gothenburg, Sweden (Hysing et al., 2015). Because London exempted 
hybrid electric vehicles (HEVs), the congestion tax has also increased 
their use (Morton et al., 2017).
    A less familiar example comes from Los Angeles, where beginning in 
2013 the High-Occupancy Vehicle (HOV) lane on Interstate I-10 has been 
converted to a High-Occupancy Toll (HOT) facility, under the city's 
ExpressLanes program (Bento et al., 2017). The program allows Single-
Occupancy Vehicles (SOVs) to travel in the HOV lane by paying a toll 
that ranges from $0.10 to $15.00 depending on the level of congestion 
on the highway. The toll is adjusted dynamically to keep travel speeds 
in the HOV lane at roughly 45 miles per hour. The program uses market 
mechanisms to reduce congestion at a much lower cost than highway 
expansion.
    Another market-based policy is funding roads through a tax on 
vehicle miles traveled (VMT), as has been supported by Chairman DeFazio 
and ranking member Graves.\2\ Oregon has experimented with such a 
policy, California has initiated a pilot project, and other States have 
shown interest as well (Langer et al., 2017). Economic research 
suggests that a VMT tax can have substantial benefits. Parry and Small 
(2005) calculate that the optimal VMT tax would be more economically 
efficient than the optimal gasoline tax, would raise more revenue, and 
would be better at reducing congestion and accidents than a gasoline 
tax. However, a gasoline tax would more directly target the 
environmental performance of vehicles, as well as the increased 
accident hazards created by driving heavier and less fuel-efficient 
vehicles (Anderson and Aufhammer, 2013). Langer et al. (2017) use a 
unique dataset on individual driver behavior to estimate the effects of 
a VMT, and conclude that its performance is likely to be very similar 
to that of a gasoline tax in terms of overall social welfare. However, 
if the Obama-era increases in Corporate Average Fuel Economy (CAFE) 
standards are maintained, and if the VMT is differentiated for urban 
and rural driving, then the VMT outperforms a gasoline tax.
---------------------------------------------------------------------------
    \2\ https://www.ttnews.com/articles/missouri-rep-sam-graves-
consistent-support-vmt-funding-approach
---------------------------------------------------------------------------
    A crucial advantage of market-based instruments is that they allow 
for innovation and flexibility on the part of the private sector. This 
is of particular importance with regard to the heavy truck market, 
which currently relies primarily on diesel fuel. As mentioned above, 
medium-and heavy-duty trucks only produced 23 percent of the emissions 
from the transportation sector in 2016, but the relative impact of 
trucks is likely to increase over time as the efficiency of light-duty 
vehicles continues to improve (see the figure below, which is from 
USEPA 2019, p. 3-23).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Different companies are pursuing different technological solutions 
for reducing carbon emissions from trucks. Cummins and Tesla are 
producing electric heavy trucks.\3\ Toyota is testing heavy trucks 
powered by hydrogen fuel cells.\4\ Natural gas trucks could also offer 
climate advantages, but these are dependent on reduced leakage of 
methane across the supply chain and engine efficiency improvements 
(Camuzeaux et al., 2015). It is too early to tell which of these fuels 
will prove to be best in particular uses, so it is important for policy 
to allow for flexibility as innovation advances. Mandating a particular 
type of technology for these vehicles could lock the industry into an 
option that ends up being less than optimal.
---------------------------------------------------------------------------
    \3\ https://www.forbes.com/sites/joannmuller/2017/08/29/take-that-
tesla-diesel-engine-giant-cummins-unveils-heavy-duty-truck-powered-by-
electricity/#7dabd12278f1
    \4\ https://www.trucks.com/2017/10/12/toyota-hydrogen-fuel-cell-
electric-truck-hits-road/
---------------------------------------------------------------------------
                  history of alternative fuels policy
    U.S. policy toward alternative fuels has vacillated over time as 
favored technologies become the ``fuel du jour'' and then lose ground 
to a new alternative. The pattern is illustrated in the following 
figure (from Melton et al., 2016, p. 3).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    President Reagan was a promoter of methanol, a fuel that quickly 
fell out of favor. A few years later, California imposed a zero-
emissions vehicle (ZEV) mandate, with the expectation that this would 
drive deployment of electric vehicles, but the policy had little impact 
on actual deployment. Hydrogen fuel cells attracted attention with the 
passage of the Spark M. Matsunaga Hydrogen Research, Development, and 
Demonstration Act of 1990, whose purpose was to ``accelerate efforts to 
develop a domestic capability to economically produce hydrogen in 
quantities that will make a significant contribution toward reducing 
the Nation's dependence on conventional fuels.'' The Partnership for a 
New Generation of Vehicles (PNGV) was launched in 1993, with the goal 
of producing a new set of highly fuel-efficient vehicles, and 
emphasizing hybrid diesel-electric vehicles. Each of the big domestic 
manufacturers produced fully operational concept cars that got at least 
72 miles per gallon, but a lack of ongoing support meant that none 
actually made it to market. Government attention shifted back to 
hydrogen in 2003 with President George W. Bush's ``Hydrogen Fuel 
Initiative,'' which provided $1.2 billion of funding to develop 
hydrogen fuel cells. This was bolstered by the FreedomCAR and Vehicle 
Technologies Partnership between the Department of Energy and the U.S. 
Council for Automotive Research (consisting of Ford, GM, and Chrysler). 
At around the same time, however, political attention began to turn to 
biofuels, and the 2002 Renewable Fuels Standard provided strong policy 
support for corn-based ethanol, the climate benefits of which have been 
questioned by numerous authors (DeCicco et al., 2015; Hill et al., 
2016). In 2007, California Governor Arnold Schwarzenegger issued an 
executive order creating a low-carbon fuel standard, and the climate 
benefits of this policy have also been questioned (Holland et al., 
2009).
    This history of jumping from one favored technology to another in 
rapid succession has sent a confusing set of signals to the automobile 
industry, making it difficult for the auto industry to make long-term 
investment plans for alternative fuel vehicles. As Melton et al. (2016, 
p. 8) point out, ``goals are often announced . . . without 
consideration for factors such as supply constraints, rate of 
innovation adoption, and consumer acceptance.'' It is little wonder 
that these government-led calls to action might be considered non-
credible by industry actors and investors.
    What lessons are to be drawn from this experience? One response 
would be to build government capacity in technology assessment and 
forecasting, hoping to render future government programs more credible 
(Melton, et al., 2016). A market-oriented approach would take a more 
modest view of government's ability to lead the deployment of any 
particular technology. Of course, it is widely acknowledged that 
government needs to play a key role in fundamental research and 
development (Jaffe et al., 2005), and that this may entail funding a 
wide range of promising early stage technologies. However, attempts to 
dictate technology choices to downstream markets run the risk of either 
creating cycles of hype and disappointment (Melton et al., 2016) or 
creating ``lock in'' to an inferior technology (Cowan, 1990). An 
alternative could be to create more research tournaments by offering 
prizes for technological breakthroughs (Taylor, 1995), such as the 
Breakthrough Prizes funded by Silicon Valley leaders.\5\
---------------------------------------------------------------------------
    \5\ https://www.nationalgeographic.com/science/2018/11/news-
breakthrough-prizes-2019-award-winners-biology-physics-math/
---------------------------------------------------------------------------
    What might these considerations imply for the financing of electric 
charging stations, a potentially important infrastructure policy? Li et 
al. (2017) find that funding charging stations instead of subsidizing 
vehicle purchases would have been twice as effective in encouraging the 
adoption of electric vehicles. This is promising, but it is not obvious 
that such funding must be provided by the Federal Government. There are 
many possible sources of funding for charging stations, including 
vehicle manufacturers such as Tesla, electric utilities,\6\ employers, 
retail establishments, and municipalities, as well as State and Federal 
Governments. In light of this array of options, a thoughtful approach 
to creating a public/private partnership seems warranted. It is also 
worth noting that the less costly policy of mandating compatibility in 
charging standards would decrease duplicative investment in charging 
stations by car manufacturers and increase the size of the electric 
vehicle market (Li, 2019).
---------------------------------------------------------------------------
    \6\ https://www.forbes.com/sites/constancedouris/2017/11/08/who-
should-pay-for-electric-vehicle-chargers-who-should-profit/
#4c8518d34aa5
---------------------------------------------------------------------------
    In summary, economic analysis cautions against picking 
technological winners and supports the use of market-based instruments 
that allow flexibility and encourage innovation. This is especially 
important for medium- and heavy-duty trucks, where multiple 
technologies all offer promise, and for the deployment of fueling 
infrastructure for alternative fuels such as electricity.
                               references
    American Society of Civil Engineers. Infrastructure Report Card 
2017. https://www.infrastructurereportcard.org/wp-content/uploads/2019/
02/Full-2017-Report-Card-FINAL.pdf
    Anderson, Michael L., and Maximilian Auffhammer. ``Pounds that 
kill: The external costs of vehicle weight.'' Review of Economic 
Studies 81, no. 2 (2013): 535-571.
    Baumol, William J., and Wallace E. Oates, The Theory of 
Environmental Policy. Second edition. New York: Cambridge University 
Press, 1988.
    Bento, Antonio, Kevin Roth, and Andrew Waxman. ``Avoiding traffic 
congestion externalities? The value of urgency.'' University of 
Southern California Working paper, 2017.
    Camuzeaux, Jonathan R., Ramo'n A. Alvarez, Susanne A. Brooks, 
Joshua B. Browne, and Thomas Sterner. ``Influence of methane emissions 
and vehicle efficiency on the climate implications of heavy-duty 
natural gas trucks.'' Environmental Science & Technology 49, no. 11 
(2015): 6402-6410.
    Collantes, Gustavo, and Daniel Sperling. ``The origin of 
California's zero emission vehicle mandate.'' Transportation Research 
Part A: Policy and Practice 42, no. 10 (2008): 1302-1313.
    Cowan, Robin. ``Nuclear power reactors: a study in technological 
lock-in.'' The Journal of Economic History 50, no. 3 (1990): 541-567.
    DeCicco, John M., Danielle Yuqiao Liu, Joonghyeok Heo, Rashmi 
Krishnan, Angelika Kurthen, and Louise Wang. ``Carbon balance effects 
of U.S. biofuel production and use.'' Climatic Change 138, no. 3-4 
(2016): 667-680.
    Holland, Stephen P., Jonathan E. Hughes, and Christopher R. 
Knittel. ``Greenhouse gas reductions under low carbon fuel standards?'' 
American Economic Journal: Economic Policy 1, no. 1 (2009): 106-46.
    Hysing, Erik, Lotta Frandberg, and Bertil Vilhelmson. 
``Compromising sustainable mobility? The case of the Gothenburg 
congestion tax.'' Journal of Environmental Planning and Management 58, 
no. 6 (2015): 1058-1075.
    Jaffe, Adam B., Richard G. Newell, and Robert N. Stavins. ``A tale 
of two market failures: Technology and environmental policy.'' 
Ecological Economics 54, no. 2-3 (2005): 164-174.
    Langer, Ashley, Vikram Maheshri, and Clifford Winston. ``From 
gallons to miles: A disaggregate analysis of automobile travel and 
externality taxes.'' Journal of Public Economics 152 (2017): 34-46.
    Leape, Jonathan. ``The London congestion charge.'' Journal of 
Economic Perspectives 20, no. 4 (2006): 157-176.
    Li, Jing. ``Compatibility and investment in the U.S. electric 
vehicle market.'' Working paper, MIT Sloan School of Management (2019).
    Li, Shanjun, Lang Tong, Jianwei Xing, and Yiyi Zhou. ``The market 
for electric vehicles: indirect network effects and policy design.'' 
Journal of the Association of Environmental and Resource Economists 4, 
no. 1 (2017): 89-133.
    Melton, Noel, Jonn Axsen, and Daniel Sperling. ``Moving beyond 
alternative fuel hype to decarbonize transportation.'' Nature Energy 1, 
no. 3 (2016): 16013.
    Milliman, Scott R., and Raymond Prince, ``Firm incentives to 
promote technological change in pollution control,'' Journal of 
Environmental Economics and Management 17 (1989): 247-65.
    Montgomery, W. David. ``Markets in licenses and efficient pollution 
control programs.'' Journal of Economic Theory 5, no. 3 (1972): 395-
418.
    Morton, Craig, Robin Lovelace, and Jillian Anable. ``Exploring the 
effect of local transport policies on the adoption of low emission 
vehicles: Evidence from the London Congestion Charge and Hybrid 
Electric Vehicles.'' Transport Policy 60 (2017): 34-46.
    Pigou, Arthur Cecil, The Economics of Welfare. London: Macmillan 
and Company, 1920.
    Schmalensee, Richard, and Robert N. Stavins. ``The SO2 allowance 
trading system: the ironic history of a grand policy experiment.'' 
Journal of Economic Perspectives 27, no. 1 (2013): 103-22.
    Stephens, T.S., J. Gonder, Y. Chen, Z. Lin, C. Liu, and D. Gohlke. 
Estimated Bounds and Important Factors for Fuel Use and Consumer Costs 
of Connected and Automated Vehicles. National Renewable Energy Lab. 
(2016) Technical Report NREL/TP-5400-67216.
    Taylor, Curtis R. ``Digging for golden carrots: An analysis of 
research tournaments.'' The American Economic Review (1995): 872-890.
    U.S. Environmental Protection Agency. Inventory of U.S. Greenhouse 
Gas Emissions and Sinks, 1990-2017. (2019) EPA-530-P-19-001.

    Mr. Carbajal. Thank you, Professor Lyon.
    Next, Mr. Prochazka, you may proceed. But first, let me 
just say that I apologize for getting your name placard wrong. 
We are going to fix that in a minute. Please proceed.
    Mr. Prochazka. Thank you, Mr. Chairman, Ranking Member 
Graves, and distinguished members of the committee. And my last 
name is often mispronounced, so at least we got that correct 
today.
    [Laughter.]
    Mr. Prochazka. So I want to thank you all for the 
opportunity to talk about this important issue. As a son of a 
dad who spent 25 years working for the FAA, my experience 
started real young with transportation.
    So I am the vice president of the Electrification 
Coalition, a nonpartisan, nonprofit organization that works to 
accelerate the adoption of plug-in electric vehicles around the 
country in an effort to reduce the economic and national 
security threats posed by U.S. oil dependency. We are a sister 
organization of Securing America's Future Energy, which leads a 
broader approach with the same core mission, and works for all 
fuels.
    You have a copy of my written testimony, and I am happy to 
answer questions after. But today's hearing is an opportunity 
to summarize a few key points: one, the hope that EVs can be a 
bipartisan issue; two, EVs are going to help diversify our 
transportation fuels; three, there are successes from around 
the country to highlight; and four, we hope to share several 
policy recommendations that could support EV adoption.
    Currently 92 percent of the U.S. transportation sector is 
powered by oil. Supply is determined by a cartel, and traded on 
an unfair and unfree oil market, meaning disruption anywhere 
affects prices everywhere. We need aggressive policy 
interventions that are going to diversify transportation fuels, 
an issue that should be at the top of every lawmaker's list.
    Through transportation electrification, we can power the 
way we move, while also improving our economic and national 
security. Electricity is diverse, American-made, low-cost, 
ubiquitous, and stable. And when used for transportation, it is 
fundamentally cleaner than internal combustion engines, 
regardless of the source. And as the grid gets cleaner, so do 
EVs.
    And not only do EVs reduce pollution, oil dependence, and 
cost, they have incredible acceleration, and are actually fun 
to drive.
    EV adoption is also growing rapidly, last year hitting 1 
million sold, and in 2019 will have almost 50 models available. 
Battery costs are dropping. Charging is getting faster. And now 
buses, garbage trucks, delivery vehicles, and class 8 vehicles 
are going electric.
    Despite the advantages of electrification, barriers both 
real and perceived remain. Consumer knowledge is low. Upfront 
costs can be higher. Local, State, and Federal policies can 
remain in flux. But the Electrification Coalition and others 
are working to reduce these barriers at all levels.
    In Orlando we worked with area theme parks and Enterprise 
Rent-a-Car to launch the Nation's first EV rental car program, 
providing an extended EV test drive. In Fort Collins and 
Loveland we launched Drive Electric Northern Colorado, our 
first accelerator community. By coordinating fleet transition, 
increased charging, and consumer education in one location, we 
accelerated adoption to three times the national average.
    The Electrification Coalition was also the lead 
implementation partner for the Smart City Challenge. Seventy-
eight cities responded, offering innovative ideas to electrify 
transportation, showing that communities were hungry for 
solutions. Seven finalists were selected: Portland, San 
Francisco, Denver, Austin, Kansas City, Columbus, and 
Pittsburgh. And now all are leading examples for 
electrification. The winner, Smart Columbus, and with our 
partnership, is now a thriving EV ecosystem that is 
substantially increasing EV adoption.
    Our daily commutes are also going electric. Greensboro, 
North Carolina, has become one of the largest fleets on the 
east coast, recently launching 16 buses. It is going to 
eventually eliminate 2 million gallons of diesel.
    In Chicago, for every bus they deploy, they expect to save 
about $25,000 in annual fuel costs. Imagine extending that to 
the 70,000 city buses and 400,000 school buses operating 
nationwide. If just half were to go electric, it would save $6 
billion annually, and cut over 400 billion gallons of lifetime 
diesel use.
    And in partnership with Climate Mayors, a group of 400 
mayors, we launched the Climate Mayors EV Purchasing 
Collaborative, which provides tools to make transition easier. 
From Cape Canaveral to Houston, L.A., and San Diego, they have 
committed to purchase over 500 EVs in the next year.
    We have several main recommendations. One, we should retain 
30D, the Federal tax credit to purchase EVs. With some of the 
companies already reaching the cap, we support lifting the cap 
with a stakeholder-negotiated sunset.
    Charging infrastructure must meet an electric future. 
Funding DOT Alternative Fuel Corridors program can improve 
signage, expand nationwide charging, and show consumers 
considering an EV that charging is increasing, nationwide. We 
should also renew and extend the 30C Federal tax credits per 
additional EV charging.
    We also need to expand electric bus adoption. We recommend 
low- or zero-interest loans that can demonstrate the payback of 
lower operational costs. Programs like the FTA's Low or No 
Emmission grant program should be continued and expanded, and 
we must also look for opportunities to create incentives and 
paths to accelerate medium and heavy-duty vehicle 
electrification.
    Each year the U.S. military spends at least $81 billion to 
protect global oil supplies. Roughly--it is roughly 28 cents 
for every gallon we use. Policies that diversify our 
transportation fuels are a small price, compared with the 
opportunity to strengthen our economic and national security, a 
goal everyone should support.
    Thank you for the opportunity to testify. I appreciate and 
look forward to your questions.
    [Mr. Prochazka's prepared statement follows:]

                                 
 Prepared Statement of Ben Prochazka, Vice President, Electrification 
                               Coalition
    Chairman DeFazio, Ranking Member Graves, and distinguished members 
of the Committee,
    Thank you for the opportunity to testify on this important issue. 
My name is Ben Prochazka, and I am the Vice President of the 
Electrification Coalition, a nonpartisan, non-profit group of business 
leaders committed to promoting policies and actions that facilitate the 
deployment of electric vehicles on a mass scale in order to combat the 
economic and national security dangers caused by our nation's 
dependence on oil. The Electrification Coalition is comprised of 
leaders representing the entire value chain of the electrified 
transportation system. These leaders believe federal infrastructure 
policy can and must do much more to accelerate our economy's transition 
away from oil as the only transportation fuel which we believe is 
critical to providing choice to consumers and businesses and 
strengthening our economy and national security.
    The Electrification Coalition is a sister organization of Securing 
America's Future Energy, or SAFE. For over a decade, SAFE has been 
committed to strengthening America's national and economic security by 
reducing U.S. oil dependence. While we are here today to talk about 
electric vehicles (EVs) and the EC's continued role in their adoption, 
SAFE supports efforts to bring greater fuel diversity to U.S. consumers 
and businesses attempting to remain fuel neutral when possible but 
assist certain fuel types as necessary. In 2006, SAFE formed the Energy 
Security Leadership Council (ESLC), a nonpartisan group of business and 
former military leaders in support of long-term policy toward this 
goal. The ESLC is co-chaired by Frederick W. Smith, Chairman and CEO of 
FedEx, and General James T. Conway, 34th Commandant of the U.S. Marine 
Corps (Ret.).
    Today's timely hearing provides an opportunity for us to share some 
examples of early market successes of EVs and challenges to EV 
adoption, explain why EVs should have strong bipartisan support, and to 
encourage this committee to help accelerate EV adoption (including 
transit buses, passenger, and medium- and heavy-duty vehicles) and to 
increase the number of available charging station locations and signage 
across the country.
        the challenge of u.s. oil dependence and transportation
    The United States is the single-largest oil consumer in the world. 
We consume, as a nation, approximately one-fifth of daily global 
supply, 70 percent of which is used to power our transportation system. 
Since 92 percent of the energy consumed in the U.S. transportation 
system comes from oil, businesses and consumers have no alternatives 
available at scale when oil prices spike. With the uniquely global 
nature of oil pricing, a supply disruption anywhere impacts prices 
everywhere. This is exacerbated by the opaque and unfree oil market 
dominated by the OPEC cartel, which controls 83 percent of the world's 
proven oil reserves.
    Such market manipulation often leads to rapid fluctuations in oil 
prices--both upwards and downwards--and wreaks havoc on our businesses, 
our cities, and the average American's pocketbook, ultimately straining 
the entire U.S. economy. Although oil prices were comparatively low in 
2018, the volatile nature of the oil markets means American household 
budgets will almost certainly be pressured by higher prices in the 
near-to-medium-term future--and likely with little warning--and that 
the tax cut given by President Trump just as tax cuts by Presidents 
Bush and Obama will be sent to OPEC members and to purchase higher cost 
oil than to the pockets of average Americans.
    Additionally, higher oil prices significantly added to the U.S. 
federal debt between 2002 and 2012, and every U.S. recession over the 
past 40 years has been preceded by, or coincided with, an oil price 
spike. Despite the recent increase in domestic oil production, the 
United States sent more than $133 billion abroad in 2018 to pay for 
oil, often to countries that neither share American strategic interests 
nor values. The economic importance of oil also creates adverse 
national security challenges. Notably, more than 50 percent of daily 
oil supplies pass through one of seven major chokepoints, many in 
unstable regions, particularly the Middle East. In addition, the U.S. 
military spends at least $81 billion per year to protect global oil 
supplies--accounting for 16 percent of DoD base budgets. If this cost 
is spread over the roughly 19.8 million barrels of oil consumed daily 
in the U.S., the implicit subsidy for petroleum consumers comes out to 
$11.25 per barrel of crude oil, or $0.28 per gallon.
       why electric vehicles are the solution to oil dependence:
    Electric vehicles have the potential to dramatically reduce our 
nation's oil dependence. By utilizing electricity to charge rapidly 
improving battery technology, we can power our transportation sector 
with a diverse, domestic, price stable, and fundamentally scalable 
energy supply. In addition, this approach is fundamentally cleaner even 
when the electricity is generated by coal but as we have seen in the 
last few years the mix of fuels to power electricity continues to get 
cleaner.
    Electric vehicles provide a range of other benefits, which are 
addressed in detail later in this testimony but can be briefly 
mentioned here. Fewer moving parts means there are lower maintenance 
costs for EVs, while also allowing local and state governments to meet 
air quality challenges like non-attainment zones. Additionally, thanks 
to the ubiquity of U.S. electricity infrastructure, much of the 
nationwide fuel delivery network for EVs is already in place.
                 state of the electric vehicle market:
    The vehicle manufacturing and charging infrastructure industry have 
seen important progress in recent years as investments have grown, with 
several OEMs committing billions more dollars to develop new models. 
Today, 50 light-duty EV models are already available to American 
consumers and cumulative light-duty EV sales growing quickly, as we 
recently surpassed 1 million units in the United States since January 
2011. This is also being matched with increased investments from the 
private sector and utilities to expand the number of charging stations 
and speed of the chargers, reaching almost 50,000 chargers at the end 
of 2020.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Electrified transportation is rapidly expanding in the commercial 
and transit sectors as well, with plug-in hybrid and battery electric 
trucks ranging in size from Class 1 to Class 8 already operating on 
city streets around the country. Today there are electric delivery 
vehicles carrying packages for FedEx and UPS, plug-in electric garbage 
trucks operating in Seattle and Sacramento, a Class 8 yard truck in 
Buffalo, and 16 electric buses bringing commuters to work in 
Greensboro, NC. Those 16 buses in Greensboro alone are estimated to 
eliminate nearly 2 million gallons of diesel usage. Considering there 
are approximately 70,000 city buses and 400,000 school buses in the 
U.S., the potential for fuel savings and air quality improvements 
nationwide are tremendous. The commercial and transit sectors are 
increasingly driving electric--and Americans are increasingly seeing 
the shift happening on their daily commutes, as more than 13 percent of 
all transit agencies either have EV buses in service or on order.
    We look forward to 2019 as a key transitional year when available 
light-duty EVs meet more consumer needs while approaching cost parity 
over the life of the vehicle with petroleum-powered vehicles. 
Additionally, there are exciting signs from industry of a growing list 
of vehicle options in almost every segment of the market, providing an 
electric vehicle solution for almost every lifestyle.
    While growth in the EV market is promising, there is still 
significant work that must happen to ensure EVs can meaningfully 
improve the economic and national security of the United States by 
providing the needed fuel diversity in transportation. Transitions like 
this are difficult, there is no guarantee of success, and there is much 
to be done to make sure we accelerate these critical changes, but there 
are tremendous signs of hope and the stakes cannot be higher.
          the electrification coalition's accelerator programs
    From coast to coast, the EC has worked with federal, state, and 
local policymakers to create scalable and replicable programs across 
the United States to accelerate the adoption of EVs.
    Our work has included deep learning experiences in cities and 
through public and private sector partnerships in Colorado, Georgia, 
Ohio, Florida, North Carolina, Texas, Pennsylvania, and New York. Our 
efforts have expanded access to infrastructure, created an EV rental 
car program with Enterprise Rent-a-Car, launched regional and national 
bulk procurement initiatives that can reduce the administration and 
real costs of vehicle acquisition, and initiated the nation's first 
full ecosystem efforts that united diverse partners through ``EV 
accelerator'' communities that serve as models for successfully driving 
EV adoption. These initiatives have provided us with the opportunity to 
develop a growing list of case studies and best practices that will 
make it easier for the next communities to drive adoption at even 
greater rates.
    To realize these gains, the Electrification Coalition has worked 
tirelessly at the local and state levels to bolster EV adoption. In 
2013, the Electrification Coalition created Drive Electric Northern 
Colorado, its first accelerator community. Accelerator communities are 
cities or regions where all of the necessary public and private 
stakeholder partnerships are combined with the appropriate business 
environment, regulatory support, and consumer education to achieve 
substantially higher EV sales. The first accelerator community achieved 
EV sales three times the national average by implementing this combined 
approach. The accelerator community model was later replicated in 
Rochester, NY, and its success has encouraged New York to launch 
similar communities across the state.
    In addition, the Electrification Coalition worked with the Florida 
Energy Office and major private sector partners in Orlando such as 
Enterprise Rent-a-Car to create one of the nation's first EV rental 
programs, called Drive Electric Orlando. This program has already 
provided thousands of the state's visitors with first-hand experience 
in driving EVs, thereby building confidence in and comfort with the 
technology, dispelling myths, and allowing drivers to discover the 
overall benefits of EVs.
    On a larger scale, the Electrification Coalition is acting as a 
technical and strategic advisor to Smart Columbus, the winner of the 
U.S. DOT's Smart City Challenge. This $50 million endeavor--funded 
through $40 million from U.S. DOT and $10 million from the Paul G. 
Allen Family Foundation--is breaking down the barriers to EV adoption 
in the Midwest and working to significantly accelerate EV adoption by 
consumers and fleets. Smart Columbus is simultaneously sharing and 
implementing national best practices, leveraging over $510 million in 
private-sector investment, and developing new innovations to achieve 
substantially increased EV adoption in the Columbus region.
    Further demonstrating the local-level EV programs, the 
Electrification Coalition is engaged with several initiatives to spur 
collaboration and information sharing between and among U.S. and 
international cities. These include the Mobility Innovation Challenge 
and the Global Pilot EV Cities Initiative. Through these initiatives we 
have learned that cities are facing immense transportation challenges 
for which electrification provides an immediate and achievable 
solution.
    The EC is also the technical advisor for the Climate Mayors EV 
Purchasing Collaborative, a nationwide bipartisan collaboration of 
mayors who are committing to electrify city fleets. This initiative is 
designed to reduce the barriers to electrification for our nation's 
municipal fleets, thereby accelerating the transition. Already, 19 
founding cities and two counties have publicly committed to the 
purchase of 376 EVs, representing more than $11 million in EV 
investment.
    At the state level, the EC developed the Zero Emissions Vehicle 
(ZEV) State Scorecard to provide a single, comprehensive, and data-
driven ranking of the key policies being implemented in ZEV MOU states 
to support increased EV adoption. As the ZEV MOU states are among the 
nation's leaders in policies that accelerate the adoption of EVs, the 
scorecard provides the ability to assess the policies and actions that 
most effectively impact EV adoption at the state level.
    This is all necessary because while EV purchases have increased, 
they are yet to reach a tipping point. Perception issues continue to 
persist, as high numbers of consumers have neither driven an EV nor 
know about the lower fuel and maintenance costs they offer. Similarly, 
auto dealerships often don't prioritize EV sales with strong knowledge 
about the available EV models, meaning electric cars are not being 
integrated into showrooms. Attracting consumers to EVs will also help 
solve current infrastructure issues, as every vehicle sold will 
contribute to a developing value chain system that feeds into 
infrastructure investment, creating jobs and boosting local economies 
in the process.
      electricity is diverse in source and domestically produced:
    There could not be a more domestic or bipartisan solution to the 
issue of oil dependence in our transportation sector than vehicle 
electrification.
    Electricity is generated from a diverse set of largely domestic 
sources. These sources include nuclear, coal, natural gas, and 
renewables such as wind, water, and solar. An electrified 
transportation sector can maximize the electric grid's diverse 
generation capacity and, when the availability of resources for 
generating electricity change, electricity generation can shift to 
power EVs with other alternatives. Moreover, whereas oil supplies are 
subject to a wide range of geopolitical risks, domestic and localized 
electricity production unquestionably benefits local economies while 
creating jobs for American workers.
    Operating a vehicle on electricity is considerably less expensive 
and energy-intensive than operating a conventional internal combustion 
vehicle. In large part, this is due to the higher efficiency of 
electric motors. Conventional internal combustion engine (ICE) vehicles 
convert only approximately 20 percent of the energy stored in gasoline 
into power for the wheels. In contrast, EVs convert approximately 60 
percent of the electrical energy from the grid into power for the 
wheels. Miles traveled by EVs also emit less CO2 and other emissions 
than vehicles powered by petroleum fuels. As noted, this is true even 
with today's mix of electricity-generating resources in the U.S.--which 
will only get cleaner as alternative generation options are integrated 
into the grid.
    Additionally, North Carolina is home to one of the world's largest 
deposits of lithium, a core component of EV battery technology. 
Millions of dollars have been raised and invested in recent months to 
further expand production of this strategic mineral in the state, and 
is an example of how effective policies have the potential to leverage 
emerging investments from the private sector.
                 electricity prices are low and stable:
    Electricity prices are substantially less volatile than gasoline or 
diesel prices, increasing by an average of less than 2 percent per year 
in nominal terms since 2000. The electric power system is designed to 
meet peak demand at any time from existing generation sources--meaning 
throughout most of the day, and particularly at night, consumers demand 
significantly less electricity than the system can deliver. Assuming 
that charging patterns are well-managed, the system has substantial 
spare capacity to meet new demand from EVs parked at homes and other 
locations during nighttime hours.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    This low cost and price stability, which stands in sharp contrast 
to the price volatility of oil or gasoline, exists for at least two 
reasons.
    First, the retail price of electricity reflects a wide range of 
costs, only a small portion of which arise from the underlying cost of 
the source. The remaining costs are largely fixed. This is 
significantly different from gasoline, where the cost of crude 
represents a significant percentage of the cost of retail gasoline.
    Second, although real-time electricity prices can be volatile 
(sometimes highly volatile on an hour-to-hour or day-to-day basis), 
they are nevertheless relatively stable over the medium and long term. 
Therefore, in setting retail rates, utilities use formulas that will 
allow them to recover their costs, including occasionally high peak 
demand prices for electricity, but which effectively insulate the 
retail consumer from the hour-to-hour and day-to-day volatility of the 
real-time power markets.
    By isolating the consumer from price volatility, electric utilities 
are providing EV drivers the very stability that oil companies cannot 
provide to consumers of gasoline.
            the power sector has substantial spare capacity:
    Because large-scale storage of electricity has historically been 
impractical, the U.S. electric power sector is effectively designed as 
an 'on-demand system.' In practical terms, this has meant that the 
system is constructed to be able to meet peak demand from existing 
generation sources at any time. However, throughout most of a 24-hour 
day--particularly at night--consumers require significantly less 
electricity than the system is capable of delivering. Therefore, 
assuming charging patterns are appropriately managed, the U.S. electric 
power sector has substantial spare capacity that could be used to power 
electric vehicles without constructing additional power generation 
facilities. In fact, the Department of Energy's Pacific Northwest 
National Laboratory found that the existing grid has enough capacity to 
accommodate more than 150 million EVs without significant system 
upgrades.
    Unlike many proposed alternatives to petroleum-based fuels, the 
nation already has a ubiquitous network of electricity infrastructure. 
No doubt, electrification will require the expansion of charging 
infrastructure, additional functionality, and increased investment in 
grid reliability, but the power sector's infrastructural backbone--
generation, transmission, and distribution--is already in place.
               challenges to electric vehicle transition:
    We have yet to reach a tipping point in EV adoption due to a number 
of persisting barriers to widespread consumer uptake. EV adoption rates 
are influenced by many factors, including the training and enthusiasm 
of automotive dealers, low vehicle availability in certain markets and 
vehicle classes, consumer knowledge, and low gasoline prices. 
Electrifying our transportation sector is an immense and urgent 
challenge. And while cities and states around the country are 
intensifying efforts to rapidly increase EV adoption, there are 
significant opportunities for federal infrastructure policy make an 
even greater impact.
    This hearing provides a great opportunity to share some policy 
recommendations that the we believe can help accelerate the EV market. 
Below we have identified the current barriers to adoption and key 
policy recommendations to address them.
                        initial purchase price:
    The upfront costs of EVs have long acted as a deterrent to EV 
purchases. Although prices of electric models have traditionally been 
higher than their ICE counterparts, prices are rapidly dropping as 
battery technology becomes cheaper. In 2008, battery prices were as 
high as $1,000/kWh and there were relatively large production 
inefficiencies due to lack of scale. Greater battery production is now 
underway, driving battery prices below $150/kWh today. Many experts 
believe that once battery prices reach $100/kWh, EVs will become 
completely cost competitive with internal combustion engines.
    Incentives like the 30D federal tax credit for purchasing EVs 
remain critical to fostering greater adoption at this early stage, and 
improvements to the 30D tax credit can make it even more effective. The 
current cap of 200,000 vehicles per manufacturer does not align 
industry incentives with factors such as early adoption or rapid 
technological advancement--first movers should be rewarded, not 
penalized. In order to enjoy the significant energy security benefits 
of widespread transportation electrification, it is vital that we 
reform 30D by raising the cap--and establish a sunset date--in order to 
continue incentivizing increased EV production and ultimately 
widespread EV adoption.
                         consumer preferences:
    As oil prices fell in 2015, sales of less fuel-efficient light 
trucks dramatically increased. By the end of 2018, light trucks 
represented nearly 70 percent of all new vehicles sold in the United 
States on an annualized basis. In terms of the early EV market, 
consumer preferences have also largely been ignored, as the vast 
majority of EVs available have been light-duty sedans. However, a wider 
range of models is now becoming available, with offerings at all points 
across the consumer market including SUVs and trucks. As an example, 
Ford recently announced plans to release an all-electric version of its 
highly popular F-150 truck.
                         infrastructure needs:
    Similarly, infrastructure needs must be expanded along with the 
availability of models. Range anxiety is decreasing as battery capacity 
improves, but this concern must be addressed with incentives, policies, 
and pilot programs to continue the build-out of EV chargers and, more 
broadly, charging corridors spanning the United States. To this end, 
one key policy lever is the 30C federal tax credit, which covers one-
third of the cost to purchase and install charging infrastructure 
(valued up to $1,000 in homes and up to $30,000 in commercial 
applications).
                  encouraging faster ev bus adoption:
    Beyond the private passenger vehicle market, electric buses are 
already beginning to meet some of the demands of transit systems in the 
U.S. However, we believe policymakers have the opportunity to 
accelerate the adoption of EV buses by addressing some of the barriers 
that transit agencies currently face. We should encourage the adoption 
of EV buses through federal financing mechanisms such as low-interest 
or zero-interest loans to public entities. This will help to address 
the realities of state and city budgeting, which often prioritize the 
lowest upfront capital expenditures (e.g., purchasing buses with 
internal combustion engines) with a tradeoff of higher overall lifetime 
operational costs versus electric buses. As a result, long-term fuel 
and maintenance costs are not factored into initial purchasing 
decisions--which overlooks the key long-term benefits of electric 
buses.
                supporting community engagement efforts:
    Besides federal support, there are a number of impactful policy 
options at the state and local levels. These include both monetary 
incentives, most commonly in the form of vehicle purchase incentives, 
and other non-financial incentives. It is incredibly important to 
ensure consumers are aware of the programs that are available to them, 
as they are unlikely to purchase EVs if they are unaware of the 
technology, how it can fit their lifestyle, and the potential savings.
    In order to combat consumer misunderstanding of the technology, 
industry and advocates such as the EC have used several strategies to 
raise consumer awareness. These include campaigns to increase awareness 
of charging infrastructure (e.g., adequate and highly-visible signage) 
and to convey to consumers the value benefit of electrification, such 
as the money that can be saved on fuel over time.
                      change at the federal level
    These initiatives described previously have proven to be very 
effective at the local level, with the promise of further success. 
However, improvements in infrastructure policy at the federal level can 
have a multiplier effect on such initiatives, allowing not only the 
nationwide replication of these projects but also a meaningful 
expansion in both their scope and scale.
    Congress and the Administration should continue to support the 30C 
and 30D federal tax credits, which support critical R&D efforts and 
incentivize consumer adoption respectively at this nascent stage of the 
industry's development. Retention of the $7,500 federal purchase 
incentive is vital to continuing to build momentum because some 
automakers have entered the tax credit's phase-out stage. We support 
lifting the cap on the total number of vehicles covered by the tax 
credit, and then a sunsetting to be negotiated by the stakeholders. 
Affordability should form a major part of these negotiations.
    As mentioned earlier in this testimony, electrifying city and 
municipal bus fleets would be a vital step forward in reducing oil 
dependence and enhancing U.S. energy security. To encourage this 
transition, we recommend prioritizing low-cost loans as an attractive 
financing solution to EV bus purchases, as city budgets implicitly 
penalize electric options by prioritizing upfront costs in their 
purchasing processes. In addition, further expanding the U.S. 
Department of Transportation's Federal Transit Administration Low or 
No-Emission Bus Competitive Grant Program, and other related 
initiatives, would act as a critical deciding factor for municipalities 
considering the switch to electric buses. Finally, the Federal Highway 
Administration's continued support of bus programs through the FAST Act 
must also be maintained. We are encouraged to hear the FAST Act 
received full funding in recent spending bills.
    Very importantly, federal policy is required to expand our nation's 
network of charging infrastructure, and allay persistent consumer fears 
over range and charging anxiety. Expanding the FHWA Alternative Fuel 
Corridors program should be integral to this effort. In addition, 
greatly improving signage directing drivers to EV chargers would also 
prove highly beneficial. The presence of such signage would not only be 
helpful to current EV drivers, but also demonstrate to other drivers 
considering the switch to an EV that the requisite charging 
infrastructure is available.
    Thank you again for the opportunity to testify before this 
committee. I look forward to your questions.

    Mr. Carbajal. Thank you, Mr. Prochazka.
    Ms. Young, you may proceed.
    Ms. Young. Thanks to Chairman DeFazio for calling this 
hearing.
    Ranking Member Graves, Chairman Carbajal, members of the 
committee, before we begin I would like to acknowledge that we 
at A4A join the entire aviation community in expressing our 
deepest sympathies for the families and loved ones of the 
crewmembers aboard Atlas Air flight 3591.
    We also appreciate the opportunity to testify today on the 
important role infrastructure management plays in addressing 
the climate change threat.
    The U.S. airlines have a decidedly strong fuel efficiency 
and greenhouse gas emissions record that is often overlooked or 
misstated. Although we drive over 10 million U.S. jobs, $1.5 
trillion in economic activity, and 5 percent of the Nation's 
GDP, we account for only 2 percent of the Nation's greenhouse 
gas emissions inventory.
    While this percentage is far less than most sectors--for 
example, less than the 17 and 28 percent shares attributed to 
passenger vehicles and power plants--we take our role in 
controlling greenhouse gas emissions very seriously. In fact, 
between 1978 and 2017, the U.S. airlines improved their fuel 
efficiency by more than 125 percent, saving over 4.6 billion 
metric tons of carbon dioxide, equivalent to taking more than 
25 million cars off the road each of those years.
    These numbers are not happenstance; we have achieved this 
record by developing and deploying technology, operations, and 
infrastructure advances central to providing safe and vital air 
transport as efficiently as possible within the constraints of 
our current air traffic management system.
    Indeed, for the past several decades, our airlines have 
invested billions in fuel-saving aircraft and engines, 
innovative technologies like winglets, cutting-edge flight 
management software, improved ground operations, and other 
measures. And I commend you to my written testimony for 
detailed descriptions of these initiatives, including 
deployment examples from A4A members.
    But despite our strong record to date, we are not resting 
on our laurels. Since 2009, A4A and our members have been 
active participants in a global aviation coalition that 
committed to 1.5 percent annual average fuel efficiencies 
through 2020, with a goal to achieve carbon-neutral growth in 
international aviation, starting in 2021.
    Further, we are working towards an additional aspirational 
goal to achieve a 50-percent net reduction in carbon dioxide 
emissions in 2050. The initiatives we are taking to meet these 
goals are designed to responsibly limit our greenhouse gas 
emissions contribution, while allowing commercial aviation to 
continue to serve as a key contributor to the U.S. economy.
    The efforts of our airlines are vital to these innovations. 
But so too are the public-private research and development 
partnerships we have with FAA and NASA.
    In addition to driving further fuel efficiency and 
emissions savings through improved technology operations and 
infrastructure, we are dedicated to deploying commercially 
viable, sustainable, alternative jet fuel, which could be a 
game-changer. We have made huge strides through our Commercial 
Aviation Alternative Fuels Initiative, farm-to-fly initiative, 
and other programs, such that United Airlines already is taking 
commercial supply of such fuel at Los Angeles International 
Airport. And Alaska, FedEx, Southwest, Jet Blue, and American 
all have agreements to support their future deployment of such 
fuel.
    Moreover, we support both international aviation greenhouse 
gas emissions agreements reached in 2016 under the 
International Civil Aviation Organization. The first of these 
agreements established a fuel efficiency and carbon dioxide 
certification standard for future aircraft, while the second 
represents the first and only market-based measure for 
greenhouse gas emissions from an individual business sector.
    The U.S. Government played a key leadership role in shaping 
these agreements, consistent with a mandate under Public Law 
112-200. While rejecting the unilateral approach the European 
Union was taking, that law directed U.S. officials to conduct 
international negotiations to pursue a global approach to 
addressing aircraft emissions. The two ICAO agreements, which 
are intended to be in lieu of unilateral measures, are broadly 
supported by the aviation industry, and we continue to look 
forward to working with Congress and the administration on 
their implementation.
    We are confident that the measures we are taking will 
reduce aviation's emissions footprint even further, while 
allowing commercial aviation to continue to provide an 
invaluable service to our Nation and its economy. However, 
there is a complementary role for the Federal Government to 
play.
    Specifically, we seek support from Congress and the 
executive branch in three key areas: first, business-case-based 
implementation of the next generation air transportation 
system, NextGen, prioritizing existing equipage; second, stable 
policies to further support making sustainable alternative jet 
fuel commercially viable; and third, continuation and proper 
funding of aviation environmental research and development 
programs.
    Again, thank you for the opportunity to testify, and we 
look forward to working with you on these important issues.
    [Ms. Young's prepared statement follows:]

                                 
  Prepared Statement of Nancy N. Young, Vice President, Environmental 
                  Affairs, Airlines for America (A4A)
    On behalf of our A4A members, thank you Chairman DeFazio, Chairman 
Larsen, Ranking Member Graves and Ranking Member Graves for the 
opportunity to testify today. As you know, the U.S. airlines have a 
tremendous fuel and greenhouse gas (GHG) emissions record, accounting 
for 2 percent of the nation's GHG emissions inventory while driving 5 
percent of its GDP. In fact, between 1978 and year-end 2017, the U.S. 
airlines improved their fuel efficiency by more than 125 percent, 
saving over 4.6 billion metric tons of carbon dioxide (CO2), equivalent 
to taking 25 million cars off the road each of those years. And we 
carried 34 percent more passengers and cargo in 2017 than we did in 
2000, while emitting no more CO2.\1\
---------------------------------------------------------------------------
    \1\ Fuel savings facts are from data from the U.S. Department of 
Transportation Bureau of Transportation Statistics. Carbon dioxide 
savings and equivalencies were calculated using EPA tools at: 
www.epa.gov/cleanenergy/energy-resources/calculator.html.
---------------------------------------------------------------------------
    These numbers are not happenstance. As an industry, we have 
achieved this record by driving and deploying technology, operations 
and infrastructure advances to provide safe and vital air transport as 
efficiently as possible within the constraints of our air traffic 
management system. Indeed, for the past several decades, airlines have 
dramatically improved fuel efficiency and reduced CO2 emissions by 
investing billions in fuel-saving aircraft and engines, innovative 
technologies like winglets (which improve aerodynamics), and cutting-
edge route-optimization software. But despite our strong record to 
date, A4A and our member airlines are not stopping there nor are we 
resting on our laurels.
    Since 2009, A4A and our members have been active participants in a 
global aviation coalition that committed to 1.5 percent annual average 
fuel efficiency improvements through 2020, with a goal to achieve 
carbon neutral growth in international aviation from 2020, subject to 
critical aviation infrastructure, technology, operations and 
sustainable fuels advances by government and industry. Further, we are 
working toward an additional aspirational goal to achieve a 50 percent 
net reduction in CO2 emissions in 2050, relative to 2005 levels.
    The initiatives we are undertaking to further reduce our GHG 
emissions are designed to responsibly and effectively limit our fuel 
consumption, GHG contribution and potential climate change impacts 
while allowing commercial aviation to continue to serve as a key 
contributor to the U.S. economy. A4A and our members are keenly focused 
on these initiatives, both at the national and international levels. We 
welcome this hearing on Federal infrastructure policy to help address 
climate change as there is a critical role for the Federal Government 
to play in advancing aviation infrastructure, technology and energy 
policy to complement our efforts.
  the u.s. airlines are extremely ghg efficient and are committed to 
                  further limiting their ghg footprint
    The U.S. airlines have a decidedly strong GHG emissions track 
record that is often overlooked or misstated. We contribute just under 
2 percent of the nation's GHG emissions inventory. To put that into 
context, as illustrated in Figure 1 below, passenger vehicles (cars and 
light duty trucks) account for over 17 percent and power plants for 28 
percent of the total inventory. The picture is similar when viewed on a 
global basis with worldwide commercial aviation contributing 
approximately 2 percent of man-made GHGs.\2\
---------------------------------------------------------------------------
    \2\ Air Transport Action Group, Aviation Benefits Beyond Borders 
(2018), available at https://aviationbenefits.org/media/166344/
abbb18_full-report_web.pdf (citing the 2017 Global Carbon Project, 
Global Carbon Budget, available at https://www.icos-cp.eu/GCP/2017).
---------------------------------------------------------------------------
FIGURE 1. THE U.S. GHG INVENTORY BY SECTOR \3\
---------------------------------------------------------------------------
    \3\ U.S. EPA, Inventory of U.S. Greenhouse Gas Emissions and Sinks: 
1990-2016 (April 2018), Table ES-6: U.S. [GHG] Allocated to Economic 
Sectors at ES-24; Table A-119: Total U.S. [GHG] Emissions from 
Transportation and Mobile Sources at A176-77.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    At the same time, U.S. commercial aviation is vitally important to 
local, national, and global economies, supporting a large percentage of 
U.S. economic output. Indeed, in 2014, commercial aviation drove 10.2 
million U.S. jobs, $1.5 trillion in economic activity and 5 percent of 
our nation's GDP.\4\ And in 2017, U.S. air-travel exports of $41 
billion helped fuel $211 billion in other U.S. travel and tourism 
exports.\5\ Comparing the U.S. airline industry's economic output to 
its GHG output, it is clear that commercial aviation is an extremely 
GHG-efficient economic engine.
---------------------------------------------------------------------------
    \4\ See FAA, The Economic Impact of Civil Aviation on the U.S. 
Economy (Nov. 2016), available at https://www.faa.gov/air_traffic/
publications/media/2016-economic-impact-report_FINAL.pdf.
    \5\ Bureau of Economic Analysis, International Transactions (ITA) 
Table 3.1--U.S. International Trade in Services Lines 8, 12 and 1, 
available at http://www.bea.gov/iTable/
iTable.cfm?ReqID=62&step=1#reqid=62&step=6&isuri=1&6210=1&6200=51, and 
http://travel.trade.gov/research/reports/recpay/index.html.
---------------------------------------------------------------------------
    Our global aviation coalition continues to meet our 2009 commitment 
of a 1.5 percent annual average fuel efficiency improvement, and we are 
working on our goal to achieve carbon neutral growth in international 
aviation from 2020, subject to critical aviation infrastructure and 
technology advances achieved by government and industry. As detailed 
below, our primary focus is on getting further fuel efficiency and 
emissions savings through new aircraft technology, operations and 
infrastructure improvements and sustainable alternative jet fuel 
(SAJF). In addition, consistent with the mandates in Public Law 112-
200, A4A and our member airlines have supported two significant 
international fuel efficiency and GHG savings agreements adopted in 
2016 under the auspices of the United Nations body that sets standards 
and recommended practices for international aviation, the International 
Civil Aviation Organization (ICAO). Notably, industry and government 
collaboration remains critical to our efforts.
   examples of technology, operations and infrastructure initiatives
    With fuel being one of the highest and most volatile cost centers 
for airlines--and every penny of increased fuel price equating to an 
additional $200 million fuel bill per year--the U.S. airlines' 
environmental and economic interests in saving fuel and reducing 
emissions align. Accordingly, the U.S. airlines have been able to 
deliver tremendous economic output while reducing our emissions through 
reinvestment in technology and more fuel-efficient operations on the 
ground and in the sky. Indeed, today's airplanes are more 
technologically advanced--they are quieter, cleaner and use less fuel 
than ever before--and airlines are flying them in ways that take 
maximum advantage of the technology within the constraints of our 
current air traffic management (ATM) system. This flight optimization 
reduces fuel burn and environmental impacts. Some examples of the 
advancements that have resulted in the U.S. airlines' 125 percent fuel 
efficiency improvement since 1978 and will continue to support 
improvements include:
    <bullet>  Upgrading Fleets. With recently improved finances, the 
U.S. airlines and aircraft operators have been able to invest billions 
of dollars to upgrade their fleets with newer, quieter aircraft that 
produce less noise and fewer emissions. For example, U.S. airlines 
purchased more than 480 new aircraft in 2017, with more than 1,550 
additional planes expected in the coming years. Our airlines have also 
made significant investments in winglets, altering fan blades, and 
other measures that improve aerodynamics. By way of example, in 2017, 
Alaska Airlines finalized installation of split scimitar winglets on 
all of its eligible 737 aircraft. With such winglets enabling aircraft 
to be approximately 4.5 percent more fuel efficient than those without 
winglets, Alaska improved average fuel efficiency by over 34,000 
gallons per aircraft each year. And Alaska's new 737NG aircraft are 
modified when they receive them, making the aircraft as fuel efficient 
as possible upon entry into service.\6\ Accordingly, in 2017, Alaska's 
scimitar winglets modification saved an additional 4.5 million gallons 
of fuel, equating to a reduction of 42,633 metric tons of CO2.
---------------------------------------------------------------------------
    \6\ This and other fuel and emissions savings initiatives are 
detailed in Alaska's sustainability report, available at http://
www.flysustainably.com/wp-content/uploads/2018/09/AlaskaAirReport-
Final-092418.pdf.
---------------------------------------------------------------------------
    <bullet>  Introduction of Innovative, Cutting-Edge Technologies and 
Improved In-Flight Operations. Our airlines also are investing billions 
of dollars in technologies to enable more efficient flight paths. For 
example, the airlines have undertaken equipage for Required Navigation 
Performance (RNP) and Performance-Based Navigation (PBN) procedures, 
which provide navigation capability to fly a more precise path into and 
out of airports.\7\ A4A airlines also have deployed increasingly 
sophisticated software to analyze flight paths and weather conditions, 
allowing aircraft to fly more direct, efficient routes where the ATM 
system is able to accommodate them.

    \7\ In fact, Alaska Airlines pioneered the application of RNP 
technology during the mid-1990s to help aircraft land at some of the 
world's most remote and geographically challenging airports in the 
State of Alaska.
---------------------------------------------------------------------------
       A4A airlines continue to do all they can within the existing ATM 
system to utilize programs to optimize speed, flight path and altitude, 
which not only reduces fuel consumption and emissions in the air but 
avoids wasting fuel waiting for a gate on the ground. In addition to 
pursuing the use of RNP approach procedures at additional locations, 
A4A carriers--such as UPS Airlines at its hub in Louisville--have 
worked with FAA to pioneer protocols for optimized profile descents 
(OPDs) (also referred to as ``continuous descent arrivals''), which 
reduce both emissions and noise, and we are doggedly pursuing 
implementation of OPDs where the existing ATM system allows. 
Demonstrating that the efforts extend to the smallest details of 
airline operation, our members also have worked on redistribution of 
weight in the belly of aircraft to improve aerodynamics and have 
introduced life vests on certain domestic routes, allowing them to 
overfly water on a more direct route.
    <bullet>  Improved Ground Operations. A4A airlines also are 
employing single-engine taxiing when conditions permit, redesigning 
hubs and schedules to alleviate congestion and converting to electric 
ground support equipment (GSE) when feasible. For example, as part of 
Southwest Airlines' ongoing program to modernize its GSE fleet, the 
company invested $7.9 million in electric vehicles in 2017.\8\ Further, 
our airlines are improving ground operations by plugging into electric 
gate power where available to avoid running auxiliary power units 
(APUs). By way of example, American Airlines' ``Fuel Smart'' program is 
securing emissions reductions by such means, as well as washing engine 
components for maximum efficiency, and other initiatives.\9\ Similarly, 
while Hawaiian Airlines already provides external gate power to its 
narrow-body fleet between the Hawaiian Islands, the airline has made 
significant headway toward its goal of having gate power available to 
its entire wide-body fleet within 3 minutes of arrival as aircraft fly 
between Hawaii, 11 U.S. gateway cities and 10 international 
destinations, with the potential to reduce Hawaiian's APU usage by an 
estimated 30 minutes per flight, saving some 620,000 gallons of fuel 
annually and cutting CO2 emissions by 5,933 metric tons.\10\
---------------------------------------------------------------------------
    \8\ See Southwest Airlines, ``One Report'' (2017), available at 
http://southwestonereport.com/2017/stories/electricity-sparks-fuel-
savings/.
    \9\ See American Airlines, 2017 Corporate Responsibility Report, 
available at http://s21.q4cdn.com/616071541/files/doc_downloads/crr/
CRR-Report-2017.pdf. In addition to achieving savings in costs and GHG 
emissions, Fuel Smart translates a portion of its APU fuel savings into 
a donation to the Gary Sinise Foundation for the purposes of providing 
travel for active duty military members, veterans, first responders and 
their family members in need. Since Fuel Smart launched in 2010, 
American has generated nearly $4 million in contributions through the 
program, helping more than 6,800 service members and their families 
travel to receive the support they need.
    \10\ See Hawaiian Airlines' Airport Operations Lowering Fuel Use, 
Carbon Emissions, available at https://newsroom.hawaiianairlines.com/
releases/hawaiian-airlines-airport-operations-lowering-fuel-use-carbon-
emissions.
---------------------------------------------------------------------------
    <bullet>  Reducing Onboard Weight. A4A airlines continue to 
exhaustively review ways, large and small, to reduce aircraft weight--
removing seat-back phones, excess galley equipment and magazines, 
introducing lighter seats and beverage carts, stripping primer and 
paint and a myriad of other detailed measures to improve fuel 
efficiency. For example, by replacing flight bags with flight crew 
tablets, UPS reduced the weight associated with these critical 
materials by 70 pounds, with the reduced fuel burn equating to 1,400 
metric tons of CO2 emissions avoided.\11\
---------------------------------------------------------------------------
    \11\ See UPS 2017 Corporate Sustainability Progress Report 
available at https://sustainability.ups.com/media/2017_UPS_CSR.pdf.
---------------------------------------------------------------------------
    In addition to the above types of measures, A4A and our members 
continue to partner with FAA, NASA, research entities and other 
aviation stakeholders to advance research, development and deployment 
of breakthrough technologies and operational and infrastructure 
advances. The Continuous Lower Energy, Emissions & Noise or ``CLEEN'' 
program is a key initiative in this regard. This FAA-industry public-
private partnership is focused on near-to-medium term aircraft engine 
and technology breakthroughs for lower emissions and noise, enhanced 
energy efficiency and aviation alternative fuels. The program, which 
requires a one-to-one match of private dollars, has enabled the 
development of new technologies such as the Adaptive Trailing Edge 
(ATE) on the aircraft wing, providing up to a 2 percent reduction in 
aircraft fuel burn and a 1.7 decibel reduction in aircraft noise; the 
Twin Annular Premixed Swirler (TAPS) II advanced engine combustor, 
yielding significant reductions in emissions of oxides of nitrogen 
(NOx); and geared turbofan engine technologies, contributing to a 20 
decibel aircraft noise reduction and a 20 percent fuel burn reduction.
    Another critical program is the FAA Center of Excellence for 
Alternative Jet Fuels and the Environment (ASCENT), the university-
based research vehicle for the FAA to discover, analyze, and develop 
science- and technology-based solutions to support the growth of the 
U.S. aviation industry by addressing the energy and environmental 
challenges the industry faces. This program also requires a one-to-one 
match of private-to-Federal funding and supports work by 16 university 
partners across the country. In addition to providing a better 
understanding of aviation environmental impacts that shape industry and 
government energy and environmental work, ASCENT's applied research has 
helped with the development of air traffic procedures and airport 
infrastructure configuration to enhance the efficiency of U.S. 
aviation.
    And for advanced, future airframe and engine technologies, the 
aviation industry collaborates with NASA through its Aeronautics 
Research (ARMD) program, which is considering transformative 
configurations, including light weight, high aspect ratio wings; 
unconventional structures; advanced propulsion; and electrified 
aircraft propulsion, among other radical concepts.
The Development and Deployment of SAJF
    Recognizing that improving fuel efficiency with today's petroleum-
based energy supply can only take us so far, A4A and our members are 
dedicated to developing commercially viable, environmentally friendly 
alternative jet fuel, which could be a game-changer in terms of 
aviation's output of GHG emissions while enhancing U.S. energy 
independence and security.
    To be sustainable, alternative jet fuel must meet three core 
criteria. It must be demonstrated to be (1) as safe as petroleum-based 
fuels for powering aircraft; (2) more environmentally friendly than 
petroleum-based fuels; and (3) capable of being produced to provide 
cost-competitive, reliable supply. A4A and our members have been 
working with government partners and other stakeholders in a concerted 
effort to meet these criteria--and we have made tremendous progress, 
having moved from test flights to commercial and military flights with 
SAJF. But we must continue to tackle each challenge, using every tool 
to attain full viability.
    As the challenges to standing up a self-sustaining aviation 
alternative fuels industry cut across multiple disciplines--from 
aviation, to agriculture, fuel production, investment capital, 
logistics and beyond--no one initiative or program can do it all. Yet, 
the U.S. aviation industry determined early on that a coordinating body 
would be needed to establish a clear vision and leverage the efforts 
across initiatives. Accordingly, in 2006, A4A, FAA, the Aerospace 
Industries Association (AIA) and Airports Council International-North 
America (ACI-NA) co-founded the Commercial Aviation Alternative Fuels 
Initiative (CAAFI) to serve as the driving and coordinating force for 
the industry's efforts. ``CAAFI's goal is to promote the development of 
alternative jet fuel options that offer equivalent levels of safety and 
compare favorably on cost with petroleum-based jet fuel, while also 
offering environmental improvement and security of energy supply.'' 
\12\ Through CAAFI, we have worked to address and overcome the 
challenges to commercial-scale deployment of SAJF--ensuring safety and 
environmental benefit while working to achieve supply reliability and 
cost-competitiveness.
---------------------------------------------------------------------------
    \12\ See www.caafi.org.
---------------------------------------------------------------------------
SAJF--Ensuring Safety
    No matter what issue or challenge we face, airlines never lose 
sight of their core mission: safety. Our fuels must meet rigorous 
specifications that ensure safe operation, whether in the icy cold at 
30,000 feet or while filling tanks on the ground at airports crowded 
with activity. Accordingly, before an alternative fuel can be approved 
for commercial use, it must meet rigorous safety and performance 
standards set out in the applicable specification, which is controlled 
by ASTM International, an organization devoted to the development and 
management of standards for a wide range of industrial products and 
processes. This specification, in turn, is included in FAA product 
approvals and required air-carrier manuals.
    One of CAAFI's most significant contributions to date has been the 
development of the approval process for alternative jet fuels through 
ASTM. Not surprisingly, the original jet fuel specification, ASTM 
D1655, titled ``Standard Specification for Aviation Turbine Fuels,'' 
covered only jet fuels derived from specific fossil-fuel sources. The 
CAAFI team worked within ASTM to identify means for gaining approval of 
jet fuels derived from alternative feedstocks provided that those fuels 
are equally safe and effective.\13\ As a result, in August 2009, after 
completing its rigorous review process, ASTM approved D7566, ``Aviation 
Turbine Fuel Containing Synthesized Hydrocarbons.'' This specification 
allows for alternatives that demonstrate that they are safe, effective 
and otherwise meet the specification and fit-for-purpose requirements 
to be deployed as jet fuels, on par with fuels under ASTM D1655. It is 
structured, via annexes, to accommodate different classes of 
alternative fuels when they are demonstrated to meet the relevant 
requirements. As shown in Figure 2, we now have five approved 
``pathways'' for SAJF production, and more are currently undergoing the 
rigorous review and approval process.
---------------------------------------------------------------------------
    \13\ CAAFI worked within ASTM to issue a specific standard to 
facilitate the approval of alternative jet fuel made from varying 
feedstocks and production processes, ASTM D4054, ``Standard Practice 
for Qualification and Approval of New Aviation Turbine Fuels and Fuel 
Additives.''

          FIGURE 2. Approved SAJF ``Pathways'' Under ASTM D7566
------------------------------------------------------------------------
                                            Date of
 Pathways/Process   Feedstock Examples      Approval      Blending Limit
------------------------------------------------------------------------
 
Fischer-Tropsch-----Biomass (forestry---2009-------------Up to 50%------
 Synthetic           residues,
 Paraffinic          grasses,
 Kerosene (FT-SPK)   municipal solid
                     waste)
------------------------------------------------------------------------
Hydroprocessed      Oil-bearing         2011             Up to 50%
 Esters and Fatty    biomass (e.g.,
 Acids (HEFA-SPK)    algae, jatropha,
                     camelina,
                     carinata)
------------------------------------------------------------------------
Hydroprocessed      Microbial           2014             Up to 10%
 Fermented Sugars    conversion of
 to Synthetic        sugars to
 Isoparaffins (HFS-  hydrocarbon
 SIP)
------------------------------------------------------------------------
FT-SPK with         Renewable biomass   2015             Up to 50%
 aromatics (FT-SPK/  such as municipal
 A)                  solid waste,
                     agricultural
                     wastes and
                     forestry
                     residues, wood
                     and energy crops
------------------------------------------------------------------------
Alcohol-to-Jet      Agricultural        2016             Up to 30%
 Synthetic           wastes products    (plus added
 Paraffinic          (stover, grasses,   feedstocks
 Kerosene (ATJ-      forestry slash,     2018)
 SPK)                crop straws)
------------------------------------------------------------------------

    By meeting the rigorous jet fuel specification and fit-for-purpose 
requirements, sustainable alternative jet fuels are demonstrated to be 
``drop-in'' fuels, completely compatible with existing airport fuel 
storage and distribution methods and airplane fuel systems. 
Accordingly, they do not carry added infrastructure costs for airlines, 
fuel distributors or airport authorities, enhancing prospects for their 
commercial viability.
Ensuring Environmental Benefit
    We also have made tremendous progress on demonstrating whether a 
particular alternative jet fuel provides environmental benefit relative 
to petroleum-based fuel. As carbon is fundamental to powering aircraft 
engines, this and the CO2 generated upon combustion cannot be 
eliminated from drop-in jet fuels, but they can be reduced, either 
through increasing the per-unit energy provided in the fuel, reducing 
carbon somewhere along the ``lifecycle'' of the fuel, or some 
combination of the two. Indeed, there can be emissions all along the 
``life'' of the fuel--from growing or extracting the feedstock, 
transporting that raw material, refining it, transporting the finished 
fuel product and using it. By examining the emissions generated at each 
point in the lifecycle, one can ensure that the emissions benefits that 
are sought are in fact real and do not create emissions ``dis-
benefits'' along the way.
    Ensuring the environmental benefit of alternative aviation fuels is 
critical to A4A and its member airlines. Accordingly, as far back as 
2008, we agreed on a set of alternative fuels principles, which include 
a commitment that the alternative fuels we accept need to have reduced 
lifecycle GHG emissions compared to today's fuels and not compete with 
food production. In that commitment, we agreed to work through CAAFI to 
ensure this. Accordingly, CAAFI's Sustainability Team,\14\ which I co-
lead along with Dr. James Hileman of the FAA, has developed and 
supported seminal guidance on the methodologies for lifecycle analysis 
of alternative aviation fuels \15\ and case studies that use these 
methodologies.\16\ SAJF has been demonstrated to achieve up to an 80 
percent lifecycle GHG savings relative to petroleum-based fuel.\17\ In 
addition, a comprehensive assessment under the Transportation Research 
Board's Airport Cooperative Research Program (ACRP) confirms that the 
use of SAJF can reduce more than just GHG emissions, including 
emissions of sulfur oxides (SOx), particulate matter (PM), carbon 
monoxide, unburned hydrocarbon emissions, and NOx.\18\
---------------------------------------------------------------------------
    \14\ CAAFI's Sustainability resources are available at: http://
www.caafi.org/focus_areas/sustainability.html.
    \15\ See ``Framework and Guidance for Estimating Greenhouse Gas 
Footprints of Aviation Fuels (Final Report) (2009, AFRL-WP-TR-2009-
2206); see also Young, CAAFI Environment Team: Developing Tools & Means 
to Address Environmental Issues (April 16, 2013), available at http://
www.caafi.org/files/presentations/
Environment_Young_ABLC_Apr17_2013.pdf.
    \16\ See, e.g., Stratton, Wong & Hileman, Life Cycle Greenhouse Gas 
Emissions from Alternative Jet Fuels (April 2010).
    \17\ International Air Transport Association, Sustainable Aviation 
Fuels: Fact sheet, available at https://www.iata.org/pressroom/
facts_figures/fact_sheets/Documents/fact-sheet-alternative-fuels.pdf.
    \18\ See Transportation Research Board, ACRP Project 02-80: ``State 
of Industry Report on Air Quality Emissions from Sustainable 
Alternative Jet Fuels,'' at 5 (April 2018) (available at http://
www.trb.org/Aviation1/Blurbs/177509.aspx).
---------------------------------------------------------------------------
    While seeking emissions benefits from SAJF, A4A and its members 
also recognize that use of such fuels must not create environmental 
problems in other areas. SAJF must be produced in a fashion meeting all 
relevant environmental criteria, including land use, water management 
and the like. Put another way, the production, transport and use of 
these fuels generally must be deemed ``sustainable.'' Accordingly, 
CAAFI also has provided peer-review guidance on making sure relevant 
sustainability criteria are met.\19\
---------------------------------------------------------------------------
    \19\ See CAAFI, Alternative Jet Fuel Environmental Sustainability 
Overview (July 2013), available at http://www.caafi.org/information/
pdf/Sustainability_Guidance_Posted_2013_07.pdf. CAAFI also provides a 
step-by-step overview of sustainability review processes on its webpage 
at http://www.caafi.org/focus_areas/sustainability.html.
---------------------------------------------------------------------------
Fostering Supply Reliability and Commercial Viability
    As noted by Bill Harrison, Technical Advisor for Fuels and Energy 
at the U.S. Air Force Research Laboratory, scaling up supply and making 
SAJF cost-competitive may well be the most significant challenge to its 
full-scale commercial deployment.\20\ A key role that A4A and its 
member airlines are playing as end-users of such fuels is to send 
appropriate market signals to would-be producers, the farmers and 
others who generate energy feedstock, and investors in the alternative 
fuels industry.\21\ Further, A4A entered into a ``Strategic Alliance 
for Alternative Aviation Fuels'' with the U.S. Department of Defense's 
Defense Logistics Agency-Energy (DLA-Energy, which previously was known 
as the Defense Logistics Agency's Defense Energy Support Center) to 
further encourage alternative fuel producers to include SAJF in their 
product slate. Our vigorous pursuit of SAJF has sent an unmistakable 
signal: U.S. airlines are committed to making SAJF viable and will do 
their part to overcome the obstacles that may stand in the way. But we 
recognize that we cannot do it alone. Ongoing commitment in public-
private partnerships is needed to get the alternative aviation fuels 
industry over the cusp, just as was the case when the Federal 
Government jump-started the Internet, satellite systems and other 
backbone infrastructure--working with industry to help make these 
ventures self-sustaining.
---------------------------------------------------------------------------
    \20\ Harrison, Alternative Fuels: How Can Aviation Cross the Valley 
of Death (Massachusetts Institute of Technology Master's Thesis, 2008).
    \21\ One of many such signals is a ``how to'' document on how 
alternative aviation fuels producers can work with airlines on purchase 
agreements. This document, ``Guidance for Selling Alternative Fuels to 
Airlines,'' is available on the CAAFI website at http://www.caafi.org/
files/CAAFI_Business_Team_Guidance_Paper.pdf.
---------------------------------------------------------------------------
    While CAAFI has focused on supply reliability and commercial 
viability, other public-private partnerships and initiatives have been 
needed to spur investment in this new supply chain. Perhaps most 
notable in this regard is the Farm to Fly initiative, which A4A, the 
U.S. Department of Agriculture (USDA) and Boeing created in 2010 to 
help meet the direction set in the 2008 Farm Bill that U.S. programs 
aimed at energy crops should be equally available for air 
transportation fuels as for ground transportation fuels.\22\ Indeed, 
the aim of the original Farm to Fly initiative was ``to accelerate the 
availability of a commercially viable sustainable aviation biofuel 
industry in the United States, increase domestic energy security, 
establish regional supply chains and support rural development.''
---------------------------------------------------------------------------
    \22\ Conf. Rpt. 110-627, on H.R. 2419; p. 911, May 13, 2008.
---------------------------------------------------------------------------
    The initial Farm to Fly initiative helped make accessible to 
farmers, fuel producers, airlines and military aviation a number of the 
tools and programs that had been available to ground-based alternative 
fuels for some time. It also resulted in a two-part report in January 
2012 which offered a blueprint for continuing to advance opportunities 
for Rural America and the aviation sector through aviation 
biofuels.\23\ Moreover, the initial Farm to Fly initiative helped spawn 
two regional initiatives to foster the development and deployment of 
alternative jet fuels derived from sustainable biomass grown in the 
United States. The first of these, the Sustainable Aviation Fuels 
Northwest (SAFN) initiative, led in part by A4A member Alaska Airlines, 
together with the Port of Seattle, Port of Portland, Spokane 
International Airport, Boeing and Washington State University, found 
that an aviation biofuels industry can be commercially viable in the 
Pacific Northwest and identified four, particularly promising 
feedstocks; oilseeds, forest residues, municipal solid wastes and 
algae; for generating advanced aviation biofuels.\24\ The second, the 
Midwest Sustainable Aviation Biofuels Initiative (MASBI), led in part 
by A4A member United Airlines, Boeing, Honeywell's UOP, the Chicago 
Department of Aviation, and the Clean Energy Trust, developed 
recommendations to help ``achieve the potential economic, 
environmental, and energy security benefits that can be delivered from 
a robust sustainable aviation biofuels industry in the Midwest.'' \25\
---------------------------------------------------------------------------
    \23\ See Agriculture and Aviation: Partners in Prosperity, 
available at http://www.airlines.org/Documents/usda-farm-to-fly report-
jan-2012.pdf; see also Agriculture and Aviation: Partners in 
Prosperity: Putting Aviation at the Forefront of the President's 
Biofuels Targets, Part II. Industry Recommendations, available at 
http://www.airlines.org/Documents/Farm_to_Fly_Recommendations-A4A-
Boeing-Jan2012.pdf.
    \24\ See SAFN, Powering the Next Generation of Flight, available at 
http://www.safnw.com/wp-content/uploads/2011/06/SAFN_2011Report.pdf.
    \25\ See MASBI, Fueling a Sustainable Future for Aviation, 
available at http://www.masbi.org/content/assets/MASBI_Report.pdf.
---------------------------------------------------------------------------
    In April 2013, we launched Farm to Fly 2.0, bringing in additional 
stakeholders and expanding the supply chain reach. Although the Farm to 
Fly initiative has been important for bringing together tools and the 
various participants in the aviation alternative fuels supply chain, 
there would be no such initiative without the Energy Title programs 
under the Farm Bill--the most recent version of which is the 
Agricultural Improvement Act of 2018. While the 2018 Farm Bill included 
a number of energy programs, some of which are accessible to those in 
the supply chain for providing SAJF, we urge Congress to fully fund 
programs like the Biomass Crop Assistance Program (BCAP) and the 
Biomass Research and Development Program (BRDI) to leverage the 
investments that the U.S. Government and the private sector have 
already made and provide the stability needed for further progress.
    While challenges remain, our joint efforts are bearing fruit. For 
example, United Airlines began using commercial quantities of SAJF at 
Los Angeles International Airport in 2016 pursuant to an off-take 
agreement with AltAir Fuels to purchase up to 15 million gallons of 
SAJF over 3 years. United has also made a $30 million equity investment 
in Fulcrum BioEnergy, which includes provisions to co-develop up to 
five facilities and purchase at least 90 million gallons of SAJF per 
year over 10 years.\26\ FedEx and Southwest Airlines have similarly 
committed to each purchase 3 million gallons per year from Red Rock 
Biofuels, and JetBlue has signed a 10-year off-take agreement with SG 
Preston for up to 10 million gallons per year. Further, both Alaska 
Airlines \27\ and American Airlines \28\ have signed Memoranda of 
Understanding with Neste for coordination and potential future 
deployment of SAJF. Moreover, while airlines purchase and manage all 
fuel purchases, they are increasingly partnering with airports and 
other stakeholders to help assess the potential for deployment of SAJF 
at particular airports in areas where SAJF production is being 
considered and may be commercially viable. For example, Alaska Airlines 
partnered with Boeing and the Port of Seattle on an infrastructure 
study for potential future deployment of SAJF at Seattle-Tacoma 
International (Sea-Tac) \29\ and several airlines have entered into 
Memoranda of Understanding with Sea-Tac and San Francisco International 
Airport (SFO) to explore potential SAJF coordination opportunities. In 
addition, in 2017, United and Atlas Air joined various foreign airlines 
and Chicago O'Hare International Airport in a special ``Fly Green Day'' 
commercial deployment of SAJF.
---------------------------------------------------------------------------
    \26\ Details on United Airlines' SAJF program are available at 
http://crreport.united.com/our-environment/sustainable-fuel-sources.
    \27\ See Alaska Airlines Press Release, available at https://
newsroom.alaskaair.com/2018-09-10-Alaska-Airlines-and-Neste-grow-
innovative-partnership-to-fly-more-sustainably.
    \28\ See Neste Press Release, available at https://www.neste.com/
neste-and-american-airlines-collaborate-explore-opportunities-
renewable-fuel-use.
    \29\ The infrastructure report is available at https://
www.portseattle.org/sites/default/files/2018-03/
Aviation_Biofuel_Infrastructure_Report_Condensed.pdf
---------------------------------------------------------------------------
    Although these initial purchase and cooperative agreements for SAJF 
deployment are promising, two critical observations capture why we 
cannot be complacent in our efforts. First, these projects would not 
exist without the public-private partnerships we have engaged in to 
date. And second, while meaningful to the parties involved, they still 
are relatively small scale, largely because producing SAJF to meet the 
rigorous jet fuel specification is a higher hurdle than the equivalent 
for alternative ground-based fuels. Accordingly, to expand upon these 
projects and spur more, we must continue to employ all the tools and 
partnerships we have identified and created to date and take further 
action to lay the foundation for all supply chain elements to become 
self-sustaining.
industry-supported icao agreements on fuel efficiency and co2 emissions 
                      from international aviation
    Although the U.S. airlines' financial and environmental objectives 
have continually prompted fuel and GHG emissions savings, several 
countries have imposed or threatened to impose on international 
aviation unilateral carbon emissions trading, taxing and charging 
schemes, which are siphoning away from aviation the very funds the 
industry needs to purchase new, more fuel efficient aircraft and take 
other steps to meet our fuel efficiency and emissions savings goals. In 
fact, as of 2013, the Air Transport Action Group (ATAG) had estimated 
that $7 billion in such charges already were being levied on airlines, 
with more introduced or proposed since.
    One of the most onerous of the unilateral measures has been the 
European Union's imposition of its emissions trading scheme (EU ETS) on 
international aviation. Despite international opposition from the 
outset, beginning in 2009, the EU required airlines and aircraft 
operators (including U.S. airlines and aircraft operators) with flights 
to European States and territories to monitor and report to the EU 
their emissions for the entirety of each individual flight to, from and 
within the EU, as a prelude to the emissions trading obligation that 
was due to begin in 2012. As a result of the pressure put on the EU 
from the U.S. and other countries, most significantly from the U.S. 
adoption of the ``European Union Emissions Trading Scheme Prohibition 
Act'' (PL-112-200), the EU ``stayed'' the extraterritorial application 
of the EU ETS to international aviation through year-end 2016, to take 
into account the progress in ICAO on an agreement for handling 
aviation's CO2 emissions from international flights. In December 2017, 
the EU approved legislation to extend the stay until year-end 2024, 
again making the stay subject to ICAO action, this time with respect to 
progress on implementation of agreements reached in 2016 on aviation's 
international CO2 emissions.
    A4A greatly appreciated the leadership of this Committee in 
approving the ``European Union Emissions Trading Scheme Prohibition 
Act'' in 2012. Significantly, in addition to recognizing that the 
unilateral action of the EU in imposing its ETS on U.S. aircraft 
operators was unlawful and inappropriate, the statute directed that 
DOT, FAA and other appropriate U.S. officials ``use their authority to 
conduct international negotiations . . . to pursue a worldwide approach 
to address aircraft emissions, including the environmental impact of 
aircraft emissions.'' Consistent with this directive, the U.S. played a 
significant role in developing two ICAO agreements to support aviation 
GHG emissions goals and stave off the proliferation of unilateral 
emissions taxes, charges and trading schemes--one agreement for a fuel 
efficiency and CO2 certification standard for future aircraft and 
another to establish an international carbon offsetting system to help 
the industry work toward achieving carbon neutral growth in 
international aviation from 2020. Both of these agreements, which are 
supposed to be implemented in lieu of unilateral measures, are broadly 
supported by A4A, our members and the broader U.S. aviation industry.
The ICAO Fuel Efficiency and CO2 Emissions Certification Standards for 
        Future Aircraft
    ICAO's Committee on Aviation Environmental Protection, which 
includes representatives from the U.S. EPA, FAA and State Department, 
the aviation industry, and environmental non-governmental organizations 
(NGO's), worked to develop, and then in 2016 proposed for adoption, a 
set of fuel efficiency and CO2 emissions certification standards for 
future aircraft. The standards, which were approved by ICAO's governing 
body (the ICAO Council), confirm an agreed level of fuel efficiency for 
future aircraft, which equates to CO2 emissions reductions. The 
standards applicable to new-type design large aircraft (i.e., aircraft 
used by airlines) are slated to go into effect in 2020, while the 
standards for the future manufacture of existing-type large aircraft 
(also referred to as ``in-production aircraft'') are slated to go into 
effect in 2023.\30\
---------------------------------------------------------------------------
    \30\ The standards for smaller aircraft (those with less than 60 
tons of maximum takeoff weight) have lower levels of stringency and 
slightly different effective dates, recognizing that flight physics 
complicate the adoption of certain of the more effective fuel-
efficiency technologies into such aircraft.
---------------------------------------------------------------------------
    Although some countries automatically incorporate ICAO standards 
into their laws, the United States adopts ICAO emissions standards 
through rulemaking, typically with EPA adopting the underlying 
standards and FAA adopting rules to certify aircraft to the standards. 
As aviation is a global industry, with airlines and aircraft operators 
operating internationally and aircraft manufacturers selling their 
aircraft in international markets, it is critical that aircraft 
emissions standards continue to be agreed at the international level 
and implemented by ICAO Member States.
    A4A and our members support having EPA and FAA incorporate the ICAO 
fuel efficiency and CO2 certification standards into U.S. law. Indeed, 
U.S. aircraft manufacturers will not be able to have their aircraft 
certified to the standards--a prerequisite for the manufacturers to be 
able to sell their aircraft in the international market--unless the 
United States adopts them into U.S. law. Further, if U.S. aircraft 
manufacturers cannot have their products certified to the 
internationally agreed standards, U.S. airlines will not be able to 
purchase these aircraft for international service.
The ICAO Carbon Offsetting and Reduction Scheme for International 
        Aviation
    A4A and its members also supported the work that was undertaken in 
ICAO to develop proposals for a ``global market-based measure,'' in the 
form of an international carbon offsetting system, to help work toward 
the industry's goal to achieve carbon neutral growth in international 
aviation from a 2020 baseline. This measure, the ``Carbon Offsetting 
and Reduction Scheme for International Aviation'' (CORSIA), has two 
parts. First, CORSIA requires that all 192 ICAO Member States have 
their aircraft operators monitor and report to them their international 
CO2 emissions under a common set of rules beginning on January 1, 2019. 
Second, CORSIA includes an offsetting obligation, which is slated to 
commence on covered international routes beginning in 2021 and continue 
through 2035.
    The emissions target under the CORSIA agreement is to help support 
carbon neutral growth on the international flights of operators from 
the countries that are in the system. All are motivated to achieve 
emissions savings through technology, sustainable alternative jet 
fuels, operations and infrastructure measures, although the carbon 
offsetting requirement kicks in to help fill any gap toward meeting the 
goal.
    While all countries were obligated to begin requiring emissions 
monitoring data from their aircraft operators as of the beginning of 
2019, the offsetting system is slated to be implemented in phases, with 
the first 6 years of the offsetting system, 2021 through year-end 2026, 
being implemented amongst countries on an ``opt-in'' basis. After that, 
the offsetting obligation becomes mandatory for all ICAO Member States 
except the least developed countries and those with very low levels of 
international aviation activity. Although countries have until June 
2020 to opt into the first phase of the offsetting provisions, as of 
January 2019, 78 countries, representing seventy-seven percent of 
international aviation activity, including the United States, had 
already signed up to participate from the beginning.\31\
---------------------------------------------------------------------------
    \31\ ICAO keeps a list of the countries that have signed up for the 
opt-in phase on its website at https://www.icao.int/environmental-
protection/CORSIA/Pages/State-pairs.aspx.
---------------------------------------------------------------------------
    Very importantly, only the flights to and from the covered 
countries will be subject to the offsetting requirement. In other 
words, there is a mutual exemption from the offsetting requirement on 
flights to and from countries that either are not in the two 3-year 
opt-in phases or are exempt for the duration of the system. This is 
critical to avoid competitive distortion, satisfy the non-
discrimination provisions in the international aviation treaty and 
ensure that U.S. operators are not disadvantaged by the United States' 
opting in to the CORSIA offsetting obligation in the non-mandatory 
phases.
    Critically, the agreement states that the CORSIA is to be ``the'' 
market-based measure applying to international aviation GHG emissions, 
precluding countries from imposing unilateral carbon measures on 
international flights from other countries.
    In June 2018, the ICAO Council adopted a package of standards and 
recommended practices (SARPs) for implementing CORSIA. As with the ICAO 
CO2 standard for future aircraft, it is up to the Member States of ICAO 
to implement these ICAO provisions. FAA and DOT have existing statutory 
and regulatory authority that allow them to adjust the fuel reporting 
requirements that currently apply to U.S. aircraft operators through a 
rulemaking to comport with the expected ICAO emissions monitoring 
standards. However, given the short time between ICAO adoption of the 
SARPs and the January 1, 2019 effective date of the emissions 
monitoring provisions, FAA and DOT were unable to issue a rulemaking 
before then. Accordingly, A4A has worked with FAA and other aircraft 
operator associations to commence the monitoring provisions under a 
voluntary agreement and we await the DOT/FAA announcement of this 
approach. Additionally, new, appropriately tailored legislative 
authority will be needed for DOT/FAA to apply the 2021+ CORSIA 
offsetting obligation to U.S. aircraft operators. We would very much 
like to work with this Committee on a tailored approach to implement 
the CORSIA SARPs over the course of the next couple years.
    congress and the administration should complement the airline's 
 initiatives to advance aviation infrastructure, technology and energy 
                                 policy
    We are confident that the measures A4A and our members are taking 
will continue to limit and reduce aviation's carbon footprint, while 
allowing commercial aviation to continue to provide an invaluable 
service and be a key contributor to our nation's economy. However, 
support from Congress and the executive branch is needed in three key 
areas to complement the airlines' concerted efforts: (1) business-case-
based implementation of the Next Generation Air Transportation System 
(NextGen) prioritizing existing equipage; (2) stable policies to 
further support making SAJF commercially viable; and (3) continuation 
of aviation environmental research and development programs.
    As recognized by the Future of Aviation Advisory Committee (FAAC) 
in 2010, ``NextGen will enable the [National Airspace System] to safely 
and efficiently accommodate greater numbers of aircraft, from large 
commercial airliners to smaller general aviation (GA) aircraft, while 
reducing the overall environmental impact and energy use of civil 
aviation.'' \32\ Indeed, while A4A member airlines are doing all they 
can to promote efficiencies within the current ATM system, completing 
the transition to a satellite-based system will significantly reduce 
the inefficiencies that are inherent in the outdated, radar-based air 
traffic control system--saving up to 12 percent of fuel burn and 
emissions. Not only is an optimally functioning ATM system 
indispensable to ensure safety and the wellbeing of our industry, our 
nation's economy, the air traffic control workforce and airline 
customers, it is also critical to the environment.
---------------------------------------------------------------------------
    \32\ U.S. DOT, Future of Aviation Advisory Committee, Final Report, 
at 15.
---------------------------------------------------------------------------
    As noted, in addition to enhancing U.S. energy independence and 
security, commercially viable, environmentally friendly SAJF could well 
be a game changer for the industry's GHG emissions. The aviation 
industry and would-be alternative jet fuel suppliers are on the cusp of 
creating a viable alternative jet fuel industry, but government support 
is needed in the near term to provide financial bridging and other 
tools necessary to help us get over the cusp. It is critical that 
Congress and the Administration continue to fund the programs under the 
Energy Title of the Farm Bill and support public-private initiatives 
such as CAAFI, the Farm to Fly initiative, and ASCENT.
    Further, as recognized by the FAAC, ``aviation-related R&D 
investments are vital for a high technology economy and enable 
solutions that can decrease emissions, create good jobs, increase U.S. 
competitiveness, and provide substantial enhancements to mobility that 
benefit the public.'' \33\ As noted, FAA, NASA and the U.S. aviation 
industry are already partnering on a wide range of research and 
development projects through the CLEEN, ASCENT and NASA ARMD programs. 
These programs, which also include research dollars for FAA to maintain 
leadership in the ICAO environmental standard-setting process, are 
critical. While the agencies appear to be committed to continuing them, 
their funding has been under attack. We urge Congress to continue to 
fully support and fund the FAA and NASA aviation environmental research 
programs. This is vital to U.S. aviation competitiveness and the 
leadership role the U.S. plays in driving appropriate aviation energy 
and environmental standards.
---------------------------------------------------------------------------
    \33\ Id. at 13.
---------------------------------------------------------------------------
                               conclusion
    As an industry, aviation is a small part of the nation's GHG 
footprint, but we have nonetheless strived to reduce our impact through 
technology, operations, infrastructure and alternative fuel advances to 
provide safe, vital, efficient, and environmentally sustainable air 
transport within the constraints of our air traffic management system. 
We will not rest on our laurels in light of this record but will 
continue to invest where appropriate to maximize environmental benefits 
while supporting our nation's economy. We look forward to working with 
this Committee on policy initiatives to complement our efforts.
    Again, thank you for the opportunity to testify, I look forward to 
your questions.

    Mr. Carbajal. Thank you, Ms. Young. We will now move on to 
Member questions. Each Member will be recognized for 5 minutes, 
and I will start by recognizing myself.
    Dr. Sperling, thank you for your testimony and leadership 
in reducing greenhouse gas emissions. As we both are aware, 
California has been a leader in the fight against climate 
change. We have shown that protecting our environment and 
improving the economy are not mutually exclusive.
    In your testimony you state that, from California's 
experience, ``we cannot meet our [carbon emission reduction] 
goals without reenvisioning the way we plan and build [our 
communities].'' Can you expand further on what you meant by 
that?
    What are some of the ways the Federal Government can 
support efforts to better coordinate transportation policy, 
housing policy, and job access at the State and local levels?
    Mr. Sperling. Thank you. So there are a couple things. One 
is, as I said, there is a lot of innovation happening in 
transportation.
    So one of the things that can be done is creating programs 
to support many of these new initiatives, pilot projects, 
demonstration projects, because we need experimentation, and we 
don't really know--as we go all these shared economy ideas, 
automation, how it--connecting it with transit, with 
microtransit, with micromobility--all of these concepts are 
brandnew. Ten years ago we weren't doing any of this.
    And so how do we do them and merge them with 
electrification, as well? So that--one program--that is one 
idea.
    The other big idea would be we need a better way of linking 
transportation funding to reward communities, cities, MPOs, for 
basically doing the right thing, in terms of investing in these 
more efficient and low-carbon strategies. And I would note that 
almost everything we do for greenhouse gas reduction and 
climate are the same things we would do for an efficient 
transportation system. And so restructuring some of that 
funding so that we break down the silos, we help transit link 
up with these in public-private partnerships, and just 
rewarding them for making the investments that are necessary to 
get lower carbon cities.
    Mr. Carbajal. Thank you, Dr. Sperling.
    Ms. Young, thank you for your time here to discuss how our 
Federal infrastructure policy could help mitigate and adapt to 
the growing threats of climate change. As many of us are aware, 
the climate crisis is probably one of the biggest challenges of 
our lifetime.
    U.S. airlines have increased their fuel efficiency by more 
than 125 percent between 1978 and 2017, and they have moved 28 
percent more passengers and cargo in 2016 compared to the year 
2000, using 3 percent less fuel.
    In your testimony you discussed the economic incentives 
that airlines have to reduce their carbon emissions and fuel 
consumption. Can you expand further on the benefits to our 
environment and economy?
    Ms. Young. Oh, well, thank you very much for the question. 
We are very proud that our economic interests align hand in 
hand, really, with our environmental interests. Essentially, as 
you know, jet fuel is the number-one or number-two cost for 
airlines in any given year, and our airlines compete with each 
other, head to head. So the better you do with shepherding your 
fuel to good use, and hence saving greenhouse gas emissions, 
the more competitive you are.
    So that is why, as I testified in my written testimony, our 
airlines have long been deploying an array of measures without 
Government mandates, things like, certainly, buying new 
aircraft, now that our financial situation has turned around 
after the scourge of 9/11 and SARS and the downturn, but also 
really focused with our partners--airports, air navigation 
service providers, manufacturers--in making sure that we drive 
technology, operations, and infrastructure in all aspects to be 
fuel efficient.
    I think another example that goes beyond fuel efficiency--
because there is only so far you can go with that--is 
sustainable alternative jet fuel. Very quickly, in 2006 we 
recognized that, really, the focus on alternative fuel was on 
the ground-based fuels. So we basically helped create, with the 
airports, the manufacturers, FAA, and others, basically, a 
market and a way to develop and deploy these fuels. And you are 
seeing that bear fruit today.
    Mr. Carbajal. Thank you, Ms. Young. I will now recognize 
Representative Gibbs for 5 minutes.
    Mr. Gibbs. Thank you. Thank you, Mr. Chairman. I just want 
to make a couple of comments quick before my questions about, 
you know, the markets are driving the innovation. And some of 
the witnesses' testimony have said that, where we have seen 
vast improvements in airlines cutting their CO2 emissions, more 
fuel efficient. We are seeing manufacture aviation cutting 
their--80 percent life cycle fossil fuel, more efficient 
planes, and--as was stated.
    Highways, we are seeing more efficient vehicles, more types 
of vehicles. American Trucking Associations has achieved 
significant greenhouse gas emissions, about 23 percent. We are 
seeing a 25-percent improvement in greenhouse gas reductions, 
fuel efficient gains over 2018 levels. Moving forward, it is 
improving.
    Maritime transportation seeing--they have a goal to reduce 
their CO2 emissions by 50 percent by the year 2050. So there is 
a lot of good things done, and the market has been driving it.
    My first question to Ms. Young is dealing with the Green 
New Deal. Talk about how it would affect the U.S. economy by 
the airlines. And we are seeing the airlines and other modes 
making these good improvements to efficiency. How would this 
Government intervention--would that hinder innovation, or --
what would you--your viewpoint on that?
    Ms. Young. Well, thank you very much for the question. I 
think it is probably no surprise to you or others on the 
committee that Airlines for America has a lot of concern about 
any plan where the rhetoric around it is saying that we are 
going to eliminate air travel. And we think that that would be 
a bit concerning to the more than 157 million Americans who 
flew last year.
    But what I can tell you--and I think you picked up on it in 
your question--is that we already are motivated and are doing a 
number of the things that are suggested as measures in that 
Green New Deal, things like ourselves developing and deploying 
sustainable alternative jet fuel, really innovating in 
technology and operations and infrastructure. And we are doing 
that without a Government mandate.
    So I think, from our perspective, there are a lot of good 
ideas that we have been employing, and that is the way to 
continue to go for----
    Mr. Gibbs. Yes. So basically, you are saying the market is 
driving this, and when you are more fuel efficient it helps 
your bottom line anyway, so you don't need Government coming 
and telling you. Of course, in this case, this proposal is just 
to eliminate your industry, which is an absolute disaster.
    Mr. Lyon from Michigan, you talk about it in your 
testimony, about mandating lock-in--different, inferior 
technology, and you talk a lot about market-driven initiatives, 
which I am--of course, I am a strong advocate for. Can you 
elaborate about how certain technologies may have grown by the 
market versus where there has been Government mandates and--the 
comparison between--you talked about it a little bit in your 
testimony. Can you elaborate?
    Mr. Lyon. Sure. Thank you for the question. I think it is a 
very complex and intertwined set of forces, actually. I mean 
you look at electric vehicle deployment, for example, and 
markets have played a crucial role in moving that forward. But 
at the same time, Government has played an absolutely central 
role, as well, with subsidies for vehicle adoption and R&D 
funding.
    So I think it is hard to disentangle these two and say it 
is all of one or all of the other.
    Mr. Gibbs. OK. I just--you know, I--because you said in 
your testimony--you talked about when certain things are 
mandated, you know, it locks in--the possibility of locking in 
an inferior technology, because technologies change. And I 
think you agree that Government has got to be careful, how they 
do that.
    Mr. Lyon. Absolutely.
    Mr. Gibbs. Because, you know, sometimes, when it comes to 
on the regulatory side of Government, we usually are behind 
what is actually happening. We are always trying to catch up, 
and--but I concur with you that when you have the markets 
driving it--and I think what you are trying to say, where there 
is some--maybe some Government help, and where it is 
appropriate, as long as it doesn't create artificial 
consequences or, you know--that go against what the market is 
trying to--I think that is what you are trying to say.
    Mr. Lyon. Yes, I am trying to say we should allow for as 
much flexibility as possible in technological choices going 
forward, so that we don't prematurely lock into something and 
we look back on it and say, oh, gosh, we shouldn't have locked 
into--I mean the classic example on this is the light-water 
nuclear reactor, right? There are a lot of other nuclear 
designs that people now think are much superior, but we locked 
into that one very early on. And you know, it has kind of 
stalled out the industry in some ways.
    Mr. Gibbs. OK, I appreciate the testimony. The only thing I 
would just say quickly before my time is up is we got to be 
careful. We let the market function and when it is appropriate, 
Mr. Chairman, we can do things. But we shouldn't be trying to 
address social change on what we are trying to do to build 
infrastructure. I yield back.
    Mr. Carbajal. Next we will go to Representative Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Ms. Young, in your testimony you talked about NextGen 
flight procedures and so on. Have the airlines, as an industry, 
done any estimates on how much fuel has been saved by deploying 
performance-based navigation or required navigation 
performance? Or, if not a number, can you speak to it?
    Ms. Young. So when we are able to fully deploy RNP 
performance-based navigation procedures, we can save a 
considerable amount of fuel and, hence, reduce emissions that 
way. The numbers are a little bit hard to true-up across the 
country because, as you know, the next generation air 
transportation system implementation has been sort of piece by 
piece.
    But as I note in my written testimony, I mean, there is 
around 12 percent estimated inefficiencies in the system that 
could be gained by full transition to PBN, NextGen, and we 
support doing that.
    Our members have been innovating in the different airspace 
areas using these procedures for some time, including Alaska 
Airlines, that initially developed a number of the procedures 
way back when to address some of the challenges of flying in 
Alaska.
    So it is certainly something we want to continue to drive 
forward on, and that is why we are recommending that this 
committee continue to work closely with FAA to make sure that 
we modernize our airspace.
    Mr. Larsen. On the fleet updates to improve aircraft 
efficiency, you've worked with manufacturers to make that 
happen, and you mentioned a few changes to aircraft design: 
winglets, there are also new engines coming out.
    I have a question for you, because in a couple weeks we 
will be looking at--on the Aviation Subcommittee we will be 
looking at the future of aviation, trying to look out 30 years 
or so. I am not asking you to predict what is going to happen, 
it is kind of hard to predict. But if you had a wish list, what 
would be the next thing for airlines and manufacturers to make 
flying more efficient so there is less fuel used and planes are 
using less fuel?
    Ms. Young. Well, thank you for that question. We do work 
very closely with the manufacturers, and that is a critical 
part of our program for achieving our emissions goals.
    So through a number of things like moving to composite 
materials, there is still room there. Moving--our jet turbine 
engines are extremely fuel efficient, but Pratt & Whitney and 
GE and others have found ways to continue along those lines.
    And you mentioned winglets. Those--you know, it may be 
surprising to people. Those are on the tips of the wings. What 
you see tipping up there can bring, you know, 4 percent or more 
additional fuel efficiency. So we are really taking sort of, in 
the near term, those kinds of approaches.
    But working with the manufacturers and FAA and its CLEEN 
program, and NASA and its programs, we are looking at things as 
advanced as hybrid electric aircraft.
    Mr. Larsen. Yes.
    Ms. Young. We are looking at other materials. There are 
discussions--we are not sure that we are going to be able to go 
there, but in changing the entire way the aircraft is designed 
to be a different shape and more aerodynamic. But those are 
really the long-term programs.
    And if I could stress, the programs that are funded for FAA 
to work with us, and public-private programs, are one-to-one 
dollar matches. They bring a lot of bang for the buck. Those 
focus on the nearer term breakthroughs that airlines and 
airports and manufacturers can make.
    NASA has a program with us that is the long-term one, and 
it is basically, again, a one-to-one match. So it is good bang 
for leveraging the best in aviation.
    Mr. Larsen. Thank you. The CLEEN program has been mentioned 
a couple of times, and I just want to thank the Members who 
were here last year to amend the FAA bill to put that program 
back in place and encourage others to support it in the future, 
if we get there.
    In my time remaining I just want to know, from Mr. 
Prochazka and Dr. Lyon if there is a conflict between you all 
in terms of calling for continuing tax cuts for EV and for EV 
technology, versus relying on the market to place where those 
EV charging stations are, much like we rely on the market to 
place gas stations. Should the market lead or should Federal 
tax credit policy lead?
    And I will yield back.
    Mr. Prochazka. Thank you for the question. So, you know, I 
think at this point we are just scratching the surface, in 
terms of the opportunity for market impacts on infrastructure 
across the country. We are seeing huge investment from 
investor-owned utilities. We are seeing even oil companies that 
are buying infrastructure companies and starting to invest in 
them in significant ways. And I think that it is saying a lot 
about what that future might hold.
    At the same time, there are needs for, at this point, 
incentives to still exist to help encourage the early-stage 
part of this investment. So, while we might have 50,000 
chargers across the country that are deployed, things like the 
alternative fuels corridor are going to be critical, and the 
funding for that to expand charging.
    We also need to retain the tax credits, so 30C, because 
that is an important driver for businesses. So it can start the 
process for their investment. And I think we are going to see 
the long-term impact in fuel savings over time.
    Mr. Carbajal. Mr. Lyon, if you could submit your response 
in writing, that would be great. We are trying to adhere to the 
time limit we are allocating for everyone.
    Mr. Lyon. OK, will do.
    Mr. Carbajal. Mr. Larsen, I hope that is OK. We will move 
on now to Representative Davis.
    Mr. Davis. Thank you, Mr. Chairman, and thanks to the 
panel.
    You know, judging by Ms. Young's testimony, it looks like 
companies and industries are already being environmentally 
conscious. Ms. Young's comments about how innovation has 
propelled the airline industry to reduce their carbon footprint 
is something that I think needs to be looked at and monitored 
by others. I hope other private companies will continue the 
progress that your industry has shown us.
    Additionally, electric automobile manufacturers are joining 
new and innovative partnerships, and are changing the way we 
travel. In fact, just outside my district by about two blocks 
in Normal, Illinois, the company Rivian is looking to produce 
electric trucks and SUVs, and they just announced a $700 
million partnership with Amazon.
    So my question to those on the panel is why do we need a 
top-down approach to environmental regulation, when industries 
are already adapting?
    And I would like to start with Ms. Young at A4A because of 
your testimony and your experience.
    Ms. Young. Well, thank you for the question. I mean you 
have heard a lot about market-based measures today, and the 
best of those are really the natural ones, where you are 
already driven by the existing market situations to do drive 
technology, operations, and infrastructure, as we have to get 
fuel efficiency.
    We have pretty aggressive goals, as well. And one of the 
international agreements that we are supporting would further 
backstop the work that we are doing to make sure that, on an 
international level, aviation meets those types of aggressive 
goals.
    So I think, you know, you want to use the market the way 
that it is. And essentially, interfering with that can get 
negative results.
    Mr. Davis. Well, thank you, Ms. Young.
    Mr. Prochazka, with your coalition, I would like to hear 
your response. And I am glad they got your name plate right. I 
have the same problem a lot of times with my last name.
    [Laughter.]
    Mr. Prochazka. Well, I can tell. Maybe later we can talk 
about how to pronounce it.
    Mr. Davis. Absolutely.
    Mr. Prochazka. Thank you for the question. Actually, I grew 
up in Kankakee, Illinois, and so I have driven through Normal 
and been through the Bloomington area quite a bit.
    You know, I think in this case we are responding to the 
idea that we still have an unfair and unfree oil market. And so 
that is part of the reason that there needs to be incentives to 
encourage electric vehicle adoption.
    We are in a place where, if national oil companies and 
cartels are controlling the flow of oil, then it leaves 
American businesses and consumers with few choices when oil 
prices spike or when supply is cut off. And so I think, if 
anything, electrifying our transportation sector has got to be 
part of the solution. It is not the only solution, but it needs 
to be part of the solution.
    And ultimately, it is going to give us the best choice. 
When you plug into the grid, it doesn't matter how those 
electrons are produced. It can be coal, it can be wind, it can 
be solar, it can be any of those. But ultimately, at this 
point, it gives us the best opportunity for fuel choice.
    Mr. Davis. But we need baseload generating facilities to be 
able to power a new electric vehicle economy. Correct?
    Mr. Prochazka. Most definitely.
    Mr. Davis. OK.
    Mr. Prochazka. There is a study from the National Renewable 
Energy Lab and PacifiCorp that shows, basically, that we could 
put 150 million vehicles on the road and not have a huge impact 
to our grid. But there is a large opportunity.
    Mr. Davis. Well, I have actually been out to the Tesla 
facility and ridden in one of their test semis. And that is a 
discussion we have to have in the future. And thank you for 
your testimony.
    I want to address before my time runs out environmental 
reviews. I am not opposed to environmental reviews. As a matter 
of fact, it was an environmental review in Springfield, 
Illinois, that unearthed the site where we found artifacts that 
were part of the 1908 race riots that was credited as being the 
birthplace of the NAACP. I want to make that a national 
historic site.
    But with that said, 3 weeks ago we had, sitting at that 
table right there, the mayor of Los Angeles, Mr. Garcetti, and 
our former colleague, the Governor of Minnesota, Tim Walz, who 
both told us that we need to be speeding up the regulatory 
process so that projects in their communities and their States 
can actually be ready and shovel-ready quicker.
    So to anybody else who wants to pick this question up, you 
know, what can we do to make sure we do what these two local 
officials asked us to do?
    Mr. Sperling, you are from California. What don't you take 
a shot?
    Mr. Sperling. OK, I will take a shot. We have even a worse 
problem. By the way, we have something in common, too: my 
university and your name, Davis.
    Mr. Davis. That is right, that is right.
    Mr. Sperling. You know, we have an--on top of the EIS NEPA 
reviews we have our own State, and it has been misused, really, 
for NIMBY-ism purposes. And it has been used to block all kinds 
of projects. I think even the most progressive Democrats, or at 
least many of them, would acknowledge that. And we do need to 
fix that.
    And there is--it is blocking a lot of progress, a lot of 
investments that need to be made, including a lot of 
infrastructure investments.
    Mr. Davis. Thank you, Mr. Sperling.
    Thank you, Mr. Chairman.
    Mr. Carbajal. I will recognize Representative Brownley.
    Ms. Brownley. I thank the panel for being here. I have been 
looking forward to this hearing.
    And Dr. Sperling, I am going to ask you a question because, 
one, you are--I can pronounce your name; and two, you are from 
California. And please send my best regards to Mary Nichols 
when you return home.
    You talked in your opening comments about aligning 
environmental goals with transportation goals, and I know, you 
know, in California I think we have had a very successful 
program, the California Sustainable Communities program. And I 
just--I wanted--if you could, talk a little bit about that 
particular program.
    And I want to drill down a little bit more and talk about 
where the sort of carrots and sticks are to incentivize.
    Mr. Sperling. I will give you the quick answer, and then 
you can elaborate. And that is we did pass a law in 2008 known 
as SB75, Sustainable Communities and Climate Protection Act, 
and it assigned targets to every metropolitan area to reduce 
greenhouse gas emissions associated with passenger travel.
    And in some ways it was successful, in that it changed the 
debate. It really got the transportation community, in 
particular, aware that what we are trying to achieve with 
climate policies really was very well aligned with what they 
were trying to achieve, in terms of better investments in 
infrastructure and better planning.
    But what it failed at is it did not have any substantive 
carrots or sticks. And that is where we are. That has kind of 
motivated much of my testimony, is we need to create those 
carrots because we need the communities, if they are going to 
invest in putting in more chargers, or if they are going to 
build protected bike paths, or if they are going to invest in 
transit, that they need to be rewarded. And if they do changes 
on land use, they need to be rewarded because they don't have 
the resources.
    And so that is kind of my biggest plea, you know. It is 
both Federal to this committee, as well as to the State, is 
somehow restructure transportation funding so it acknowledges 
and rewards these environmental goals, as well as the pure VMT 
population type goals.
    Ms. Brownley. And I certainly understand, and we all like 
carrots more than we like sticks. But what suggestions do you 
have around the stick portion?
    Mr. Sperling. Yes, the--you know, I spent a lot of time 
talking to mayors and city councils about some of these new 
ideas. And the reality is they have very few resources 
available.
    I guess the good news is they are easy to--and I put this 
word in quotes--to be ``bribed.'' They are very easy to bring 
resources, to--you know, a small amount of resources will 
motivate changes in behavior. But our cities, they have been 
strapped, they have been--you know, for so many years they have 
been--you know, they have had their funding cut back so much 
they don't have a lot of capacity and resources.
    And so, any program that does target--you know, that--like 
getting rid of some of the silos with transit so that transit 
money can be used for public-private partnerships, as well as 
to support the operations of the transit operators, you know, 
there are so many kinds of ideas. And as I said earlier, 
programmed to support investments in pilot projects and 
demonstrations.
    Sacramento in particular, but Los--all the major cities 
have major initiatives. But they don't have any funding stream 
to support it.
    Ms. Brownley. Are there any good examples of 
experimentation in California that has come from private 
industry? Or if you are saying there is--the resources aren't 
there----
    Mr. Sperling. Yes, yes, I would say many companies are 
experimenting in a very small way, including car companies. Car 
companies are helping electrify Uber and Lyft cars, and they 
are doing that mostly on their own, so far.
    There are various kinds of programs for van pools, 
electrifying van pools. Some of it is subsidized, but there are 
some companies that are taking the initiative. So there are 
some.
    But the problem is--and it is just like--you know, I will 
go back to this discussion about electric vehicles. Every major 
car company in the world is fully committed to electrifying. 
This is not a question any more. They have got the supply 
chains, they have got the technology. They are just waiting for 
some--either consumers to switch their behavior, or incentives 
to be created. And they are going to be moving forward in a 
major way.
    And it is the same thing with all of these kinds of ideas, 
you know, the change happens slowly. Institutions have been, 
you know, unchanging--especially transportation institutions--
for so long, that they don't have the capacity and creativity. 
So the companies come along, they have ideas, but they run into 
road blocks over and over again about how to get that funding 
and to get the permits and so on.
    Ms. Brownley. Thank you.
    Mr. Chairman, I yield back.
    Mr. Carbajal. Next I recognize Representative Perry.
    Mr. Perry. Thank you, Mr. Chairman, and thanks to the panel 
for your presence today. All of us in the position of 
policymaking are searching for the best relevant data to use to 
make the policies, and we are all interested in a better, 
cleaner environment, whether it is the water, the air, or the 
climate, in general.
    My questions go to Ms. Arroyo.
    In your written testimony you make the claim the Fourth 
National Climate Assessment's findings, along with those in 
2018 Intergovernmental Panel on Climate Change, or the IPCC 
report, are clear and should be a call to immediate action. 
While the claims are very clearly stated in these reports, the 
underlying data, to me, is a bit murkier, and I want to explore 
that a little bit.
    These claims are based on the theory that global average 
surface temperature or gas has increased with greenhouse gas 
emissions. Validating this theory requires both a valid global 
average surface temperature record and the use of the proper 
mathematical methods typically called structural analysis. I 
think you would agree with that.
    My concern is whether either of these necessary conditions 
has been met.
    An August 1981 article in the journal Science, authored by 
Dr. James Hansen et al. calls into question both of these 
points.
    And, Mr. Chairman, I would like to submit the article for 
the record.
    Mr. Carbajal. Without objection.
    [The article is on pages 159-169.]
    Mr. Perry. In this article, Hansen et al. states, 
``Problems in obtaining a global temperature history are due to 
the uneven station distribution, with the Southern Hemisphere 
and ocean areas poorly represented, and the smaller number of 
stations for earlier times.''
    They go on to state the time history of warming obviously 
does not follow the course of the CO2 increase, indicating that 
other factors must affect global mean temperature. In other 
words, the correlation was not present.
    The fact is that over the period of 1900 to date, the year 
1900 to date, for very significant portions of the globe, there 
was really no surface temperature data at all. And yet in 2019 
we have a global average surface temperature record going back 
to the 1880s. It seems obvious that the IPCC and NCA4 would 
have to overcome these obstacles in order to provide such clear 
findings that are viewed to be a call for immediate action.
    My question in particular, and specifically to you, is the 
following: If you were to become convinced that the published 
official gassed data were not, in fact, a reliable depiction of 
the circumstance, would we then have to conclude that the 
climate models that are now tuned to replicate the fabricated 
global average surface temperature pattern are not able to 
provide reliable projections of the future state of the 
climate?
    Ms. Arroyo. So, Congressman, I have worked on climate 
change for 20 years, exclusively. And my first introduction to 
climate change was 30 years ago, when I was representing 
Governor Buddy Roemer on a task force of the National Governors 
Association that, on a bipartisan basis, already thought that 
the science was compelling enough to issue a report that said 
that both States and the Federal Government should be 
addressing this.
    The impacts have only become more severe and more obvious, 
based on what we are seeing in terms of these extreme events. 
CO2 levels are rising. That is documented. We have been having 
measurements in Mauna Loa for many years, but of course we have 
the ice core record and other records that go back millennia.
    We know that we are at CO2 levels that have never been 
experienced since millions of years ago, and that is going to 
lead to dramatic impacts like sea level rise and more intense 
and frequent storms, et cetera, et cetera.
    So, you know, you can maybe find a study or scientist in a 
certain area that might quibble with that. There was some 
issues earlier that got reconciled because of the orbit of the 
devices, the satellites that take the record----
    Mr. Perry. But I want--the gas temperature readings and the 
lack of information, especially from the Southern Hemisphere, 
from the turn of the century to present, what about that?
    Ms. Arroyo. I am not familiar----
    Mr. Perry. Why is that not relevant?
    Ms. Arroyo [continuing]. With that particular study. But 
what I am familiar with is the scientific record which is, on a 
published, peer-reviewed basis, overwhelming. That was what the 
IPCC scientists from all around the world look at. That was 
what our own Federal Government scientists used in the national 
climate assessment. This was the fourth such assessment that 
has been done.
    And so I think you can cherry-pick and find a study that 
might make an alternative point, but we are living in a world 
that everybody objectively knows is different from the world 
that we were born into. And that is because the emissions of 
climate--polluting gases like CO2 that are being pulled out of 
the earth and put into the atmosphere at an unprecedented rate. 
And we are seeing changes that are much faster and more severe 
than we even anticipated 30 years ago, when I started looking 
at this issue.
    So I am happy to take a look at that report. But having 
worked on this for 30 years on a bipartisan basis, I don't see 
any reason----
    Mr. Perry. But you are happy----
    Ms. Arroyo [continuing]. To doubt the science.
    Mr. Perry [continuing]. To look at the report.
    Ms. Arroyo. Happy to look at the report----
    Mr. Perry. And if you find, indeed----
    Ms. Arroyo [continuing]. But I don't see any reason to 
doubt the----
    Mr. Perry [continuing]. That the gassed data is 
insufficient, based on a insufficient number of stations, you 
would be critical of the gassed findings at that----
    Ms. Arroyo. I would be happy to look at the weight of the 
evidence. But just like when we are looking at our health, if a 
doctor says that you have a serious disease, and recommends a 
severe course of action, you might want to look at other 
experts. And so I would look at it along with the other 
scientific----
    Mr. Perry. All right, my time has expired. I thank you.
    Ms. Arroyo [continuing]. Reports out there. Thank you.
    Mr. Perry. Thanks, Chairman.
    Mr. Carbajal. Next I would like to recognize Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman. My first question 
will be for Professor Lyon.
    Clearly, matters like congestion pricing, reducing 
congestion and emissions is sort of like joined at the hip with 
our ability to provide reliable public transportation. And all 
of this is sort of like a very deep pocket problem, right? How 
do we get the finance to promote public transportation and 
reduce emissions and congestion?
    And you mentioned, for example, congestion pricing, which 
has been around for some time in London, but there is also the 
tolling of roads and bridges, and, obviously, increasing the 
gas tax. Which do you see to be the most effective means of 
capturing the revenue to finance an important project to reduce 
congestion and emissions and to create greater and greener and 
more reliable means of public transportation?
    Mr. Lyon. Well, thank you for the question. And I would be 
happy to follow up with some written testimony that gives more 
details.
    But my first thought on this is that a VMT tax is very 
promising, in terms of its ability to raise revenue. It is 
probably going to be more successful than a congestion tax, 
just because congestion is a more localized phenomenon. And 
there has been some research suggesting that a VMT tax could be 
very effective in revenue raising. So I would say let's start 
with that, anyway.
    Mr. Espaillat. But how has the congestion pricing program 
worked in London?
    Mr. Lyon. I think it has been very effective, in terms of 
reducing congestion, increasing average speeds. And those 
things reduce fuel consumption, which reduces pollution, 
because there is a lot of pollution that occurs from trucks and 
cars just being stalled in traffic.
    Mr. Espaillat. Ms. Arroyo, my next question is to you. You 
refer to green infrastructure. There are communities across 
America, particularly urban communities, where you see very 
high levels, for example, of asthma amongst children, and other 
respiratory diseases.
    Now, if we are going to go ahead with a green 
infrastructure, the first question is do we have the workforce 
ready and prepared to take on that job?
    And the second question is if we do have the workforce 
available, are we willing to develop a workforce that would 
then--in those particular neighborhoods that have been 
adversely affected by this phenomenon, right, the problem with 
asthma and other respiratory illnesses, are we willing to 
provide a level of reparation for those communities that have 
been adversely affected and create jobs--in many cases, 
prevailing wage jobs--for young people and other people in 
those neighborhoods?
    Ms. Arroyo. Thank you for the question. So a lot of 
communities that we work with from around the country are 
interested in some of the benefits of investing in what is 
called green infrastructure from both an urban heat, island 
mitigation standpoint to have, you know, cooler roofs, 
permeable pavements, more trees, urban canopy, and things like 
that, but also because they are a place for the water to flow.
    So when we do see some of these heavier rain events like we 
are seeing now in this era of climate change, there is a place. 
For example, you know, water gardens that are being installed 
in my mother's old neighborhood of Gentilly, which is a very 
racially mixed, you know, largely elderly population in that 
community. So some of the places that have not rebuilt, in 
terms of homes, they are having places for water to go, but 
also places where people can recreate and have cobenefits from 
that, which will also contribute to better local air quality, 
better resilience from conventional rain events, job 
opportunities, training opportunities.
    This is something that, for example, the DC government has 
worked on in a partnership with folks that have been 
underemployed, and trying to train them in a program called DC 
Water Works--which is sort of like a, you know, like a little 
play on words--to try to train people to install things like 
solar panels over reservoirs, and things like that. So it is 
very much something that is of interest to a lot of the cities 
that we work with, including my own home town of New Orleans.
    Mr. Espaillat. Do we have the workforce right now? Let's 
say if this is to happen a year from now. Are we ready? Are we 
ready to take this on?
    Ms. Arroyo. I mean I think it would be a wonderful thing 
for the committee to consider investing in, because this really 
can create local jobs that cannot be exported. And this can 
happen in every community.
    Where I live now, in Arlington, Virginia, there is a lot to 
be done in terms of urban forestry to counteract some of the 
kind of, you know, cutting down of the mature trees to build 
some of the kind of big houses that tend to be what developers 
do right now.
    And so I think that it is just a wonderful solution, and it 
can train a workforce for sustainable employment, and something 
that everybody can be proud of.
    Mr. Espaillat. Thank you, Mr. Chairman.
    Mr. Carbajal. I would like now to recognize Mr. Babin.
    Dr. Babin. Yes, sir. Thank you, Mr. Chairman. And thank 
you, witnesses, for coming up here, giving us your--what you've 
found over your careers.
    First off, I want to say thank you to Ms. Young. You 
mentioned the Atlas Air crash of flight 3591. That actually 
went down in my district. I visited that site yesterday. It was 
a devastating scene. And I just want to say thank you to all 
the first responders, Federal and State, folks that are out 
there trying to piece that back together. It is a terrible, 
terrible thing to behold.
    The first question I would like to ask is to Professor 
Lyon. Can we actually assume that other countries, many of 
which are developing countries, would opt out of cheap energy 
sources for more and expensive cleaner sources? Is that a 
realistic expectation for us? Professor?
    Mr. Lyon. Probably, without some kind of international 
support, that may be difficult.
    I mean you look at what China has done over the last, you 
know, 20 years. They have built an enormous fleet of giant coal 
plants which burn fairly dirty, inefficient coal. So it looks 
like India is on track to build a lot of coal going forward, 
also. So it seems like, to me, that countries that have 
advanced further economically, like the United States, and that 
have contributed more to the global warming gas emissions over 
time, may have a moral duty to help those countries leapfrog 
some of that dirty technology.
    Dr. Babin. Well, the--I think one of the things that I have 
seen and talked about with other folks is that we continue to 
see companies that sell their brand as renewable, green, and 
environmentally friendly. But when you look at the fine print, 
we see that a lot of these products are actually made in China, 
where greenhouse gas emissions are through the ceiling.
    And so it is--I think, unless there is some kind of 
incentive, it is hard for me to imagine that third-world 
developing countries would do that. And then, to saddle 
American taxpayers with that duty, as you said, seems to be a 
long stretch for the American taxpayers.
    OK, my next question for Ms. Arroyo, the United States cut 
862 million tons of carbon dioxide emissions from 2005 to 2017, 
which was a 14-percent decline. Over the same period, global 
emissions rose 26 percent. India increased its carbon dioxide 
emissions by 1.3 billion tons, and China increased its 
emissions by 4 billion tons, a 70-percent increase. The United 
States could continue cutting carbon dioxide emissions, but 
clearly the greenhouse gases could and would continue to 
increase. The United States doesn't seem to be the problem.
    And so, is the solution to spend trillions of dollars, 
increase energy costs here in our country, cut jobs, raise 
taxes on hard-working American families, and jeopardize our 
strong economy at this point in time? Ms. Arroyo?
    Ms. Arroyo. So the U.S. emissions this last year have 
actually spiked up 3 percent. And clearly, we can't do it 
alone.
    I will say that the States and the cities that we work with 
are enjoying multiple benefits from their own investment in a 
clean energy economy of the future. Those States have put into 
place things like very popular renewable portfolio standards. 
Many of those States have met and exceeded those standards, and 
gone further. So that is what has driven our ability to move to 
cleaner electricity sources that are generally very popular and 
reduce conventional air pollution and create local jobs that 
can't be exported, once again.
    So a combination of standards at the State and also the 
Federal level. In the last administration we saw vehicle 
standards and we saw, you know--efforts to reduce standards 
from the power sector through the Clean Power Plan are part of 
the solution, but there is other reasons that are contributing 
to that, including private-sector leadership and all of that.
    That is not to say that the rest of the world doesn't have 
to do its job. And clearly, the rest of the world came together 
in Paris in 2015, and made commitments, as well as the United 
States made commitments.
    Dr. Babin. Thank you very much. I just--it seems to me it 
is hard. Just as I said on my first question, Americans are 
going to be the ones to suffer, while other countries continue 
to lower their prices at the cost of the environment and the 
American family.
    Dr. Sperling, I think we can all agree on the need for 
better infrastructure in the United States, but let's look at 
the details of how our infrastructure is built. Whether it is 
dams, bridges, or highways, they all require concrete. Cement 
or concrete is made by heating limestone, which reduces down to 
about two-thirds of the original limestone weight. The other 
third goes up in the atmosphere as carbon dioxide.
    In other words, making concrete emits carbon dioxide. Do 
you propose that we eliminate the production of concrete, 
therefore eliminating the creation of better and stronger 
infrastructure, which I think everybody in this room, I think, 
is in favor of increasing our infrastructure and making us more 
competitive, globally?
    Does getting rid of cement seem productive to you? Is that 
that important?
    Mr. Sperling. That----
    Dr. Babin. I would like to hear what you have to say.
    Mr. Sperling. That is not what I would----
    Dr. Babin. Dr. Sperling?
    Mr. Sperling. No, that is not what I would suggest. And----
    Dr. Babin. Dr. Sperling--OK.
    Mr. Carbajal. Could you please submit your response in 
writing? We are trying to adhere to the time limits, so I 
really would appreciate it.
    Dr. Babin. Thank you.
    Mr. Carbajal. Next we will go to Representative Mucarsel-
Powell.
    Ms. Mucarsel-Powell. Thank you, Mr. Chairman, and thank you 
for the witnesses, for being here this morning.
    I represent, I believe, one of the most beautiful districts 
in the country, Florida 26, which includes the Florida Keys, 
and parts of Miami-Dade County. We are definitely ground zero 
for the effects of climate change and sea level rise. And we 
have seen, year after year, storms strengthening, crumbling 
infrastructure. Our coastline is eroding, due to these strong 
storms and also sea level rise.
    So I know that we have been speaking this morning that the 
science is clear, and in order to stave off the worst effects 
of climate change we need to drastically reduce carbon dioxide 
emissions, and we need to do it very quickly. And I know that 
there are many ways that we can do this. One is transitioning 
over to electric vehicles.
    So my question right now is to Mr. Prochazka and Ms. 
Arroyo. Maybe you can both answer this question.
    Right now, in the southern part of my district in Miami-
Dade County, we have a huge issue of, you know, transportation, 
lack of access to transportation for the people living in the 
district that have to commute to work. It is taking them 2 
hours, maybe sometimes even more. We have been trying to get 
rail in South Dade, and I met just recently last week with the 
transportation board that approved a fast rapid bus system. 
Apparently, it is the first one that is being built in the 
county. I have seen projects in other countries that seem to 
have been successful.
    So one of my questions, Ms. Arroyo or Mr. Prochazka, if we 
are going to have--one of the questions that I asked was if 
they were going to have electric buses. And they responded that 
electric buses posed two major issues: one, that they were much 
more expensive than traditional buses; and the second is that 
they are concerned with their ability to install enough 
charging stations.
    So what can we in Congress do to address this impediment 
for local communities?
    Ms. Arroyo. Thank you for the question. So we mentioned the 
grants program earlier that the Federal Transit Administration 
has been using to support investment in electric buses in 41 
States. Also, many States and cities are using VW settlement 
money from the scandal with the VW cheating devices on the cars 
to invest in electric buses. So that is how they are trying to 
buy down the cost upfront. Because over the life span of the 
bus, it is actually more on par with conventional gasoline or 
diesel.
    But obviously, getting into the bus in the first place, 
Federal incentives can play a role there, just like the VW shot 
in the arm, or the FTA grant program helped. So pilot programs 
like that are one part of the solution.
    And the charging--certainly, if a number of buses charge in 
the same place at night, for example, that is something that 
needs to be worked out. It was worked out here in DC, with the 
Circulator buses, with Pepco, so you need to work with the 
utilities on that. But that is something that is already 
doable.
    Mr. Prochazka. I will keep my remarks very brief. And I 
will say that supporting FTA's efforts to allow for bulk 
purchasing and joint procurement will go a long way. And so it 
can reduce the administrative and cost burdens associated with 
bus acquisition. And so I think there is opportunities for 
cities to convene and create those moments. And I think bus 
manufacturers are also really excited about those kinds of 
opportunities.
    Secondly, there is an opportunity to think about low- and 
zero-cost loans. And so the idea is that buses will pay back 
over time. So electric buses have significantly lower fuel 
costs, but oftentimes city budget and transit agency budgets 
prioritize low cost upfront. And so, if we can provide 
mechanisms to reduce that incremental cost difference, the 
buses will pay back over time. And, in fact, I think we will 
see it--will pay back even more than the upfront costs cost at 
the beginning.
    Ms. Mucarsel-Powell. That is exactly what I fear, because 
they are so much more expensive that they are going to try to 
just use regular gasoline-charged buses.
    And my second question, my followup question, was what 
would be the ultimate impact if the transportation board in 
Miami were to just stick with regular gas buses? What--you 
know, what would be the effects on air quality, the health of 
our communities down in South Dade?
    Mr. Prochazka. I will just briefly mention that it is hard 
to--you know, I don't know the answer specifically for your 
community.
    I will say that the big challenge is that if you purchase a 
diesel bus right now it is going to be on the road for 10 or 12 
years. And so that is a choice that will have already been 
made. And that pollution and the impacts and fuel costs at that 
point are sunk.
    And so I think it is really important to make sure that the 
communities prioritize EV buses now, because it is going to 
save in the future.
    Ms. Mucarsel-Powell. Thank you. I yield back my time, Mr. 
Chairman.
    Mr. Carbajal. I would like to recognize Mr. Garret Graves.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. I want to 
thank you all for being here. Good morning. I appreciate your 
testimony this morning.
    The title of this hearing is ``Examining How Federal 
Infrastructure Policy Could Help Mitigate and Adapt to Climate 
Change.'' I want to make note that last year this committee--
well, I guess in 2017, it became law in 2018--this committee 
passed the Disaster Recovery Reform Act, and that legislation, 
in my opinion, did move us in a direction of resiliency, of 
making wise investments, recognizing that the current approach 
toward disasters, where we spend exponentially more money after 
a disaster, rather than actually being proactive and making 
principled investments on the front end, is a flawed policy.
    And we made substantial changes to help make our Nation 
more resilient, preparing for the future. And I think this was 
one area where we had made incredibly flawed decisions that 
cost our taxpayers. And I would love to tell you millions or 
billions, but well in excess of $1 trillion in disaster 
recovery costs that could have been saved if we had made the 
right investments and decisions on the front end.
    That being said, Ms. Young, I want to ask a question, just 
make sure I understand something. In your testimony you made 
reference--and I remember Mr. Calio in this room recently made 
a similar statement about a significant reduction in fuel 
efficiency. Were those required? Those reductions, were they 
required, the fuel efficiency, or the savings?
    Ms. Young. No, Congressman. The significant improvement in 
fuel efficiency--we have made 125 percent since 1978--has been 
really driven by our own market interests. We are very, very 
proud that our environmental and economic interests in saving 
fuel align. And that has, since 1978, saved 4.6 billion metric 
tons of carbon dioxide. And we are committed to continuing and 
improving on that record.
    Mr. Graves of Louisiana. Thank you.
    Mr. Sperling, I was previously the chairman of the Water 
Resources and Environment Subcommittee, and have done tens of 
billions of dollars in water resource projects and other 
infrastructure projects in my home State of Louisiana.
    I visited California, had a great time with my friend, Mrs. 
Napolitano, over there. One of the things that I just found 
remarkable, both on water resource projects and transportation 
projects, was, quite frankly, the increased cost of projects in 
California, in many cases. And it appeared--and I want to be 
clear--I am not certain, but it appeared in some cases that 
that was a result of requirements that California imposed on 
itself in regard to different environmental-type requirements 
under the--what is it, CEBA? California Environmental 
Protection Act? CEPA, excuse me.
    How does the State of California determine which 
requirements are cost effective versus those that may not be, 
that are just providing a universal or systemic requirement? 
Does that question make sense?
    Mr. Sperling. Yes, it does. But that is not one I could 
answer. I could try to get an answer for you.
    Mr. Graves of Louisiana. That would be great. Just two 
other things.
    Mr. Chairman, I recently read an analysis based on some EIA 
data that found that if we migrate entirely to zero-emissions 
vehicles, that we will actually see an increase--not a 
decrease, but an increase--in sulfur dioxide and particulates, 
in oxides of nitrogen, and other emissions, rather than a 
reduction. And I found that interesting. I think it is 
something that we probably ought to dig into a little bit more, 
to make sure that we truly understand the outcomes.
    And I also want to be clear that I have actually purchased 
an electric vehicle, so I am certainly sensitive to--thank you 
very much. I appreciate that.
    [Laughter.]
    Mr. Graves of Louisiana. But--so I am certainly sensitive 
to the technologies, and very interested in what the future 
holds.
    But I found that statistic interesting. It actually looked 
like it was going to be an increase in certain emissions, 
rather than what I think folks would believe to be a decrease. 
And this is comparing zero-emission vehicles to new combustion 
engines, and I think that, once again, we need to be very 
careful and deliberate about how we move forward.
    Last thing, Mr. Chairman. In looking at an analysis just of 
subsidies and tax credits in the State of California alone, 
which--keeping in mind these technologies, solar, zero-
emissions vehicles, and others, in many cases they are more 
expensive than other approaches--it appears, for the State of 
California alone we are approaching $100 billion in subsidies 
and credits. And going back to Professor Lyon's testimony, I 
think we need to make sure that we are making cost-effective 
solutions and policies.
    I yield back. Thank you.
    Mr. Carbajal. Thanks. I will recognize Mrs. Fletcher.
    Mrs. Fletcher. Thank you, Mr. Chairman. I would like to 
thank Chairman DeFazio and Ranking Member Graves for holding 
this important hearing today. And I would like to thank all the 
witnesses for being here to testify, and share their thoughts 
with us.
    Climate change, as we all know, is driving extreme weather 
events across the country. It is a crisis that we are ready and 
we need to address. Certainly, my district, in Houston, Texas, 
is no stranger to those weather events. And we are committed to 
addressing this challenge at home in Houston.
    One of the things that we know is that the power sector 
used to be the largest contributor to greenhouse gases. And, 
thanks to advances in natural gas and renewables, U.S. 
emissions from the power sector have been on a downward trend.
    So the transportation sector now accounts for just under 30 
percent of greenhouse gas emissions, and I have appreciated 
your testimony on issues relating to transportation this 
morning.
    The first question I have is for Mr. Prochazka. I am so 
sorry if I mispronounced that.
    But one of the things that we have seen is we have seen the 
effects of low-cost natural gas in the power sector lowering 
emissions. And I wanted to hear from you. You talked a lot 
about electrification. But what potential is there for natural 
gas vehicles, especially as fleet vehicles? What are you seeing 
in that area?
    Mr. Prochazka. Thank you for the question. And I am much 
more of an expert on electric vehicles than I am on natural 
gas. However, my sister organization, Securing America's Future 
Energy, has created a policy paper that focuses on a 
transportation strategy for the U.S. And so it focuses on all 
fuels.
    And if I may, I would love to submit that as part of the 
followup testimony, because I think it says a lot of great 
things about what other fuels might do to--and in this case, 
mostly to reduce the impacts of oil in terms of our economic 
and national security. So I would, in this case, defer to that.
    [Mr. Prochazka has submitted the following post-hearing 
supplement to his testimony:]

                                

    Per your request, I am submitting with this letter a digital copy 
of the report I mentioned to you during the hearing, titled ``A 
National Strategy for Energy Security: The Innovation Revolution.'' 
This report was published by the Electrification Coalition's sister 
organization, Securing America's Future Energy (SAFE) in 2016. It 
examines how the adoption of natural gas and other alternative fuels in 
the transportation sector would contribute to enhanced economic and 
national security, and outlines a strategy with actionable steps for 
enhancing fuel diversity. [The report is retained in committee files 
and is available at: http://secureenergy.org/wp-content/uploads/2016/
06/SAFE-National-Strategy-for-Energy-Security-2016.pdf.]
    The report contains several policy recommendations for accelerating 
the adoption of natural gasvehicles and other alternative fuel vehicles 
that may be of particular interest to you:
Light Duty Vehicles
    <bullet>  Increase federal research and development investments in 
automotive-grade batteries and natural gas storage tanks. Plug-in 
electric vehicles (PEVs) and natural gas vehicles (NGVs) each have high 
incremental costs compared to conventional vehicles, due primarily to a 
single component in each vehicle: batteries in PEVs and storage tanks 
in NGVs. The government should dedicate additional research and 
development (R&D) dollars to improving the performance and cost-
competitiveness of these two components.
    <bullet>  Initiate a National Accelerator Community Program. AFVs 
[alternative fuel vehicles] require the support of new networks and are 
only likely to succeed if accompanied by changes throughout multiple 
products, systems, and industries. SAFE's experience in Northern 
Colorado demonstrates the success that experiential marketing and 
community-based programs can have in accelerating AFV adoption. Such 
communities help spur faster and higher rates of adoption and become 
models for others to follow. To this end, SAFE recommends establishing 
a fuel-neutral National Accelerator Community Program for AFVs. The 
program should develop a process to select 20 communities on a 
competitive basis, with successful applicants demonstrating the 
broadest community support and the most promise of deploying AFVs in 
large numbers as demonstrated by PEV sales.
    <bullet>  Support creation of non-monetary incentives for advanced 
fuel vehicles. Incentives that offer vehicle owners added convenience 
have proven a major factor influencing vehicle purchasing decisions. 
These may include free or lower-cost access to high-occupancy vehicle 
and toll lanes, workplace charging or refueling, the construction of 
plug-in ready parking garages and lots, vehicle emissions testing 
exemptions, and free parking.
    <bullet>  Increase federal deployment of advanced fuel vehicles. 
With over 400,000 non-tactical vehicles and over $1.2 billion dollars 
in annual fuel costs, the federal government has an enormous 
opportunity to help promote the use of AFVs and advanced fuels. Such 
adoption would demonstrate that AFVs can meet a wide range of 
transportation applications, generating important data and lessons. 
SAFE recommends the federal government take the following steps to 
increase federal fleet-wide AFV use: work with states to make bulk 
vehicle purchases, encourage the General Services Administration (GSA) 
to join in seeking to lower the cost of AFVs at all levels of 
government; increase the use of E85 in the federal flexible-fuel 
vehicle fleet; right-size charging infrastructure; and incorporate AFVs 
into the next-generation Post Office Fleet.
Long-Haul Trucks
    <bullet>  Create incentives for medium- and heavy-duty advanced 
fuel vehicle purchases. While NGVs, in particular, have seen impressive 
market share growth in certain applications-transit buses and refuse 
trucks being prime examples-penetration into freight and delivery 
markets has been slower. SAFE recommends that Congress pass tax credits 
for advanced fuel medium- and heavy-duty trucks. Tax credits should be 
established that offer, at a maximum, $25,000 for dedicated AFVs 
weighing between 14,000 pounds and 26,000 pounds, and $40,000 for 
dedicated AFVs weighing more than 26,000 pounds. The precise amount 
should be determined, and recalculated on a quarterly basis, using the 
price differential (DGE) between diesel and the applicable advanced 
fuel. The credit should decline by 25 percent for every 50 cents per 
gallon difference in fuel price.

       The credit should be allowed for vehicles placed in service 
after December 31, 2015, and before January 1, 2021, to promote faster 
adoption and limit costs. For vehicles placed in service in calendar 
year 2020, the credit would be limited to 50 percent of the otherwise 
allowable amount.
    <bullet>  Congress should establish a grant system for the 
installation of CNG and LNG fueling stations along high-priority 
corridors. The federal government can facilitate the creation of a 
network of natural gas fueling corridors that will obviate the range 
concerns of long-haul truck owners and fleet managers. LNG would 
benefit especially from such a policy; its high energy density makes it 
attractive to operators traveling long distances carrying heavy 
cargoes. Without sufficient LNG refueling stations on the National 
Highway Freight Network, companies without the volume to justify 
building their own stations have largely refrained from switching from 
diesel.

       SAFE recommends that natural gas refueling infrastructure be 
prioritized along corridors that are responsible for a large proportion 
of long-haul medium- and heavy-duty trucking. Through the establishment 
of a grant system, Congress can ensure that fueling stations exist no 
more than 200 miles apart alongside the more than 51,000 miles of the 
National Highway Freight Network.
    <bullet>  Congress should pass a two-year extension of the 
Alternative Fuel Excise Tax Credit. In December 2015, Congress passed 
legislation that extended the Alternative Fuel Excise Tax Credit 
through December 31, 2016. This credit provides $0.50 per gallon for 
CNG, LNG, and propane autogas, among other advanced transportation 
fuels. The current extension is short-term and creates tremendous 
uncertainty for investment in longer-term projects. SAFE urges Congress 
to pass a twoyear extension of the Alternative Fuel Excise Tax Credit 
so that such uncertainty is eliminated.
    <bullet>  Establish a diesel gallon equivalent standard in order to 
create consistency and clarity in the marketing and dispensing of CNG 
and LNG fuel. The opportunity to save on fuel costs is a major 
motivation for car and truck fleet owners to switch from petroleum to 
natural gas and other alternatives. This shift depends, however, on the 
fuel cost savings being transparent and easily understood by truck 
operators and fleet owners. Simplicity and clarity in fuel measurement 
can do much to aid consumer acceptance of an alternative fuel like 
natural gas. For this reason, the National Conference of Weights and 
Measures (NCWM) should approve the creation of a uniform diesel gallon 
equivalent (DGE) standard as the primary unit for dispensing and 
pricing LNG. Similarly, the NCWM should vote to allow for CNG to be 
measured and priced in DGE where sold primarily to medium- and heavy-
duty vehicles.
    <bullet>  States and localities should establish their own 
incentive programs, particularly around regional and urban goods 
movement. Many states and regions have established advanced fuel heavy-
duty vehicle incentives. Most are financial incentives for the purchase 
of vehicles or construction of fueling infrastructure. For example, the 
New York State Energy Research and Development Authority (NYSERDA) is 
providing incentives for alternative fuel trucks and buses. DOT Tiger 
and DOE Clean Cities grants should be made eligible for these local 
programs to support state and municipality efforts nationwide.

       Localities should also consider non-traditional incentives, such 
as access to HOV lanes, preferred delivery times for advanced fuel 
delivery vehicles, preferential treatment in the awarding of local 
government freight contracts, adjusting urban freight facility zoning 
rules to reward the use of advanced fuel freight vehicles, allowing 
access to municipal advanced fuel fueling stations, and assisting 
freight operators with obtaining federal grants and other incentives 
for advanced fuel medium- and heavy-duty vehicles.

    Mrs. Fletcher. OK, thank you, I appreciate that. And I 
would like to see that paper. I believe in my own district 
there are companies that have transitioned to entirely natural 
gas fleets, so I think that that is a growing area of 
opportunity.
    And I think, Ms. Arroyo, did you have a followup comment to 
that, or an answer to the question?
    Ms. Arroyo. I was just going to say that they are 
especially good for reducing emissions of criteria pollutants, 
natural gas and propane vehicles.
    From a greenhouse gas emissions perspective, battery, 
electric, and hydrogen offer more promise.
    Mrs. Fletcher. OK, thank you. That is helpful. I think, in 
general, you know, one of the things that we have seen--and we 
have heard some testimony earlier about some public-private 
partnerships, or efforts that we are seeing from industry. And 
so I would like to hear from anyone on the panel who wants to 
accept about where industry is leading, and how the Government 
can help amplify those efforts.
    I know there were some questions about that earlier, but 
where can the Government be of assistance in making sure that 
those efforts are being amplified?
    Mr. Prochazka. So I will actually answer this question, if 
I may. And it is Prochazka, just to demystify.
    Mrs. Fletcher. Thank you.
    Mr. Prochazka. Get rid of the C, much easier. So thank you 
for the question.
    Actually, you know, and Houston is a perfect example. It is 
one of the energy centers of the country. And, in fact, 
CenterPoint Energy right now is working with great effort to 
convene a broad community of stakeholders that represents both 
public and private-sector members of the community, and in 
partnership with the city of Houston to figure out how to 
rapidly accelerate the adoption of plug-in electric vehicles.
    And I think those kinds of examples are springing up all 
over the country, where utilities and cities are getting 
together and recognizing that these are both great economic 
opportunities, because they can leverage huge investment 
locally from the private sector, and you can match that with 
Federal dollars.
    And so I think the idea would be for every dollar that can 
be contributed to that through infrastructure, tax credits, 
vehicle tax credits, et cetera, that you are going to see the 
payback from those investments, maybe two or three or fivefold 
from the investments from the private sector.
    Mrs. Fletcher. Thank you.
    Ms. Young. Yes, I would like to add, from our perspective, 
you have heard a little bit today where we have talked about 
the CLEEN program. And I want to say what that acronym stands 
for: The Continuous Lower Energy Emissions and Noise program. 
And that is an FAA industry public-private partnership to 
really advance technology operations and infrastructure.
    And I wanted to note the acronym, what it means, for--
because it focuses on fuel alternatives. It focuses on 
greenhouse gas emissions, noise, synergistic issues in the way 
that we fly our aircraft.
    Mr. Sperling. And I will just add one more, and that is 
with transit operators working with what we call the TNCs, 
Lyft, Uber, Via, where they are collaborating to provide 
service in areas that are less dense, and do it much more 
efficiently than a conventional transit operator can do. And 
there is many examples of that around the country.
    Mrs. Fletcher. Thank you very much. I yield back my time.
    Ms. Titus [presiding]. The Chair now recognizes Mr. LaMalfa 
for 5 minutes.
    Mr. LaMalfa. Thank you, Madam Chair.
    I appreciate the panel coming today. On the aviation 
sector, thank you for your great information on that, Ms. 
Young. And indeed, we see more and more greater efficiencies 
with aircraft and fuel type and everything each year. So I 
think there is a lot to be proud of in that area, and that is 
what mystifies me, is that it ever improves, with improving 
aircraft and the materials they are making them out of, and the 
winglets you talk about.
    I don't see winglets on every plane yet, so I know you get 
that little plus for making the vortex, however that works. 
But, you know, that--you are rapidly improving. And so, to hear 
plans out there to eliminate the airline industry and 
notwithstanding I will never see high-speed rail go from 
California to Hawaii--so I don't know how that is going to 
work--but that said, I commend you in that area.
    We haven't heard much about freight rail in this committee 
today, which indeed, itself, is one of the most efficient ways 
of moving any kinds of materials across the country, as you 
get--freight by rail achieves 479 miles on a gallon of fuel per 
ton. That is pretty amazing. All we hear about in California is 
we have to keep pursuing this high-speed rail boondoggle, which 
now has been downsized to the Valley, itself.
    So I am sure there is people clamoring out there to get 
from Merced to Bakersfield 33 minutes faster than Amtrak would 
accomplish the same thing on a grade A rail at its maximum 
capacity. So why we are spending billions of dollars on that--
and we have given up on the whole concept, the voters passed--
when they barely passed the $10 billion bond about 10 years 
ago. It mystifies me. So I hope we can have some rethinking on 
that, because our transportation system really needs to have 
its emphasis on stuff that people can use: improved highways, 
et cetera.
    So when we talk about moving freight, we also have at the 
local level a very important need for truck traffic, and the--
because, basically, the motto is if you got it, a truck brought 
it. When, you know, you get to your local level.
    So in California we have some very difficult standards on 
the trucking industry there that CARB has a habit of passing a 
bill and waiting for the technology to catch up later. It 
mandated, I think back in 1990, that 10 percent of cars sold 
would have to be zero emissions by the year 2000. Well, they 
had to back off from that because battery technology and car 
technology never caught up to a mandate by whim of a State 
legislator. So we have that, with the difficulty with diesel 
trucks in the State, trying to catch up and being retrofitted 
with these devices that cost tens of thousands of dollars that, 
in many cases, were catching fire in these retrofits.
    So I don't know what the positive is there. I have had 
anecdotes where people talk to me where they have these devices 
fitted to some of their hay equipment, and their--up and down 
the road they have to stop what they are doing every once in a 
while and run the vehicle from actually working speed up and 
down the road in order to let the filter burn its way out, and 
then go back to work.
    So this retrofitting doesn't always fit the program. It is 
when--and Caterpillar actually pulled out of California from 
supplying diesel engines. Can you imagine? Every guy, every 
cafe you go into, somebody is wearing a cap that says Cat 
Diesel Power, and them being out of the diesel business in 
California for a time. So this is what happens when you make 
mandates.
    So I would like to hear from Mr. Lyon here. What we are 
talking about is allowing technology, allowing the market to 
work. And if we allow that to happen, things like eliminating 
the excise tax on heavy trucks, allowing more of these newer 
trucks to be sold instead of trying to retrofit by the force of 
mandate, what would that look like for the market? What would 
it look like to improving the fleet?
    Mr. Lyon. It is a great question. I wish I had the data at 
my fingertips to give you a really good answer on that. And I 
would be happy to respond in more detail with a----
    Mr. LaMalfa. Well, what we have is the Federal excise tax 
in relation to the amount of dollars it generates to help 
infrastructure is pretty small, but you have a pent-up market 
there, especially driven by mandate--truckers that can afford 
it that are not just mom-and-pop but, you know, $120,000, 
$130,000 trucks. The FET adds, you know, $10,000, $15,000, 
$20,000 to the price of that. Do you think that would be a 
great incentive to move more new vehicles? By eliminating----
    Mr. Lyon. Like I said, I don't really know the details of 
the tax structure there in California.
    Mr. LaMalfa. Well, it is national FET on that, so----
    Mr. Lyon. I don't know. I mean it does seem like, to me, 
that trucks cause a disproportionate amount of wear and tear on 
roads. And so it may be perfectly reasonable to tax them at a 
higher VMT rate than light-weight vehicles. But that is not to 
say that----
    Mr. LaMalfa. Well, they are paying a lot more weight fee--
--
    Mr. Lyon [continuing]. The current tax rates are----
    Mr. LaMalfa [continuing]. Than everybody else, too. So they 
carry their share on that, and generally end up with more of 
the bill.
    So, well, thank you, Madam Chair. I yield back.
    Ms. Titus. Thank you. We now recognize Mr. Allred for 5 
minutes.
    Mr. Allred. Thank you, Madam Chair. And thank you to the 
witnesses for being here today and sharing your insights with 
us on how we can create a more sustainable transportation 
solution to combat climate change.
    I represent parts of Dallas and the suburbs of Dallas to 
the north, a district that encompasses some thriving job 
markets, great colleges and universities, bustling arts and 
cultural scene. And we also are experiencing extremely rapid 
growth. We have more than 100,000 people a year moving from out 
of State just to my region. And that growth has led us to have 
some unique challenges that we need to address as we try to 
mitigate the congestion on our roads, and combat our greenhouse 
gas emissions.
    In addition to those congestion issues, Texans are also 
grappling with frequent and intense extreme weather events, as 
my colleague, Mrs. Fletcher, mentioned, in Houston. But also in 
north Texas we have experienced record droughts and extremely 
high temperature patterns. And now, more than ever, I think it 
is important that we invest in resilient infrastructure that is 
built to withstand the stresses of uncertain weather 
conditions. And I look forward to working with the members of 
this committee to do that.
    I also want to just recognize the city of Dallas and our 
mayor, led by Mayor Mike Rawlings, and their efforts to move 
Dallas forward to address climate change, and to make Dallas a 
global leader in that area in a way that also is consistent 
with meeting our infrastructure needs.
    And I want to respectfully disagree with some of the 
statements that have been made about high-speed rail. There is 
a very promising high-speed rail project between Dallas and 
Houston that is largely privately funded that I think will be a 
model for the rest of the country, and one that I think will be 
an economic boon for Texas. And, as I said, other areas may try 
to replicate what we are doing there.
    Ms. Arroyo, in your testimony you mention that cities 
across the country are reducing air pollution by increasing 
transportation options like investment in public transit, bike, 
and pedestrian facilities, and new mobility solutions. Do you 
feel that investments in high-speed intercity passenger rails--
rail systems--could contribute to a reduction in CO2 emissions?
    Ms. Arroyo. So thanks for that question. And a shout out to 
Dallas. As you saw, I held up DART as an example, because they 
are, you know, just doing such innovative work to make it 
seamless for people to use transit. And if you go around the 
world on your travels, you see that other countries have 
managed to find ways to invest in high-speed rail.
    I am not an expert on what exactly is happening in a 
particular place like California or Texas, but I think for 
certain, you know, metropolitan areas, connecting those routes 
will be really important to get some of the folks off of the 
interstates, which are clogged and have some challenges 
associated with them, in terms of the pollution, both 
conventional pollution that comes from them for the people who 
live around them who tend to be disproportionately, you know, 
poor, minority communities that those interstates cut through.
    So I think rail--both conventional rail and high-speed 
rail--does offer some really exciting alternatives to that.
    Mr. Allred. Dr. Sperling? Same question to you.
    Mr. Sperling. About high-speed rail?
    Mr. Allred. Mm-hmm.
    Mr. Sperling. Yes. I mean it definitely would result in a 
reduction in CO2, especially--you know, the answer to a lot of 
these pollution and CO2 questions is how is the electricity 
generated.
    So, in California, for instance, it was planned that it 
would be coming totally from renewable energy. And in fact, the 
law now is to go to completely carbon-free electricity by 2045. 
So, I mean, that is really the answer, simple answer, to the 
environmental issues.
    Mr. Allred. Ms. Arroyo, back to you. In your testimony you 
state that, since 1980, 241 extreme weather-related events have 
cost the U.S. an estimated $1.6 trillion. That is a pretty big 
number. But then again, infrastructure investments also have a 
high price tag.
    Do you think there would be a net savings for the Federal 
Government if we were to invest in disaster mitigation and 
resilient infrastructure, rather than emergency spending once a 
disaster has occurred?
    Ms. Arroyo. So, again, thanks for that question. There is a 
new study out from the National Institute of Building Sciences 
that actually increased the number of the rate of return from--
for every $1 that you spend getting a benefit of $4 to up to $6 
now. That is a new 2018 estimate from things like, you know, 
elevating buildings in that context, or just--you know, 
designing things differently, or allowing people to rebuild 
differently after storms, so you are not basically just putting 
people back into harm's way and throwing good money after bad.
    So it is an excellent question, and it is very true, that 
resilient infrastructure investment on the front end can save 
you $6 for every $1 that you invest on the back end.
    Mr. Allred. Thank you.
    I yield back, Madam Chair.
    Ms. Titus. Thank you. We have been trying to get high-speed 
rail between Las Vegas and southern California for a long time.
    I now recognize Mr. Palmer for 5 minutes.
    Mr. Palmer. Thank you, Madam Chair. I know that we are 
supposed to reach zero emissions, CO2 emissions, in 12 years. 
And we won't be flying airplanes any more. But how are we going 
to do that, considering the amount of CO2 that China and other 
nations that come into the United States--do you have an 
infrastructure solution for that, Dr. Sperling?
    Mr. Sperling. Well, if we look at China specifically, I 
know it is easy to, you know, to bang on----
    Mr. Palmer. Well, your answer, is it yes or no? Do you have 
an infrastructure solution for that?
    Mr. Sperling. Yes.
    Mr. Palmer. You do? How are you going to block emissions 
from China?
    Mr. Sperling. They will do it--they are on the path to do 
it. They have a plan to peak by 2030, and they are making much 
larger investments in renewable energy on their own than we are 
in the United States.
    Mr. Palmer. Well, here is what we have had, in terms of 
annual CO2 emissions from 2005 to 2017. The United States has 
reduced its emissions by 15 percent. That is over 1 billion 
metric tons. Same period of time, China's is up over 4 billion. 
That is double, and it is continuing to go up.
    So maybe in 2029 they will implement their 2030 plan? It is 
kind of like what we do on our 10-year budget. You know, we 
will just--we are always--next year we will be balanced in 10 
years. Is that----
    Mr. Sperling. Well----
    Mr. Palmer. See, what the Chinese have here is an 
advantage. As we make these changes to our economy, they will 
dominate the world economy. You do take the socio--the 
geopolitics into consideration here, don't you?
    Mr. Sperling. Yes. But if I look at it simply from an 
environmental perspective, they have a strong incentive there 
to reduce air pollution, and to--in fact, they are the global 
leaders on both renewable energy and electric vehicles.
    Mr. Palmer. I think they have a stronger incentive to 
become the dominant power in the world, but we will leave that 
for another discussion for another time.
    I would like to point out one of our colleagues brought up 
asthma. Asthma rates have skyrocketed.
    Ms. Arroyo, do you have any idea of why that is? I will ask 
for yours.
    Ms. Arroyo. I don't. I mean I am not a medical doctor. But, 
I mean, air pollution is certainly one leading contributor to 
that, as well as indoor air pollution that can come from, you 
know, pests, and things like that. But I am not an expert on 
asthma.
    Mr. Palmer. It is interesting, because air quality in the 
United States has improved dramatically since 1970. You know, 
our GDP has gone up 262 percent, vehicle miles are up over 189 
percent, population is up 59 percent, energy consumption is up 
44 percent. Yet emissions are down 73 percent and asthma rates 
have skyrocketed.
    Ms. Arroyo. Well, I mean, one thing I can say, based on my 
own experience as a regulator, as an environmental regulator in 
Louisiana, is that, you know, you can look at a mean, like air 
pollution, nationally or even statewide, and that doesn't 
necessarily speak to the people who might be the most impacted.
    And those again, as I said earlier to Mr. Allred's 
question, tend to be people who are disproportionately, you 
know, poor, communities of color, living in places like near 
ports, near highways, hot spots like in my own home State of 
Louisiana, around very major industrial facilities----
    Mr. Palmer. I am glad you----
    Ms. Arroyo [continuing]. That benefit everybody, but only a 
minority of people live near them.
    Mr. Palmer. I am glad you brought up the fact that most of 
them--it generally impacts poor people. First of all, nobody 
knows what causes asthma, so that was--I appreciate you--your 
response to that. But when you do damage to the economy, you 
generally have more poor people. And I would just point out 
that whatever we do in regard to infrastructure, we need to 
make sure that it benefits all Americans.
    And on the electric vehicles, you made the point that we 
are--you almost made the point that we are dependent on foreign 
oil and--for our energy. We are not. We are on the path to 
becoming energy independent. I think electric vehicles have a 
role to play in that, but I am not sure that we are in a place 
where the market supports that, given that we put over $40 
billion in subsidies into the electric vehicle industry.
    One of my colleagues said he bought an electric vehicle. I 
think the subsidies that are available to people who buy 
vehicles, some are approaching $7,500. When you add the State 
subsidies, it could be $13,000. And almost 80 percent of the 
people who get them are earning over $100,000, so it is kind of 
a limited market, wouldn't you say?
    Mr. Prochazka. I think that we are on the verge of seeing 
the market be available to all consumers. And I think that, at 
this point, you know, the fact that we sent $133 billion abroad 
to pay for oil in 2018 alone----
    Mr. Palmer. Well, we are about----
    Mr. Prochazka [continuing]. Suggests that we still have a 
challenge.
    Mr. Palmer. I can assure you that those days are becoming 
fewer, when we will be sending money abroad. We will be sending 
oil abroad, and the money be coming back to us.
    Thank you, Madam Chair. I yield back.
    Ms. Titus. Thank you. I now recognize Ms. Davids for 5 
minutes.
    Ms. Davids. Thank you, Madam Chair. My name is Sharice 
Davids. I represent the Kansas Third Congressional District. 
And I appreciate all of you and your time and effort that went 
into your testimony.
    So one of the things that really struck me in listening to 
the entire panel is that we have a really interesting 
juxtaposition of things here. The airline industry, or, you 
know, the idea that it happens to be that your--the market 
pushes you toward efficiency in a way that benefits our 
concerns and addresses our concerns about climate change. And a 
lot of us have concerns about climate change in Kansas.
    In the Kansas City metro area we have the Kansas City 
Climate Change Coalition that includes elected officials, 
people from various sectors. And even the Kansas City 
Transportation Authority has started to--they are looking to, 
hopefully, acquire electric buses. They are operating on 
hybrids right now.
    I think there are a lot of folks, especially in my area, 
where we have multimodal, a lot of multimodal concerns. There 
is a lot of rail in the Kansas City metro area. There is a lot 
of air. There is a lot of highway. We have five highways that 
intersect.
    But one of the things that I have noticed is--Professor 
Lyon, I would love to hear you kind of talk about the idea of 
the market deciding--sometimes the market does decide. But at 
what point do you draw the line around innovation? Because at 
some point the Federal Government did decide that passenger 
vehicles, rail, and car were going to be the thing that we 
would use. And now, everything that I have heard addresses 
alternatives to the thing that we decided some number of years 
ago.
    It seems as though we are at a place right now where we 
need to be thinking in terms of not just the market, dollar-
wise, but also what does climate change do to the market.
    How are you thinking about innovation, but not just in 
terms of electric vehicles, innovation of the way that we are 
viewing the market?
    Mr. Lyon. Well, let me try to speak to that. Environmental 
economists normally think there are two big things we need to 
do regarding climate change.
    One is put a price on carbon, and two is fund, with 
Government funds, early-stage innovation for research and 
development into technologies that will help reduce carbon 
emissions. So those are kind of the two big categories, and I 
think it is pretty widely recognized that Government needs to 
help with that early-stage R&D investment. And that has driven 
spin-offs into all kinds of different sectors. I mean the tax 
sector, for one.
    I think the question is where do you stop that and hand 
things off to the market to actually do the deployment. And my 
worry is that Government sometimes goes too far into the actual 
deployment process. So we want to have this kind of smooth, 
intelligent hand-off from one to the other.
    I don't know if that addresses your question exactly.
    Ms. Davids. I think I might follow up with a written 
question for you around that.
    Mr. Lyon. Sure, sure.
    Ms. Davids. So, Mr. Prochazka, can you talk a little bit 
more about the innovations around the way we are deploying 
electric vehicles--like, the charging stations and that sort of 
thing?
    And you have talked a little bit already about the impact 
that subsidies can have. But can you talk a little bit about 
where the subsidies in other places might be hindering your 
ability to do this, or the way that we are viewing who is 
getting what subsidies? Because I feel like you have touched on 
it a little bit, but I would like to hear a bit more.
    Mr. Prochazka. Well, first, let me just mention thank you 
for the question. I have been to the great city of Kansas City, 
and KCP&L----
    Ms. Davids. Oh, a smart city.
    Mr. Prochazka. Yes, a smart city. But in this case, Kansas 
City Power and Light is a great example of the idea of how you 
can connect innovation with changes in infrastructure. And in a 
lot of ways, Kansas City is helping build the 21st-century 
solution to how city infrastructure--and then I think long-term 
infrastructure--needs to develop around the country.
    And a great example of that is charging infrastructure, we 
just think of it as a place to charge our cars, but it also can 
be a great way to help the grid actually respond to demand and 
pique demand. And so they are installing smart chargers, and 
also connecting it to information so when people charge you can 
actually connect the information around that community.
    Ms. Davids. Thank you for that. And I am glad--because I 
was going to have to do it--that you mentioned KCP&L and their 
work toward providing electric vehicle chargers.
    With that I will yield back. Thank you, Madam Chair.
    Ms. Titus. Thank you. We will now recognize Mr. Stauber for 
5 minutes.
    Mr. Stauber. Thank you, Madam Chair. I appreciate the 
witnesses coming forward, and I appreciate your expertise and 
your knowledge.
    I come from northern Minnesota, the northeastern part of 
Minnesota, where just a few weeks ago it was 71 below zero. And 
Dr. Sperling, when you talk about using scooters to get to and 
from work, at 71 below parked outside, it is not going to work 
in northern Minnesota. And so, I think that we all, I think, 
want to get there.
    Mr. Lyon, you just said something that I really agree with. 
It is that change--it is that gentle tradeoff with the 
innovation, research, and development, where the private market 
will take over. Because right now we are subsidizing a vast 
majority of our technology to get to zero emissions.
    And I think we have to recognize that there are different 
parts of the country that, because of the weather changes, that 
we have to look at. And I am just going to give you an example.
    In Duluth, Minnesota, it is obviously cold a lot of times 
of the year. And I will say it is a great part of the country, 
by the way. So we have the Duluth Transit Authority. They 
started their electric buses. There was a $6.3 million Federal 
grant. They started using those buses on November 19th of this 
year. And on November 30th they had to pull those buses off 
because of the problems on--the hills they were starting out, 
they were going beyond the 6 inches in backing when they 
started on a hill. The heaters weren't working.
    And so the--there was--the innovation started, the 
temperatures, it didn't work right away in Duluth. They had to 
actually go to diesel heaters in there. And I think that--so 
you are looking at a Federal grant that--the buses, I am told, 
now are working with the additional fixes.
    But I really appreciate you talking about that public-
private partnership to push the innovation. But at some point I 
think that we need to let the market, the private industry, 
take over and reduce the subsidies and move that forward. I am 
very, you know, concerned about the push on the Federal 
Government to move forward.
    I would say that my question, really, is this. You know, we 
have the Highway Trust Fund and the Airway Trust Fund. If we 
remove--you know, go to these innovative green projects, how 
would--how do you make up--how do we make up the $35.6 billion 
shortfall in the Highway Trust Fund and the cut to the public 
transportation, and almost $100 million cut to the Inland 
Waterways Trust Fund with this new technology?
    And this goes to anybody, if you would like to answer it.
    Mr. Sperling. There are many ways to raise funding for 
these kinds of initiatives. So, you know, to use California as 
an example, we have not only the cap and trade program, which 
funds probably $1 billion a year in clean transportation, but 
it is used also for affordable housing near transit stations 
and greening of communities to reduce emissions, as well.
    We have a low-carbon fuel standard, so--I should say there 
is no taxpayer money involved in that. There is, of course, 
money--you know, eventually comes from individuals. But then we 
have a low-carbon fuel standard that is a market trading 
program between the oil companies and other energy suppliers. 
And that ends up providing large incentives. Part of that will 
be providing probably about $2,000 to buyers of electric cars. 
It provides funding to builders of charging stations and 
hydrogen stations.
    So I am just illustrating that everything doesn't have to 
come from the trust fund.
    Mr. Stauber. OK----
    Ms. Arroyo. I would just add that I participated in the 
future of the Interstate Highway System report that was 
requested by Congress. And obviously, the trust fund has 
already been in dire straits for some time, and part because 
the gas tax revenues haven't been raised because the gas tax 
itself hasn't been revisited in so long, and with efficiency 
improvements, et cetera.
    So some States, like Oregon and some of the States on the 
I-95 corridor, are experimenting with VMT approaches. Some 
States are adding registration fees to lower carbon fuel 
vehicles like electric vehicles.
    The future of the Interstate Highway System report said 
that we might consider changes to the Federal system, as well, 
in terms of allowing tolling, which, of course, they are doing 
already on the I-66 portion inside the beltway. And, you know, 
carbon pricing mechanisms like those that are being considered 
by the States in this region can also provide money for 
investment and clean and resilient transportation 
infrastructure.
    Mr. Stauber. Thank you very much.
    Madam Chair, I yield back.
    Ms. Titus. Thank you. We will now recognize Ms. Finkenauer 
for 5 minutes. Your mic is not on.
    Ms. Finkenauer. Is that better? Thank you all so much for 
being here today. It truly is an honor. And I am just very 
grateful that Congress is taking climate change seriously, and 
the impact of severe weather to our infrastructure seriously.
    I do really think we have a real opportunity here to 
rebuild our infrastructure in a way that is more resilient to 
severe weather, less harmful for our environment, and includes 
solutions that actually reduce greenhouse gases.
    And I got to be honest, I am very, very proud to come from 
northeast Iowa, and Iowa's First Congressional District, 
because so many of my towns and cities are taking this 
seriously, and want to move in this direction, and have been 
making some very serious progress towards improving the 
efficiency of our transportation networks.
    Waterloo is one city in my district that has done great 
work, you know, recently launching a mobile app, trying to make 
transit more accessible, and a more viable option for folks.
    You have got Dubuque, where I am from, that has been 
partnering with IBM, really making great strides, both 
collecting data through smart phones, where folks can opt in 
and make sure that we have the most up-to-date data of where we 
need some help in our transit system, making streets more 
accessible, what is in need of repair, a bunch of different 
issues. So excited to see that partnership developing.
    And I will tell you, because of these partnerships and some 
of the stuff that my district is working towards, it has 
created a very interesting conversation in Iowa, one, about 
making sure that we are doing more using technology. And when 
we are investing infrastructure, making sure we are doing it in 
a sustainable way.
    So I would love to hear from this panel on intelligent 
transportation systems. And specifically, how can we use new 
technologies to reduce congestion, and therefore reduce 
greenhouse gas emissions? What are you guys seeing on the State 
and local level? What programs are worth expanding? And then 
what can be scaled up on the Federal level, so that we can make 
sure every community can benefit?
    Mr. Sperling. Let me start. I have such a long list. But, 
you know, one thing is, like, for instance, we have in our 
transportation bill in California that sets aside money for a 
congested corridor program, green congested corridor program, 
that is a competitive program that provides funding for local 
communities that come up with innovative and creative ideas. So 
there might be something like that that could be scaled up.
    I want to note also that, at the end of the day, we have 
seen a tremendous increase in vehicle miles traveled, and a big 
part of that is because people are traveling by themselves. I 
saw a number: 1970, for a car, the average occupancy was 1.9, 
and now it is 1.4. That, by itself, explains much of the 
increase in VMT.
    Now, the role of these intelligent transportation systems, 
smart transportation, pooling, is--the idea is that--I think 
is--really, the key to it is what I call pooling. And that is 
increasing the utilization of our vehicles.
    You know, if we build more infrastructure, they will come. 
And so, we want to provide it in a way that we do make 
efficient use of the infrastructure so we don't need more of 
it. In fact, you know, we will need less parking. And as we 
move--so one of the ideas is to encourage services like Uber 
Pool or Lyft Share or Via, and also in connecting them with 
transit, so that transit does what it does well, where it 
serves line haul, dense corridors, but we create these services 
that will provide better mobility and better accessibility, 
even for relatively low-density areas.
    We have the tools now. We didn't have them 5 or 10 years 
ago. And we are doing a project in the Central Valley in 
California, which is very rural, where we create these--they 
start out as car sharing, but people can take the cars and use 
them to transport other people, and it creates jobs and it 
improves accessibility for all those people that don't have 
easy access to high-quality vehicles.
    Ms. Finkenauer. OK, thank you so much.
    And Madam Chair, I yield back.
    Ms. Titus. Thank you. Well, now I move to Mr. Balderson for 
5 minutes.
    Mr. Balderson. Thank you, Madam Chair. And I would like 
to--my questions be directed to Mr. Prochazka. Thank you for 
taking the time to be here today.
    And I know that you have mentioned in your testimony the 
Electrification Coalition has served as a strategic advisor to 
Smart Cities Columbus and--thank you very much for your work on 
that, and you and I are going to discuss that even further. But 
I am proud of the innovation work that is being done in 
Columbus, and also in my district.
    While Smart Columbus specifically focuses on addressing 
transportation challenges in an urban environment, how can 
rural areas learn from such initiatives, so they could address 
their own distinct transportation challenges and needs?
    Mr. Prochazka. Thank you for the question. And, you know, 
if anyone is looking for an example of how a community can go 
from zero to now being a leader, Columbus is probably one of 
the best examples. So I would encourage anyone looking at 
strategies and techniques to drive adoption of plug-in electric 
vehicles, Columbus is a great example.
    To answer your question, I think, you know, there are key 
examples of programs that are developing in cities and, I 
think, rural communities that are great opportunities to drive 
innovation. One of the key ones that I think is a good 
opportunity is the idea of joint purchasing. So cities are 
actually banding together, recognizing that maybe in smaller 
communities they don't have access to the number of vehicles or 
the pricing that might exist for larger cities.
    And so, by joining together--and that is actually happening 
in Columbus, where they created a master contract so that any 
city throughout the State can actually purchase the same EV 
that Columbus can purchase. Those are great examples of 
innovations that are reducing costs and creating better access 
for communities all across the State.
    Mr. Balderson. Thank you. That leads me into the next 
question, and you touched on it just a little bit.
    Under the leadership of the Columbus partnership, the Smart 
Columbus Acceleration Fund has already leveraged over $500 
million in private-sector investment, which is a big number. 
American Electric Power, which is headquartered in Columbus, 
local car dealerships, and other businesses have worked with 
the city of Columbus to encourage Smart Columbus and promote 
the development of electric vehicles within the city.
    How can we use Columbus as an example throughout the Nation 
to encourage the involvement of private-sector businesses to 
help new technology into our infrastructure?
    Mr. Prochazka. And again, thank you for the question. So 
you know, in Columbus they have a saying that I had to learn, 
but ``the Columbus way.'' And I think that, in a lot of ways, 
they have just electrified the Columbus way. But the idea is 
that you really can have these burgeoning public-private 
partnerships that can go much further than cities can do on 
their own, or than the private sector can do on their own.
    And it is this idea of leveraging the investments and the 
innovation and, frankly, the ingenuity. So they created, as an 
example, something called the Mobility Partners, where over 60 
businesses that are representing Fortune 100, Fortune 500 
companies that exist in Columbus--which many people don't 
know--and those are banding together and creating amazing 
programs. They have been able to put 7,000 people behind the 
wheel through that partnership. They have been working on 
creating innovation funds that can happen through, as you 
mentioned, AEP and others to help drive acquisition of vehicles 
faster and to help create programs that are moving the needle.
    And then I think the other part of this is that they are 
also not recreating the wheel on every example. And so, by 
working together, they are finding the strategies that might 
work at Alliance Data and then bringing that over to Cargill 
Health, and then replicating that at L Brands. And those are 
perfect examples of the kind of innovation that could happen 
across the country.
    Mr. Balderson. I commend you. Thank you very much.
    I yield back the remainder of my time, Madam Chair.
    Ms. Titus. Thank you. We will now recognize Mr. Lowenthal 
for 5 minutes.
    Dr. Lowenthal. Thank you, Madam Chair. And to all our 
witnesses, I have listened the entire session and have found it 
very, very interesting.
    You know, I also represent an area that is impacted by 
climate change very much, southern California--sea level rise. 
But I am also--what is unique about my district is that I 
represent the port area of Long Beach and Los Angeles, which 
over 20 years ago was part of the dirtiest collection of 
industrial concentration. Forty percent of our Nation's goods 
come in and out of the port area in my district.
    But there have been dramatic changes. And part of that 
has--and I am going to ask both Ms. Arroyo and also Dr. 
Sperling--has to do with some of the incentives and some of the 
money that has been provided for freight.
    So I want to focus on freight. Much of our discussion today 
has been--although it has been mentioned--has been on, really, 
you know, passenger vehicles and others. But I think that much 
of what we have done in California, I am wondering how that 
translates to the rest of the Nation.
    I think, Ms. Arroyo, you mentioned in your testimony--I 
think the written testimony--about how the cap and trade 
program has helped a lot. I know Dr. Sperling has worked very 
much on that through CARB, also.
    But first, and--I am interested in, you know, how--we have 
attacked in California, or we have targeted our State's freight 
sector in a way that we have done--moved towards zero emission, 
yard equipment, and heavy-duty trucks that--moving toward zero 
emission and charging outlets, and now talking about tier 3 
container ships. And so we are kind of moving in that direction 
in California.
    Interesting, now, that as Dr. Sperling has mentioned, I 
still--I have circled in his--but emissions are--no matter 
what--even though what we are doing--emissions are still 
rising. And even though I have heard all this reduction from 
other Members, that one sentence has frightened me the most, 
that all this amount of resources that we are doing--I am just 
kind of wondering from you, even though this is not the 
critical question--when are we going to reach a tipping point, 
where those emissions start to drop?
    You know, is it that we need new kinds of--you mentioned 
about, you know, sharing and automation and also 
electrification. But the question I want from Ms. Arroyo is 
that--how are we going to build upon what you mentioned? Let's 
say things like the funding cycles, like cap and trade and 
others, cost of carbon. What do we need to do to move the rest 
of the Nation towards adopting this?
    You know, California has paid--and I am not saying it is 
just California--has paid a lot of attention towards reducing. 
But what is the rest of--what do we need to do? What are the 
major things for freight? Is it the same as passenger vehicles? 
What are the incentives that we really need to do?
    Ms. Arroyo. So there are a lot of different approaches to 
freight, including trying to shift from the roads to rail, as 
the----
    Dr. Lowenthal. That is right.
    Ms. Arroyo [continuing]. Gentleman on this side of the 
aisle mentioned earlier. And also short sea shipping, which is 
hard to say fast, but I said it slowly----
    Dr. Lowenthal. And the ports are moving towards rail.
    Ms. Arroyo. Right.
    Dr. Lowenthal. Much more of the--much more because, as was 
pointed out, we are not going to build more--through urban 
centers we are not building more highways. And our growth 
continues, even though they have demonstrated that they can 
reduce the pollution. But the growth is still there. And I 
think rail has been certainly one of the answers.
    Ms. Arroyo. But I think there is definitely a role for a 
committee like this one. Because what we found in facilitating 
the Transportation and Climate Initiative over 8 years now or 
more has been that there is a great interest in the States in 
this region, which runs from Virginia now all the way up to 
Maine, in working together to analyze what the freight flows 
into and around the region are and to try to move it to more 
efficient options, which would actually save our roads for 
passenger vehicles, get it into rail or shipping, et cetera, 
look at the emissions benefits that come from that. And there 
really, frankly, has not been a lot of support for that, so 
that work has not been as sustainable as other work that we 
have done together. For example, on electric vehicles, where 
there have been DoD and DOE grants to support corridor planning 
and things like that.
    So one of the things that this group as a region is looking 
at is a policy proposal that would be under development this 
year to have a cap and invest program that would generate 
proceeds that could be invested in cleaner and more resilient 
transportation infrastructure. And that is to be determined by 
the States themselves over the course of the year.
    Dr. Lowenthal. I know I am just about out of time. But Dr. 
Sperling, any other thoughts about----
    Mr. Sperling. Just quickly, you know, you need to think of 
it both on the technology side and on the logistics use side. 
And I think we are making some progress on the technology side. 
On the logistics side, that is why we are seeing the emissions 
going up on the passenger side as well as on the freight side.
    And part of the challenge is that States do not have much 
jurisdiction over the rail. Rail is great but, you know, part 
of it is dealing with that issue because of the interstate 
commerce. And aviation, the same thing. So we need a renewed 
focus.
    But it is the States and locals that really need to focus 
on this, what is happening at the local area. And frankly, with 
the--I call it the Amazon-izaton of delivery, we are seeing 
this proliferation of warehouses all through our communities 
now. And it is resulting in a lot more truck--local truck VMT, 
which is--and L.A. is right at the forefront of that.
    Dr. Lowenthal. Thank you. And I yield back.
    Ms. Titus. Thank you. We will now go to Mr. Westerman for 5 
minutes.
    Mr. Westerman. Thank you, Madam Chair. Thank you to the 
witnesses for being here. I just want to say I appreciate the 
testimonies today and the questions. I think it has been very 
informative. I want to recap a couple of things.
    First, high-speed rail, I have looked at that project in 
Texas and I think if there is any place that high-speed rail 
would work in our country, it is probably from Dallas to 
Houston. So I hope that the private sector will move forward 
with building that and that we in Congress can help that along, 
as well.
    But I wanted to, and also, when we talk about modes of 
transportation that are fuel efficient, we talked a lot about 
rail but we forget oftentimes about our inland waterways and 
barges that are the most energy efficient means of moving goods 
that we have. So I hope we keep that in mind as we look at ways 
of creating more sustainable transportation.
    But as we look at kind of the global numbers and where we 
fit and where U.S. transportation fits in that, the best data I 
could find says that the U.S. accounts for about 15 percent of 
global greenhouse gas emissions. And, Ms. Young, in your 
testimony, you had a chart in there that shows that the U.S. 
transportation sector is about 28\1/2\ percent of U.S. 
greenhouse gas emissions. So that means that, you know, 28\1/2\ 
percent of 15 percent, means that the U.S. transportation GHG 
emissions are about 4.3 percent.
    So as we look at ways to trim that, we also have to 
remember that there is a whole other world out there creating 
greenhouse gas emissions. And that is why I think we need to 
look at all the different energy sectors as we talk about this. 
But we can definitely make some impact on U.S. transportation.
    Ms. Young, you in your written testimony, you talked a lot 
about sustainable alternative jet fuels. And I think when we 
talk about sustainable fuels, we often think that any liquid 
fuels are not sustainable. But we know that these sustainable 
alternative jet fuels are made from biomass. And I was just 
looking at some other data.
    In 2015 in California, with all the controls put in place, 
they were able to offset 1.49 million metric tons of greenhouse 
gas emissions. Yet the wildfires in California generated 22.8 
million metric tons of carbon, which is 15 times more carbon 
was emitted in those wildfires than what the State of 
California was able to reduce.
    So as we think about liquid fuels and the vast forest 
resources that we have here, can you elaborate a little bit 
more about where we are on alternative liquid fuels?
    Ms. Young. Yeah, really, thank you for the question. We are 
very proud of what we have done through the Commercial Aviation 
Alternative Fuels Initiative to really create the path forward 
for sustainable alternative jet fuel. And so, you know, 
beginning in 2006, we started that process. And what we did is 
we drove the jet fuel specification, which used to only allow 
petroleum-based fuel, to allow for alternative feedstocks, that 
also have carbon content, frankly.
    So an example, really picking up on your thoughts there, we 
can take woody waste, so we are not knocking down trees to do 
this but after a fire or, in the Pacific Northwest where they 
have, you know, specified amounts of logging, you are able to 
take out the waste product from that and turn it into jet fuel. 
In fact, there are two of our members are working with Red Rock 
Biofuels in Oregon on exactly that type of an approach.
    We have United Airlines working with waste residues from 
cropping. So again, not the food but with AltAir Fuels in 
California to create sustainable alternative jet fuel.
    Mr. Westerman. I am going to have to move along. I have 
actually got another question I want to submit to you on 
NextGen, performance-based navigation but I will give that to 
you in writing if you can reply back to the committee.
    Last week in my district, I drove a Tesla. It was an 
amazing piece of equipment. Being an engineer, I had great 
appreciation for it. But I know that Tesla requires electricity 
to operate. And electrical generation and industry make up 
about 50 percent of the greenhouse gas emissions in our 
country.
    So Dr. Sperling, real quickly, how important is it to 
develop nuclear, hydro, all the other renewable energies if we 
move into more of an electric situation?
    Mr. Sperling. This is speaking for myself but, certainly, I 
believe nuclear is part of it, is part of the solution. Hydro, 
we have developed most of the big hydro, so probably limited 
options there. But nuclear, for sure. And wind and solar are 
the other major ways of reducing emissions in the electricity 
sector.
    Mr. Westerman. Not out of questions but out of time, Madam 
Chair.
    Ms. Titus. OK. We need to worry about nuclear waste if we 
go down that path.
    I will now recognize Ms. Norton for 5 minutes.
    Ms. Norton. Thank you, Madam Chair. I suppose actually this 
question is for whoever wants it, perhaps Ms. Arroyo or perhaps 
others of you, as well.
    The Nation's capital, where we are as I speak, sits on the 
banks of two rivers, the Potomac River and the Anacostia River. 
It is interesting that the framers built this Capitol on a 
hill. Maybe they had some understanding of what might be coming 
a couple of hundred years later.
    We have already had to build a levee, the 17th Street 
levee, because among the low points, perhaps the lowest point 
is downtown Washington, where the Federal Triangle is. And you 
will see buildings or agencies there, such as the Justice 
Department and the IRS--people don't like to see the IRS coming 
but they certainly don't want it flooded because we are just 
going to have to pay for it.
    About 10 years ago, there was a serious flood here. 
Constitution Avenue was under water. I recall distinctly that 
the National Archives, where some of our most precious 
documents are housed, was under water. They then had used a 
self-rising wall for downtown Washington.
    So this thing is coming so fast, I am interested in the use 
of nonpolluting vehicles. I drive a hybrid. I am very 
interested to get to the point where I drive an electric car. 
But some of them have, for example, we are having in this city, 
the District of Columbia, we will use the notion of a rebate, 
where you pay more based on the emissions generated by the 
automobile that you have and you get a rebate if you do not 
have as many emissions.
    So I would like to know how effective--because these things 
are beginning to catch on, not only here but around the 
country. How effective are these rebates or fines, virtually, 
in encouraging the use of low-emission vehicles? Is it going to 
be sufficient to have an effect as climate change comes upon 
places like the Nation's capital so quickly? Are we running out 
of time or do these really make a difference, particularly when 
some of these cars cost more than cars that pollute, use gas 
that pollute?
    Ms. Arroyo. So, thank you, Congresswoman. Indeed our center 
at Georgetown, where you also teach, I know, works with Tommy 
Wells and his staff here on resilience, the impacts of climate 
change the District is already seeing, including in ward 7, 
which is already experiencing flooding from rain events.
    But as Tommy Wells believes, I believe in electric vehicles 
as part of the solution. I drive a Bolt. It has been terrific. 
It is my first American car that I have ever bought and it was 
more expensive than cars that I bought in the past. So I do 
think it is a case where a rebate makes a difference in the 
upfront cost of it even though, over the course of a lifetime, 
that cost, you know, is actually less than a gasoline vehicle.
    And DC actually gets a shout out in my testimony, in the 
longer version of it, because you do have what is known as a 
feebate kind of a program in practice, where people who buy and 
drive gas guzzlers subsidize the purchase of those more 
efficient vehicles. And that could be a model for the country, 
I think.
    Mr. Sperling. And I would like to just add to it because 
this is one of my favorite policies, this idea of feebates. 
Because it is--you can make it revenue neutral so there is no 
burden on taxpayers at all. It is simply a trade from people 
that are buying the gas guzzlers. And, in fact, we have a gas 
guzzler and it has been in place since 1975 but it is only on 
cars and it is only for the most inefficient cars. So this is 
not a new idea, at least on the fee side of it.
    So I think this is an outstanding way of using market 
forces to accomplish an environmental goal.
    Ms. Norton. Thank you very much. Thank you, Madam Chair.
    Ms. Titus. Thank you. We will now recognize Mr. Lynch for 5 
minutes.
    Mr. Lynch. Thank you very much, Madam Chair. And I want to, 
as well, thank the witnesses who have been terrific with their 
testimony and I appreciate you helping the committee with its 
work this morning.
    Recently, in the latest worldwide threat assessment of the 
U.S. intelligence community issued by Director of National 
Intelligence Dan Coats, he said that climate change poses a 
serious global threat that could further spark international 
political instability, adverse health conditions and 
humanitarian crises. Meanwhile, President Trump says he is not 
a believer and, what is more, he has established an ad hoc 
committee to reassess the fact of climate change and the 
science around it. And in doing so, he has appointed some 
scientists who, like himself, do not believe in climate change.
    And so I want to ask you, considering our efforts here, is 
that helpful? Does anybody on this panel think that that is 
helpful? OK, I didn't think so.
    I, on the other hand, I hate to be a self-promoter, but I 
have a bill. I chair--another hat I wear is the chair of the 
National Security Subcommittee of the Committee on Oversight 
and Reform and I have got a bill that actually would 
reinstitute the preexisting initiative which basically asks all 
of our branches of Government, all of our departments just to 
look at their own operations and see how we might build 
resilience and help to prepare for whatever is coming down the 
pike at us in terms of climate change.
    I have a special bone to pick, though, Ms. Young. So I am 
also on the Subcommittee on Aviation here and I mean this as a 
friendly exchange. But we talk about RNAV NextGen, this 
aviation system that is very, very good at conserving jet fuel, 
because you have got hundreds of thousands, millions of flights 
that come in over the course of a year across our country and 
everybody is on this tractor beam, it is really precise, it's 
laser-like, so that tens or hundreds of thousands of flights 
per year go over the same home, go over the same child's 
school.
    So while there is a--it is sort of counterintuitive. I know 
we are trying to save jet fuel. But I worry about--I have one 
of those districts, I am in a coastal community, I represent 
the area surrounding or near Logan Airport in Boston. And so I 
have some towns where it is relentless that this focus, this 
laser beam has flights coming in. I could stand, I could look 
out my window, I can tell--I am so close to the airport that I 
can tell whether people have their tray in the upright position 
going by, of the plane going by, I swear. So I have two hearing 
aids, it is over for me.
    But the towns I represent, I worry about their health. The 
emissions coming from those planes, and the noise is driving 
them nuts. And so these are over schools, these are over small 
towns. And is there some way, look, now, I understand you want 
to save jet fuel. And so I am only talking about the end 
approach of their flight. I am not talking about, you know, 
redirecting so there is a huge waste of jet fuel. I am just 
talking about when they get in X number of miles, 8 or 10 miles 
of the airport and they start to decrease in altitude, could 
we, could we change the approaches so that same house in 
Milton, Massachusetts, is not getting, you know, 10,000 flights 
a month? Or the Cunningham School in Milton, Massachusetts, 
those kids are not getting that plane flying over their school 
every single day?
    You know, I have a bill that we are hopeful will succeed in 
terms of having the Academy of Sciences look at the impacts of 
that. I would really like to have, you know, somebody on the 
human side, if you will, maybe the Harvard School of Public 
Health, look at the environment that we are putting my 
constituents in. You know, these small towns, these 
neighborhoods of Dorchester and South Boston and Milton and 
Hull that are sort of on the vector, you would say. Is there 
any--are we looking at this at all?
    Ms. Young. Absolutely, Congressman. So first, you know, 
anybody who experiences aircraft noise, you know, we appreciate 
that that is not something that they would like to have. But we 
also have to keep this in context. I mean, the U.S. airlines 
reduced the number of people exposed to significant levels of 
aircraft noise by 94 percent----
    Mr. Lynch. Because you put them all over one house.
    Ms. Young. We did that by more than quadrupling 
enplanements. And you are correct, some of the performance-
based procedures under the NextGen program do concentrate or 
shift the noise. And so people who either did not experience it 
before are experiencing it or, as you suggest, it does focus it 
in more precise flight paths.
    So there are various ways those things are being addressed. 
One, we continue our relentless effort to reduce noise overall 
at the aircraft source, through our own efforts, through 
working with the manufacturers and programs like CLEEN. But 
second, as you roll out these new procedures or you revise the 
procedures, in 2014 and 2016, the NextGen Advisory Committee 
recommended very specifically to FAA to enhance its community 
engagement processes to consider exactly the issues that you 
are talking about. And they have embraced those, maybe not at 
the time 5 years ago, 7 years ago, but they are undertaking 
that approach to take into account community involvement and 
roundtables, including----
    Mr. Lynch. OK, you ate up all my time. We are actually over 
here. Let me just say, Madam Chair, thank you for your 
indulgence, I really appreciate that.
    Look, it is a coastal community. You can fly over the 
water. We can solve this thing. Fly over the water rather than 
over the houses. It is really simple, but I need your 
cooperation on that. So maybe we can talk later offline.
    Madam Chair, I yield back the balance of my time that I 
don't have and I appreciate your indulgence.
    Ms. Titus. You have no time. Starting to sound like a 
``Saturday Night Live'' skit. I can see the plane tables from 
my back porch, something like that.
    We will now recognize Mrs. Napolitano for 5 minutes.
    Mrs. Napolitano. Thank you, Madam Chair. And, Mr. Lynch, I 
agree with you. My constituency also has complained bitterly 
over that NextGen situation.
    Have any of you considered the education of the public on 
all of the things that you talk about?
    Mr. Sperling. That is our job as professors.
    Mrs. Napolitano. But what means do you use to get the 
public to know about pollution, about the climate change, about 
everything you talk about?
    Mr. Sperling. That is one of the key strategies going 
forward, is for us to understand, you know, what are the 
impacts and implications and what we, as individuals and as 
consumers and as taxpayers, can do about that.
    Mrs. Napolitano. Anybody else?
    Ms. Arroyo. So our center, as I mentioned earlier, 
facilitates something called the Transportation and Climate 
Initiative and, last year, the States in this region worked 
together on a bipartisan basis to hold 6 listening sessions 
that engaged 500 members of the public----
    Mrs. Napolitano. I know but that is members, that is people 
that are working on it. But you don't disseminate to the 
general public. They need to hear from you.
    Ms. Arroyo. Right. And that is a great point, and we did 
really try to reach out to diverse constituencies. And we got a 
lot of really unusual bedfellows in the room. But I know it is 
just a start.
    The other way that we try to have information is up on the 
website that has the State----
    Mrs. Napolitano. Who knows what the website is?
    Ms. Arroyo. Right. So, I mean, we try to make our resources 
available broadly and for free.
    Mrs. Napolitano. We need to get more of that out. Anything 
else? Anybody else?
    Ms. Young. I would like to add, I mean, our airlines, the 
types of measures I talked about in my written and oral 
testimony, our member airlines share that information in the 
magazines that they offer on the plane----
    Mrs. Napolitano. But it is on the plane. Only the 
passengers see it. What about general public?
    Ms. Young. Well, we meet very frequently with communities 
and talk about this array of initiatives.
    Mr. Prochazka. I will just add that we continue to release 
reports to document all the different challenges that might 
exist with our transportation sector and then we use those as 
mechanisms to communicate with the public. And so those get 
sent out broadly. We communicate with mass media. We actually 
work in communities in your district to help make sure that 
those kinds of resources get folded out, they do get out to 
communities.
    Mrs. Napolitano. I think we need to do a lot more of that. 
I am sorry to cut you off. But this goes on.
    What about the gas tax? Do you think we need to increase 
the gas tax? Question. Yes or no?
    Mr. Sperling. We need more funding for transportation.
    Ms. Arroyo. I do. And many States have actually increased 
the gas tax.
    Mrs. Napolitano. Oh, yes. But I mean Federal. We have not 
had an increase in decades.
    Ms. Arroyo. Yes, yes. I think it is overdue. I think it is 
overdue. And I think there are other ways that you can increase 
revenues to invest in cleaner and more resilient transportation 
as well.
    Mr. Lyon. I think you need to either increase the gas tax 
or institute a VMT, vehicle miles traveled tax.
    Mrs. Napolitano. True.
    Mr. Prochazka. I think we need a comprehensive effort to 
figure out how we are going to fund the future of 
transportation. And we would love to work with you and the 
committee to help figure out the right path.
    Ms. Young. Well, I was not really going to speak about the 
gas tax because we use jet fuel. So we are a very heavily taxed 
sector and, as you heard in my testimony, we were already very 
motivated by the fact that fuel is number-one or number-two 
cost in any given year to do, you know, reduce emissions and 
fuel burn.
    Mrs. Napolitano. Thank you. Ms. Arroyo, our water 
managers--this is another topic--are seeing firsthand the 
effects of prolonged drought, less snowpack, more flooding, 
extreme rain events on our communities and on our 
infrastructure system. They do not have time to debate climate 
change and they are dealing with it now. Why is it important to 
build resiliency?
    Ms. Arroyo. Well, because, as you said, people are already 
experiencing these impacts, whether they are facing drought and 
fires in the West or flooding in my home State where 
Congressman Graves has been a leader on trying to build 
resilience. And one of the things that we do aim to do is to 
provide tools to translate the science to those policymakers 
and communities that are on their front lines and figure out 
how they can build or rebuild differently with the fact that 
the future is going to look different from the past in mind.
    Mrs. Napolitano. Anybody else?
    Mr. Sperling. I would just note that, as we discussed 
earlier, mitigation is a lot cheaper than adaptation. We need 
to do both because, as Ms. Arroyo said, it is happening. But at 
the same time, we need to be putting a lot more effort on the 
mitigation. In the long run, it will be much cheaper.
    Mrs. Napolitano. Well, in the metropolitan area where I 
come from in Los Angeles, we do not have a good transportation 
system. But because they passed, as you know, transportation 
bonds, it is still not enough to handle the mass transit that 
is necessary. Also, people cannot afford to go on trains, so 
they use the gas guzzlers. We need to change that.
    Mr. Sperling. I will just very quickly plug the idea, one 
of the major themes I have been trying to articulate is that we 
do have the tools and the business models and the technologies 
to solve much of that, to provide better access to lower 
income, disadvantaged communities, to increase pooling 
services. Because now there is information available. We can 
pool trips, we can provide first/last mile access, we can use 
these micro--you know, vans that run like Lyft and Uber. There 
are a lot of tools that we did not have 5 or 10 years ago.
    Mrs. Napolitano. I know. But the unfortunate part is that--
well, I will submit it to you.
    Ms. Titus. Perhaps you could send that to us in writing if 
we have that information.
    We will now go to Mr. Smucker for 5 minutes. And we 
apologize that we didn't see you earlier, so maybe you could 
take a few--a little extra time.
    Mr. Smucker. Oh, wonderful. I will take that any day. So 
thank you. So shuttling between this and a markup. But thank 
you, Madam Chair.
    Mr. Prochazka, I am particularly interested in the work 
that your organization is doing, that you are doing. And I 
think your goal of less reliance on foreign oil has been shared 
widely with folks over the last few decades. And I think you 
will agree with me, we have made tremendous progress in that 
regard, where we are talking today about being a net exporter 
of energy. And that would have been unheard of that we would be 
making those kinds of projections just 20 or 30 years ago.
    And I think one of the reasons for that is we have new 
technologies that have been--we have been able to tap into 
shale fields and others and extract natural resources, but 
specifically natural gas, but oil as well from the ground. In 
Pennsylvania, I represent Pennsylvania, we have the Marcellus 
shale, which is one of the largest fields in the world, really. 
And so I think that has been tremendously beneficial. Would you 
agree with that?
    Mr. Prochazka. You know, yes. We have had great steps 
forward in terms of the ability to domestically produce.
    Mr. Smucker. And I think you were asked this question 
before and I may have missed some of it. But I was in the State 
Legislature of Pennsylvania when we were working on ensuring 
that that industry could develop and there was, you know, talk 
and push for natural gas vehicles. And it really came down to 
one of the same problems we have with electrical, which is 
fueling stations along the way.
    Do you see natural gas vehicles as part of the solution 
here? Or are you focused entirely on electric vehicles?
    Mr. Prochazka. My sister organization, Securing America's 
Future Energy, really focuses on sort of the full space of 
alternative fuel options. And so they have come up with a 
publication called the National Strategy for Transportation 
that talks a lot about what that full scope ought to look like.
    I do think there is a difference around the idea of 
electric vehicles and, you know, sort of the transition. 
Electricity is already ubiquitous. We already have the system 
in place and it is just about tapping into it throughout the 
places that we drive. And I think that is already showing to be 
very easy to do at this point and we just need more stations to 
provide more charging and then we will have more vehicles that 
will use them along the way.
    [Mr. Prochazka has submitted the following post-hearing 
supplement to his testimony:]

                                 

    As I mentioned, the Electrification Coalition's sister 
organization, Securing America's Future Energy (SAFE), published a 
report in 2016 titled ``A National Strategy for Energy Security: The 
Innovation Revolution.'' This document provides a strategic blueprint 
for enhancing our energy security through a series of actionable policy 
recommendations across four areas:
    <bullet>  Increasing fuel diversity in transportation;
    <bullet>  Advancing the next generation of transportation 
technology;
    <bullet>  Bolstering American oil production; and
    <bullet>  Combating oil market manipulation.
    Strengthening our economic and national security requires a 
multifaceted approach to diversifying the fuels used in our 
transportation sector--including natural gas and electricity--and 
leveraging opportunities for domestic energy production. For your 
interest, I have included with this letter a digital copy of the 
report. [The report is retained in committee files and is available at: 
http://secureenergy.org/wp-content/uploads/2016/06/SAFE-National-
Strategy-for-Energy-Security-2016.pdf.]

    Mr. Smucker. You mentioned in your report cost parity and I 
just want to hear you talk just a little bit more about it. You 
think we have reached the point where the cost of buying and 
maintaining an electric vehicle over its lifetime is now the 
same as a petroleum or gas vehicle?
    Mr. Prochazka. Thank you for the question. And, no, 
actually I think we have reached the point in large part, 
depending on the vehicle, but where driving an electric vehicle 
and taking into account the total cost of operation is cheaper.
    Mr. Smucker. OK.
    Mr. Prochazka. And so it is part of the reason that right 
now it makes sense to create incentives so that, as the 
technology is becoming more----
    Mr. Smucker. I am going to stop you because I want to get 
to another question.
    Mr. Prochazka. Please, go ahead.
    Mr. Smucker. So wouldn't this be the time to start pulling 
back some of the Government incentives? You know, I understand 
the need for incentives. I was involved with the solar industry 
to some degree, policy with the solar industry. I understand, 
you know, you have to have a driver that begins to drive down 
the costs. And in electric vehicles, of course, it is the 
battery cost and efficiency.
    But, you know, we are very close to that tipping point. I 
think most of the major manufacturers are--they have even set 
timelines for when their vehicles are going to be entirely 
electric. So isn't this the time to begin to pull back the 
subsidies? And wouldn't it be particularly harmful to add an 
additional layer of Government regulation at this point?
    Mr. Prochazka. So, and I can see others want to respond, so 
I will very quickly say, no, it is quite the opposite. We are 
actually right at the verge where we need to be, if anything, 
pushing faster and pushing harder.
    Mr. Smucker. So at some point, there will be a tipping 
point where you will not need the Government subsidies?
    Mr. Prochazka. Absolutely. Frankly, I believe that we will 
hit that point at some point and we will need to remove them 
and EVs are going to be able to compete on the cost.
    Mr. Smucker. I know I am going to get a little extra time 
but I do want to get to another question. So we did have a 
hearing here just a week ago, I think, about a new 
infrastructure package, how we are going to fund the Highway 
Trust Fund. One of the ideas--I mean, we know that, you know, 
the gas tax is a declining source of revenue, particularly if 
you get your way and vehicles are going to go to entirely 
electric, which eventually it will, that is going to happen 
eventually. But one of the thoughts was a Federal registration 
fee on electric vehicles. I guess my question to you is, from 
the perspective of an organization pushing for electric 
vehicles, what do you think makes sense? How do electric 
vehicles do their part in providing for user fees to pay for 
our roads and highways?
    Mr. Prochazka. I mean, unquestionably, there is going to be 
a need for EVs to pay their fair share. We are going to need to 
figure out a solution for how our highway----
    Mr. Smucker. Are you thinking of any specific proposals?
    Mr. Prochazka. I think that there are a lot of things we 
need to look at, whether it is a user fee, that might be--that 
is a question, still. I am not sure it is the right solution, 
exactly. There might be VMT that needs to be considered, so 
that we are actually thinking about all vehicles paying for 
use.
    I think we have to go and work hard to think about all 
those solutions and what are going to work the best for what 
our diverse and future transportation system looks like.
    Mr. Smucker. Thank you. I know that others wanted to 
respond. That will be up to the chair as to whether we have 
time to do that.
    Mr. Espaillat [presiding]. They can respond in writing, 
thank you.
    Mr. Smucker. Thank you.
    Mr. Espaillat. Now we will go to Mr. DeSaulnier.
    Mr. DeSaulnier. Thank you, Mr. Chairman. And, like my 
friend from Pennsylvania, we have been going back and forth 
from the same committee markup.
    Dr. Sperling, it is nice to see you. As a former member of 
the Air Resources Board, we are probably the only two on the 
east coast right now.
    I wanted to ask the panel, and starting with Dan, having 
been the author of VMT, the pilot project in California, when I 
was in the legislature, having spent--I was the coauthor of 
375, 65 percent of the U.S. economy now is in these urban 
areas, super-urban areas. We have spent a lot of money on heavy 
rail. For those of us who wanted to see urbanization, we 
thought that was good. But we clearly are not prepared for 
things like Lyft and Uber.
    So, Dan, to your comment earlier about better systems 
management, as a specific, at SFO in San Francisco, and this is 
not untypical for airports, we spent a lot of money, billions 
of dollars, to bring heavy rail into the airport. We are doing 
it here in DC right now, they are doing it in Los Angeles. But 
over 50 percent of the trips now in and out of those airports 
are Lyft and Uber. So how can we incentivize a lot of the good 
trends that are happening, knowing that electric vehicles are 
coming, but more the smart technology incorporated in a smart 
mobility that you alluded to in your earlier answer.
    Mr. Sperling. I would say there are two parts. Thank you. 
There are two parts to it. One is, how do we use these new 
innovations in a way that is in the public interest and in the 
interest of airports, you know, specifically. And that is that, 
instead of--OK, so this is a simple thing. But airports now, 
they put a per passenger fee on everyone that comes in. That is 
crazy. They should be--if a vehicle comes in with 2, 3, 20 
people, they should have a zero fee on it and have a large fee 
if it is a single passenger. Manage the curb space better also, 
so that the pooled vehicles get preferential space at airports. 
And these same ideas, of course, translate to cities more 
broadly, it is not just at airports.
    The other part is the electrification and going back to the 
earlier question on electrification. We do need and want to and 
plan to electrify certainly all of the light-duty vehicles. And 
these Lyft and Uber type cars, they are generating huge amounts 
of mileage. So those are a prime target to electrify. And Lyft 
and Uber are interested in doing that. We are creating various 
incentives. And I think that is a kind of partnership that can 
happen to create these incentives for them to do it.
    But I would note one thing on the electrification part is, 
we are getting close to cost of ownership being competitive for 
small cars. And so there are two parts to that. One is, it is 
small cars. And the other part is, it is total cost of 
ownership, which is not how people make choices.
    So we are going to need incentives for a long time. And 
especially as we move into the bigger vehicles, as we get into 
the pickup trucks, SUVs, even small delivery trucks. So this is 
a long-term commitment and there are ways of doing it that it 
is not a burden to taxpayers. But there will need to be 
incentives. And I think we need to apply that, figure out how 
to do that with Lyft and Uber and Via and those other 
companies.
    Mr. DeSaulnier. On the land-use side, anybody, one of the 
challenges to VMT in a place like the bay area is we have got 
working people who are starting families and they are traveling 
2 hours, mega commutes, in and out of the region. Have the same 
problem in the Inland Empire in L.A. It is a real constraint on 
our economic development. There is a story in the San Jose 
Mercury News today about how, in spite of creating more jobs 
than anywhere else in the country and the world, Silicon 
Valley, we still have people leaving the area. A lot of those 
people, I assume, are going to the 10 counties that surround 
the 9 bay area counties.
    So this conundrum of VMT and being fair to everybody, but 
overall systems management, many times, in interregional areas, 
as defined by the Federal Government. So maybe any kind of 
insights about how we could put some kind of incentives in 
that? And I know that the Federal Government and most State 
government does not like to get involved in local land-use 
decisions. But our absence is making decisions for people.
    Ms. Arroyo. So some of the experience in Arlington that has 
reduced VMT there while having--or at least held emissions and 
VMT flat while growing the economy has been to incentivize 
dense, compact development. So things that used to not be 
allowed are actually encouraged, building more units closer 
together. Instead of having a minimum number of parking spaces, 
having a maximum number of parking spaces. And, of course, 
coupling that with incentives that drive people to transit and 
other alternatives, having safer bike paths now, more walking, 
et cetera, et cetera.
    So, I mean, we've learned a lot about transportation demand 
management. And it would be great to scale that up by, for 
example, maybe having the Federal Government both continue to 
offer those employer incentive programs for people who 
telecommute or take transit, but also sharing best practices 
would be something that the Federal Government could help do, I 
think.
    Mr. DeSaulnier. I think the Dulles corridor is a real 
example of what we could do in other places. Thank you, Mr. 
Chairman.
    Mr. Espaillat. We go now to Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. Before I ask my 
question, I would like to just sort of preface it with three 
points. One is, and I think there is a consensus in Congress 
that would agree that climate change is a national security 
issue. I think some of you have touched upon that in your 
written and/or oral testimony today. In 2018, in the Defense 
Authorization Act, Congress directed the Pentagon to come back 
with a report on the impact of climate change on military 
operations, on infrastructure, as well as the efforts by the 
Pentagon to increase installation resiliency and operational 
viability, concerns with things like the wildfire in California 
which closes down the Marine Mountain Warfare Training Center 
or rising sea levels and the impact at Norfolk. In the 2018 
MILCON appropriations bill, we put in language that urged the 
Secretary of Defense to plan infrastructure and other projects 
using the best data and science on climate to mitigate the risk 
to our Armed Forces.
    The second point I wanted to make is that I think we all 
would agree that the DoD is perhaps the largest fossil fuel 
consumer in the United States. And that is probably why, as 
early as 2007 in the Defense Authorization Act, which was 
signed by President Bush, we directed the Pentagon to adopt 25 
percent renewable standards by 2025. And as of 2016, they were 
50 percent towards that goal. They reduced fuel usage, 
increased energy efficiency, and it had tremendous benefits to 
the public utilities in those communities and solar companies 
in the vicinities of those military installations.
    The third point I wanted to make is that, while, you know, 
the DoD is this large energy consumer, 75 percent of that 
consumption is on military operations, not necessarily on the 
installation but the operations in Afghanistan and in Africa, 
you know, just global operations. And the DoD recognizes that 
green energy is important. And whether it is motivated by 
reducing the impact on climate or saving the lives of soldiers 
and sailors and airmen and Marines, we know that by going to 
renewable energy sources reduces the burdens on logistic trains 
and convoys, the number of times that a unit has to stop to 
refuel, which exposes them to threats and vulnerabilities and 
things like that. So the DoD, either because of the 
authorization act in 2007 or a recognition that it saves lives, 
has been transitioning to renewable energy.
    So my question is, and I think that Mr. Prochazka--did I 
get that right?
    Mr. Prochazka. Prochazka.
    Mr. Brown. Prochazka, OK. I know you had mentioned that 
dependence on foreign oil is a national security concern. So 
can you or others elaborate on, you know, your thoughts on how 
moving towards electric vehicles and efficient transportation 
alternatives, how it can help strengthen national security and 
also how the work that is being done at the DoD benefits the 
overall effort in moving to a renewable energy environment?
    Mr. Prochazka. Thank you for your question. So two quick 
things. One is our sister organization, Securing America's 
Future Energy, actually brought together military leaders to 
respond to this issue and created something called the Energy 
Security Leadership Council and it is made up of four-star 
generals and admirals and some of the leaders in national 
security, with the idea that we need to do something to respond 
to the impacts of our oil dependency. And, as you mentioned, it 
is both because it is about the economic impacts to our 
country, in that when oil prices spike, it affects everyone. 
But it is also because it does affect the lives of young men 
and women across the country that we send over to protect the 
flow of oil. And ultimately, the more that we can do to reduce 
the amount of oil that we need to consume in this country by 
electrifying our transportation sector, the less likely we are 
putting our young men and women in the face of threat.
    Ms. Young. I would like to add from the aviation sector, in 
2010, we entered into a strategic alliance with the Department 
of Defense through its Defense Logistics Agency, so we could 
align our drive on the jet fuel specification for sustainable 
alternative fuel with what the military was doing. And 
together, we have worked that process very successfully.
    Mr. Brown. I yield back the 1 second time I have remaining, 
Mr. Chair.
    Mr. Espaillat. We will now go to Mr. Johnson.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman. And I want 
to thank the panelists for being here today. And let me pull to 
my questions. You called on me quickly.
    Despite the overwhelming scientific consensus that climate 
change is happening and that humans are the primary driver; 
this administration is using Government resources to promote 
fringe science. Mr. Prochazka, President Trump is reportedly 
forming a panel to question whether the burning of fossil fuels 
is harming the planet. Allegedly chairing this panel is 
Professor William Happer, distinguished physics professor with 
no formal training as a climate scientist, who once argued the 
dubious proposition that we need to spew more carbon dioxide 
into our environment, not less. Professor Happer has also 
argued that the demonization of carbon dioxide is similar to 
the demonization of Jews in Germany by Hitler.
    What are the national security dangers that the White House 
is risking by challenging the relationship between carbon 
dioxide and global warming?
    Mr. Prochazka. I might defer to other members of the panel. 
My organization focuses almost primarily on the impacts of oil 
and gas dependency on economic and national security threats. 
So we don't really focus as much on climate issues.
    Ms. Arroyo. I'm happy to take it.
    Mr. Johnson of Georgia. Yes, ma'am.
    Ms. Arroyo. So not only are the military facilities at risk 
because, obviously, the Navy has to be at sea level and so 
their ports are at risk, but their operations are also 
affected. The freshening of the water from the melting of the 
huge ice sheets and glaciers actually affects our sonar and so 
our military readiness. It actually affects the engagements 
that our troops are being brought into all over the world in 
more and more contentious conflicts over limited resources, 
impacted by the lack of food or water that are driven by some 
of the climate extremes that we are seeing. And not only that, 
but in our own country, as we have seen in communities like my 
home town of New Orleans, our military gets deployed to try to 
help out in the times of national emergency and we are seeing 
more and more of those disasters declared on a regular basis 
every year, you know, with megastorms hitting Puerto Rico and 
North Carolina and on and on. So they are stretched thin, they 
are underresourced and climate change is going to make all of 
these things much more challenging.
    Mr. Johnson of Georgia. Thank you. Does anyone else want to 
opine on how this panel that Professor Happer will chair may 
impede our ability to secure our Nation? Yes?
    Mr. Lyon. One of the biggest concerns I would have is just 
that it could help to promote the muzzling of the defense 
community which, as we've just heard, is highly aware of all of 
these concerns. And so one of the biggest issues would be 
censoring the intelligent foresight that the defense community 
is already engaged in.
    And I would just point out that this is a wonderful example 
of the merchants of doubt strategy that has been written about 
so eloquently by Naomi Oreskes and I really encourage people to 
read that book. It turns out that it has been the same group of 
sort of very old, Cold War physicists who first advocated that 
smoking didn't cause cancer and now argue that greenhouse gases 
don't warm the planet.
    Mr. Johnson of Georgia. It is kind of an unscientific 
situation led by so-called scientists.
    Mr. Lyon. They are typically being paid something.
    Mr. Johnson of Georgia. Yeah, by the interests that they 
are promoting, no doubt, the coal and fossil fuel industries. 
Correct?
    Mr. Lyon. I don't know for sure. The George C. Marshall 
Institute has been a major player in supporting these Cold War 
physicists and I don't know for sure where they get all their 
funding. But it would be very likely that it is fossil fuel-
oriented funding.
    Mr. Johnson of Georgia. Thank you. Perhaps Congress may do 
well to create some legislation that would require these so-
called independent studies by scientists to disclose who is 
actually funding their work.
    A few days ago, Vice President Mike Pence promised members 
of the National Association of Governors that Congress would 
pass an historic infrastructure bill next year. And of course, 
that would require bipartisan support. Do you believe that the 
administration's unpopular infrastructure proposal with this 
panel will muzzle Governors in terms of their interactions with 
the Federal Government henceforth on infrastructure?
    Mr. Sperling. Probably not California.
    Mr. Johnson of Georgia. And that's a good thing.
    Mr. Espaillat. You can respond, the rest can respond in 
writing, please. We appreciate it.
    Mr. Johnson of Georgia. I yield back. Thank you.
    Mr. Espaillat. Thank you. We now go to Mr. Rouda, please.
    Mr. Rouda. Thank you, Mr. Chairman. I am Harley Rouda, from 
Orange County, California. And my wife and I are proud owners 
of electronic vehicles and a fully solar-powered home. And the 
question I have for any of you, California has recently passed 
legislation requiring all homes to have solar panels. And I am 
curious as to what you think of that being a national standard? 
And while I recognize that California likely has more days of 
sunshine than many other States, I also recognize that North 
Carolina and New Jersey are leaders in implementation of solar 
power, solar panels on homes, and that economic incentives can 
help drive this. So I'll open it up to the panel for your 
response.
    Mr. Sperling. Thank you. Well, I am not an expert on the 
solar energy but my colleagues who are, the economists anyway, 
would argue that the more efficient way of providing solar 
energy for electricity is through centralized facilities. But I 
also have solar on my house and I am very proud and happy with 
it and it works great for me.
    So I think it is part of the question of, there is a 
certain tension there in terms of utility investments versus 
household investment. Certainly, creating incentives to support 
those households that do it, I think, is a good idea.
    Mr. Lyon. If I could just follow up on that, it raises an 
issue that we really have not talked about, which is the 
modernization of the electric grid itself. And I think 
regardless of exactly how you view the importance of rooftop 
solar versus centralized solar, we really need to modernize our 
electric grid. There are digital technologies that will allow 
it to be much more efficient, much more resilient and will 
allow for net metering and other types of decentralized 
production.
    Mr. Rouda. I am actually glad you went that direction 
because that is one of the other topics I would like to expand 
on, that is the decentralization of the grid and developing 
microgrids throughout the country. But we have seen some 
pushback by certain utilities across the U.S. who want to 
continue to be the primary generator of energy for their region 
and have not really accepted that paradigm shift that they need 
to move from a generator to more of the toll roads of 
electricity to serve the communities that they serve. How would 
you respond to that?
    Mr. Lyon. Well, I think you are correct. And State policy 
has typically been the driver that has led utilities to 
modernize their grids, open up to net metering. Most States 
allow net metering now so that has become pretty standard. But 
I think this is where State policy has probably been more 
powerful than Federal policy. Just because of the role of the 
State PSCs.
    Mr. Rouda. And bringing it back to electric vehicles and 
the continued development and implementation of electric 
vehicles, one of the challenges that we face are the high-speed 
recharging stations, access to them, consistency in the 
standards and, frankly, even signage on the interstates. What 
would you like to see in those areas to help develop that 
infrastructure at a faster pace?
    Mr. Sperling. Yeah, you know, I would comment that, indeed, 
that the growth of electric vehicles is inextricably connected 
with the grid and it provides a tremendous opportunity as we go 
to more ephemeral sources of energy, solar and wind, the role 
of storage becomes hugely important. And electric vehicles can 
be a very big part of the solution in terms of the vehicle-to-
grid type options.
    Ms. Arroyo. Having Federal support to fill the gaps, 
especially in more remote areas that are not as urban and 
clustered would give people confidence and overcome some of the 
range anxiety issues, so that would be an early investment. And 
also maybe tying the use of funds to things like being able to 
use a charge card to pay. Because when I tried to take my Bolt 
up to a wedding in New Jersey, I noticed that different places 
I stopped had different services. And so it is not like going 
to an ATM where you can use another bank with your card. We 
should make it easier for people and these are the kinds of 
things that Federal funding could be tied to, perhaps.
    Mr. Rouda. And then the last question I have is just on 
economic incentives in general. Historically, the economic 
incentives have not favored renewable energies to the same 
degree as other sources. And if we shift those economic 
incentives or at least even take into account the long-term 
implications of the pollution that is created versus 
renewables, what in those toolboxes of economic incentives 
would you suggest would help push this forward?
    Mr. Lyon. Are you thinking electricity now?
    Mr. Rouda. Yes.
    Mr. Lyon. Well, we are already at a point where wind is 
cheaper on a per kilowatthour basis than coal or nuclear. And a 
lot of coal plants are having to shut down because they cannot 
compete with wind. So we are moving very rapidly toward a world 
where wind and increasingly solar are going to be highly 
economic and just continue to take off.
    Mr. Rouda. Well, thank you for your time. I yield back.
    Mr. Espaillat. Mr. Garcia.
    Mr. Garcia. Thank you, Mr. Chairman, and I want to thank 
the leaders of the committee for organizing this hearing to 
address one of the greatest challenges this generation is 
facing and that is climate change. In order to adequately 
address this crisis, we must aggressively tackle the root 
causes, the risks, the economic impact and public health 
hazards that climate change poses. Particularly, I want to 
emphasize, in underserved working class and minority 
populations. I support the spirit of the Green New Deal and I 
cosponsored the nonbinding resolution because we must 
acknowledge that bold action needs to be taken to address this 
century-old trend that threatens our world.
    The work of this Congress and this committee, however, is 
to turn that vision into reality. It is time that we put pen to 
paper, roll up our sleeves and convert bold ideas into 
actionable policy changes. I am proud that this committee is 
doing that.
    The fact is that climate change will result in more extreme 
weather events and put more strain on our already crumbling 
infrastructure. During the last polar vortex in Chicago, two 
steel beams supporting Lake Shore Drive along the lakefront 
cracked, as did transit rail in Minneapolis. As demonstrated in 
our successful reversals of the Chicago River to protect Lake 
Michigan as a freshwater source, innovative, resilient 
infrastructure is in Chicago's blood. Much of Chicago's 
existing infrastructure, however, was built in reaction to 
environmental challenges that we have faced historically. But 
decisions made decades ago left communities of color out.
    I raise this because, as we consider the long-term 
infrastructure investment, we must seek more equity in 
legislation that will have decades-old consequences. Too many 
communities have been left behind without adequate mobility, 
are at a higher risk of extreme weather events, and are 
disproportionately exposed to toxic air and water. Chicago 
recently received an F for air quality from the American Lung 
Association and, according to the EPA, 8 percent of Hispanic 
children in the U.S. have asthma compared to 6.5 percent 
nationally. Hispanic children in the U.S. are almost twice as 
likely to be hospitalized for asthma than white children. 
Failing to address climate change hurts, but it hurts 
communities of color more severely.
    Looking ahead, the question before us now is what policies 
do we change and how? According to 2016 data from the EPA, 
emissions from residential and industrial buildings as well as 
from transportation emissions account for nearly 40 percent of 
greenhouse gas emissions. Electricity generation accounts for 
nearly 30 percent. In short, we need cleaner transit and more 
energy efficient structures because they have tremendous 
returns on investment.
    In Chicago, we've committed to converting our bus fleet to 
100 percent electric by 2040. The city has reduced its overall 
carbon emissions by 11 percent from 2005 through 2015, while 
jobs grew 7 percent, dispelling the myth that greening our 
industry weakens our economy.
    Our conversion of over 270,000 streetlights to LEDs in 4 
years will yield a savings of $100 million over a 10-year 
period. Our comprehensive approach to green infrastructure will 
make us more resilient.
    As a matter of fact, I would like to enter into the record 
a comprehensive report issued by the city of Chicago, entitled 
``Resilient Chicago,'' which details a roadmap forward for our 
city. And this will be in place as Chicago goes to the polls 
today to elect a new mayor and a city council. We may have to 
do a runoff in April, but that will be a fact.
    I would like to direct a question to Ms. Arroyo, as I have 
about 30 seconds left. And that is, in your testimony, you 
discussed the historical burdens disproportionately shouldered 
by low-income communities. Can you discuss how climate change 
heightens those discrepancies for communities of color or low-
income individuals and what Federal programs can help to 
reverse years of inequitable planning and development?
    Ms. Arroyo. So thank you for the question. I am happy to 
follow up in writing at more length. But just quickly, things 
like urban heat island effect that have a disproportionate 
effect on places that are really surrounded by concrete and 
don't have a lot of green space. Flood-prone areas, like the 
ones that we work with in DC. And I will give a shout out to 
Chicago for its early leadership on mitigating some of those 
impacts and being a leader on climate adaptation, as we often 
call it.
    But we do a lot of work with communities also on looking at 
the impacts of climate change from transportation 
infrastructure. And one of the things that we learned on the 
future of the Interstate Highway report is that many cities are 
interested in trying to reverse those trends about building 
through cities, that cut through cities without the 
participation of the communities. And some cities like here in 
Washington, DC, are actually undergrounding or taking down some 
of the stretches of the interstate that really carve through 
some of the neighborhoods and trying to reconnect those 
neighborhoods. I'm happy to talk to you at more length about 
other options.
    Mr. Garcia. Thank you much. I yield back.
    Mr. Espaillat. Thank you, Mr. Garcia.
    Thank you to the witnesses for your testimony. Your 
comments have been very, very helpful in this hearing.
    If there are no further questions, I will now call up panel 
2.
    Mr. Larsen [presiding]. All right, we will get started with 
the second panel. I want to welcome this next panel of 
witnesses.
    We have Mr. Kevin DeGood, the director of infrastructure 
policy for the Center for American Progress; Mr. James Proctor 
II, senior vice president and general counsel, McWane, 
Incorporated; Dr. Whitley Saumweber, the director of the 
Stephenson Ocean Security Project at the Center for Strategic 
and International Studies; and Ms. Lynn Scarlett, the vice 
president of policy and Government affairs at The Nature 
Conservancy.
    I want to thank each of you for being here today. I look 
forward to hearing your testimony. And without objection, our 
witnesses' full statements will be included in the record.
    As with the previous panel, since your written testimony 
has been made part of the record already, the committee would 
request that you limit your oral testimony to 5 minutes. And I 
know we have an attendance problem right now and I appreciate 
that now, and I appreciate that and I hope you appreciate 
Members of Congress, but what you have to say today is 
important for the record, as this committee continues to move 
forward in putting together the record on climate change and 
infrastructure policy.
    So I want to thank you very much for being here today and I 
will turn now to Mr. DeGood for your opening statement.
    Thanks.

  TESTIMONY OF KEVIN DEGOOD, DIRECTOR, INFRASTRUCTURE POLICY, 
CENTER FOR AMERICAN PROGRESS; JAMES M. PROCTOR II, SENIOR VICE 
PRESIDENT AND GENERAL COUNSEL, McWANE, INC.; WHITLEY SAUMWEBER, 
    DIRECTOR, STEPHENSON OCEAN SECURITY PROJECT, CENTER FOR 
 STRATEGIC AND INTERNATIONAL STUDIES; AND LYNN SCARLETT, VICE 
 PRESIDENT, PUBLIC POLICY AND GOVERNMENT RELATIONS, THE NATURE 
                          CONSERVANCY

    Mr. DeGood. Thank you, Mr. Chairman, and members of the 
committee. It is an honor and a privilege to contribute to this 
committee's work today. For too long, infrastructure and 
climate policy have been treated as separate issues. Yet what 
we build deeply influences the production of greenhouse gases, 
as well as our ability to withstand increasingly extreme 
weather events. The science demonstrating anthropogenic climate 
change is settled and, going forward, infrastructure policy 
should be synonymous with sound climate policy.
    The question before this committee is how should we think 
about resiliency? The answer is that we should think about 
improving resiliency as both necessary and urgent but 
ultimately a losing strategy. Hardening facilities can only 
slow the immense economic, environmental and social damage that 
climate change will increasingly bring about. No one should 
operate under the illusion that we can build our way out of the 
climate crisis. Not every road, rail line, runway and building 
can be raised, strengthened or relocated.
    Instead, public dollars will need to be deployed in a 
strategic and cost-effective manner to lessen the damage from 
flooding, fires, extreme heat and storm surges to the greatest 
extent possible. In short, we should not treat resiliency as a 
universal backstop, capable of saving us if the United States 
and other major emitting nations fail to meet their climate 
commitments. Given the limitations of resiliency, it is 
critical that the Federal Government invest in projects and 
adopt policies to dramatically reduce emissions in the near 
term and eliminate emissions by midcentury at the latest.
    The challenges created by climate change are unprecedented. 
Implementing adaptation and resiliency projects and policies 
will require a dramatic departure from the status quo. However, 
many agencies lack the funding, data and technical expertise to 
accomplish the job. The Federal Government needs to invest not 
only in assets but people and data as well. If the Federal, 
State and local officials and administrators are to succeed, 
they need access to the most accurate and, to the greatest 
extent possible, localized models for temperature, 
precipitation, peak storm flows and sea level rise.
    Importantly, the adaptation and resiliency decisions the 
public sector will need to make are both technical and 
intensely political because infrastructure investments produce 
benefits as well as burdens. The benefits from investment 
include access to jobs, markets, improved efficiency and 
reliability, and reduced costs while the burdens often include 
geographic isolation and displacement, increased pollution and 
noise and reduced property values, among many others. History 
demonstrates that all too often, these burdens are shouldered 
disproportionately by low-income communities and communities of 
color. Federal infrastructure and climate policy must advance 
equity and social justice. This means not only reducing 
greenhouse gas emissions but also making investments that raise 
wages and lift up struggling communities facing the greatest 
needs.
    For this reason, it is critical to safeguard the 
environmental review process. The magnitude of the challenge 
and the urgent need for action reinforce that infrastructure 
planning and decisionmaking must occur in a transparent manner 
supported by robust public participation. Allowing climate 
action to serve as a justification for undermining foundational 
environmental laws such as the Clean Water Act and the 
Endangered Species Act would be darkly ironic. Environmental 
review produces better projects. Moreover, by reducing 
community and environmental impacts on the front end, we can 
save millions and even billions of dollars on post-construction 
remediation.
    When it comes to both mitigation and adaptation, the 
Federal Government has not sufficiently exerted its policy 
prerogatives on grant recipients. In the future, Federal 
agencies should reduce funding to State and local governments 
that fail to implement projects and policies that decrease 
greenhouse gas emissions while also strengthening natural and 
man-made infrastructure to better withstand extreme weather. 
Additionally, Congress should recognize the valuable resiliency 
services that natural systems provide. Focusing Federal 
resources exclusively on man-made facilities misses the ability 
of natural systems to reduce storm surge, wildfires, flooding 
and mudslides. In many cases, investing a Federal dollar in 
protecting and maintaining natural habitats will provide larger 
resiliency dividends than spending that same dollar on 
hardening man-made infrastructure.
    Finally, Federal policy must take a more comprehensive 
approach to land use, including providing additional funding to 
States and regions that increase urban density. Low-density 
exurban expansion cannibalizes natural habitats, reduces water 
quality, increases mobile-source emissions and expands the 
volume of linear infrastructure that must be built and made 
resilient. If we are to make meaningful progress addressing 
climate change, we must be honest about the underlying drivers 
of emissions and environmental degradation. The Federal 
Government cannot remain passive on the issue of land use any 
longer.
    Thank you again for the opportunity to testify. I look 
forward to your questions and to working with the committee to 
craft solutions to this pressing challenge going forward.
    [Mr. DeGood's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Kevin DeGood, Director of Infrastructure Policy, 
                      Center for American Progress
    Thank you, Chairman DeFazio, Ranking Member Graves, and members of 
the committee. It's an honor and a privilege to contribute to this 
committee's work.
    For too long, infrastructure and climate policy have been treated 
as separate issues. Yet, what we build deeply influences the production 
of greenhouse gases as well as our ability to withstand increasingly 
extreme weather. The science demonstrating anthropogenic climate change 
is settled. Going forward, infrastructure policy should be synonymous 
with sound climate policy.
    The question before the committee is: How should we think about 
resiliency? The answer is that we should think about improving 
resiliency as necessary and urgent but ultimately a losing strategy. 
Hardening facilities can only slow the immense economic, environmental, 
and social damage that climate change will increasingly bring about. No 
one should operate under the illusion that we can build our way out of 
the climate crisis. Not every road, rail line, runway, and building can 
be raised, strengthened, or relocated. Instead, public dollars will 
need to be deployed in a strategic and cost-effective manner to lessen 
the damage from flooding, fires, extreme heat, and storm surges to the 
greatest extent possible.
    In short, we should not treat resiliency as a universal backstop 
capable of saving us if the United States and other major emitting 
nations fail to meet their climate commitments. Given the limitations 
of resiliency, it is critical that the federal government invest in 
projects and adopt policies to dramatically reduce emissions in the 
near term and eliminate emission by mid-century, at the latest.
    The challenges created by climate change are unprecedented. 
Implementing adaptation and resiliency projects and policies will 
require a dramatic departure from the status quo. However, many 
agencies lack the funding, data, and technical expertise to accomplish 
the job. The federal government needs to invest not only in assets but 
people and data as well. If federal, state, and local officials and 
administrators are to succeed, they need access to the most accurate--
and to the greatest extent possible localized--models for temperature, 
precipitation and peak storm flows, and sea level rise.
    Importantly, the adaptation and resiliency decisions the public 
sector will need to make are both technical and intensely political 
because infrastructure investments produce benefits and burdens. The 
benefits from investment include access to jobs and markets, improved 
efficiency and reliability, and reduced costs while the burdens often 
include geographic isolation and displacement, increased pollution and 
noise, and reduced property values, among many others. History 
demonstrates that all too often these burdens are shouldered 
disproportionately by low-income communities and communities of color. 
Federal infrastructure and climate policy must advance equity and 
social justice. This means not only reducing greenhouse gas emissions, 
but also making investments that raise wages and lift up struggling 
communities facing the greatest needs.
    For this reason, it is critical to safeguard the environmental 
review process. The magnitude of the challenge and the urgent need for 
action reinforce that infrastructure planning and decisionmaking must 
occur in a transparent manner supported by robust public participation. 
Allowing climate action to serve as a justification for undermining 
foundational environmental laws such as the Clean Water Act and the 
Endangered Species Act would be darkly ironic. Environmental review 
produces better projects. Moreover, by reducing community and 
environmental impacts on the front end, the environmental review 
process helps to avoid the need for costly post-construction 
remediation.
    When it comes to both mitigation and adaptation, the federal 
government has not sufficiently exerted its policy prerogatives on 
grant recipients. In the future, federal agencies should reduce funding 
for state and local governments that fail to implement projects and 
policies that decrease greenhouse gas emissions while also 
strengthening natural and man-made infrastructure to better withstand 
extreme weather.
    Additionally, Congress should recognize the valuable resiliency 
services that natural systems provide. Focusing federal resources 
exclusively on man-made facilities misses the ability of natural 
systems to reduce storm surge, wildfires, flooding and mudslides. In 
many cases, investing a federal dollar in protecting and managing 
natural habitats will provide larger resiliency dividends than spending 
that same dollar on hardening man-made infrastructure.
    Finally, federal infrastructure policy must take a more 
comprehensive approach to land use, including providing additional 
funding to states and regions that increase urban density. Low-density, 
ex-urban expansion cannibalizes natural habitats, reduces water 
quality, increases mobile-source emissions, and expands the volume of 
linear infrastructure that must be built and made resilient. If we are 
to make meaningful progress addressing climate change, we must be 
honest about the underlying drivers of emissions and environmental 
degradation. The federal government cannot remain passive on the issue 
of land use any longer.
    Thank you again for the opportunity to testify. I look forward to 
your questions and to working with the Committee to craft solutions to 
the pressing challenges created by climate change.

    Mr. Larsen. Thank you, Mr. DeGood.
    Mr. Proctor, you are recognized for 5 minutes.
    Mr. Proctor. Mr. Chairman, Ranking Member Graves and 
members of the committee, thank you for the opportunity to 
testify today about issues that are vital to our Nation's 
health, economy and security. During my career, I have been 
privileged to help promote policies that will make our water 
infrastructure systems more resilient, secure and efficient, as 
vice president of McWane and also an affiliation with groups 
such as the BuildStrong Coalition, the Blue Green Alliance, the 
Water Infrastructure Leadership Group, EPA's National Drinking 
Water Advisory Council and the U.S. Chamber of Commerce's Water 
Policy Task Force. It is an honor to continue that work by 
appearing here today.
    Much of America's drinking water and wastewater 
infrastructure is nearing the end of its useful life. 
Tragically, as much as 25 to 30 percent of the treated water 
that goes into our distribution systems leaks into the ground. 
Those losses not only squander a vital resource, they result in 
an enormous waste of energy required to treat and pump that 
water. That wasted energy also represents unnecessary and 
avoidable greenhouse gas emissions. As much as 4 percent of our 
Nation's total energy consumption is water related and accounts 
for millions of tons of annual greenhouse gas emissions.
    Adopting policies that foster more effective utility 
management, including the reduction of water leaks, would 
produce a cascade of benefits, reduced operating expenses for 
cash-strapped utilities, reduced water cost for consumers, the 
conservation of scarce and vital resources and significant 
reductions in energy consumption and greenhouse gas emissions. 
Last year's America's Water Infrastructure Act made significant 
strides toward providing the needed funding, fully authorizing 
WIFIA, increasing the authorizations for the SRFs and creating 
new resilience, mitigation and technology programs. We hope 
that Congress will finish that process by appropriating the 
authorized funding this year.
    In addition, on behalf of the BuildStrong Coalition, I want 
to congratulate this committee for its work in creating the 
game changing new predisaster mitigation fund that will provide 
close to $1 billion a year for State-based competitive grants 
to make America more resilient. But that investment must be 
accompanied by smarter and more effective utility management, 
such as developing and utilizing emerging technologies that can 
increase revenue and lower costs through proactive leak 
detection, water conservation, water quality management and 
reductions in energy consumption.
    Congress should help eliminate barriers to the adoption of 
these technologies by a number of means by encouraging 
voluntary cooperative arrangements among utilities and other 
partners and increasing technical assistance to provide the 
financial, operational and technical capacity needed to adopt 
these technologies; by encouraging effective utility 
management, including water leak audits and full-cost 
accounting; by establishing a national testbed network to 
evaluate, demonstrate and approve innovative technologies; by 
streamlining the regulatory and approval process for proven 
technologies; and by developing a workforce development program 
to provide American workers the skills needed to operate the 
high-tech water and wastewater systems of the future.
    In addition, when disaster strikes, water is essential for 
firefighting capabilities and the prevention of disease. 
Similarly, our vital lifeline systems depend upon access to 
electric power. Recent hurricanes, floods and wildfires have 
revealed the vulnerability of our water and power distribution 
systems to natural disasters. It is my hope that the grant 
request for the new DRRA and FEMA programs will include 
projects to increase the resilience of our water and power 
distribution networks, as few other undertakings will have as 
broad and significant an impact.
    Finally, countries like China and India generate 6 to 33 
times more pollutants than production facilities located here 
in the United States. By making the American iron and steel 
requirements, the Buy American requirements that are applicable 
to the drinking water State revolving fund permanent and 
creating similar requirements for predisaster mitigation 
infrastructure projects and other water programs, Congress can 
shift production of the products necessary for the hardening of 
our infrastructure back to the more efficient and less-
polluting factories in the United States, reducing greenhouse 
gas emissions while preserving and creating American jobs.
    The key takeaway is that we can solve a range of problems, 
economic, environmental and climate related, by tailoring our 
Federal policies to take advantage of the technologies of the 
21st century and the efficiency, productivity and commitment of 
American workers and industry. We at McWane are glad to have 
the opportunity to contribute to that process. Thank you for 
your time and consideration.
    [Mr. Proctor's prepared statement follows:]

                                
 Prepared Statement of James M. Proctor II, Senior Vice President and 
                     General Counsel, McWane, Inc.
    Chairman DeFazio, Ranking Member Graves, and members of the 
Committee:
    Thank you for the opportunity to testify about several issues that 
are vital to our nation's health, economy and security. During my 
career I have been privileged to help promote policies that will make 
our water infrastructure systems more resilient, secure, and efficient, 
working not only in my capacity as vice president of McWane, Inc., but 
also as a member of the executive committee of the BuildStrong 
Coalition, the corporate advisory council of the Blue Green Alliance, 
the Water Infrastructure Leadership Group (the ``Ad Hoc Group''), the 
U.S. Water Partnership, Environmental Protection Agency's National 
Drinking Water Advisory Council, and co-chair of the U.S Chamber of 
Commerce's Business Task Force on Water Policy. It is great honor to 
have the opportunity to continue that work by appearing here today.
    For almost 200 years McWane has proudly provided the building 
blocks for our nation's water infrastructure, supplying the pipe, 
valves, fittings and related products that transport clean water to 
communities and homes across the country and around the world. More 
recently we have expanded our operations into the fields of 
infrastructure technology and electric power distribution. We employ 
more than 6000 team members who work in 25 manufacturing facilities in 
14 States and nine other countries.
    Water infrastructure remains a core element of our business focus, 
and we obviously have great interest in ensuring its integrity. Despite 
its obvious importance, in the past ``out of sight, out of mind'' best 
described the nation's attitude toward water infrastructure, and to a 
large degree that indifference has extended to discussions about 
climate change as well. But Congress and the public have started to 
come to grips with the reality that much of America's drinking water, 
wastewater, and storm water infrastructure, including the more than one 
million miles of pipes beneath our streets, is nearing the end of its 
useful life and must be replaced. And a tragic aspect of that reality 
is that as much as 20-30 percent of the treated water that goes into 
our distribution systems leaks into the ground as it flows through 
pipes installed as many as 150 years ago. Those losses not only 
squander a vital and sometimes scarce resource, they represent an 
enormous waste of the energy and associated capital required to treat 
and pump that water. Approximately 4 percent of our nation's total 
electricity consumption (as much as 19 percent in California) is 
related to water treatment, pumping, and recovery. Given the fact that 
much of our nation's energy is still produced by traditional, carbon-
based sources, that wasted energy also represents unnecessary and 
avoidable greenhouse gas emissions. In fact, EPA estimates that 
treating, pumping and recovering water accounts for more than 45 
million tons of greenhouse gas emissions each year. Thus, adopting 
policies that foster more effective utility management, including the 
reduction of water leaks, would produce a cascading flow of benefits: 
reduced operating expenses for cash-strapped utilities, reduced water 
costs for consumers, the conservation of scarce and vital resources, 
and significant reductions in energy consumption and greenhouse gas 
emissions.
    In addition, the recent hurricanes, floods and wildfires have 
revealed the vulnerability of our distribution systems to natural 
disasters. We must harden our infrastructure before those events occur, 
taking advantage of mitigation opportunities, especially pre-disaster, 
that Congress recently created through reforms to the Stafford Act.
    The solution to these challenges will of course require funding, 
and last year's America's Water Infrastructure Act (``AWIA'') made 
significant strides toward addressing that need by fully authorizing 
long-term, low-cost supplemental loans for regionally and nationally 
significant projects in the Water Infrastructure Finance and Innovation 
Act (``WIFIA''), and increasing the authorizations for the State 
Revolving Funds (``SRFs''). We hope that Congress will finish that 
process by appropriating funds to those authorized levels this year. 
Similarly, the Disaster Recovery and Reform Act of 2018 (``DRRA'') 
created significant new funding sources for cost-effective, risk-
reducing pre-disaster mitigation projects.
    But new funding alone cannot solve a problem of this magnitude. 
That investment must be deployed wisely and in a manner that realizes 
its full benefit, by fostering smarter, more efficient and effective 
utility management. One such avenue is to develop and use emerging 
technologies that can generate new forms of revenue and maximize 
existing sources, while lowering operational costs through proactive 
leak control, water conservation, better water quality management, 
reductions in energy consumption and costs, and less wear and tear on 
assets. Technology can also improve operational efficiencies via data-
driven system management. Studies indicate that digital water networks 
can save utilities up to $12.5 billion a year. Moreover, the use of 
more resilient construction techniques can mitigate the impact of 
storms, earthquakes, wildfires and other disasters.
using more effective water utility management and deploying technology 
                        to reduce climate risks
    Some examples of specific technologies that are available today, or 
are on the verge of deployment include:
    <bullet>  Advanced metering infrastructure (smart meters) that can 
more accurately record and charge customers based on actual usage. 
These systems use low-powered wireless communication devices to 
transmit water usage information over secure networks, reducing non-
revenue water by eliminating unmetered consumption and apparent losses 
from inaccurate meters, unauthorized consumption, and billing errors. 
And real time water-usage reports increase conservation which mitigates 
the effects of water scarcity related to climate shifts while reducing 
energy consumption and the associated carbon emissions.
    <bullet>  Remote, real-time leak detection and pressure management 
systems that identify problems before they become costly main breaks. 
Early and accurate leak detection not only prevents wasted water and 
energy and reduces greenhouse gas emissions, it also reduces repair 
costs and the risk of contaminants infiltrating into water systems, 
which could put public health at risk. Such detection systems can also 
facilitate more effective disaster responses by enabling utilities to 
identify the location of damage to their systems so that they are able 
to restore service more quickly. New and effective methods of detection 
include wireless systems with acoustic sensors and leak-noise 
correlators, satellite imaging, and sensors that can detect negative 
pressure waves. Many of these solutions can be simply and inexpensively 
added to existing and new infrastructure at hydrants and valve boxes.
    <bullet>  Real time water quality monitoring. Wireless nodes can 
accommodate sensors that monitor parameters such as pH and alkalinity 
and low residual disinfectant, that are markers for the conditions that 
can predict avoidable situations like Flint, Michigan, and allow 
utilities to adjust water chemistry before a crisis occurs.
    <bullet>  The water-energy nexus provides another source of 
efficiencies and opportunities. As much as 4 percent of our total 
annual electricity consumption (20 percent in some States, like 
California) is related to the treatment and transmission of water, 
which according to EPA equates to 45 million tons of greenhouse gas 
emissions each year. Indeed, for most water utilities energy is their 
second largest cost (35-40 percent of total costs on average), second 
only to personnel expenses. In addition to reducing consumption of 
energy as outlined above, new technologies can help utilities become 
generators of clean energy that can be used to operate systems. Waste 
sludges can provide a source of renewable fuel for power generation, 
and the vast expanses of land occupied by treatment plants are 
sometimes prime locations for solar panels. In addition, in-line 
hydroelectric systems can harness the flow of water though pipelines to 
generate electricity, particularly in distribution systems based upon 
gravity flows.
    Despite these obvious benefits, utilities face numerous barriers to 
deploying these and other technologies. First, water utilities are 
naturally, and appropriately, risk averse. An inadvertent disruption of 
treatment and distribution capabilities due to a technological failure 
could cause a catastrophic health crisis, put the environment at risk, 
or trigger regulatory action. Moreover, a failed deployment could 
trigger a financial crisis for the utility and perhaps even the 
community it serves.
    Second, the upfront costs of implementing a system-wide technology 
project can be prohibitive for small utilities, which can preclude 
adoption even with the opportunity for greater long-term benefits.
    The regulatory environment is another, frequently cited barrier. 
Water quality and environmental regulations play a vital role in 
protecting public health. However, in many cases redundant, 
conflicting, or outdated regulations at the State and Federal levels, 
and among the various States, can create lengthy, complex, and costly 
approval processes. These regulatory obstacles not only slow the 
approval of technology directly, but also impede the creation of 
partnerships that could provide a source of expertise and funding that 
would accelerate deployment.
    Aggravating all of these factors is the diffuse nature of the water 
sector, which is comprised of more than 55,000 separate utilities, 85 
percent of which serve fewer than 10,000 people. Through no fault of 
their own many small and rural utilities lack the resources and 
technical expertise required to evaluate the options, design and build 
the systems, and manage them after construction. Without coordination 
among neighboring communities, opportunities to overcome these gaps by 
sharing experience, expertise, best practices, and joint purchasing 
power are missed. This greatly increases the costs of adoption.
    These issues present substantial obstacles, but there are measures 
that Congress could implement that would eliminate or reduce their 
adverse impact.
Appropriate Funding for WIFIA, the SRFs, and the New AWIA Programs at 
        Their Authorized Levels.
    As noted above, fully appropriating the funding authorized for 
WIFIA and the SRFs in last year's AWIA bill would provide a significant 
beginning point. These programs cannot only provide a source of funding 
for technology projects, they can also provide the technical assistance 
that small utilities need to evaluate, purchase, and implement 
projects. Similarly, sections 2005 (Drinking Water Infrastructure 
Resilience and Sustainability), 2007 (Innovative Water Technology Grant 
Program), 2012 (Asset Management), 2013 (Community Water System Risk 
and Resilience) and 2017 (Review of Technologies) of AWIA created 
several new programs designed to promote resiliency and technology. 
Fully appropriating those programs and directing that a significant 
potion of the funding go toward training and technical assistance for 
small utilities would also make a difference.
Encourage Cooperation Among Utilities and Partnerships.
    Congress should also encourage regional cooperation among utilities 
and remove barriers to the use of private capital as a supplement to 
public funding. Small systems should be encouraged to consider 
voluntary cooperative arrangements and partnerships with other entities 
who can help them develop the necessary financial, operational and 
technical scale and capacity to adopt the technology that will enable 
them to reduce their costs and more effectively manage their systems. 
Such arrangements allow the sharing of best practices, systems and 
technology and reduce the risk associated with new undertakings in 
addition to creating economies of scale that increase the availability 
of funding and reduce costs. There are many paths to such partnering 
arrangements, including public-to-public, public-to-private, and 
private-to-private partnerships, cooperatives, concessions, operating 
agreements, or consolidation or regionalization of assets or services. 
But let me emphasize that all paths should remain available at the 
discretion of the local entity.
    Specific means by which Congress or EPA might encourage such 
cooperation include prioritizing regional projects and consolidation 
costs for SRF and WIFIA funding and providing more technical assistance 
to small and rural systems, including assistance with the technical and 
legal aspects of cooperation. Removing the volume cap on private 
activity bond for water projects would also encourage more private 
capital to enter the market.
Establish a National Test Bed Network for New Technologies.
    A National Water Test Bed Network (``TBN'') to evaluate, 
demonstrate and approve innovative technologies would jump start 
adoption. Unless utility operators have the confidence that new 
technologies will work, they are reluctant to adopt or deploy them. But 
few utilities are willing to serve as the pilot program because of the 
demands on time and budget, and even pilot programs that do proceed can 
take years to complete. As a result, the deployment of workable, cost-
saving and efficiency-creating technologies is unnecessarily delayed. A 
National Water Infrastructure TBN to coordinate and accelerate the 
water industry's deployment of new technologies would bring together 
the broader water community (i.e., manufacturers, regulators, 
operators, consulting engineers, etc.), and engage them in 
demonstration efforts to raise confidence in innovative technologies. 
The TBN process, including a possible whitelist of proven technologies, 
would reduce the number of pilot projects otherwise needed and would 
also shorten the time needed to achieve commercial acceptance.
Streamline the Regulatory and Approval Process for Proven Technologies.
    Congress should also direct EPA to conduct a review of existing 
regulations to identify and address barriers to implementation of smart 
water solutions. EPA should encourage States to establish consistent 
and uniform permitting and certification programs and reciprocity, 
where possible, without compromising protections for public health and 
respect for State and local autonomy.
Establish a National Program for Collaboration and Sharing of Best 
        Practices.
    A national program with a central focus on sharing best practices 
would help urban and rural utilities, regardless of size, to develop 
joint partnerships with public and private utilities, engage private 
sector expertise and technology, and access private capital markets and 
funding. In addition, this network would help small and distressed 
water systems find the technical capacity to comply with regulations 
and to undertake projects to improve or expand their services.
Encourage Effective Utility Management (``EUM'') and Best Practices, 
        Including Water Leak Audits and Full-Cost Accounting.
    To succeed, every utility must have an accurate understanding of 
their financial condition, including the cost of providing water and 
waste water services. An accurate understanding of costs and their 
sources is also the essential foundation for conducting the cost-
benefit assessments that provide the business case for the adoption of 
the technologies discussed previously. Yet a recent survey found that 
fewer than a third of water utilities have an accurate appreciation of 
their costs of operation, and only a similar percentage operate under 
rate structures that fully cover their costs. This situation creates 
severe constraints on the ability of utilities to finance their 
operations, attract outside investment, or justify technology projects.
    One way to close this informational and operational gap is to help 
utilities identify the extent of water losses in their systems. Water 
is the ``inventory'' of a water utility, and an accurate understanding 
of inventory levels, losses, and production and distribution costs, 
including associated energy consumption and greenhouse gas emissions, 
is fundamental to understanding operational costs. An appreciation of 
those operational costs and their avoidability is, in turn, a vital 
prerequisite to demonstrating the benefits of deploying technology that 
would mitigate those losses. Potential partners will also require such 
information before committing their capital and resources to the 
rehabilitation of a failing utility.
    A number of major water and wastewater associations (AMWA, NAWC, 
NACWA, AWWA, WEF, WERF, WRF, ASDWA and ACWA) and EPA have endorsed the 
ten attributes of EUM \1\, asset management and financial viability. 
Asset management includes conducting leak audits to understand the true 
condition of a utility's transmission and distribution systems. 
Financial viability includes an understanding of the full life-cycle 
cost of utility operations and value of water resources, which is 
heavily impacted by lost water and its embedded energy. Applicants for 
Federal support should be encouraged to assess the total costs 
associated with constructing, operating, and maintaining their water, 
wastewater and storm water systems, including long-term capital costs. 
At the same time, EPA should provide more technical assistance to small 
utilities on how to conduct the audits and assess costs. Moreover, this 
information must be made more transparent and readily available for 
public review.
---------------------------------------------------------------------------
    \1\ Effective Utility Management, A Primer for Water & Wastewater 
Utilities, http://dev.watereum.org/wp-content/uploads/2017/04/
Effective-Utility-Management-A-Primer-for-Water-and-Wastewater-
Utilities.pdf
---------------------------------------------------------------------------
Train a 21st Century Workforce.
    The Safe Drinking Water Act includes several set-asides related to 
operator certification and training for water systems from the funding 
authorized for the State revolving funds. Congress should buttress that 
authority by tasking the U.S. Department of Labor with developing a 
workforce development program that would provide American workers the 
skills and credentials needed to support the operation, maintenance, 
and improvement of the hi-tech water and wastewater systems of 
tomorrow.
  increasing infrastructure resilience through pre-disaster mitigation
    In 2018, the National Institute of Building Sciences (``NIBS'') 
released its ``Natural Hazard Mitigation Saves: 2018 Interim Report'', 
concluding that:
    <bullet>  Adopting Model Building Codes Saves $11 per $1 Invested
    <bullet>  Federal Mitigation Grants Save $6 per $1 Invested
    <bullet>  Exceeding Codes Save $4 per $1 Invested
    <bullet>  Mitigating Infrastructure Saves $4 per $1 Invested
    In recognition of these and other benefits of mitigation, 
particularly pre-disaster mitigation, this Committee introduced and 
passed the bipartisan DRRA and other disaster recovery provisions in 
the Bipartisan Budget Act of 2018, which support and incentivize States 
and localities to adopt enhanced mitigation measures to protect lives 
and taxpayer dollars. On October 5, 2018, President Trump signed the 
DRRA into law as part of the Federal Aviation Administration 
Reauthorization Act of 2018. These reforms amend the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act and:
    <bullet>  acknowledge the shared responsibility of disaster 
response and recovery,
    <bullet>  aim to reduce the complexity of the Federal Emergency 
Management Agency (FEMA), and
    <bullet>  build the nation's capacity for the next catastrophic 
event.
    DRRA also established a new, permanent mechanism to provide 
substantial funding for cost-effective, risk-reducing pre-disaster 
mitigation projects. This represents a significant increase in reliable 
funding for grants for State, local, tribal and territorial 
governments, and communities that will enable them to better plan and 
execute cost-effective risk mitigation projects. This nationwide pre-
disaster mitigation grant program will impact both public 
infrastructure and individual preparedness by increasing residential 
resilience through State-sponsored safe home grants. The competition 
for these resources will create an incubator for best practices, 
lessons learned, and great ideas for projects and programs that can be 
tailored at the State and local level to reduce the risks unique to 
those communities.
    The critical next step for these pre-disaster mitigation programs 
is building capacity at the State level to identify risks and cost-
effective projects, then facilitating the development of effective and 
efficient grant applications and awards. For its part, the BuildStrong 
Coalition has partnered with FEMA and the U.S. Chamber of Commerce to 
host a series of resilience summits across the country to help 
stakeholders and industry develop the capacity to apply for and 
implement these grants. The first summit will be May 2, 2019, in 
Washington, DC. Future meetings will be held in Sacramento, CA, and 
Houston, TX. Further, through these partnerships we are working to 
align and leverage other Federal resilience programs, such as Community 
Development Block Grant-Disaster Recovery (CDBG-DR) funds and resources 
from the Department of Energy and EPA.
      lessons learned from the 2017 storms--risk reducing projects
    Much of the discussion in congressional hearings and other fora has 
focused primarily upon above-ground buildings, houses, and other 
structures. However, the risks to property and human lives and health 
arising from damage to infrastructure also require attention. For 
example, water is a critical element of most of our firefighting 
capabilities in the event of a natural disaster and is essential to the 
prevention of disease and other public health threats. However, 
earthquakes can rupture water distribution lines unless properly 
constructed, wildfires can destroy these vital lifelines and 
contaminate water supplies, and floods can jeopardize underground 
infrastructure in a manner similar to earthquakes as the ground becomes 
saturated and more fluid.
    The damage to infrastructure during the major hurricanes of 2017 
and the recent wildfires highlight the importance of building a 
resilient power grid. Most hospitals, water treatment plants, food 
services, communications, search and rescue operations, reconstruction, 
and other critical lifeline services depend upon access to electric 
power. However, power is almost always interrupted by such storm 
events; indeed, there are parts of Puerto Rico that remain without 
reliable electricity almost 2 years after Hurricanes Irma and Maria. 
Increasing the resilience of our power grids in these areas would 
significantly reduce the costs of post-disaster reconstruction and 
avoiding life-threatening power interruptions.
    To address these issues, the BuildStrong Coalition has proposed 
several possible solutions that should be encouraged in soliciting and 
reviewing applications for pre-disaster mitigation funding, each of 
which would be implemented at the State and local levels and would 
reduce the risk of loss in a disaster event.
    One example is focusing standards that could improve the resilience 
of our electric power distribution systems in disaster prone areas. The 
National Electric Safety Code establishes standards for the 
construction of transmission and distribution utility poles. Section 25 
defines the strength standards required for different areas of the 
country, based upon, among other things, loading maps from the American 
Society of Civil Engineers--ASCE 74-2010. ASCE wind maps have been 
widely adopted by the International Building Code (IBC), International 
Residential Code (IRC), and International Existing Building Code 
(IEBC).
    The ASCE 74 maps show values for wind speed and ice thickness that 
are expected to be exceeded every 50 years \2\, identify the weather 
risks associated with those areas, and specify the wind speeds that the 
poles must withstand. Puerto Rico, the Virgin Islands, Florida, and 
certain other island and mainland coastal areas are designated as 
extreme wind areas, and other areas in the U.S. are considered ``high 
risk'' for wind and ice accumulation. Section 250C sets the strength 
standards for extreme wind, and 250D for extreme wind and ice. However, 
both standards exempt poles of under 60' in height from compliance with 
the extreme wind performance criteria, even though the wind 
measurements used to designate the wind loads are taken at 33 feet. As 
an additional point of reference, an estimated 90 percent of all poles 
in use in the U.S. are under 60' in height.
---------------------------------------------------------------------------
    \2\ 2017 NESC Handbook Premier Edition.
---------------------------------------------------------------------------
    This 60' exemption results in a significant reduction in the size 
and strength of poles for many vulnerable and heavily populated coastal 
areas. Indeed, even though ASCE 74 would require a wind tolerance of 
145 mph in these areas under the exemption the southern U.S. and the 
Caribbean territories need only design their systems to withstand a 
Category 2 hurricane (114 MPH), and the Mid-Atlantic and Northeast to 
withstand a tropical storm (75 MPH). Nine hurricanes above Category 2 
have hit the U.S. since 2000 \3\, including Hurricanes Irma and Maria, 
with winds measured at over 200 MPH and 145 MPH, respectively.
---------------------------------------------------------------------------
    \3\ http://www.aoml.noaa.gov/hrd/tcfaq/E23.html
---------------------------------------------------------------------------
    Thus, although Puerto Rico and other southeastern coastal areas 
have the highest wind loading in the United States, 90 percent of the 
utility poles in those areas are exempt from compliance with the 
extreme wind standard in Section 25 of the NESC. The impacts of 
Hurricanes Irma and Maria vividly demonstrated the consequences of this 
exemption. According to news reports, more than 50,000 utility poles 
were destroyed in Puerto Rico during those storms, and another 120,000 
were lost in Florida \4\. There was widespread loss of power, which 
cost an estimated $5 billion to restore. Had all those poles been 
installed in accordance with the high wind loading requirements of NESC 
250C, including those under 60', there is a high probability those 
losses would have been much lower.
---------------------------------------------------------------------------
    \4\ https://www.tdworld.com/overhead-distribution/ground-after-
hurricane-harvey
---------------------------------------------------------------------------
    There are many options available to utilities to meet the extreme 
wind loading requirements of section 250C and 250D. Wood poles of a 
larger size can comply, as can engineered poles made of steel, ductile 
iron and concrete. Enforcement of these standards without the exemption 
will not exclude poles made from any particular material.
    Florida serves as a good example of the benefits of storm 
hardening. After the storm seasons of 2004-2005, the Florida Public 
Service Commission mandated that investor-owned utilities, and 
recommended that municipalities and cooperative utilities, inspect all 
poles every 8 years and replace all obsolete poles, including those 
below 60 feet, with poles that meet the high wind loads in ASCE 74. In 
2018, the Florida Public Service Commission declared that the storm 
hardening programs in Florida are working. Outages from 2017's 
Hurricane Irma were much less significant than those in 2004-2005 storm 
season, and the adoption of more resilient poles reduced the 
construction man-hours required to restore hardened feeders by 50 
percent. At Florida Power and Light, Florida's largest utility, non-
hardened poles were 10 times more likely to fail than hardened poles 
\5\. As a more specific example, more than 1,000 Section 250C-compliant 
poles under 60' in height were in service in the Florida Keys when Irma 
and Maria made landfall. Not a single such pole was lost, while 
approximately 1,000 nearby wooden poles that had been installed under 
the 60' exemption failed. A video describing that experience can be 
found at: https://t.co/YRHdrkVpuD.
---------------------------------------------------------------------------
    \5\ Florida Public Service Commission. Docket No. 20170215-EU--
Review of electric utility hurricane preparedness and restoration 
actions, July 24, 2018.
---------------------------------------------------------------------------
    Facilitating applications for upgrading the power distribution 
system, and eliminating the 60-foot exemption as a prerequisite for 
approval, would incentivize States to reform this aspect of disaster 
procurement by requiring that all newly installed or repaired electric 
distribution poles conform to the requirements of NESC 250C and 250D 
without regard to height. This approach would not create any preference 
among available materials--all can bid so long as their products meet 
the performance standard--but such a measure would greatly reduce the 
risk and costs to the U.S. taxpayers.
    Similar issues arise in wildfire situations. News reports indicate 
that one of the recent wildfires in California was caused when a 
transformer exploded on a flammable, wooden pole. In addition, as the 
fires spread other flammable poles caught fire with resulting damage to 
the distribution systems. Thus, using pre-mitigation grant funding to 
encourage the replacement of electrical distribution poles in wildfire-
prone areas with poles made of non-flammable materials could reduce 
damage, interruptions, and reconstruction costs.
    Although the upfront costs of more resilient poles might be 
slightly higher, the long-term savings would be dramatic. For example, 
there is an approximately $500 difference between the cost of a wooden 
pole that does not conform with section 250C extreme wind standard and 
a wooden pole that does. Similarly, the cost difference between a non-
compliant wooden pole and an engineered pole is less than $2,500. But 
the typical life expectancy of an engineered pole is three times that 
of a wooden pole, and a pole replacement under emergency conditions can 
cost more than $10,000. Thus, in a single major hurricane like Maria, 
during which 50,000 poles were destroyed in Puerto Rico, the net 
savings to communities and the taxpayers could be more than 
$500,000,000 from repair costs alone. Those savings would be many times 
greater if one assumes a larger geographic impact than one State or 
territory, and that more than one such event will occur over the 30-
year lifespan of a typical, non-250C high wind compliant wooden pole.
 reducing climate risks while preserving american jobs and communities
    In addition to these improvements, Congress can reduce greenhouse 
gas emissions, while at the same time preserving and creating American 
jobs, through the maintenance and expansion of domestic preferences for 
iron and steel products used in infrastructure projects. U.S. producers 
have invested heavily to modernize their U.S. operations conform to the 
world's most robust environmental standards. We at McWane are proud to 
say that our plants are among the safest and most environmentally sound 
in the world, but every day we must compete against foreign, State-
owned or subsidized foundries and mills that regularly flout 
international trade laws, have no regard for worker safety, the 
environment, or public health and are not required to operate by 
standards comparable to those with which U.S. manufacturers must 
comply.
    In fact, the foreign producers with whom U.S. iron and steel 
producers most often compete are also the most polluting. According to 
the International Iron and Steel Institute (IISI), Chinese steel 
producers emit 2.5 tons of CO2 for each ton of steel manufactured in 
China. For the global steel industry, IISI reports that average CO2 
emissions were 1.7 tons for each ton of steel produced. The American 
Iron and Steel Institute (AISI) and the Steel Manufacturing Association 
(SMA) suggest that the figure of 2.5 tons per ton of steel understates 
the actual level of Chinese steel CO2 emissions, and that the true 
number is closer to four tons of emissions for each ton produced in 
China, compared to the worldwide average of 1.7 tons per ton of steel. 
Similarly, a typical plant in China emits more than 20 times the 
particulate (9.4 lbs. per ton versus 10.4 lbs. per ton) and nearly 35 
times the carbon monoxide (149.4 lbs. per ton versus 4.4 lbs. per ton) 
than are emitted by a typical U.S. plant. As a 2014 report from the 
National Academy of Sciences, ``China's international trade and air 
pollution in the United States,'' observed:
        As the Chinese economy has grown, the economic structure has 
        also changed, transitioning from a net importer to a large net 
        exporter of energy-intensive industrial products. The energy 
        needed to support this economic growth and transformation has 
        come from combustion of fossil fuels, primarily coal, which has 
        contributed to a global increase in emissions of carbon dioxide 
        (CO2). At the same time, increased combustion of fossil fuels, 
        relatively low combustion efficiency, and weak emission control 
        measures have also led to drastic increases in air pollutants 
        such as sulfur dioxide (SO2), nitrogen oxides (NOx), carbon 
        monoxide (CO), black carbon (BC), and primary organic carbon 
        (OC). Indeed, fossil-fuel-intensive manufacturing, large 
        manufacturing volume, and relatively weak emission controls 
        have meant that China emits far more pollutants per unit of 
        gross domestic product (GDP) than countries with more advanced 
        industrial and emission control technologies. Per unit of GDP 
        in 2006, China emitted 6-33 times as much air pollutants as the 
        United States.
    In addition to the harm to the environment, these disparities 
create significant cost and competitive disadvantages for American 
producers, that have led to lost sales, closed plants, lost tax 
revenues, lost jobs, and more carbon emissions. Communities across the 
country are in decline because the factories that once built our 
nation's infrastructure have disappeared, depriving them of the vital 
tax revenues and rate payers needed to operate and maintain their water 
systems and other public services.
    Because carbon emissions impact the global climate system to the 
same degree regardless of their country of origin, policies that 
encourage the sourcing of materials from better-performing countries 
can reduce those emissions. An example of just such a successful policy 
is the American Iron and Steel (``AIS'') preference to the Drinking 
Water SRF, the Clean Water SRF, and WIFIA. AIS is critical to U.S. iron 
and steel producers. It has provided producers with important 
incentives to preserve production capacities in the United States, make 
significant capital investments to improve manufacturing capabilities, 
and maintain workforces that sustain the communities around them. I can 
say with pride and relief that AIS has saved at least one of our plants 
from closure, preserving hundreds of jobs in an economically depressed 
area.
    By 2008, our waterworks fittings plant in Anniston, Alabama was the 
last surviving domestic manufacturer of those products. At one time 
there were as many as a dozen such plants in the United States, but 
all, including our other fittings plant in Texas, fell victim to the 
unfair foreign competition I described previously. Even that lone 
survivor was at risk of closure when the great recession hit, operating 
at around 30 percent of its production capacity. But with the 
application of AIS to the SRF's, first in ARRA and later through WRDA 
and the annual appropriations process, that plant has increased its 
capacity utilization to almost 70 percent, added product offerings, 
and, more importantly, more than doubled the number of jobs. But the 
benefits of AIS are not limited to our operations. Because of AIS some 
of the same foreign companies who drove the near destruction of the 
American fittings industry have now moved their production to the 
United States, first using existing foundries struggling for work, and 
more recently purchasing their own production facility. They have done 
this specifically in response to AIS. It is hard to conceive of a more 
concrete example of AIS's job-creating impact.
    AIS was first enacted for both the DWSRF and the CWSRF in the 
Consolidated Appropriations Act, 2014. Later in 2014, the Congress 
enacted permanent AIS statutes applicable to the CWSRF as well as WIFIA 
as part of the 2014 Water Resources Reform and Development Act. 
Congress has continued to apply the policy annually though the 
appropriations process to the DWSRF for Fiscal Years 2015, 2016, 2017, 
and 2018, and in AWIA Congress extended AIS to the DWSRF for 5 years. 
While those of us who make products domestically are very grateful for 
these actions, we urge Congress to enact a statute to permanently apply 
the AIS procurement preference policy to the DWSRF in any upcoming 
authorizing legislation, to bring that program into line with the 
others, to secure the benefits of AIS for future generations, and to 
eliminate the possibility of a lapse of AIS for the DWSRF, which would 
burden EPA with administering overlapping programs subject to 
conflicting standards.
    Moreover, many other water-related programs have no domestic 
content requirement, which not only shifts the production of products 
for those programs to sources that produce more greenhouse gas 
emissions and deprives the economy of the benefits of AIS, it also 
creates administrative inconsistencies and inefficiencies. The programs 
with no Buy America requirement include the U.S. Department of 
Agriculture's Rural Utilities Services' Water and Waste Disposal 
Program, the U.S. Department of Housing and Urban Development's 
Community Development Block Grant program, the U.S. Bureau of 
Reclamation's Rural Water Supply program, the Economic Development 
Administration's Public Works and Economic Development Program, and the 
Indian Health Services, Facilities and Environmental Health program.
    Until Buy America preferences like AIS are made permanent and 
applied across the spectrum of taxpayer-funded infrastructure programs, 
the thousands of jobs that have been created and supported by this 
successful policy are always at risk. It is time to build on what is 
already a successful program, and to make AIS permanent for the DWSRF 
and other water and DRRA programs as it is for the CWSRF, WIFIA, and 
most of the other non-water Federal-aid infrastructure programs. 
Further, by encouraging production of materials by high-performing 
American facilities instead of more polluting and energy-intensive 
facilities in China and elsewhere, application of Buy America policies 
will ensure that the carbon emissions associated with production for 
infrastructure projects will be as small as possible.
                               conclusion
    These are only a few of the issues and solutions that merit 
discussion. The key takeaway, however, is that we can solve a range of 
problems--economic, environmental, and climate-related--by tailoring 
our Federal polices to take advantage of the technologies of the 21st 
century and the efficiency, productivity and commitment of American 
workers and industry. And when considering Federal resources, we must 
make resilient, cost-effective investments. We at McWane are glad to 
have the opportunity to contribute to that process.

    Mr. Larsen. Thank you, Mr. Proctor.
    And now I recognize Mr. Saumweber for 5 minutes.
    Thank you.
    Mr. Saumweber. Thank you, sir. Mr. Chairman and members of 
the committee, thank you for inviting me here today to discuss 
the ways in which Federal infrastructure policy can help 
mitigate and adapt to climate change. My name is Whitley 
Saumweber and I currently serve as the director of the 
Stephenson Ocean Security Project at the Center for Strategic 
and International Studies. This project is a new effort on 
behalf of CSIS to examine the links between ocean health, 
marine resource conflicts and national security challenges.
    Prior to joining CSIS, I held appointments as a visiting 
fellow at Stanford University and as Associate Director for 
Ocean and Coastal Policy in President Obama's White House 
Council on Environmental Quality. I have previously worked for 
the late Senator Inouye and at the National Oceanic and 
Atmospheric Administration as an advisor to the two previous 
Administrators. Over the course of my career, I have helped to 
develop, implement and lead our national ocean, Arctic and 
fisheries policies and it is this experience that my testimony 
today draws upon.
    The second volume of the Fourth National Climate Assessment 
issued late last year makes it clear that the impacts of 
climate change are being felt now and, absent significant 
changes to the global carbon economy, will be accelerating into 
the foreseeable future. Climate change therefore serves as both 
a source of immediate challenge and strategic risk. Managing 
this risk will require a combination of near-term investments 
to adapt existing infrastructure and a sustained commitment to 
developing more resilient systems in the face of continuous 
change.
    The U.S. Marine Transportation System provides for 90 
percent of our imported goods, supports $4.6 trillion in 
economic activity--roughly one-quarter of our economy--and 
sustains 23 million jobs. All of these are at risk if we do not 
provide appropriate investments to ensure resilience in our 
maritime infrastructure, and to do so in a way that accounts 
equally for economic, environmental and social values.
    The U.S. Committee on the Marine Transportation System has 
identified three primary risks associated to the MTS associated 
with climate change: sea level rise, increasing frequency and 
potency of coastal storms and the opening of the Arctic. They 
also identify an additional 29 environmental factors that may 
be exacerbated by climate-related impacts, which would put 
maritime infrastructure at further risk. These include such 
diverse threats as invasive species, extreme events and 
changing migration patterns.
    In considering how to respond to such a complicated array 
of risk factors, we should be clear on how we prioritize the 
impacts based on likelihood of threat and the value of the 
infrastructure at risk. But we should also think about how we 
define resilience and what we wish our goals to be.
    The National Academies of Science has defined resilience as 
the ability to prepare, resist, recover and more successfully 
adapt to the impacts of adverse events. This is sufficient, so 
long as we believe that we have a clear sense of what the 
possible range of those events may be. But the current reality 
of climate change is that our world is not in steady state. 
Rather, we exist in a state of continuous change. We should 
therefore recognize that today's standards will be insufficient 
to meet tomorrow's needs, just as last year's 100-year flood is 
this year's hurricane season.
    Sea level rise is a great example of this dynamic as it is 
both accelerating and variable across geographies. But these 
changes will apply in our communities as well. And when 
considering investments in port infrastructure, we should 
understand that the nature of regional maritime industries is 
likely to change as climate drives changes in regional 
economies, global shipping patterns and national security 
challenges.
    Among the most clear example of these shifts will be in the 
Arctic, where we may see an ice-free pole within the next 10 to 
20 years. This has tremendous implications for economic 
development, resource exploitation, shipping routes and 
strategic challenges. Meeting these needs will require us to 
consider the level of investment we are currently making and 
commit to providing the resources needed to support our 
national security and sustainable economic development in the 
new ocean.
    Moving forward, I commend the committee for considering 
climate impacts in its deliberations and recommend the 
following priorities. For general maritime infrastructure 
needs, the U.S. Coast Guard, U.S. Army Corps of Engineers and 
NOAA should jointly lead a comprehensive assessment of U.S. 
port infrastructure and its risk to climate-related hazards. 
Each of these agencies have a number of programs on which such 
an effort could build. Individual port needs will vary widely 
but investments in communication networks for immediate hazard 
adaptation and contingency planning and land-use planning to 
optimize use of green infrastructure for long-term resilience 
should also be priorities. And, finally, investing in Arctic 
capabilities for the U.S. Coast Guard and related mission 
capacity should be a priority. This includes fully supporting 
the Polar Security Cutter program, investing in communication 
and vessel monitoring networks to support implementation of the 
Bering Strait Port Access Route Study, supporting 
implementation of the Alaskan Arctic PARS in the Chukchi and 
Beaufort Seas and providing for engagement with Alaskan Native 
communities and governments on the development of a deepwater 
port facility in the Bering Strait region and moving forward 
with its development based on this input and the outcomes of 
the forthcoming U.S. Army Corps of Engineers study.
    Thank you. And I look forward to your questions and 
discussion.
    [Mr. Saumweber's prepared statement follows:]

                                 
  Prepared Statement of Whitley Saumweber, Director, Stephenson Ocean 
Security Project, Center for Strategic and International Studies (CSIS)
    Mr. Chairman and Members of the Committee, thank you for inviting 
me here today to discuss the ways in which Federal infrastructure 
policy can help mitigate and adapt to climate change. My name is 
Whitley Saumweber and I currently serve as the Director of the 
Stephenson Ocean Security Project at the Center for Strategic and 
International Studies (CSIS). This project is a new effort on behalf of 
CSIS to examine the links between ocean health, marine resource 
conflicts, and national security challenges.
    Prior to joining CSIS, I held appointments as a Visiting Fellow at 
Stanford University and as Associate Director for Ocean and Coastal 
Policy in President Obama's White House Council on Environmental 
Quality. I have previously worked in the U.S. Senate for the late 
Senator Dan Inouye (D-Hawaii) and at the National Oceanic and 
Atmospheric Administration (NOAA) as an Advisor to the two previous 
Administrators. I also hold a Ph.D. in Biological Oceanography from the 
University of Rhode Island. Over the course of my career I have helped 
to develop, implement, and lead our National Ocean, Arctic, and 
Fisheries policies and it is this experience that my testimony today 
draws upon.
                              introduction
    The second volume of the Fourth National Climate Assessment issued 
last year makes it clear that the impacts of climate change are being 
felt now and will be accelerating into the foreseeable future without 
significant changes to the global carbon economy. Climate change 
therefore serves as both a source of immediate challenge and strategic 
risk requiring a combination of immediate investment for adaptation and 
sustained investment to support the long-term resilience of affected 
systems. From a maritime perspective one of the most important and 
vital of these is our Marine Transportation System. The U.S. MTS 
accounts for 90 percent of our imported goods, supports $4.6 trillion 
in economic activity, and sustains 23 million jobs. All of these are at 
risk if we do not provide appropriate investments to ensure resilience 
in our maritime infrastructure and to do so in a way that accounts for 
economic, environmental, and social values.
    The U.S. Committee on the Marine Transportation System (CMTS) has 
identified three primary risks to the MTS associated with climate 
change: (1) Sea Level Rise (SLR); (2) increasing frequency and potency 
of coastal storms; and (3) the opening of the Arctic. They also 
identify an additional 29 factors that may be exacerbated by climate 
related impacts and which would put maritime infrastructure at risk. In 
responding to these risk factors, we should consider the National 
Academies of Science definition of resilience as, ``the ability to 
prepare, resist, recover, and more successfully adapt to the impacts of 
adverse events,'' but also recognize that as we do so we must seek to 
account for continuously shifting baseline. For example, the sea level 
is rising but the rate at which it is doing so will both increase and 
be variable across regions. Similarly, in considering investments in 
port infrastructure to service relevant regional maritime industries, 
we should consider that the nature of these industries are likely to 
change as climate drives changes in regional economies. The port side 
needs of the fishing industry will change, for example as commercial 
stocks move poleward and the composition of local fleets change.
    The most clear example of these shifts is in the Arctic where we 
may see an ice free pole within the next 10-20 years.
                        general recommendations
    Risk Assessment--Invest in programs at the U.S. Coast Guard and 
NOAA that support a comprehensive risk assessment of major U.S. ports 
to the primary climate risk factors contained in the CMTS Risk Factors 
Matrix.
    Resiliency Standards--Develop a set of standards for port 
infrastructure that map to regional predictions of sea level change 
under each of the Intergovernmental Panel on Climate Change (IPCC) 
Representative Concentration Pathways (RCP) of green house has 
emissions.
    Targeted Investment--Consider the use of novel public/private 
partnerships, including funds such as the Harbor Maintenance Trust 
Fund, Oil Spill Liability Trust Fund, and National Coastal Resilience 
Fund to support investment in port adaptation programs that meet 
revised resiliency standards and are applied based on priority risk 
assessment needs.
                         arctic recommendations
    President Obama recognized that the Arctic would become 
increasingly important from both an economic and strategic perspective 
as the polar ice cap melts and new shipping lanes and opportunities for 
resource use and extraction emerged. To grapple with these emerging 
challenges his Administration developed the first National Strategy for 
the Arctic Region, and, in partnership with Canada, in 2016, proposed A 
New Model for Arctic Leadership. Both documents called for building a 
sustainable Arctic economy, supporting conservation, and supporting 
Arctic communities including through increased collaboration with 
indigenous communities and valuation of local and traditional 
knowledge. Needed investments in Arctic infrastructure should follow a 
similar model and make sure that local communities are engaged in 
decisionmaking processes and that impacts on sensitive and changing 
ecosystems are considered. I list a number of these needs below which 
also broadly map to the CMTS' 10-year Arctic infrastructure priorities.
    Maritime Domain Awareness and Readiness--
    <bullet>  The USCG's National Security Cutter program should be 
fully funded and clearly supported in the developing USCG Arctic 
Strategy.
    <bullet>  The USCG Alaska Arctic Port Access Route Study (PARS) 
should be fully funded and completed in a timely manner that allows for 
appropriate consultation with local communities.
    <bullet>  Support for NOAA's Office of the Coast Survey and 
National Geodetic Survey should be increased to accelerate Arctic 
surveying, charting, and National Geodetic Reference Frame updates.
    <bullet>  The U.S. Army Corps of Engineers should complete their 
feasibility study for a deep water port in Northwest Alaska.
    <bullet>  Development of a deep water port should be pursued based 
on the recommendations of the USACE study and in consultation with 
local communities.
    <bullet>  Investment in additional oil spill and incident response 
infrastructure is critical including pre-positioning and transport 
planning for events on the North Slope.
    Communications--Communication infrastructure to support both ship 
to ship and ship to shore networks is lacking on the North Slope. 
Investments are needed to support the expanded use of Automatic 
Identification Systems (AIS) and broadband communications.

    Mr. Larsen. Thank you for your testimony.
    And I want to now turn to Lynn Scarlett.
    You are recognized for 5 minutes.
    Ms. Scarlett. Thank you very much. Thank you, members of 
the committee, for this opportunity to discuss infrastructure 
resilience. I am Lynn Scarlett, vice president of policy and 
Government relations at The Nature Conservancy.
    As we look to invest in infrastructure in the context of 
climate change, nature itself can be a solution. Natural 
infrastructure can be clean, green and dollar smart. It is real 
and practical. So what is it?
    Natural infrastructure refers to investments in natural and 
bioengineered systems to contribute to infrastructure needs. It 
can be deployed alone or in combination with more traditional 
infrastructure. It includes green spaces that absorb and filter 
stormwater, reducing flooding and pollution, often at much less 
cost than refurbishing pipe-and-tunneling systems.
    For example, Philadelphia is putting nature back into the 
city to handle sewerage overflow and stormwater at a fraction 
of the cost to replace pipes and tunnels. Seattle reduced the 
volume of runoff in one neighborhood by 98 percent by using 
natural infrastructure and the price tag was 25 percent less 
than traditional tools.
    Beyond city spaces, natural infrastructure includes the use 
of living shorelines of sea marshes, oyster reefs and dunes. In 
Howard Beach, New York, for example, the conservancy evaluated 
nature-based infrastructure and showed that a combination of 
nature-based and grade defenses result in avoided losses of 
$244 million from extreme storm events.
    The potential risk-reducing benefits of nature's assets are 
not hypothetical. In one study, the conservancy and a global 
risk modeler for the insurance industry modeled storm surge and 
damages from Hurricane Sandy. We determined that coastal 
wetlands prevented more than $625 million in property damages.
    Nature can help with transportation systems, too, 
especially in culvert design. Most culverts across this country 
see upsizing as we see more frequent high-intensity storms and 
the effects of a changing climate. Using culverts with natural 
bottoms reduces erosion and flooding. In New York, for example, 
one use of such an approach resulted in a road crossing 
surviving seven federally declared flood disasters over the 
past 15 years.
    We have engaged across the Nation in natural infrastructure 
projects. These include one in Hamilton City, California, with 
the Army Corps of Engineers to reduce flood damage and restore 
ecosystems through levee setbacks and reconnecting 1,400 acres 
of flood plain. They include many projects in the Gulf of 
Mexico and the eastern seaboard on oyster reef restoration. 
They include efforts in, for example, Coquille Valley, Oregon, 
to upgrade tide gates and culverts, improve water management at 
less cost than traditional levees.
    But significant opportunities exist to enhance the extent 
and effectiveness of these efforts. We launched a natural 
infrastructure initiative with the company Caterpillar as they 
and other business leaders recognized the potential of natural 
infrastructure. The initiative includes AECOM, Great Lakes 
Dredge and Dock, Brown and Root and other partners. The purpose 
is to accelerate investment in water-based infrastructure and 
promote the use of natural infrastructure.
    The Federal Government is also helping lead the way. The 
Army Corps has many natural infrastructure projects and 
recently released a report called Engineering with Nature. But 
we see more opportunities for Federal leadership. These include 
consideration of natural infrastructure in Federal agency 
planning and in community hazard mitigation planning and 
investments. They include increasing reforestation through the 
Forest Service Restoration Trust Fund. They include supporting 
the Federal Highway Administration in infrastructure 
vulnerability assessments and training around its natural 
infrastructure guidance for transportation investments.
    As we invest in this Nation's infrastructure, let us not 
build ourselves back into the 20th century. Nature's solutions 
are part of a better, cheaper, smarter future. Thank you.
    [Ms. Scarlett's prepared statement follows:]

                                
 Prepared Statement of Lynn Scarlett, Vice President for Public Policy 
            and Government Relations, The Nature Conservancy
    Chairman DeFazio, Ranking Member Graves and committee members, 
thank you for the opportunity to present The Nature Conservancy's views 
on enhancing resilience of our transportation infrastructure. My name 
is Lynn Scarlett. I am Vice President for Public Policy and Government 
Relations at The Nature Conservancy.
    The Conservancy is a global conservation organization dedicated to 
conserving the lands and waters on which all life depends. Guided by 
science, we create innovative, on-the-ground solutions to the world's 
toughest challenges so that nature and people can thrive together. We 
are tackling climate change, conserving lands, waters and oceans at 
unprecedented scale, providing food and water sustainably and helping 
make cities more sustainable. Working in all 50 States and 72 
countries, we use a collaborative approach that engages local 
communities, governments, the private sector and other partners, 
including farmers, ranchers and other landowners.
            infrastructure needs and natural infrastructure
    There are tremendous needs for improving and maintaining all kinds 
of infrastructure throughout the United States. Review of the recent 
American Society of Civil Engineers' 2017 scorecard giving the state of 
our nation's infrastructure a D+ summarizes this need. To meet the 
needs for upgrading our nation's infrastructure requires investing 
significant resources and finding ways to cost effectively and 
expeditiously accomplish needed infrastructure investments while 
sustaining community, environmental, safety and other widely held 
values. One significant tool in meeting the infrastructure demands in a 
cost-effective manner is to consider investments in natural 
infrastructure.
    Natural infrastructure refers to investments in restoration, 
conservation of nature and nature-based (bioengineered) systems to 
achieve infrastructure needs. Investments in natural infrastructure 
often occur combined with investments in more traditional ``gray,'' or 
``hard,'' infrastructure like levees, roads and seawalls. Investments 
in natural infrastructure help preserve or reintroduce the basic 
functions of nature that deliver a suite of benefits in support human 
well-being; provide clean water and clean air; and sustain lands that 
provide food and recreation opportunities and reduce greenhouse gas 
emissions. Many of these solutions provide infrastructure innovations 
as important for their cost-effective performance as are innovations in 
high-technology solutions.
  investments in natural infrastructure enhance resilience to growing 
                                impacts
    Investments in natural infrastructure can help reduce the impacts 
of a changing climate. According to the National Oceanic and 
Atmospheric Administration (NOAA), the U.S. has sustained 241 weather 
and climate disasters since 1980 where overall damages/costs reached or 
exceeded $1 billion. The total cost of these 241 events exceeds $1.6 
trillion. In 2018 across the U.S., 14 weather and climate disaster 
events resulted in losses exceeding $1 billion each. These events 
included one drought, eight severe storms, two tropical cyclones, one 
wildfire and two winter storms. Overall, these events resulted in the 
deaths of 247 people and resulted in significant economic impacts.
    Weather-related disasters have been escalating, and the trend is 
expected to continue. Over the last 50 years, Americans have seen a 20 
percent increase in high-intensity downpours. In addition, research 
documents that the proportion of Category 4 and Category 5 hurricanes 
has doubled from 20 percent to 40 percent in 35 years (Holland and 
Bruyere, 2012). Coastal storm surge and storm impacts will intensify as 
sea levels continue to rise the predicted 0.6 feet and 2 feet globally 
in the next century (Intergovernmental Panel on Climate Change, 2007). 
Understanding these observed and projected effects are important to 
advance prudent management and infrastructure investments.
      investments in natural infrastructure are a smart investment
    Incorporating nature in our infrastructure designs and investments 
provides opportunities to enhance the resilience of our nation's 
infrastructure, delivers a host of benefits and ensures that we are not 
repeatedly rebuilding infrastructure based on outdated standards and 
trends. For example, rebuilding culverts without taking into 
consideration trends of increased rainfall events will result in those 
culverts being repeatedly blown out, while also damaging roads. We see 
many examples of this type of repeat damage and Federal funds being 
wasted rebuilding the same culvert or other types of infrastructure, in 
the same manner, only to be subsequently destroyed during the next 
extreme weather event. We should make smarter investments and rebuild 
larger culvert openings or more resilient infrastructure designs that 
will accommodate flood waters or withstand other extreme weather 
impacts. Doing so also helps avoid costly road closures. Larger culvert 
sizes also enhance the health of rivers, benefiting fish and other 
wildlife.
                    what is natural infrastructure?
    Defining the terms natural infrastructure or nature-based solutions 
can help provide a common understanding of what is meant by these 
terms. We have received from Members of Congress and congressional 
staff requests for more information on what is meant by these terms.
    The terms have been defined in section 1184 of Water Resources 
Development Act (WRDA) 2016 legislation:
       ``The term 'natural feature' means a feature that is created 
through the action of physical, geological, biological and chemical 
processes over time.''
       ``The term `nature-based feature' means a feature that is 
created by human design, engineering and construction to provide risk 
reduction in coastal areas by acting in concert with natural 
processes.''
    WRDA 2018 amended the definition of nature-based feature to strike 
the word ``coastal,'' resulting in the term applying to all areas. We 
generally agree with this definition.
    Natural infrastructure incorporates both the natural environment 
and engineered systems that mimic natural processes or work in concert 
with natural systems to provide flood, fire and drought risk reduction, 
clean water and clean air benefits. Natural infrastructure delivers 
economic, societal and environmental benefits.
    At its essence, natural infrastructure can protect, restore or 
mimic the role that nature plays--ecological processes, including, but 
not limited to, water quality and quantity processes. Natural 
infrastructure uses vegetation, soil health, land protection, land 
management and other elements and practices to protect, maintain and 
restore the natural processes required to manage water and other 
natural processes, create healthier environments and protect human 
communities. Natural infrastructure solutions can be applied on 
different scales: at the city, county or regional scales. By using 
nature, damages and impacts can be minimized, and communities can 
recover more quickly from disasters and impacts.
    To illustrate varied types of natural infrastructure projects, we 
include a compilation of natural infrastructure projects from 
throughout the U.S. in which the Conservancy has been involved. (See 
Appendix A.) The Naturally Resilient Communities website, which the 
Conservancy developed along with the National Association of Counties, 
the Association of State Floodplain Managers, as well as others, 
provides an overview of natural infrastructure and case studies 
throughout the U.S. that illustrate varied types of projects.
    Benefits of natural infrastructure include the following:
    <bullet>  Reducing risks to people and structures
    <bullet>  Reducing wave heights and storm surge
    <bullet>  Storing and conveying water
    <bullet>  Improving water quality (and reducing costs of water 
treatment)
    <bullet>  Reducing drought impacts
    <bullet>  Reducing threats of catastrophic fires
    <bullet>  Reducing summer heat and improving air quality
    <bullet>  Reducing erosion and sedimentation
    <bullet>  Providing green spaces, greenways and recreational 
opportunities
    <bullet>  Providing habitat for fish and wildlife
    Types of natural infrastructure include the following:

------------------------------------------------------------------------
       River work              Coastal work             Urban work
------------------------------------------------------------------------
Reconnecting rivers to   Conserving/restoring     Constructed wetlands
 floodplains              coastal marshes         Bioretention cells
Levee setbacks and       Conserving/restoring     Planting trees
 realignments             oyster and shellfish    Conserving lands in
Flood bypasses            reefs                    watershed headwaters
Conserving/restoring     Conserving/restoring     Sustainable forest
 watershed forests        coral reefs              management
Conserving/restoring     Building living
 river corridors          shorelines
Conserving/restoring     Conserving/restoring
 wetlands                 intertidal flats
Constructing wetlands    Conserving/restoring
Establishing flood        mangroves
 water detention areas
Fish/flood friendly
 culverts/bridges
Dam removal
Establishing filter
 strips, grassed
 waterways on farm
 fields
------------------------------------------------------------------------

    investing in natural infrastructure can be economically prudent
    The traditional approach to flood and water quality protection in 
river-floodplain systems has been to rely on dams and levees to contain 
flood waters; build treatment plants and lay miles of pipes to treat 
and transport water and wastewater; and, in coastal areas, build sea 
walls, bulkheads and other gray infrastructure. While built 
infrastructure plays an important role in helping to secure and provide 
essential services to communities, it requires substantial investments 
for both initial construction and ongoing maintenance. Moreover, 
extensive reliance on built infrastructure in the United States during 
the 19th, 20th and early 21st centuries has encouraged land development 
in areas particularly susceptible to flooding and storm damage and 
catastrophic flooding when infrastructure fails. And fail it has.
    Many disasters during the past decade have involved numerous levee 
breaches, dam failures and seawall breaches. Failing gray 
infrastructure has led to extensive property and infrastructure 
destruction and lives lost.
    If left unaddressed, as the nation's water infrastructure and flood 
protection infrastructure continue to age, we expect economic losses 
will continue to increase--including the taxpayer's large obligation 
under the National Flood Insurance Program--along with the risk faced 
by tens of millions of Americans who live and work behind levees and 
tens of millions more living along the coast.
    Renewing the nation's traditional built flood control and water 
infrastructure solutions presents a daunting challenge. The American 
Society for Civil Engineers reports that there are 30,000 documented 
miles of levees in the U.S. protecting communities, critical 
infrastructure and valuable property. The levees in the U.S. Army Corps 
of Engineers' data base protect an estimated $1.3 trillion in property. 
Yet development continues to encroach in floodplains along rivers and 
coastal areas, exacerbating flood risk and putting property at risk. An 
estimated $80 billion is needed in the next 10 years to maintain and 
improve the nation's system of levees. The challenge also exists for 
coastal infrastructure. In Massachusetts alone, there are about 140 
miles of publicly owned sea walls or other structures along the coast 
designed to protect billions of dollars of property. Most were designed 
to last a half century but are older than that now. The estimated price 
tag to repair and fortify all of them against rising seas is more than 
a billion dollars.
    Natural infrastructure or natural infrastructure combined with gray 
infrastructure is often the most cost-effective and best-performing 
option for reducing flood risk while delivering a host of other 
benefits such as improved water quality, enhanced habitat for fish and 
animals, improved aesthetics and overall contribution to a community's 
quality of life.
    For example, the U.S. Forest Service estimates that 180 million 
people access their drinking water from national forests. More than 5 
million of these people live in communities served by small- and 
medium-sized utilities that rely on surface water for their drinking 
water. At a time when climate-driven droughts and megafires are more 
common, these communities will need support to protect both homes and 
water supplies. And in urban areas, investments in natural 
infrastructure--such as parks and green spaces, as well as dunes and 
wetlands--can help increase cities' resilience to climate change, as 
well as improve the health, safety and quality of life of urban 
residents.
  growing body of evidence on effectiveness and cost effectiveness of 
                         natural infrastructure
In Coastal Areas
    A growing body of knowledge and experience demonstrate the 
effectiveness and cost effectiveness of coastal natural infrastructure. 
In the U.S., coastal wetlands act as ``horizontal levees'' for a value 
of $23.2 billion per year in protection from storms (Costanza et al., 
2008). Barbier et al. (2013) show that coastal marshes and vegetation 
have demonstrable effects on reducing storm surge levels, which 
provides significant value in protecting property in southeast 
Louisiana. They measured that a mere 1 percent increase in wetland 
continuity over 6 kilometers would lower residential property flood 
damages by $592,000 to $792,100, and a marginal increase in bottom 
friction over 6 kilometers would reduce flood damages by $141,000 to 
$258,000.
    In a 2016 study, the Conservancy, in partnership with Risk 
Management Solutions, a global leading risk modeler for the insurance 
industry, Guy Carpenter & Co. and others showed that marsh wetlands 
saved more than $650 million in property damages during Hurricane Sandy 
and reduced annual property losses by nearly 20 percent in Ocean 
County, New Jersey (Narayan et al., 2016b).
    Oyster reef development and restoration also yield significant 
economic benefits. A 2012 study by Conservancy economist Timm Kroeger 
summarized that an investment of $150 million in oyster reef 
restoration will achieve the following:
    <bullet>  Build 100 miles of oyster reefs
    <bullet>  Create 380 jobs per year for 10 years, or rather, 3,800 
jobs during the decade-long construction phase
    <bullet>  Boost regional household income by $9.7 million a year 
during the 10-year construction period
    <bullet>  Increase revenues and sales of crab, fish and oyster 
harvests by $7.87 million yearly
    <bullet>  Save property owners up to $150 million on the 
construction of bulkheads
    <bullet>  Enhance yearly saltwater angler spending by $4.9 million 
in Alabama alone
    <bullet>  Increase annual sales by $7.3 million in the commercial 
seafood supply chain
In Freshwater Areas
    There are also examples of investing in natural infrastructure in 
freshwater systems. The best known example is New York City's effort to 
protect its water supply. In the late 1990's, New York City initiated a 
plan to protect its source water and avoid the cost of a filtration 
plant by investing in its 2,000-square-mile watershed. A filtration 
plant would have cost the city $8 billion to $10 billion in current 
dollars--roughly $6 billion to build and $250 million annually to 
maintain. In contrast, the cost of securing natural infrastructure in 
the watershed was estimated at $1.5 billion. The watershed program has 
staved off the need to build a filtration plant and provided an annual 
$100 million injection to the rural economy in the upper reaches of the 
watershed by providing supplemental income to farmers and forestland 
owners, paying local contractors to install septic systems and set up 
stormwater protection measures and promoting ecotourism (Kenny, 2006.)
    Another example is from the city of Medford, Oregon. Its wastewater 
facility discharges into the Rogue River but exceeds maximum 
temperature load requirements as allowed by its total maximum daily 
load (TMDL). To meet its temperature TMDL requirements, Medford 
evaluated three alternatives: lagoon storage for discharge later in the 
year, mechanical chillers and riparian restoration and shading. An 
economic analysis showed that riparian restoration was three times more 
cost effective than mechanical chillers for reducing thermal loads into 
the river and would provide additional benefits such as wildlife 
habitat and water filtration.
    It is often more cost effective to invest in reduction of risks of 
catastrophic wildland fire than to pay for impacts of damaging fires. 
For example, thinning 1 acre of dense forest in the critical Rio Grande 
and San Juan-Chama headwaters area costs $700 on average, whereas the 
economic impact of 1 acre affected by damaging wildfire can be up to 
$2,150 per acre. Even if just one large fire burns, the upfront 
investment in forest health saves money: Forest thinning to boost fire 
resilience is estimated to cost $73 million to $174 million, with 
damage estimates between $104 million and $1.3 billion. This approach 
makes economic sense over the long term. A recent study estimated the 
cost of damages from wildfires from 2009 to 2012 in New Mexico was $1.5 
billion. In contrast, the Rio Grande Water Fund estimates a total cost 
of $420 million over 20 years to accelerate the pace and scale of 
forest treatments and restoration. Preserving and restoring these 
forests will help ensure the sustainability of New Mexico's water 
supply and increase social and economic benefits for local communities.
    Nationally, a rough estimate is that 67 percent of culverts are not 
designed to allow for a 1 percent flood (100-year flood) and need 
upsizing. Assuming a quarter of those need immediate replacement, the 
savings over the life of the new culverts would be $8 trillion. The 
savings increase with increased flood risk and grow exponentially when 
emergency management is required due to road or bridge washout--none of 
the calculations account for the dramatic costs of catastrophic failure 
and emergency replacement. When aggregated to a Federal level, culvert 
upgrades could represent significant savings to public transportation 
budgets.
    In Hancock, New York, three flood events between 1996 and 2005 
damaged an undersized culvert on Big Hollow Creek. In those 9 years, 
Delaware County spent more than $70,000 to repair damages to the 
culvert, as well as the road and adjacent ditches. In addition, the 
detour length associated with closure of the road for repairs was 18 
miles. Late in 2005, with hazard mitigation funding assistance from the 
Federal Emergency Management Agency (FEMA), the county installed a 
three-sided concrete box culvert with a natural bottom, designed to 
convey a 100-year storm and provided at a cost of $143,000. The 
improved crossing has survived seven federally declared flood 
disasters, including Hurricane Irene, without significant damage since 
its replacement in 2005 (W. Reynolds, Delaware County Department of 
Public Works, pers. comm.).
In Urban Areas
    Natural infrastructure in cities is most often called green 
infrastructure. Green infrastructure has a proven track record of being 
more cost effective, in many cases, than traditional gray 
infrastructure solutions in achieving surface water management goals. 
For instance, the American Society of Landscape Architects studied 479 
green stormwater infrastructure projects, of which 44 percent were 
lower than and 31 percent were equivalent to the costs of gray 
infrastructure alternatives.
    In one example at Episcopal High School in Baton Rouge, the cost of 
bioswales and rain gardens constructed in lieu of replacing stormwater 
pipes with larger-sized pipes saved the school $390,000, a cost savings 
of 78 percent over the original project budget of $500,000.
    Green infrastructure projects, beyond level of service and 
environmental benefits, have compounding economic benefits. In its 
study of the green infrastructure alternative for the city of 
Lancaster, Penn., the Environmental Protection Agency demonstrated that 
the added-value benefits amounted to nearly $5 million per year.
    congressional actions by this committee and others have enabled 
            increased investments in natural infrastructure
    Congress has taken some important steps toward recognizing, 
enabling and funding investment in natural infrastructure. An important 
milestone occurred in the special disaster appropriations that Congress 
passed in response to Superstorm Sandy. Congress appropriated funding 
for several agencies and programs that provided important investments 
in natural and nature-based project work resulting in reducing future 
flood risk. U.S. Fish and Wildlife Service received $360 million for 
coastal resilience projects. This funding spurred important investments 
in natural infrastructure. With this funding, the Conservancy led work 
in New York to mitigate flooding and improve fish passage in the 
Ausable watershed and invested in green infrastructure in Accomack and 
Northampton counties in Virginia. The Conservancy also contributed to 
work in Delaware restoring Delaware Bay's wetlands and beaches in 
Mispillion Harbor Reserve and Milford Neck Conservation area, and in 
Massachusetts removed 10 fish barriers in nine communities resulting in 
lowering flood risk and improving fish habitat and overall quality of 
the streams.
    Other sources of funding in the Sandy bill also contributed to 
enhanced resilience by helping invest in natural infrastructure. NOAA 
was awarded a small amount of funding that it invested in funding 
networks of State, academic, local and nongovernmental organizations to 
build a learning network to spur planning and implementation of actions 
to enhance community resilience. This was an important capacity-
building investment helping grow and disseminate and build the body of 
knowledge and capacity to implement future coastal resilience work. One 
such investment in New Jersey continues to enable ongoing coastal 
resilience work in that State. Natural Resource Conservation Service 
was awarded funds through its Emergency Watershed Protection program, 
which invests in easement purchases in floodplains to restore 
floodplain areas and allow them to function as areas to absorb and slow 
floodwaters.
    Sandy disaster funding also included $1 billion in disaster funds 
for the Housing and Urban Development (HUD) National Resilience 
Competition. The competition encouraged communities to develop disaster 
recovery plans from past disasters and make investments to lower risk 
to future disasters while advancing broader community development 
goals. The competition encouraged participants to think expansively 
when developing projects that would enable community development goals 
and ensure public engagement. As part of the effort, the Rockefeller 
Foundation collaborated with HUD and provided workshops and expert 
input to applicants to help build capacity and enhance application 
quality. Most of the applications in response to this competition 
included elements of investment in natural infrastructure. The 
Conservancy would like to see this program replicated.
    In addition to funding bills, other legislation has advanced the 
concept of and enabling conditions for investing in nature as a tool 
for reducing risk from a range of impacts such as flooding, drought and 
wildfires.
    As noted previously, WRDA 2016 provided the most comprehensive 
definition of natural and nature-based infrastructure to date. The 2018 
WRDA bill builds on this definition to further require the Army Corps 
to consider natural and nature-based infrastructure when carrying out 
studies of projects.
    As evidence of the Army Corps' own work to support investments in 
natural infrastructure, the Army Corps held an event at the National 
Building Museum in Washington, DC, to launch its new publication, 
``Engineering With Nature: An Atlas.'' The book is filled with global 
examples of natural and nature-based project work.
  further work to be done to enable natural infrastructure investments
    Many other statutes have included the need to protect and restore 
ecosystems and watersheds to protect the myriad of important services 
intact and healthy natural systems provide to people. There are many 
more opportunities to continue to include this intent in other 
legislation dealing with infrastructure investments and disaster, 
wildfire and drought risk reduction. The Conservancy will continue to 
advocate for consideration of and investments in natural infrastructure 
as the Congress works on developing a bill to invest in infrastructure, 
as well as in other appropriate legislative vehicles.
    Congress must also ensure that infrastructure is built to enhance 
resilience in the context of a changing climate and increasingly 
frequent extreme weather and wildfire events. Congress can improve 
planning, training and direct investments in nature-based and gray 
infrastructure by doing the following:
    <bullet>  Requiring resilience and flood and wildfire risk analysis 
in federally funded work, and upgrading flood maps and wildfire risk 
maps
    <bullet>  Bolstering interagency coordination to enhance resilience
    <bullet>  Incentivizing enhanced community hazard mitigation 
planning and investments
    <bullet>  Enhancing consideration of and investments in natural 
infrastructure alone or in combination with gray infrastructure to 
maximize environmental, societal and economic benefits
    <bullet>  Reducing wildfire risk to communities by investing in 
future risk reductions following disasters and updating Community 
Wildfire Protection Plans
    <bullet>  Codifying the Forest Service Legacy Roads and Trails 
program to prioritize corrections to deferred maintenance
    <bullet>  Increasing reforestation by investing in the U.S. Forest 
Service Reforestation Trust Fund to plant an additional 1 million trees 
in 3 years
    And Federal agencies can play varying roles in advancing 
investments in natural infrastructure, including the following:
    <bullet>  Army Corps can continue to invest in natural 
infrastructure by offering training and workshops for its staff 
throughout the U.S. to help them understand how best to incorporate 
nature in their project analysis and implementation
    <bullet>  NOAA can provide data, decision support tools such as 
online vulnerability assessment and solution analysis tools, technical 
assistance and training
    <bullet>  U.S. Geological Survey can make its science more 
centrally located, accessible and in easy-to-access online GIS-based 
tools
    <bullet>  FEMA can make more of its flood data available and 
accessible to allow better analysis and targeting of risk reduction 
actions
    <bullet>  Federal Highway Administration can invest more resources 
in its infrastructure vulnerability assessment work and dissemination 
and training around its soon-to-be-released guidance on incorporation 
of natural infrastructure into transportation investments
            growing support among businesses and communities
    In addition to growing support in Congress to promote investments 
in natural infrastructure, the Conservancy has seen encouraging, 
growing support from businesses who see investments in nature as 
important business investments.
    In 2015, the Conservancy joined with Caterpillar and launched the 
Natural Infrastructure Initiative (NII). The NII grew out of a 
gathering of business leaders recognizing the need to work with and 
invest in nature and understanding this as a business opportunity. 
Members of the NII in addition to the Conservancy and Caterpillar 
include AECOM, Great Lakes Dredge and Dock, Ducks Unlimited and Brown 
and Root. NII members are working collaboratively to accelerate 
investment in water-based natural infrastructure projects as part of a 
solution set for infrastructure needs, embed natural infrastructure as 
part of ongoing discussions about improving investment in water-based 
infrastructure and promote the use of natural infrastructure in 
general.
    The Conservancy has worked with other companies and organizations 
to investigate natural infrastructure solutions and invest in projects. 
Some examples include Dow, Jacobs, Boeing, BSNF and the American 
Society of Civil Engineers. The Conservancy is committed to working 
with businesses who understand the value of making these investments.
    In addition to corporate support, the Conservancy has seen growing 
support among elected officials and is working with organizations such 
as the Mississippi River Cities and Towns Initiative (MRCTI), which 
represents cities and towns along the main stem of the Mississippi 
River and advocates on issues facing the communities, such as improving 
water quality and reducing flood risk. The Conservancy has also worked 
with the National Association of County Officials (NACO), who has 
joined with us in support of investments in natural infrastructure. 
MRCTI and NACO members understand the numerous benefits provided 
through investments in nature.
  conservancy examples of various types of natural infrastructure work
    The Conservancy is a leader in executing projects that serve as 
prime examples of investments in natural infrastructure. I would like 
to close my testimony by briefly describing a few representative 
examples of the Conservancy's work taking place throughout the U.S.
    Hamilton City, Calif.--Hamilton City is located approximately 90 
miles north of Sacramento and is adjacent to the west bank of the 
Sacramento River. The project is a multipurpose flood damage reduction 
and ecosystem restoration project consisting of construction of a 6.8-
mile setback levee to provide improved flood protection to the 
community and agricultural areas, and reconnection of approximately 
1,400 acres to the Sacramento River floodplain and restoration of that 
acreage into native riparian habitat. The project was authorized under 
WRDA 2007, amended in WRDA 2017 and is estimated to cost $91 million, 
of which $31.3 million is the non-Federal contribution. The fact that 
this project addresses both flood protection and ecosystem restoration 
required new Army Corps policy guidelines to permit these objectives in 
a single project. The Conservancy is working with the Army Corps 
nationally to encourage expanded implementation of multi-benefit 
projects, which is challenging given the Army Corps' methods for 
evaluating the cost and benefits of projects. The project will help to 
lessen historic flooding that has impacted Hamilton City and result in 
enhanced habitat for fish and wildlife.
    Pacific Northwest--Throughout the Pacific Northwest, tide gates and 
levees are used to control water from rivers and the ocean on low-lying 
properties. Tidal wetlands--which are critical to the survival of 
salmon--once covered most of the Coquille Valley. Today, less than 10 
percent of these historic wetlands in the Coquille Basin remain. The 
Conservancy has been working with Federal and State partners in the 
Coquille watershed in southwestern Oregon to design, upgrade and 
replace tide gates, which is already proving to provide benefits to the 
local community and the agricultural grazing lands while at the same 
time improving water quality, rearing habitat and fish passage.
    The Conservancy and partners have work underway replacing old tide 
gates and culverts with seven new tide gates and five new bridges to 
dramatically improve fish passage and restore wetland function and 
tidal flow in the Coquille basin. By working with the Beaver Slough 
Drainage District, China Creek Gun Club, Coquille Indian Tribe, Federal 
partners such as NOAA and U.S. Fish and Wildlife Service and other 
entities, this project is reconnecting 7.8 miles of historic channels 
to the Coquille River. The new infrastructure requires less 
maintenance, resulting in cost savings over time. Local landowners have 
reported their excitement about ``raising cattle in the summer and 
salmon in the winter.''
    The construction projects are projected to generate at least $4.2 
million and will support 18 to 25 jobs. Many local businesses will see 
new demand in specific industries like nurseries, heavy equipment, rock 
or gravel and local labor.
    New Jersey--Since Superstorm Sandy, the Conservancy's New Jersey 
chapter has been working to demonstrate the success and benefits of 
projects that help its coastal salt marshes--which helped reduce 
damages in New Jersey during Sandy by nearly $500 million--persist in 
the face of sea level rise. One such project tested an innovative 
technique in which clean mud and sand from clogged boat channels was 
sprayed on top of nearby marshes to help boost the elevation of more 
than 60 acres of marsh. This so-called technique of beneficial reuse of 
dredged material is aimed at boosting the health of the wetland to help 
reduce future storm impacts. This project was the result of a 
successful partnership with the Army Corps, the State of New Jersey and 
others. The construction on three different marshes was completed about 
3 years ago, and the Conservancy is helping to assess the success and 
impact of the project. The results have been promising. In combination 
with other nature-based solutions, like oyster reef breakwaters to 
reduce marsh erosion, the Conservancy is working to expand the 
consideration and implementation of a variety of natural infrastructure 
investments to help the Jersey Shore become more resilient to the 
impacts of climate change.
    Washington, DC.--To mitigate stormwater runoff, Washington, DC, 
instituted a first-of-its-kind stormwater retention credit (SRC) 
market. The market reduces the impact of stormwater runoff--the 
largest-growing source of pollution to the Chesapeake Bay watershed and 
the fastest-growing source of urban water pollution globally. It allows 
land-constrained developers to meet a portion of their stormwater 
retention requirements by purchasing SRCs. Credits are generated by 
stormwater retention projects elsewhere in the city, including green 
infrastructure projects.
    Investments in green infrastructure for stormwater retention can 
bring income to landowners and provide valuable co-benefits, including 
expanded green space, reduced localized flooding, increased flexibility 
and onsite revenue options for developers and jobs to build and 
maintain green infrastructure sites. Offsite credit projects create 
opportunities for infrastructure investments in underserved 
communities.
    The Conservancy's NatureVest is partnering with Encourage Capital 
to establish and capitalize District Stormwater, LLC (DS), which will 
finance and develop SRC-generating projects. DS will work with 
landowners and community groups to site credit-generating projects in 
parts of Washington, DC, that would most benefit from green 
infrastructure while creating liquid, cost-competitive credits for sale 
in the SRC market. DS anticipates mitigating 500,000 gallons of runoff 
annually. This will protect fragile ecosystems, such as the Chesapeake 
Bay, that are too often overrun by polluted stormwater that can contain 
raw sewage; provide infrastructure services to underserved communities 
through increased green space and the reduction of localized flooding; 
and inspire new conservation-minded people as they see the benefits of 
green infrastructure in their communities.
    Gulf of Mexico--Throughout the Gulf of Mexico and along the eastern 
seaboard, oysters play a vitally important role in supporting healthy 
estuaries. Oyster reefs provide multiple benefits, from providing 
habitat and food for wildlife, to filtering water, removing nitrogen 
and stabilizing eroding coastlines. Oysters are also a favorite cuisine 
for people, and States throughout the southeast once had robust oyster 
fisheries. A healthy adult oyster can filter up to 50 gallons of water 
daily, helping to cleanse estuaries and support aquatic grasses and 
other plants that need light to survive. These plants, in turn, yield 
benefits like fish production and carbon storage, completing an 
invaluable cycle. Healthy oyster reefs also serve as natural buffers 
against rising sea tides and hurricanes by forming breakwaters that 
help protect shorelines from erosion. Oyster reefs also create economic 
value, bringing upwards of $10 million (dockside valuation) into 
Florida alone. Oyster reefs have severely declined throughout their 
historical ranges all over the world. Today, oyster reefs are 
considered one of the planet's most imperiled marine habitats. Over the 
last two centuries, more than 85 percent of the world's oyster reefs 
have been lost. The Conservancy is working throughout the Gulf of 
Mexico, as well as along the eastern seaboard, to restore and build 
oyster reefs to maximize the services this important species provides 
to people and nature.
    Massachusetts--In September 2016, Gov. Charlie Baker issued an 
executive order that launched a statewide planning process and a 
municipal technical assistance program. A priority is placed on 
investing in nature-based solutions to enhance resilience and actions 
to mitigate climate change.
    Along with the executive order, the State launched a new website, 
the resilient MA Climate Clearinghouse, to provide communities access 
to the best science and data on expected climate change impacts, 
information on planning and actions communities can deploy to build 
resilience and avoid loss, and links to important grant programs and 
technical assistance. The State has also stood up the Municipal 
Vulnerability Preparedness program that provides communities with a 
planning expert to walk them through a Conservancy-developed community 
resilience building process. Communities must update their hazard 
mitigation plans after going through the process and continue to make 
progress to be eligible for State mitigation grant funds.
    This past year, the Massachusetts legislature-enacted climate 
change bond provided $2.4 billion in capital funding for the next 5 
years. The focus is on investing in nature-based solutions to lessen 
climate impacts and enhance resilience. In January, Baker filed a bill 
to increase the real estate transaction fee and use the funds for 
climate change adaptation and resilience (more than $1 billion over 10 
years).
    This program should be replicated at the Federal level. An 
important role Federal agencies can play is to provide technical and 
planning assistance, provide the latest science in a user-friendly 
manner and share best practices to effectively address the challenges 
of extreme weather and a changing climate that are inflicting 
significant costs on communities throughout our Nation.
                               conclusion
    Thank you for the opportunity to present The Nature Conservancy's 
recommendations on the need for the Federal Government to prioritize 
investment in nature as an important tool for enhancing resilience to 
the increasing impacts of extreme weather and climate change. The 
Conservancy will continue to lead the way in contributing to the 
science and executing projects that demonstrate the important benefits 
and services that nature provides to people. The Conservancy will 
continue to work with the Congress to recommend and advance policies to 
support increased investments in natural infrastructure that help cost 
effectively address our nation's infrastructure challenges.
                              appendix a:
               natural infrastructure: what does it mean?
    Natural infrastructure incorporates both the natural environment 
and engineered systems that mimic natural processes or work in concert 
with natural systems to provide flood, fire and drought risk reduction, 
clean water, and clean air benefits. Natural infrastructure delivers 
economic, societal and environmental benefits.
    At its essence, natural infrastructure can protect, restore, or 
mimic the role that nature plays--the ecological processes--including, 
but not limited to, water quality and quantity processes. Natural 
infrastructure uses vegetation, soil health, land protection, land 
management and other elements and practices to protect, maintain and 
restore the natural processes required to manage water and other 
natural processes, create healthier environments, and protect human 
communities.
    Natural infrastructure solutions can be applied on different 
scales: at the city, county or regional scale. By using nature, damages 
and impacts can be minimized and communities can recover more quickly 
from disasters and impacts.
                   benefits of natural infrastructure
    <bullet>  Keep people and structures out of harm's way
    <bullet>  Reduce wave heights and storm surge
    <bullet>  Store and convey water
    <bullet>  Improve water quality
    <bullet>  Reduce drought impacts
    <bullet>  Reduce threat of catastrophic fires
    <bullet>  Reduce summer heat and improve air quality
    <bullet>  Reduce erosion and sedimentation
    <bullet>  Provide greenspaces, greenways and recreational 
opportunities
    <bullet>  Provide habitat for fish and wildlife
                    types of infrastructure projects

------------------------------------------------------------------------
       River work              Coastal work             Urban work
------------------------------------------------------------------------
Reconnecting rivers to   Conserving/restoring     Constructed wetlands
 floodplains              coastal marshes         Bioretention cells
Levee setbacks and       Conserving/restoring     Planting trees
 realignments             oyster and shellfish    Conserving lands in
Flood bypasses            reefs                    watershed headwaters
Conserving/restoring     Conserving/restoring     Sustainable forest
 watershed forests        coral reefs              management
Conserving/restoring     Building living
 river corridors          shorelines
Conserving/restoring     Conserving/restoring
 wetlands                 intertidal flats
Constructing wetlands    Conserving/restoring
Establishing flood        mangroves
 water detention areas
Fish/flood friendly
 culverts/bridges
Dam removal
Establishing filter
 strips, grassed
 waterways on farm
 fields
------------------------------------------------------------------------

                          mobile bay, alabama
Project Type: Flood and/or Erosion Risk Reduction
    Mobile Bay is the fourth largest estuary in the continental United 
States and plays an important role in nurturing the finfish, shrimp and 
oysters that are vital to Gulf communities.
    Unfortunately, Mobile Bay--like the rest of the Gulf Coast--has 
lost many of its oyster reefs, seagrass beds and coastal marshes. 
Losing these reefs has meant increased shoreline erosion and related 
property damage.
    Despite these challenges, Mobile Bay remains one of the largest 
potential areas for outright restoration, replacement and enhancement 
of these lost habitats on the Northern Gulf Coast.
    The Conservancy is working with partners, including the U.S. Army 
Corps of Engineers, to build 100 miles of oyster reef and plant 1,000 
acres of coastal marsh and seagrass here to help replenish the coastal 
waters and reduce shoreline flood impacts to local communities.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

(c) Beth Maynor Young
                       hamilton city, california
Project Type: Flood and/or Erosion Risk Reduction
    In partnership with the U.S. Army Corps of Engineers, the 
California Department of Water Resources, and Reclamation District 
2140, the Conservancy is championing a $73 million project where, for 
the first time, the Army Corps designed a multi-benefit project to 
specifically reduce flood damages and restore critical floodplain 
habitat on the Sacramento River.
    Construction began in spring 2016 building a new 6.8-mile setback 
levee, along with reconnecting 1,450 acres of floodplain between the 
new set-back levee and the river.
    Approximately 1,361 acres will be restored to native riparian 
habitat and significantly reduce flood risk to the city of Hamilton, 
which has frequently evacuated due to flooding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

The Sacramento River supports important agricultural areas and critical 
wildlife habitat. (c) Jeff Fricker
                       emiquon preserve, illinois
Project Type: Flood and/or Erosion Risk Reduction
    The Nature Conservancy restored 5,900 acres of functional 
floodplain wetlands and five river miles along the Illinois River in 
Fulton County, Illinois.
    Included in this restoration was, in consultation with the U.S. 
Army Corps of Engineers, the installation of a state-of-the-art flood 
control structure.
    The final result of this restoration connected floodplain to the 
7,000 acres of adjacent Chautauqua National Wildlife Refuge lands, 
resulting in 14,000 acres of contiguous conservation lands, providing 
flood control, environmental restoration, and public access to wildlife 
and waterfowl habitat.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

The Nature Conservancy uses its Emiquon Preserve to demonstrate and 
measure the benefits of restored floodplains and wetlands. (c) 
Christina Rutter

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Water control structure at Emiquon preserve.
              south cape may meadows preserve, new jersey
Project Type: Flood and/or Erosion Risk Reduction
    In partnership with the U.S. Army Corps of Engineers and the State 
of New Jersey, the Conservancy undertook a $15 million restoration 
project that combined natural features like dunes and wetlands with 
levees and other engineered structures to control water.
    Completed in 2004, the restored preserve has since withstood a 
series of severe storms, including Irene in 2011 and Sandy in 2012.
    Storm waves didn't breach the dunes, wetlands remained intact, and 
the preserve helped protect neighboring communities, which experienced 
only minor flooding unlike similar towns up and down the coast.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

The Nature Conservancy has helped restore over 630 acres of coastal 
dunes, which can help protect communities from storms. (c) Harold E. 
Malde
                 whittenton dam, taunton, massachusetts
Project Type: Flood and/or Erosion Risk Reduction
    In Massachusetts alone, there are close to 3,000 dams; many of them 
are relics of bygone uses.
    The Whittenton Pond Dam was in disrepair, and heavy rains in 2005 
brought the threat of a catastrophic breach and flooding of downtown 
Taunton, which was evacuated for a week as the dam appeared on the 
verge of failure.
    Removing the dam was less expensive than repairing it, with 
rebuilding cost estimated to be $1.9 million and removal cost of 
$447,000.
    The dam's removal in 2013 opened 30 miles of river habitat to 
vulnerable fish species, avoided $1.5 million in emergency response 
cost, increased numbers of two vulnerable species (American eel and 
river herring), and increased property values due to the lower flooding 
risk.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Whittenton Mills dam, damaged during 2005 storm. photo credit: MA 
Division of Ecological Restoration
                   ausable river watershed, new york
Project Type: Flood and/or Erosion Risk Reduction
    Undersized stream crossings are prone to damage from high flow 
events and require more frequent maintenance and replacement. During 
major storms, undersized culverts block water, clog with debris and 
worsen flood impacts, requiring expensive repairs to the culverts, 
nearby roads, and private property. When roads shut down due to this 
damage, it creates lengthy detours, often affecting access to local 
businesses. Poorly designed and installed culverts also block fish and 
wildlife movement and impact habitat for economically important 
fisheries.
    In August 2011, Tropical Storm Irene brought significant rainfall 
to much of New England and eastern New York, resulting in unprecedented 
flood damage to infrastructure.
    The Conservancy secured private and government grant funding to 
replace and retrofit high ecological priority, flood-vulnerable 
culverts in New England and in upstate New York. To date, The 
Conservancy has worked with government and non-profit partners to 
complete three culvert replacements and two culvert retrofit projects 
in the Ausable River Watershed in the Adirondacks. These projects 
connect over 65 miles of previously fragmented fish habitat, mitigate 
future flood damage, improve safety on vital local road networks, and 
reduce maintenance costs for communities. The culvert upgrades prevent 
future road damage that occurs when undersized culverts blow out during 
floods.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Roaring Brook culvert prior to replacement. At lower flows this culvert 
outlet was perched above the water surface, creating a barrier to the 
movement of fish. The stream was constricted by the pipes' combined 
span of 12 feet, which caused debris buildup and localized flooding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Roaring Brook culvert replacement: With a width of 35 feet, the new 
culvert--an open-bottom concrete box with a natural streambed--allows 
the stream to pass freely underneath, opening six miles of upstream 
habitat for fish and designed to withstand high water flows.
                        upper mississippi river
Project Type: Flood and/or Erosion Risk Reduction
    In cooperation with a diverse group of Upper Mississippi River 
(UMR) stakeholders, The Nature Conservancy is working to garner Federal 
appropriations for a dual-purpose program called the Navigation and 
Ecosystem Sustainability Program (NESP). As the name implies, this 
program is a measured plan to create a sustainable navigation system 
with strategic improvements at 7 of 37 locks and other small-scale 
efficiency measures. Safe and efficient movement of traffic would be 
renewed on the navigation system, which was constructed almost 80 years 
ago and is now facing continual rehabilitation to maintain. At the same 
time, comparable funding for ecosystem restoration on the UMR will 
afford the opportunity to use additional techniques for river 
restoration such as reconnecting 35,000 acres of river floodplain; 
providing native fish passage; regenerating floodplain forests; and 
managing water levels closer to historic conditions to replicate more 
natural seasonal conditions.
    These new techniques, along with well-established river enhancement 
measures to revitalize river channels, backwaters and floodplain 
habitats are estimated to restore 40 percent of degraded UMR ecosystem. 
A higher-functioning ecosystem provides human and natural services 
through increased nutrient processing, flood storage capacity, 
groundwater infiltration, cleaner water, and improved fish and wildlife 
habitat.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Lock extensions from 600' to 1200' will increase efficiency at the 7 
lock improvement sites by eliminating the need double locking (as shown 
in picture) which is standard practice at all but two locks on the 37 
lock system of the UMR. Disintegrating concrete and mechanical systems 
will be rehabilitated or replaced as the lock in lengthened.
                     howard beach, queens, new york
Project Type: Flood and/or Erosion Risk Reduction
    In the wake of Hurricane Sandy, The Nature Conservancy undertook a 
project evaluating the role of nature and nature-based infrastructure 
in protecting communities from some of the impacts of climate change. 
The community of Howard Beach, Queens, was selected as a case study for 
the project because this neighborhood, hit hard during Sandy, is low-
lying and densely populated. Although Howard Beach was used in the 
analysis, the study methodology is applicable to coastal communities 
across New York City and around the globe.
    Experts analyzed several infrastructure alternatives, ranging from 
purely nature-based solutions to one consisting of only gray defenses. 
The study found that combining natural and gray defenses holds the most 
benefits. Analysis shows that a hybrid alternative could result in 
avoided losses in this one neighborhood of up to $244 million from the 
current 1-in-100-year storm event.
    The best conceptual alternative and most cost-effective, according 
to the study, utilizes restored marsh habitat on the coast, hard toe 
mussel beds along the shoreline, floodgates and sea walls to protect 
against storm surge and rising sea levels and rock groins on the 
shoreline to help prevent erosion.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Infographic of design alternatives studies.
                   rio grande water fund, new mexico
Project Type: Flood and/or Erosion Risk Reduction
    The Rio Grande Water Fund is a ground-breaking project that is 
engaging private and public partners in proactively protecting vital 
watersheds in northern New Mexico.
    Frequent, high-severity wildfires and subsequent post-fire flooding 
increasingly threaten the Rio Grande's water security and cause 
extensive soil erosion that degrade water quality for communities 
downstream. Restoring overgrown forests is a proven solution to make 
forests safer and healthier, and such efforts were already underway at 
a small scale before the devastating Las Conchas fire blazed in 2011. 
This fire demonstrated that the pace and scale of these treatments was 
insufficient to guarantee water security for Albuquerque and irrigated 
agricultural lands. The Rio Grande Water Fund works to generate 
sustainable funding for a 20-year, large-scale program to restore the 
health of the forest and watershed with treatments that include 
thinning overgrown forests, restoring streams and rehabilitating areas 
that flood after wildfires.
    This approach makes good economic sense over the long-term. A 
recent study estimated the cost of damages from wildfires 2009 to 2012 
in New Mexico was $15 billion. In contrast, the Rio Grande Water Fund 
estimates a total cost of $420 million over 20 years to accelerate the 
pace and scale of forest treatments and restoration. Preserving and 
restoring these forests will help ensure the sustainability of New 
Mexico's water supply and increase social and economic benefits for 
local communities.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Wetlands at Valles Caldera National Preserve. The Rio Grande Water Fund 
engages private and public partners in protecting vital watersheds in 
northern New Mexico. Photo credit: (c) Alan W. Eckert for The Nature 
Conservancy
                           detroit, michigan
Project Type: Water quality and flood risk reduction with stormwater 
        management
    Like many aging cities, Detroit faces water infrastructure 
challenges. The city's sewer system is combined to collect rainwater 
runoff, domestic sewage, and industrial wastewater in the same pipes. 
Heavy rain events overwhelm the system's capacity, creating raw sewage 
overflows that flood basements and overflow into rivers and ultimately 
the Great Lakes.
    Under the Clean Water Act, the city is required to completely 
eliminate all combined sewer overflow (CSO) discharges, yet the costs 
of implementing traditional ``gray'' infrastructure are only 
increasing, with current estimates at $1.2 billion. To help reduce or 
offset these costs, The Nature Conservancy is working with the city to 
incorporate green infrastructure, a form of natural infrastructure used 
in cities. The design uses green space and natural plant material to 
absorb, retain, and slow stormwater runoff, reducing the amount of 
water entering the storage facility for treatment, reducing CSO's, and 
decreasing surface flooding. This, in turn, should lead to improved 
water quality in adjacent rivers and lakes, as well as attractive green 
spaces that contribute to neighborhood revitalization by offering 
recreational areas and beautification opportunities.
    The Conservancy has also provided technical assistance to develop 
policies that have helped finance and encourage green infrastructure 
solutions within Detroit. These policies have enabled economic markets 
and private investment in support of public amenities in new innovative 
ways.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Local flooding in Detroit, the result of aging infrastructure and heavy 
rain. Photo credit: Michael David-Lorne Jordan/David-Lorne Photographic
                          louisville, kentucky
Project Type: Water quality and flood risk reduction with stormwater 
        management
    The Nature Conservancy is working with partners to conduct a 
rigorous evaluation of the link between urban vegetation/greenspace and 
cardiovascular disease. The goal is to foster the development of public 
health policy that incentivizes using increased tree canopy and other 
forms of nature to achieve better health outcomes.
    The desire is to quantify avoided healthcare costs as a way to 
identify and create a funding stream for large-scale and sustained 
urban tree and other vegetation plantings.
    The aim is to create a replicable model for neighborhood greening 
that other cities and developing countries can adopt. The project hopes 
to provide more scientific evidence of the value of nature to people.
    The Conservancy plans to manage about $8 million in greening 
interventions, with planting beginning in 2017 and continuing for a 
couple of years.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Louisville's heat island has been steadily worsening over the decades, 
especially in low-income neighborhoods, where temperatures can be 20 
degrees higher than surrounding areas.
                             washington, dc
Project Type: Water quality and flood risk reduction with stormwater 
        management
    To mitigate stormwater runoff, Washington D.C. instituted a first-
of-its-kind Stormwater Retention Credit (SRC) market. The market 
reduces the impact of stormwater runoff--the largest growing source of 
pollution to the Chesapeake Bay watershed and the fastest growing 
source of urban water pollution globally. It allows land-constrained 
developers to meet a portion of their stormwater retention requirements 
by purchasing SRCs. Credits are generated by stormwater retention 
projects elsewhere in the city, including green infrastructure 
projects. Investments in green infrastructure for stormwater retention 
can bring income to landowners and provide valuable co-benefits, 
including expanded green space, reduced localized flooding, increased 
flexibility and onsite revenue options for developers, and jobs to 
build and maintain green infrastructure sites. Offsite credit projects 
create opportunities for infrastructure investments in underserved 
communities.
    The Nature Conservancy's NatureVest is partnering with Encourage 
Capital to establish and capitalize District Stormwater, LLC. (DS), 
which will finance and develop SRC-generating projects. DS will work 
with landowners and community groups to site credit-generating projects 
in parts of the District that would most benefit from green 
infrastructure, while creating liquid, cost-competitive credits for 
sale in the SRC market. DS anticipates mitigating 500,000 gallons of 
runoff annually. This will protect fragile ecosystems, such as the 
Chesapeake Bay, that are too often overrun by polluted stormwater that 
can contain raw sewage; provide infrastructure services to underserved 
communities through increased green space and the reduction of 
localized flooding; and inspire new conservation-minded people as they 
see the benefits of green infrastructure in their communities.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Example of a stormwater retention project
                         long island, new york
Project Type: Water quality protection
    In what started with the conservation of 11,000 acres of 
bottomlands in the Great South Bay in 2002, followed by hard clam 
restoration efforts in collaboration with local, State and Federal 
resource managers and stakeholders, The Nature Conservancy has embarked 
on a major campaign to improve water quality on Long Island.
    After shellfish restoration efforts did not perform as expected, 
research was conducted and a group of scientists discovered that 
nitrogen pollution from wastewater was contaminating Long Island's 
groundwater and bays at a level high enough that marine life could not 
thrive. Since that time the situation has worsened and fish kills and 
toxic algae blooms have become more frequent.
    The Nature Conservancy and partners are currently working with 
local, State and Federal agencies as well as stakeholders to upgrade 
municipal wastewater infrastructure and onsite wastewater systems from 
outdated cesspools and septic systems to technology that will remove 
nitrogen pollution and improve water quality. This will secure the 
region's fishing and tourism industries into the future, restore tidal 
marshes that enhance community resilience to storm impacts, and protect 
public health.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Photo: Kenton Rowe, TNC

    Mr. Larsen. Thank you very much. Thank you. I wanted to 
yield to myself for 5 minutes and I am going to try to get a 
question in for each of you. I want to start with Mr. DeGood.
    In your testimony, you discuss a dramatic departure from 
the status quo, and a lot of what we talk about is funding. Are 
you suggesting that we kind of turn over or start over on the 
Highway Trust Fund and the Airway Trust Fund and the Inland 
Waterways Trust Fund in order to create funding mechanisms? 
What do you mean? What is the departure from the status quo?
    Mr. DeGood. I think that the basic structure of those 
programs is OK. I don't think it is really the need for the 
Federal Government to make a higher percentage of project 
selection decisions, necessarily. What I do think the Federal 
Government has to do is set very clear and very aggressive 
targets and then distribute those greenhouse gas reduction 
targets to States and metropolitan regions based on the share 
of VMT or air travel or marine travel that they may be 
responsible for. And so allowing the sort of strength of 
federalism to do what it does best, which is have people make 
decisions that fit their local needs but be very clear on what 
the responsibilities are moving forward.
    Mr. Larsen. I think I understand your comment about it 
being a break from the status quo and getting States and 
localities to go along with that may be difficult. But I 
appreciate you bringing it up.
    Mr. Proctor, I am not going to ask you to go back 200 years 
in the history of your company to talk about how infrastructure 
has changed or technology has changed or your workforce has 
changed. But perhaps in the last 10 to 15 years how it has 
changed, because you talk about training a 21st-century 
workforce. What does your workforce--how does it need to be 
different today than it was even 10 years ago in looking at the 
future of waterworks?
    Mr. Proctor. Well, on the manufacturing side, it is 
dramatically different. The techniques we use to manufacture 
our products include robotics. Most of the melting systems are 
computer controlled. Even the finishing systems are 21st-
century type equipment. And so a skilled workforce is essential 
to the success of our manufacturing operations.
    But in terms of how people use our products, if you look at 
water infrastructure, for example, the trillion-dollar number 
that you hear people knock around about how much we need to 
invest in water, that is really just to restore our 
infrastructure back to the condition it was in when it was 
originally built. But we have opportunities today to make our 
water infrastructure smarter. Wireless remote sensoring, 
monitoring, leak detection, all those sorts of mechanisms. And 
to do that, it requires that the utilities that are going to 
operate these sort of systems have the sort of skills and 
technological expertise that it takes to run them.
    Mr. Larsen. Thanks. I would love to expand on that but I do 
want to move on. And I imagine that we will expand on it.
    Mr. Saumweber, on resiliency standards for port 
infrastructure, is there a broad difference from port to port 
in this country on how they deal with infrastructure and 
resilience?
    Mr. Saumweber. I think a lot of the needs are really 
determined by the local situation and what the existing 
networks are for a given port. So it is highly variable from 
port to port.
    Mr. Larsen. But you note in your testimony, I guess you 
imply that that is a problem?
    Mr. Saumweber. I think the point is that we need to have a 
national assessment of risk based on the specifics around each 
port's location, its physical nature and its value to the 
broader regional infrastructure.
    Mr. Larsen. OK, all right.
    Ms. Scarlett, the issue of natural infrastructure is 
important in my district and my State. We are doing a lot of 
restoration, habitat restoration. One of the challenges that we 
have with habitat restoration, if you just look at Leque 
Island, L-e-q-u-e for the clerk, Leque Island, the number of 
different sources of funding in order to do that restoration 
has made it a longer project than many want. But it is also 
going to function in terms of resiliency for not just a habitat 
but for the surrounding area.
    Has your organization given thought to funding mechanisms 
or breaking down stovepipes among funding mechanisms?
    Ms. Scarlett. Yes, we have given a lot of thought to 
funding mechanisms, both public and public-private. I want to 
mention one. We have actually been working with the insurance 
industry to model the effectiveness of natural infrastructure 
in risk reduction. And not in the U.S. yet but there is 
potential here. In Mexico, we have actually worked on creation 
of a bed tax across a tourist district and deploying the bed 
tax to support reef restoration and reef protection as well as 
invest in an insurance fund to insure the reef. It is very 
innovative. It has potential in the U.S.
    But we are looking at other things, such as teaming up, for 
example, with water districts and where nature's solutions can 
actually better handle wastewater, for example, or water 
supplies, and use ratepayer fees to invest. So there are a 
variety of sources, depending on the circumstance.
    Mr. Larsen. Thank you. I yield to Mr. Graves.
    Oh, sorry, I yield to Mr. Palmer for 5 minutes.
    Mr. Palmer. I thank the chairman.
    You mentioned the high-intensity storms, Ms. Scarlett, and 
I appreciate you being here. How many ``Gone with the Wind'' 
jokes do you get with that name? But you mentioned the high-
intensity storms. And we have had some. But when you look at 
the high-intensity storms over the years, particularly the 
hurricanes, five of them occurred before 1960, one of them was 
1961. There have only been two since the 2000s, 2004 and 2005. 
And I think when you start looking at the flooding issues, it 
has a lot to do with runoff issues in urban areas, you know, 
the paved surfaces, the construction in flood zones and the 
failure to do flood mitigation.
    For instance, in the 2016 Louisiana flood, the damages were 
somewhere between $10 and $15 billion, there were a number of 
lives lost. The Army Corps of Engineers had studied a diversion 
for years, the Comite River over to the Lilly Bayou, and didn't 
do it. And as a result, you had a 100-year, 1,000-year flood 
with catastrophic consequences. And I am happy to report, 
largely because of the work of my colleague, Garret Graves, 
that they are now going to do that diversion, so I just want to 
point that out.
    I do appreciate all the witnesses being here, and 
particularly one of my constituents, Mr. Proctor, I appreciate 
you being here. I wanted to ask you a question about how does 
disaster preparedness relate to water infrastructure? As I have 
just pointed out, there was an opportunity, years in advance of 
the Louisiana flood, to mitigate that. Can you talk about that 
a little bit?
    Mr. Proctor. Yes, sir. Well, water is one of the most 
essential services that is needed to combat or deal with a 
disaster. For example, fire losses are the most significant 
losses that occur. In an earthquake, it is second only to the 
damage that occurs because the ground is moving, buildings 
fall, that sort of thing.
    If you do not have water service, sprinkler systems do not 
work, hydrants do not work, the firefighters cannot put those 
fires out. So it is critical to make sure that you can maintain 
your water service during an earthquake event or in the 
aftermath.
    Another area where it becomes important is floods. In an 
earthquake, the soil tends to liquify and that is what puts 
underground infrastructure at risk. When you have a flood, you 
can have the same sort of thing happen, where the soils become 
saturated and the ground starts to move. And it results in 
telescoping of pipelines and sometimes they pull apart, or 
actual destruction of the lines if they are put under stress.
    And then finally, underground infrastructure can be at risk 
in a wildfire. Santa Rosa, California, is a good example of 
what happens when the water infrastructure can melt or 
otherwise suffer damage because of the intense temperatures 
that occur during wildfires. So it is important to do things to 
maintain the resiliency of those systems for those reasons.
    Some things that can be done to do that, number one, make 
certain in the design of the systems you use the most durable 
materials possible. In the Kobe earthquake, for example, steel 
and iron pipe failed at a rate of one-third of other materials.
    Mr. Palmer. Let me ask you about that. Because in a prior 
life, I worked for two international engineering companies. We 
did work all around the world, really, but particularly here in 
the United States. And when we would do work in California, we 
had specifications that we had to design to to mitigate against 
an earthquake.
    How do you do that in water systems? Because when the earth 
is moving, that--obviously, it has an impact on surface 
structures but subsurface? Can you talk a little bit about the 
design criteria now and the materials that you are using that 
would mitigate against the loss of water?
    Mr. Proctor. Well, two things. Number one, using more 
durable materials means that your infrastructure is better able 
to sustain those stresses. But the other thing is there are new 
earthquake seismic joints that allow pipelines to bend and flex 
and telescope and contract when the earth is moving around it. 
And those joints can also be used in flood situations like I 
talked about a second ago.
    A demonstration of the efficacy of those joints is that, 
again, during the Kobe earthquake, not a single ductile iron 
pipeline failed that had one of these earthquake joints; 
whereas, other nonrestrained systems that did not have that 
sort of flexibility, there were very much higher rates of 
failure.
    Mr. Palmer. I thank the gentleman for his answer. My time 
has expired. Mr. Chairman, I yield back.
    Mr. Larsen. Thank you. The representative from Illinois, 
Mr. Garcia, for 5 minutes.
    Mr. Garcia. Thank you, Chairman.
    To Mr. DeGood, during the first panel, we heard from more 
than one witness who mentioned that infrastructure investment 
and consequently the effects of climate change have 
historically fallen disproportionately on low-income and 
minority communities. You raised that point in your testimony.
    Why is this? And does solving this issue fall on the 
Federal, State or local government?
    Mr. DeGood. I think it is important to recognize that, for 
the most part, State and local governments are the ones who are 
making project selection decisions and acting as the project 
sponsor. So for the most part, the Federal Government acts as a 
fairly passive funder or cofunder. You know, and I mentioned in 
my testimony the importance of public participation in the 
planning process and I cannot stress that enough. You know, 
there have been calls at times to try to limit the scope of 
environmental review, to put artificial deadlines on how long 
it can take for projects to go through that process, and I 
think that that is the wrong way to go about it.
    What we have seen when we have done these lookbacks is 
that, with a little bit more thought on the front end, we can 
reduce the level of impact both on natural environments as well 
as our local communities. And I think the underlying challenge 
is that when many of these project decisions were made in the 
1960s and 1970s, we just had a political system that didn't 
particularly care so much what communities of color had to say.
    And I think it is about empowerment and making sure that 
people have a seat at the table.
    Mr. Garcia. And what can we do to make sure that it does 
not reoccur again if, in fact, we have learned lessons about 
climate change and begin to change course in how we address it?
    Mr. DeGood. I think that is a good question. I think it 
really comes back to making sure that elected officials are 
held accountable and that planners are held accountable for 
making sure that people have had a chance to have their voice 
heard during the project planning phase.
    Mr. Garcia. Another question on natural infrastructure. Can 
you provide some examples of how we can save money by utilizing 
natural infrastructure over investing further in man-made 
structures?
    Mr. DeGood. You know, I think the witness down at the end 
probably has more to say about that. Thank you.
    Ms. Scarlett. Yes, there are all kinds of natural 
infrastructure. But I will mention one where there are clear 
cost savings, and that is with stormwater management and 
addressed combined sewerage overflow problems in cities. And 
Philadelphia pioneered use of natural infrastructure and at a 
fraction of the cost of what it would have taken to, for 
example, dig under the streets, build bigger pipes and tunnels 
and so forth.
    We are seeing that in Detroit. The Nature Conservancy is 
involved in a partnership there. In Los Angeles, here in 
Washington, DC. So that is one example where there are very 
clear cost efficiencies with use of natural infrastructure.
    In other cases, on coastal resilience, we have done a look 
at natural infrastructure, at traditional infrastructure and 
then at hybrids and find sometimes that the hybrid comes in 
most cost effective.
    Mr. Garcia. Thank you. And for Mr. Proctor, how do we 
create a well-coordinated, well-funded effort to educate the 
public on the importance of investment in our infrastructure? 
And the second question is, what efforts are we making here at 
the national level to drive public support to build public 
support for investments in infrastructure that is needed? And, 
of course, mindful of the fact that there will be opportunities 
for public-private collaboration and partnerships, given that 
you come from the private sector.
    Mr. Proctor. Well, unfortunately, the water sector 
traditionally has been sort of out of sight, out of mind. When 
a constituent hits a pothole in a road, elected officials or 
operators hear about it. When the water system is deteriorating 
and water is leaking out into the ground, people don't know 
about it and so it doesn't get the same degree of attention.
    One of the ways that we could educate the public so that 
the issues become more prominent would be to first of all 
ensure that all of our utilities know what the full cost of 
their operations are, including the cost associated with losing 
30 percent of the water that goes into our pipelines. Less than 
one-third of the utilities in the country have that 
appreciation of their full cost.
    Once the utilities know those costs, and one of the ways to 
do that, as I mentioned earlier in my testimony, is through 
doing water leak audits. Once we know what those full costs 
are, then we need to have a level of transparency that ensures 
that the public is aware of the extent of the loss that is 
going on and the extent of the true cost of providing the water 
service that many of us take for granted.
    Mr. Garcia. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Larsen. Thank you, Representative Garcia. Just to note, 
you don't need to be a big city. The city of Everett has 
combined 100,000 people and they are doing neighborhood 
retrofits with natural landscaping as well to deal with the CSO 
issues. And the conservation district works with Veterans 
Conservation Corps in the city of Lynnwood to do some things 
that are very similar, as well. So it can happen locally.
    It looks like we have Mr. Rouda for 5 minutes.
    Mr. Rouda. Thank you, Mr. Chairman.
    Hi, I'm Harley Rouda from Orange County, California. And 
last week, I introduced House bill 3317, the Coastal 
Communities Adaptation Act. We are aimed at helping coastal 
cities and towns brace themselves for climate change-related 
events and the bill would make Federal funds available for 
communities to help address that.
    Ms. Scarlett, the question I wanted to ask you in that 
regard, since you have a focus in this area and I really 
appreciate the story you shared earlier with Seattle, but my 
guess is we can talk about hundreds of opportunities, thousands 
of opportunities, across the U.S. in finding natural ways to 
address this.
    Two questions there. One, how do you drive the narrative, 
the dialogue, with the decisionmakers to look at alternative 
options to man-made outcomes? And second, how would some sort 
of economic incentives from the Federal Government help that 
process along?
    Ms. Scarlett. First, with respect to motivating 
decisionmakers to consider these options, we are a significant 
science-based organization. And one thing we find with 
decisionmakers is the first question of, well, does it work? 
And so we have invested a lot of research into the actual 
functionality, for example, of coastal resilience. In fact, we 
worked with California to look at coastal resilience across the 
whole coast of that State. So one issue is providing the 
information.
    But the other is the messenger matters. So we have teamed 
up with the Association of General Contractors, with stormwater 
managers, with coastal beach managers, those whose role it is 
to provide that resilience and risk reduction, schooled them in 
these opportunities and then they become the voice. And that, 
we find, is a good pathway to influencing decisionmakers.
    Mr. Rouda. And so the second piece of that, because I think 
you mentioned in the Seattle example, that you brought that 
project in at 25 percent less than what traditional problem-
solving would have created. That is not always the case. So 
economic incentives can help bridge the gap for some 
municipalities to make the right decision or the best decision; 
is that correct?
    Ms. Scarlett. Yeah, I think there are two ways to look at 
that. On the one hand, not always cheaper and therefore 
economic incentives can help and we applaud anything Congress 
can do to amplify and support investments in natural 
infrastructure.
    The other thing, though, as we've worked with the Army 
Corps of Engineers, is to actually broaden how we think about 
benefits. So, for example, coastal resilience infrastructure 
often not only yields risk reduction but improved fisheries and 
other economic benefits. If you look at the full picture, often 
you come out with a very positive economic outcome.
    Mr. Rouda. Thank you. And then, Mr. Proctor, and then for 
the--for all of you as well, we have a lot of discussion about 
the public-private partnership opportunities. And I think it is 
safe to say there are certain infrastructure projects that do 
not rise to a private-public opportunity, that it is really the 
Government's job to address that. Can you talk a little bit 
about where the cutoff point is or where are those 
opportunities that can be public-private and those that 
definitely need to be sitting in the public hands?
    Mr. Proctor. As a member of the private sector, I would 
like to think that there is nothing the private sector cannot 
do. But let me say this about P3s. A lot of people, when they 
think of P3s, they instantly think that you are talking about 
either consolidation or privatization. That is not necessarily 
the case. In fact, it is really the exception.
    There are opportunities for public-to-public partnerships 
that can help small utilities, for example, partner with larger 
utilities to acquire the level of expertise that they need to 
have to be able to do things like deploy new technology or 
better operate their systems or comply with regulations or what 
have you. So there are a lot of partner opportunities out there 
that do not get a lot of attention but they could be important 
in helping small utilities meet some of the challenges that 
they have.
    Also, when you talk about partnerships, there is a whole 
spectrum of different forms that can take. It can be something 
as significant, certainly, as consolidation. But it can also be 
something that is much less intrusive like, for example, a 
simple cogeneration contract with a private partner. Or it 
could just be a concession agreement or maybe a savings 
agreement where, if a private partner comes in and installs 
technology that could reduce a utility's cost, then the private 
partner shares in some of those savings but guarantees a 
certain level of savings back to those utilities so that they 
are certain to receive some of the benefits. But there are a 
lot of options there that are not fully exploited.
    Mr. Rouda. Thank you. Thank you, Mr. Chairman.
    Mrs. Napolitano [presiding]. I recognize myself for 5 
minutes. I was at the end of the line.
    Ms. Scarlett, I read some of your information and I was 
looking at your urban work on page 4. It had the planting of 
the trees. And that was a long time ago, you started going 
after planting more trees. And yet we don't hear any more about 
it. What happened?
    Ms. Scarlett. Well, the good news is that we're seeing 
again a renewed effort to expand tree canopy where you plant 
trees. But, you know, we have had a--with respect to tree 
canopy in cities, there have been a view sometimes that 
maintenance costs and so on and so forth are costly and we 
began to see, actually, a loss of trees, a significant loss of 
trees in cities. That is beginning to change course and we are 
very supportive of that.
    Mrs. Napolitano. Great. Now you also mentioned, somebody, 
that the Army Corps of Engineers has been engineering with 
nature. I chair the Water Resources and Environment 
Subcommittee on this committee and I have not heard about it so 
I have to ask about that. Could you kindly touch on that?
    Ms. Scarlett. Yes, so there are--I do not want to give the 
impression that the entire Army Corps of Engineers is rabidly 
focused on natural infrastructure.
    Mrs. Napolitano. It takes them a long time to pick up, let 
me tell you.
    Ms. Scarlett. But there is a growing interest in natural 
infrastructure because they, too, recognize the benefits and 
cost effectiveness.
    Mrs. Napolitano. Does it have to be a change in language 
for them to accept it and do the work?
    Ms. Scarlett. The big challenge for them, we got some 
language in the Water Resources Development Act 2016 and 2018 
that stuck in a few little words on natural infrastructure. 
There is still another issue that would be very helpful for 
Congress to address and that is, when they do their cost-
benefit analysis, they are still required really to look at 
just one use and one benefit. So, for example, flood risk 
reduction. If they were able to look at multiple benefits, then 
the cost-benefit analysis would play out potentially 
differently and we think that would be helpful.
    Mrs. Napolitano. I agree with you.
    Today, there was a hearing in the Committee on Natural 
Resources on climate change. But one of the witnesses was 
giving misleading information, saying that the drought was 
over, that the reservoirs and the rivers were full. And I think 
that is very misleading because no way are they anywhere near 
full.
    Ms. Scarlett. Maybe our water infrastructure person would 
speak to that.
    When you look at the effects of a changing climate, one of 
the significant impacts is, in fact, changes in precipitation 
pattern and the expected length, lengthening of chronic 
drought. So we do see, depending upon place to place to place, 
extensive drought. Look at Australia right now, but certainly 
parts of California, that is correct. There are other places 
that get heavy rainfall.
    Mrs. Napolitano. Thank you. One of the questions I will ask 
again of this panel, I asked in the last one, public education 
and public training of the workforce that you need to replace 
your aging workforce? Anybody?
    Mr. DeGood. Yes, I completely agree. The Center for 
American Progress has pushed hard for the notion that we need 
to twin any conversation about robust national infrastructure 
investment with a conversation about workforce development. And 
I think it is long overdue. I am glad you brought it up.
    Mrs. Napolitano. But you talk to education institutions 
about the need of that type of training?
    Mr. DeGood. Yes, and I think it depends sort of how broadly 
we want to try to define infrastructure. Obviously, each sector 
is going to have its own unique needs and its unique 
challenges. And I think that it is incumbent that we have this 
workforce conversation in parallel with figuring out what 
specific facilities we think we need to build.
    Mrs. Napolitano. Anybody else?
    Mr. Saumweber. I would just add that a slightly related 
topic is the issue of boundaries between science, communication 
and policymakers and enhancing the ability of folks on both 
sides of that divide to be able to speak to each other. So 
facilitating better input of science and new science around 
climate and around resilience issues into policy discussions 
and vice versa. And that is something that I have worked on in 
the past quite extensively with a number of boundary 
organizations and is something that is of great need.
    Mrs. Napolitano. But it is also in language that the public 
can understand, or most.
    Mr. Saumweber. Absolutely, 100 percent agree. Yes.
    Mrs. Napolitano. All right, sir. I yield myself back. Mr. 
Stanton.
    Mr. Stanton. I am here, thank you very much. I appreciate 
it. We were at another long hearing so I apologize for being 
late, but this is critically important work so I appreciate the 
panelists for being very patient.
    Before I was lucky enough be elected to Congress, I served 
as mayor of Phoenix, Arizona, one of the largest cities in 
America, and I would politely argue the climate change issues 
facing our city are as dramatic as anywhere else in the 
country. So much of the attention is on the coastal 
communities, and should have a lot of attention on the coastal 
communities. But extreme heat and drought in Arizona and in 
Phoenix are incredibly difficult issues that we are dealing 
with. So I wanted to talk a little bit in that context.
    Ms. Scarlett, we are working, in the city of Phoenix, 
working very closely with The Nature Conservancy on river 
management in our community. City of Phoenix is investing local 
tax dollars, not just on infrastructure in our city but 
actually investing in river management outside of our city, in 
some cases hours outside of our city. Because the quality of 
the rivers and the quality of the water that we receive are one 
and the same. We are also investing in forest management. The 
city of Phoenix is working with a lot of nonprofit entities to 
make sure that we have the strongest forest system possible 
because that also impacts the quality of our water.
    And I want to talk a little bit about, as we make important 
infrastructure decisions here on this committee, and we are 
going to because it is so critically important that we do an 
infrastructure bill for America, the movement of water, the 
efficient movement of water, particularly from sources of water 
that may be stronger than other areas. In Arizona, obviously, 
Colorado River is a diminishing resource. Tragically and sadly, 
we have to deal with it. Moving water from other entities that 
may be in a stronger water position is a critically important 
infrastructure item.
    And maybe, I do not know if you are in a position to talk a 
little bit about that as water management, water movement, as a 
part of any larger infrastructure bill? Or any of the 
panelists, please.
    Ms. Scarlett. Yes, I can speak to that. Thank you very 
much, both for the partnership with The Nature Conservancy and 
your broadening to recognize the connectivity between cities 
and the surrounding countryside.
    You know, The Nature Conservancy has a big emphasis on what 
we call water funds, which is precisely to work with cities to 
recognize a lot of their water sourcing comes not from the city 
itself but from outside. And so in a number of cities, 
Albuquerque, Santa Fe, elsewhere, we are working with cities to 
take their water district funding and actually invest in 
watershed restoration. Two benefits, improved water quality and 
less sedimentation. But also a lot of that work is fuels 
treatment; that is, improving forest health to reduce risk of 
catastrophic wildland fire.
    But in places like Phoenix, we are also doing a lot of work 
on things like groundwater recharge, water banking, so that you 
have better sort of storage of water in a natural way to then 
be better positioned to withstand changes in water 
availability. So there are a lot of different tools. We think 
you need them all.
    Mr. Stanton. I appreciate that very much. Because again, I 
am going to certainly be an advocate for thinking about water 
and water planning and movement of water, efficient movement of 
water as one of the critically important infrastructure 
investments that we are likely to make.
    The other thing I was lucky enough to do as mayor was pass 
a significant public transportation infrastructure initiative, 
a 35-year, $32 billion plan that supported much improved bus 
transportation, new investments in light rail, 60 miles of 
light rail, bikeability, walkability, et cetera.
    The next question is for Mr. DeGood. I apologize if it has 
already been asked before. For those of us who have worked so 
passionately on these issues, it seems obvious. But I want the 
people watching at home, and I will be able to report back to 
the people that I represent, why is public transportation 
infrastructure investment so critically related to the issue of 
climate change and fighting climate change?
    Mr. DeGood. Well, first and foremost, too many Americans 
simply do not have access to other options beyond driving. So 
whether or not they are trying to go across country or whether 
or not they are trying to go one-quarter mile away to pick up 
some groceries for that week, they have to drive. And so part 
of what you were able to do as mayor was to set that city on a 
different trajectory to where you can now plan to have growth 
around those facilities so that people do not always have to 
drive to satisfy their daily needs.
    And we also know, of course, that when you have access to 
options, your total annual emissions will drop, your total 
transportation-related emissions will drop. And that is also 
critical.
    Mr. Stanton. Other strategic investments made, obviously 
solar, moving our entire fleet to alternative fuel vehicles, 
and changing streetlights to LED. Little things but these are 
important infrastructure investments where the Federal 
Government has not been most recently but needs to be a better 
partner to local government.
    Thanks for your testimony. I will yield back the time.
    Mrs. Napolitano. Thank you. Ms. Miller, you are next.
    Mrs. Miller. Thank you, Madam Chair.
    Thank you all for being here today for a long time. As you 
all have heard, I understand the importance of being good 
stewards of our environment. My home State of West Virginia is 
abundant in natural resources, which provide critical jobs, and 
is the cornerstone of our State's economy. Furthermore, the 
companies who mine the land in my State certainly understand 
the importance of caring for the environment, protecting the 
delicate ecosystem, providing clean water and improving the 
infrastructure in the State. Considering these critical aspects 
in total is absolutely necessary for ensuring the longevity of 
the land and these precious resources.
    That is why I am worried about broad, sweeping and 
dangerous proposals such as the Green New Deal. Such proposals 
seek a misguided, one-size-fits-all approach that poses an 
imminent threat to the economy of my State, critical jobs for 
my constituents and the lifeblood of West Virginia. The intent 
of the Green New Deal is to completely halt natural energy 
production, stop the use of air travel and cars, and end cattle 
farming. This is just a rebranded war on coal, oil and gas.
    Coal, oil and gas production is at its most efficient. In 
West Virginia, nearly 30,000 people work in the energy industry 
and 93 percent of our electricity comes from coal. Plans like 
the Green New Deal would certainly be a death blow to our 
economy. We can and must do better.
    The previous administration took devastating steps that put 
the coal industry in my State on life support. We need a more 
commonsense approach to protecting the environment than just 
eliminating our energy industry altogether. My constituents 
demand it. I will do everything in my power to make sure that 
we protect the economy of West Virginia and the jobs of my 
constituents.
    To the whole panel, how can we ensure that we protect and 
promote existing energy jobs under any new proposed 
infrastructure plans?
    OK, Mr. Proctor, in your testimony, you discuss the 
importance of keeping good jobs in America. How can Congress be 
a partner to industry to ensure jobs stay here in the United 
States?
    Mr. Proctor. Well, one of the primary mechanisms and one 
that has been shown to work very well is using domestic 
preferences when it comes to infrastructure investment. Three 
of the four major water programs already have a domestic 
preference, otherwise known as Buy American requirement for 
iron and steel products that go into our water infrastructure. 
And it has successfully not only preserved jobs but brought 
jobs back from overseas into the United States within our 
industry.
    That same sort of program would work well when it comes to 
disaster mitigation. Now, let me say right upfront that in the 
event of a natural disaster, our primary and if not only focus 
needs to be getting relief to the people who are affected by 
that natural disaster as quickly as possible. But when you are 
talking about predisaster mitigation, the things that happen 
before the disasters, when you have time to think about the 
impacts, that is a perfect opportunity to think not only about 
the immediate disaster preparedness impacts but also the 
overall impacts on the economy. And that would be a situation 
where using a domestic preference for iron and steel products 
would have not only the benefit of helping to make certain that 
our infrastructure is hardened, to make certain that the 
products are produced here in the United States where 
environmental emissions are a fraction of what they are 
overseas, but also to get the multiplier effect of 
infrastructure investment so that we get the full bang for our 
buck.
    I think the statistics that you frequently see are that 
every dollar of infrastructure that is invested here in the 
United States produces something like $1.75 or $2 of increased 
GDP. That is even more the case when you invest those dollars 
in domestically produced iron and steel materials.
    Mrs. Miller. Thank you. And how can Congress help industry 
maintain a competitive advantage against foreign nations or 
with foreign nations?
    Mr. Proctor. Is that to me also?
    Mrs. Miller. Should I just yield back my time or may he 
answer?
    Mr. Proctor. Well, one measure that I touched on briefly 
earlier is to make certain that our workforce has the skills 
that they need to be able to operate the foundries, the 
factories and the water systems of today. But the other thing 
is to make certain that, as we build out our infrastructure, 
that we do it in a smart way so that we are more efficient. And 
also, as I mentioned earlier, to level the playing field so 
that when--we are proud of the safety and environmental 
performance of our facilities over here. We have invested 
hundreds of millions of dollars to have the best facilities in 
the world.
    Mrs. Napolitano. Mr. Proctor, I think your time is up.
    Mr. Proctor. OK, thank you.
    Mrs. Miller. I yield back my time.
    Mrs. Napolitano. Ms. Mucarsel-Powell, you're on.
    Ms. Mucarsel-Powell. Thank you, Madam Chair. And thank you 
to all of you for coming to such an important hearing this 
afternoon.
    I represent, I mentioned earlier, I believe, one of the 
most beautiful districts in this country, the southernmost 
district in Florida. It includes Monroe County, the Florida 
Keys, and we are ground zero for the effects of climate change. 
We, along the Florida Keys, as you probably already know, Ms. 
Scarlett, I did some work with Coral Restoration Foundation as 
well as some work with The Nature Conservancy at the time. And 
we have, it is the only living coral reef in the entire United 
States. It is the third largest coral reefs in the entire 
planet. It is a very delicate ecosystem.
    And I had the opportunity to see firsthand the effects of 
climate change on our corals. We are right now plagued by not 
only the ocean acidification which is impacting the corals by 
causing mass bleaching, but now we have seen a bacterial 
infection that is now going all the way down to Looe Key, which 
is a very delicate and lush coral reef. If you have ever been 
down there, you will know exactly what I mean. But we are 
extremely concerned because it seems that we do not have the 
answers as to why this is happening.
    I want to ask you, Ms. Scarlett, maybe also you can 
comment, Mr. Saumweber, but what is it that we can do to 
protect our coral reefs, since they are part of such an 
important, not just for a way of life but also for our 
commercial industries, for our economy in Florida, what can we 
do in Congress to protect the reefs and to get to the bottom of 
what is causing this bacterial infection that is killing about 
50 percent of the corals that are being infected by this 
bacteria?
    Ms. Scarlett. Thank you very much. I had the opportunity to 
be in the Keys just last week. It was lovely.
    So a couple of things. First, obviously, we need more 
science to the degree that we don't wholly understand what is 
going on with any particular reef. So we know acidification is 
occurring, we know there is runoff, nutrient runoff from on-
land activities. We know those adversely affect reefs. But to 
find the particular causes in particular reefs requires more 
science.
    But in terms of additionally what we can do, we are very 
active in something, in a Global Mangrove Alliance. And 
mangrove restoration plays a very significant role in sort of 
minimizing coastal erosion, enhancing coastal health in 
general. We are also very actively involved in coral reef 
restoration.
    A lot of people do not realize that there are tools and 
ways to actually restore reefs and we are doing that in a 
number of places actually around the world, not simply on the 
U.S. coast.
    And then finally, you know, reducing those other stressors. 
There is climate change and the effects on a warming ocean, 
ocean acidification. But to the degree that that is amplified 
by nutrient runoff and other factors, it simply puts those 
corals under more and more stress. So thinking about it in a 
systems way is part of the solution coupled with the science.
    Ms. Mucarsel-Powell. Thank you. And you did mention 
mangroves. And my only concern with using mangroves as natural 
infrastructure to prevent that runoff and, you know, protect 
our coastal communities is that we saw the destruction of the 
mangroves just last year with Hurricane Irma and it takes years 
for these mangroves to regrow.
    So what can we do, using not only mangroves but maybe other 
types of natural infrastructure to protect our coastal 
communities?
    Ms. Scarlett. I think it is--so thank you for that. You 
know, natural systems cannot do everything everywhere under 
every circumstance. Certainly, we have found that mangroves and 
mangrove restoration are an extraordinarily important tool. But 
when you have extremely high-intensity storms, you are going to 
get some destruction and it does take a long time to restore 
them. And so that is why we are also doing things like coral 
reef restoration. We find that coral reefs themselves, if you 
restore them, attenuate waves, reduce erosion, reduce risks to 
communities. So it is a really multipronged approach and it has 
to be tailored to place.
    Ms. Mucarsel-Powell. And if I may, Madam Chair, one more 
question, since I am the last?
    You mentioned also, you know, the runoff. And, as you know, 
we have the Comprehensive Everglades Restoration Plan that we 
have been trying to complete for the past 18 years. So what is 
the importance of this type of project to the future resiliency 
of our community?
    Ms. Scarlett. I cannot stress how important Everglades 
restoration is and how congressional support for it and funding 
for it is essential. Everglades restoration does a number of 
things but, one, as you get the waters flowing across the 
rivers of grass, it actually pushes freshwater out and prevents 
saltwater intrusion, an incredibly important issue for Florida, 
so that is one. Secondly, of course, Everglades restoration, 
part of the process of having stormwater management areas is to 
actually reduce the runoff from the agricultural sector that 
then finds its way out to the ocean, so very important.
    Ms. Mucarsel-Powell. Very important.
    Mrs. Napolitano. Ms. Scarlett, would you mind responding in 
writing to the lady?
    Ms. Scarlett. I would be happy to do that. I spent 8 years 
at the Department of the Interior and hundreds of hours on that 
topic.
    Mrs. Napolitano. Well, I thank everybody for being here, 
the witnesses for testimony. Sorry it was such a long meeting. 
And your comments were very helpful and enlightening for 
today's hearing.
    But before we close, I want to thank the passenger rail 
operator in my district, Metrolink, for being in the audience. 
Their CEO, Stephanie Wiggins--Ms. Wiggins--and board chair, 
Brian Humphrey. Metrolink is in the process of replacing 40 
locomotives with new tier 4 locomotives that reduce NOx and 
particulate matter by 86 percent. Thank you for being here.
    Are there any further questions?
    [No response.]
    Mrs. Napolitano. I ask unanimous consent that the record of 
today's hearing remain open until such time as our witnesses 
have provided answers to any questions that may be submitted to 
them in writing, and unanimous consent that the record remain 
open for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    Without objection, so ordered.
    I would like again to thank the witnesses. Sorry for the 
long hearing, but your testimony was very important to all of 
us. And although many were not here, they are listening in 
their office or in other places.
    No other Members have anything to add? No. The committee 
stands adjourned.
    [Whereupon, at 2:30 p.m., the committee was adjourned.]



                       Submissions for the Record

                              ----------                              


 Statement of Hon. Rick Larsen, a Representative in Congress from the 
                          State of Washington
    Thank you, Chairman DeFazio, for calling today's hearing to examine 
how transportation and infrastructure impact climate change and explore 
solutions to promote resiliency.
    For decades, Washingtonians have seen and felt the harmful impacts 
of climate change.
    As detailed in the fourth National Climate Assessment \1\, rising 
temperatures and greenhouse gas emissions in the Pacific Northwest have 
resulted in record-breaking wildfires, an acidifying ocean that hurts 
shellfish hatcheries and declining salmon runs from a lack of suitable 
habitats.
---------------------------------------------------------------------------
    \1\ https://nca2018.globalchange.gov/chapter/24/
---------------------------------------------------------------------------
    Washington state's transportation sector is its largest source of 
greenhouse gas emissions, accounting for nearly 50 percent of all 
emissions and nearly 64 percent of an average household's energy 
expenses.\2\
---------------------------------------------------------------------------
    \2\ https://www.ofm.wa.gov/sites/default/files/public/budget/
statebudget/highlights/budget19/clean-transportation-policy-brief.pdf
---------------------------------------------------------------------------
    To respond to the growing challenges resulting from climate change, 
Congress, the administration, states and industry must join to reduce 
emissions and foster innovation to encourage sustainability.
    Investing in more sustainable transit, maritime transportation, 
bridge infrastructure and aviation will help maintain the vitality of 
our wildlife, wilderness areas and green spaces for the use and 
enjoyment of current and future generations.
    As someone who uses public transportation every day, and as cochair 
of the bipartisan Bus Caucus, I understand how critical reliable bus 
systems are for commuters.
    With the expansion of more efficient transit options, Congress must 
support states' efforts to meet carbon emission reduction targets. In 
my home state of Washington, localities are taking significant steps to 
ensure a cleaner transportation network.
    Washington state's electric grid is among the most sustainable and 
cleanest in the country, making the electrification of transportation a 
viable option to address the impacts of climate change.
    Recently, the state launched several initiatives to electrify 
transit, including a requirement that 50 percent of all new state-owned 
and leased passenger vehicles be electric by 2020.\3\
---------------------------------------------------------------------------
    \3\ Ibid.
---------------------------------------------------------------------------
    I have seen firsthand how the transit electrification benefits 
Washington's Second District. Last September, I attended the ribbon 
cutting for Everett Transit's first electric bus.
    With $3.4 million in federal funding from the Low or No Emission 
Bus Program, the City of Everett was able to replace a decades-old 
diesel fuel bus, serve a high-frequency route and reduce local carbon 
emissions.
    Everett Transit estimates that transitioning four of its diesel 
buses will lower carbon emissions by nearly 4,000 pounds annually and 
reduce the amount of particulate matter released into the atmosphere by 
500 pounds each year.
    In the Pacific Northwest, ferries are critical to keeping the 
economy moving, carrying commuters and goods around the region.
    Ferries help relieve congestion, serve rural communities and can 
serve as an interim solution when other transportation systems are 
unavailable.
    However, ferries are among the largest greenhouse gas generators, 
accounting for 73 percent of Washington state's annual carbon 
emissions.\4\
---------------------------------------------------------------------------
    \4\ http://www.wsdot.wa.gov/NR/rdonlyres/6C78A08B-19A1-4919-B6E6-
E9EF83E6376D/125314/WSFHybridElectricPropulsionConversionProject.pdf
---------------------------------------------------------------------------
    To address this issue, Washington State Ferries is working to 
convert its largest passenger vessels, the Jumbo Mark II, to hybrid-
electric propulsion.
    The agency estimates this conversion will reduce total carbon 
emissions by 25 percent. Additionally, the new hybrid-electric ferries 
will reduce vessel noise, lessening the impact on endangered Southern 
Resident orcas and other wildlife in the Puget Sound.
    Innovative maritime projects, such as the hybrid-electric 
initiative, promote sustainability, improve the transportation network 
and generate cost-savings. But these goals cannot be accomplished 
without federal buy-in.
    Congress must provide stable and predictable federal funding for 
``greening'' U.S. maritime to ensure the system remains competitive, 
encourage new jobs and preserve a healthy environment.
    According to the Association of Washington Business, Washington 
state alone needs over $190 billion in infrastructure investment, with 
bridges requiring $4.3 billion.
    Washington state is home to 7,410 bridges. Almost 5,000 have been 
deemed to need maintenance. Significant funding is needed to ensure the 
structural integrity and environmental sustainability of bridges and 
roads.
    In 2017, the Washington State Department of Transportation launched 
a funding initiative to extend the service life of the state's bridges 
through planned and focused preventative maintenance activities.\5\
---------------------------------------------------------------------------
    \5\ https://www.infrastructurereportcard.org/wp-content/uploads/
2016/10/2019-WA-Infrastructure-Report-Card.pdf
---------------------------------------------------------------------------
    To improve the federal government's role in these local projects, I 
joined Reps. Cicilline, Young and Davis to introduce the IMAGINE Act. 
This bill would promote the use of innovative materials and advanced 
technologies to improve safety of the nation's infrastructure, promote 
resiliency and support jobs and local economies.
    As chair of the Aviation Subcommittee, I recognize the role 
aviation and aerospace can play in efforts to mitigate the effects of 
climate change.
    The subcommittee will focus on fostering innovation in U.S. 
aviation and aerospace through the advancement of NextGen, as well as 
the development and deployment of new and greener technologies to 
bolster U.S. jobs.
    Washington state is the aerospace capital of the country, and in 
the Second District, 23,000 women and men support the aviation economy 
by making the safest aircrafts and aerospace products in the world.
    Several of the 1,450 suppliers in Washington state are working on 
cutting-edge technologies to make U.S. aviation more efficient and 
environmentally-sound.
    To that end, I am pleased that we have a witness today, Ms. Nancy 
Young with Airlines for America, to speak to how the U.S. aviation 
industry continues to make strides to improve fuel efficiency, green 
ground operations and advance more sustainable propulsion.
    The long-term Federal Aviation Administration (FAA) reauthorization 
bill that Congress passed last year makes progress toward NextGen 
implementation by including local communities and airports in the 
process.
    NextGen's Performance-Based Navigation procedures and Terminal 
Flight Data Manager deployment will modernize air traffic control to 
allow carriers to fly more directly and precisely, reduce aircraft fuel 
burn and improve the sustainability of the overall aviation system.
    For instance, the FAA's Greener Skies initiative improves 
efficiency of flights landing at Seattle-Tacoma International Airport 
in Washington state.
    It is estimated that Greener Skies will cut fuel consumption by 2.1 
million gallons annually and reduce carbon emissions by 22,000 metric 
tons. In addition, the initiative will reduce aircraft noise exposure 
for nearly 750,000 people living within the affected flight 
corridor.\6\
---------------------------------------------------------------------------
    \6\ https://www.faa.gov/nextgen/snapshots/stories/?slide=6
---------------------------------------------------------------------------
    Further, robust funding for the FAA's Continuous Lower Energy, 
Emissions and Noise (CLEEN) program, supports the development of new 
aircraft technologies to advance sustainable alternative jet fuels.
    Airports across the country are also working to reduce the carbon 
footprint of their operations, through efforts like electric conversion 
of their ground service vehicles, use of renewable energy including 
solar, sustainable fuel initiatives and expanded recycling programs.
    I have had the chance to visit a few companies in my district at 
the forefront of innovative, energy efficient aviation technology.
    For example, Zunum Aero in Bothell, Washington, is developing 
hybrid electric aircraft capable of flying up to 12 people between 350 
and 500 miles. The company aims to bring the aircraft to market as soon 
as 2022.
    Zunum projects its electric propulsion prototype will cut community 
and cabin noise by an estimated 75 percent and emissions by 80 
percent.\7\
---------------------------------------------------------------------------
    \7\ https://zunum.aero/our-charge/
---------------------------------------------------------------------------
    One area where we will continue to see tremendous growth is in 
unmanned aircraft systems (UAS), or drones.
    UAS are flourishing in the skies at a pace we did not imagine ten 
years ago. There is no denying the extensive societal and commercial 
benefits of unmanned aircraft and their applications.
    Drones are used to perform critical infrastructure inspections of 
bridges and railroads and assist in recovery efforts following natural 
disasters and wildfires. In addition, small drone package delivery 
could produce lower greenhouse gas emissions and consume less energy.
    Further, passenger air vehicles (PAVs) are also slated to present a 
dramatic change in the transportation in and around urban centers in 
the very near future.
    With recent advances in design and technology, PAV concepts in 
development will have the ability to reduce traffic congestion and the 
demand on our roads and bridges by carrying every day commuters through 
the air, at low-altitudes, to work and other nearby destinations.
    Of course, before this occurs there are many questions that will 
need to be answered to safely integrate them into complex airspace. 
This effort will require the FAA to develop a comprehensive regulatory 
framework to integrate these operations into U.S. airspace.
    Again, Mr. Chairman, thank you for calling this timely hearing.
    This committee is uniquely positioned to make considerable progress 
to address climate change.
    I look forward to hearing from today's witnesses on how Congress 
can be a better partner to advance efforts to green transportation and 
infrastructure projects across the U.S.

                                 <F-dash>
Article Submitted for the Record by Hon. Scott Perry, a Representative 
               in Congress from the State of Pennsylvania
    Science, August 28, 1981, Volume 213, Number 4511 ``Climate Impact 
of Increasing Atmospheric Carbon Dioxide'', J. Hansen, D. Johnson, A. 
Lacis, S. Lebedeff, P. Lee, D. Rind, G. Russell. \1\
---------------------------------------------------------------------------
    \1\ http://science.sciencemag.org/content/213/4511/957.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    

                               
Statement of the American Short Line and Regional Railroad Association, 
          Submitted for the Record by Hon. Graves of Missouri
    Chairman DeFazio and Ranking Member Graves, thank you for holding 
this hearing addressing the impact that federal infrastructure policy 
can have on climate change. The American Short Line and Regional 
Railroad Association (ASLRRA) is a non-profit trade association 
representing 603 Class II and Class III railroads in the United States, 
Canada and Mexico as well as numerous suppliers and contractors to the 
short line and regional railroad industry. Short lines operate 47.500 
route miles of track in 49 states, or approximately 29% of the national 
railroad network, touching in origination or termination one out of 
every five cars moving on the national railroad system, serving 
customers who otherwise would be cut off from the national railroad 
network.
    While passenger and freight roadway vehicles account for 83% of 
total greenhouse gas emissions, freight rail accounts for only 2%. As 
Rep. LaMalfa noted during the hearing, freight rail moves one ton of 
freight 479 miles on one gallon of diesel fuel. Class II and Class III 
railroads alone moved 12,074,000 carloads of freight in 2015, equaling 
34,778,000 truckloads. According to the Association of American 
Railroads, if 10% of the freight currently moved by truck was moved to 
rail, fuel savings would be more than 1.5 billion gallons per year. 
This is equivalent to removing 3.2 million cars from the highways 
during the same period.
    Transporting goods by rail reduces natural fuel used, and reduces 
wear and tear, assisting the fuel efficiency of the motoring public.
    Congress can facilitate shippers maximizing their use of freight 
rail in two ways:
    <bullet>  Supporting the Short Line Tax Credit, also known as 45G. 
For 12 years the short line tax credit has proven its worth. It has 
enhanced capital investment into short line railroads, it has 
significantly improved competitive rail service for shippers, it has 
helped improve railroad safety and it has been the difference between 
piecemeal and corridor improvements. Helping short lines continue to 
grow freight traffic through infrastructure improvements will deliver 
long term benefits to the environment.
    <bullet>  Opposing any increase in truck size or length is critical 
to keeping freight on the rails. It has been established both in actual 
practice, in those states that have allowed bigger trucks on state 
roads, and in many well-constructed diversion studies, that if truck 
lengths and weights are increased, freight will be diverted from the 
rails onto the highways. This modal shift will contribute to climate 
change by inflicting more damage to pavement, reducing fuel 
efficiencies for cars and trucks that use the roads. Additional weights 
and axles needed to support that increased weights contributes to 
``rolling resistance,'' which leads to more fuel consumption.
    As Ranking Member Graves noted during the hearing, the freight rail 
industry is making progress in the area of climate change by 
implementing technologies to limit greenhouse gases, increase fuel 
efficiency and reduce its carbon footprint. We believe that policies 
supporting these efforts by the freight rail industry is one answer to 
address climate change.
    ASLRRA and our member railroads urge the committee to consider the 
impact that tax and truck size and weight policies can have on climate 
change and on the efforts that Class II and III railroads are already 
making to provide safe, reliable, and fuel-efficient transportation.

                                 <F-dash>
 Statement of Ian J. Jeffries, President and Chief Executive Officer, 
  Association of American Railroads, Submitted for the Record by Hon. 
                           Graves of Missouri
    On behalf of the members of the Association of American Railroads, 
thank you for the opportunity to provide a statement for the record. 
AAR members account for the vast majority of freight railroad mileage, 
employees, and traffic in Canada, Mexico, and the United States.
    Railroads have a strong record of success in meeting our nation's 
transportation needs in an environmentally-friendly fashion. They are 
committed to pursuing further technological and operational 
advancements that will lead to continued tangible improvements in fuel 
efficiency, mobility, greenhouse gas emissions, and air quality.
    For this reason, I respectfully submit that policymakers should 
take steps to attract more freight to rail, thereby expanding the 
substantial greenhouse gas and other public benefits of freight rail 
transportation. Steps policymakers can take include removing policies 
that inappropriately tilt the transportation marketplace in favor of 
other modes; encouraging greater use of rail-related public-private 
partnerships; and retaining the existing system of balanced regulation 
that protects rail customers against abusive railroad conduct but also 
helps ensure railroads are financially able to make the network 
investments they need to serve their customers safely, reliably, and 
cost effectively.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  railroads are the most fuel-efficient way to move freight over land
    According to the EPA, transportation accounted for 28.2 percent of 
U.S. greenhouse gas emissions in 2017. The vast majority of 
transportation-related greenhouse gas emissions are directly related to 
fossil fuel consumption: higher fuel consumption means more emissions. 
Railroads, though, are the most fuel-efficient way to move freight over 
land. In 2017, railroads moved one ton of freight an average of 479 
miles per gallon of fuel--roughly the distance from Coos Bay, Oregon to 
San Francisco, or from Hannibal, Missouri to Columbus, Ohio.
    Indeed, according to an independent study for the Federal Railroad 
Administration, freight railroads on average are four times more fuel 
efficient than trucks. That means, on average, moving freight by rail 
instead of truck reduces greenhouse gas emissions by 75 percent. The 
railroad fuel efficiency advantage helps explain why freight railroads 
account for just 2.0 percent of transportation-related greenhouse gas 
emissions and just 0.6 percent of total U.S. greenhouse gas emissions, 
according to the EPA, even though railroads account for well over a 
third of intercity freight volume.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    If just 10 percent of the freight that moves by Class 7 or Class 8 
(the largest) trucks moved by rail instead, fuel savings would be more 
than 1.5 billion gallons per year and annual greenhouse gas emissions 
would fall by more than 17 million tons--equivalent to removing 3.2 
million cars from the highways for a year or planting 400 million 
trees.
      railroads are constantly working to improve fuel efficiency
    Over the years, railroads have worked hard to improve their fuel 
efficiency--on a ton-miles per gallon basis, rail fuel efficiency in 
2017 was up 104 percent over 1980 and up 21 percent over 2000. In 2017 
alone, U.S. freight railroads consumed 732 million fewer gallons of 
fuel and emitted 8.2 million fewer tons of carbon dioxide than they 
would have if their fuel efficiency had remained constant since 2000. 
From 2000 through 2017, U.S. freight railroads consumed 8.3 billion 
fewer gallons of fuel and emitted 92 million fewer tons of carbon 
dioxide than they would have if their fuel efficiency had not improved.
    A single train can carry the freight of several hundred trucks, 
meaning that moving more freight by rail also reduces highway 
congestion, which in 2018 cost Americans an average of 97 hours, or 
$1,348, per driver just in terms of lost time, according to INRIX (a 
highway traffic analytics firms). Reducing congestion also reduces 
wasted fuel (and associated greenhouse gas emissions) by motorists who 
take longer to get where they want to go. Moving freight by rail 
instead of trucks has the added bonus of reducing highway wear and tear 
and the pressure to build costly new highways, freeing up limited funds 
for other purposes.
    U.S. freight railroads are moving more freight than in the past, 
but using less fuel to do so. How have railroads managed this? Through 
technological innovations, new investments, improved operating 
practices, and a lot of hard work.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Steps railroads have taken individually or collectively to reduce 
fuel consumption include:
    <bullet>  Acquiring thousands of new, more efficient locomotives 
and removing from service thousands of older, less fuel-efficient 
locomotives.
    <bullet>  Developing and installing highly advanced fuel management 
systems that, among other things, calculate the most fuel-efficient 
speed for a train over a given route; determine the most efficient 
spacing and timing of trains on a railroad's system; and monitor 
locomotive functions and performance to ensure peak efficiency.
    <bullet>  Installing idling-reduction technologies, such as stop-
start systems that shut down a locomotive when it is not in use and 
restart it when it is needed, and expanding the use of distributed 
power (positioning locomotives in the middle of trains) to reduce the 
total horsepower required for train movements.
    <bullet>  Increasing the amount of freight in rail cars and on 
trains. Thanks to improved freight car design and other factors, the 
amount of freight railroads carried in an average train in 2017 was 
3,630 tons, up from 2,923 tons in 2000.
    <bullet>  Enhancing operating practices and rail car components to 
reduce fuel use. For example, advanced lubrication techniques save fuel 
by reducing friction; improving the aerodynamic profile of trains saves 
fuel by reducing drag.
    <bullet>  Providing employee training to help locomotive engineers 
develop and implement best practices and improve awareness of fuel-
efficient operations.
    <bullet>  Increasing the use of zero-emission cranes to transfer 
containers between ships, trucks, and trains at ports and rail 
facilities.
    In recent years, railroads have begun to investigate moving away 
from diesel locomotives in favor of alternatives--for example, to 
cleaner burning natural gas, or even potentially to batteries or fuel 
cells. At this point, it's not at all clear that an alternative will 
have the combination of affordability, reliability, and capability to 
be feasible for widespread use, but it does show that railroads are 
willing to ``look outside the box'' in terms of enhancing 
sustainability and environmental preservation.
   what policymakers can do to encourage more freight to move by rail
    Using freight railroads more means emitting fewer greenhouse gas 
emissions. Policy-makers can help make this happen by removing 
impediments to moving freight by rail and supporting policies that 
incentivize shippers to ship by rail.
    For example, policymakers can adopt a more equitable system of 
funding non-rail transportation infrastructure. America's freight 
railroads, which are almost entirely privately owned, operate 
overwhelmingly on infrastructure that they own, build, maintain, and 
pay for themselves. By contrast, trucks and barges operate on highways 
and waterways that are largely taxpayer funded.
    With respect to federally funded capacity investments in public 
road and bridge infrastructure, the United States has historically 
relied upon a ``user pays'' system. Until relatively recently, that 
system worked well. Unfortunately, the user-pays model has been eroded 
as Highway Trust Fund (HTF) revenues have not kept up with HTF 
investment needs and so have had to be supplemented with general 
taxpayer dollars. General fund transfers to the HTF since 2008 have 
totaled almost $144 billion, according to the Congressional Budget 
Office, and will require another $191 billion between 2020 and 2029 to 
keep the HTF solvent.
    Unfortunately, moving away from a user-pays system distorts the 
competitive environment by making it appear that trucks are less 
expensive than they really are and puts other modes, especially rail, 
at a disadvantage. Congress could help ameliorate this modal inequity 
by reaffirming the ``user pays'' requirement, preferably through a 
vehicle miles traveled fee or a weight-distance fee.
    On a related note, policymakers should retain existing truck length 
and weight limits. The taxes and fees heavy trucks pay are already far 
less than the cost of the damage heavy trucks cause. This huge 
underpayment would become even greater, and the freight transportation 
marketplace would become even more distorted, if truck length and 
weight limits were increased.
    A greater use of rail-related public-private partnerships would 
also lead to more freight moving by rail. Under these arrangements, 
public entities devote public dollars equivalent to the public benefits 
that will accrue from a project, while railroads contribute resources 
commensurate with the private gains expected to accrue. Without a 
partnership, many projects that promise substantial public benefits 
(such as reduced highway congestion by taking trucks off highways, or 
increased rail capacity for use by passenger trains) in addition to 
private benefits (such as enabling more efficient freight train 
operations) are likely to be delayed or never started at all because 
neither side can justify the full investment needed to complete them. 
Cooperation makes these projects feasible.
    Finally, policymakers should keep the existing system of balanced 
rail rate and service regulation. Today's balanced rail regulatory 
system protects rail customers against unreasonable railroad conduct 
while allowing railroads to largely decide for themselves how to manage 
their operations. The current system has worked extremely well for 
railroads and their customers. However, some want to again give 
government regulators control over crucial areas of rail operations. 
That would be a profound mistake. It would prevent America's railroads 
from making the massive investments a best-in-the-world freight rail 
system requires and would inexorably lead to less freight moving by 
environmentally friendly rail.
                               conclusion
    The key to reducing transportation-related greenhouse gas emissions 
is reducing fuel consumption in transportation. Research and 
development of new technologies and alternative fuels offers much 
promise and as previously noted the railroad industry is driving many 
initiatives in this arena. However, future promise does not help the 
nation today. Here's the takeaway that I ask each of you to remember. 
There is no need to wait for the promises of tomorrow from technologies 
and new alternative fuels that are not yet ready to be brought to 
market. America's freight railroads offer a simple, Cost-effective and 
meaningful way to help. I urge the Committee to consider the simple 
infrastructure policy considerations that I outlined on behalf of our 
member railroads. Thank you again for providing me with the opportunity 
to provide a written statement.

                                 <F-dash>
 Comments of the Southern Environmental Law Center, Submitted for the 
                    Record by Hon. DeFazio of Oregon
    The Southern Environmental Law Center (SELC) thanks the U.S. House 
Committee on Transportation and Infrastructure for its recent hearing 
on ``Examining How Federal Infrastructure Policy Could Help Mitigate 
and Adapt to Climate Change.'' This critically important subject 
demands far greater attention than it has received at the federal level 
in recent years. We offer these comments on key issues and strategies 
related to transportation and climate change, and provide insight into 
how these issues are affecting our region.
    The connections between our transportation system and climate 
change are clear and significant. Transportation has surpassed the 
electricity sector as the nation's largest contributor of greenhouse 
gas (GHG) pollution, comprising 28.7% of the national total in 2017.\1\ 
In addition, the effects of climate change on our transportation 
infrastructure, including sea level rise and increased flooding from 
more severe storms, are being felt in both coastal and inland 
communities across the country. There is a critical need to increase 
our efforts at the federal, state, and local levels on each of these 
topics. We must both reduce our transportation system's contribution to 
global GHG emissions and enhance the resiliency of our transportation 
systems and our communities to the effects of climate change.
---------------------------------------------------------------------------
    \1\ U.S. Environmental Protection Agency, ``Draft Inventory of U.S. 
Greenhouse Gas Emissions and Sinks: 1990-2017'' at Table 2-10 (2019).
---------------------------------------------------------------------------
    Below we outline a number of approaches and strategies to reduce 
GHG pollution. Higher fuel efficiency standards and increased adoption 
of electric and other zero- and low-emission technologies are important 
components of any transportation-related emission reduction strategy. 
Achieving meaningful reductions, however, will also require substantial 
efforts to reduce the number of vehicle miles traveled (VMT) in our 
transportation system. To accomplish this, we must pay close attention 
to how our transportation system drives land use patterns, as well as 
encourage a shift away from motor vehicle use to cleaner transportation 
modes and reduce single-occupancy travel with a particular emphasis on 
shared and active transportation. Congestion pricing and similar 
strategies can also play a role in reducing vehicle emissions. In 
addition, as important as it is to address passenger vehicle emissions, 
VMT reductions and shifts to cleaner alternatives are needed in the 
freight sector as well. It is also imperative that we make 
consideration of GHG emissions a central factor in our transportation 
planning processes--either directly, or indirectly via a proxy like 
VMT.
    Enhancing the resiliency of our transportation infrastructure and 
communities is also essential. Resiliency considerations must be 
incorporated into the location and planning decisions for new projects, 
as well as decisions about whether and where to rebuild at-risk 
infrastructure. Effective maintenance of our existing infrastructure is 
also increasingly important. In addition, we must protect and augment 
the many features that provide natural resiliency and serve as 
effective carbon sinks, such as our forests, wetlands, and marshes.
                       i. reducing ghg emissions
    As others noted during your hearing on this matter and in written 
testimony, there are many available approaches and opportunities to 
reduce transportation-related GHG emissions. Efforts to promote cleaner 
technologies such as electric and other zero- and low-emissions 
vehicles are an essential piece of this puzzle, and have significant 
growth potential in the coming years due in part to rapid improvements 
in electric vehicle (EV) technology and affordability. But to achieve 
meaningful reductions from our transportation sector, we must also 
substantially reduce VMT, favor transportation investments that 
encourage more compact, walkable development, and incorporate GHG 
emissions considerations in our transportation plans and project-
specific environmental reviews.
    In addition to achieving GHG reductions, advancements in these 
areas provide important co-benefits, including more equitable and 
accessible transportation systems, economic growth and vibrancy, 
traffic congestion reductions, and improvements to public health--both 
physical and mental. Such advancements are also necessary to meet the 
changing needs of America's residents and businesses, which 
increasingly seek walkable communities with diverse transportation 
options.
A. Promoting Cleaner Technologies
    i.)  Fuel Efficiency Standards
    Fuel efficiency standards are one area in which the federal 
government plays a crucial role in promoting a shift toward cleaner 
transportation technologies. Unfortunately, the current administration 
has set us down the wrong path. Corporate Average Fuel Economy (CAFE) 
and carbon dioxide (CO2) emissions standards adopted by the Obama 
Administration in 2012 for passenger cars and light duty trucks were 
estimated to save 4 billion barrels of oil and to reduce GHG emissions 
by the equivalent of 2 billion metric tons over the lifetime of these 
light duty vehicles produced in model years 2017 to 2025.\2\
---------------------------------------------------------------------------
    \2\ 2017 and Later Model Year Light-Duty Vehicle Greenhouse Gas 
Emissions and Corporate Average Fuel Economy Standards, 77 Fed. Reg. 
62624, 62627 (Oct. 15, 2012).
---------------------------------------------------------------------------
    Last summer, however, the National Highway Traffic Safety 
Administration and U.S. Environmental Protection Agency (EPA) proposed 
to roll back these clean car standards and freeze fuel economy and CO2 
emissions standards for light duty vehicles at 2020 levels for five 
years--a proposal that would result in an increase in petroleum 
consumption of 0.5 million barrels per day by the early 2030s. This 
proposed rollback is a step in the wrong direction, and would seriously 
undermine future efforts to reduce GHG emissions across our 
transportation system. Additionally, as explained in a letter SELC sent 
to the U.S. Department of Transportation and EPA, the change calls into 
question the accuracy of many environmental reviews completed for 
projects in recent years that assumed the Obama-era clean car standards 
would be in place in their future emissions projections.\3\
---------------------------------------------------------------------------
    \3\ Letter from Trip Pollard et al., SELC to Elaine Chao, U.S. 
Department of Transportation et al., ``Re-evaluating Completed NEPA 
Reviews under Proposed Rollback of Clean Car Rules'' (Aug. 27, 2018).
---------------------------------------------------------------------------
    ii.)  Electric and Other Zero- and Low-Emissions Vehicle 
Technologies
    This is an important time for the future of zero- and low-emissions 
technologies, particularly in the case of EVs. In recent years, EV 
battery prices have dropped dramatically even as vehicle ranges have 
increased. For instance, the range of the Nissan Leaf has increased 
from 73 miles in 2011 to 151 miles for the 2018 version. The Southeast 
is now home to over 65,000 EVs--a five-fold increase since 2013, and 
the rate of adoption is expected to continue to increase in the coming 
years with further improvements in technology and as most major auto 
manufactures have pledged to significantly increase their EV 
production.
    The significant influx in funding for clean vehicles and electric 
charging infrastructure resulting from the Volkswagen emissions 
cheating settlement serves as another key catalyst in the anticipated 
future growth of EVs. As part of this settlement, $2 billion was set 
aside for EV charging infrastructure and education (which has become 
the ``Electrify America'' program), as well as $2.9 billion in 
additional mitigation funds apportioned to states in which the relevant 
VW vehicles were sold. States are already taking advantage of this new 
funding to further promote EVs. Last fall, Virginia awarded a contract 
to a private entity to install new EV charging stations across the 
state--devoting the maximum allowable 15% of its mitigation funds 
toward this effort, and also announced that it will be allocating an 
additional 15% for electric transit buses. North Carolina has likewise 
committed to devote the maximum 15% of its mitigation funds toward 
charging stations.
    Foremost among the benefits of EVs is that they are a ``zero 
emissions'' technology, producing no tailpipe emissions. Although EVs 
require electricity to operate, which does not always come from 
renewable energy sources, the U.S. Department of Energy's Alternative 
Fuels Data Center estimates that even in the traditionally fossil fuel-
reliant Southeast, EVs are responsible for roughly 75% less GHG 
emissions than gasoline-powered vehicles.\4\ This benefit will increase 
over time as these states continue to shift toward cleaner energy 
sources. Additional public health and environmental benefits flow from 
a reduction in emissions of nitrogen oxides (NOx) and volatile organic 
compounds (VOCs), reducing harmful ground-level ozone as well as 
nitrogen loads to water bodies such as the Chesapeake Bay. EVs are also 
typically less expensive to maintain and operate than gasoline-powered 
vehicles, and the purchase price of EVs is predicted to decline to a 
level on par with gasoline vehicles in the near future.
---------------------------------------------------------------------------
    \4\ See U.S. Department of Energy Alternative Fuels Data Center, 
http://afdc.energy.gov/.
---------------------------------------------------------------------------
    There are many steps that Congress and federal agencies can take 
(or continue taking) to support these efforts. Important grants and 
funding sources that support electric and low-emissions technologies 
should be continued and expanded, such as federal tax credit programs 
for EV purchases, the Federal Transit Administration's ``Low or No 
Emission Vehicle'' and EPA's Diesel Emissions Reduction Act (DERA) 
grant programs, and Congestion Mitigation and Air Quality (CMAQ) funds 
administered by the Federal Highway Administration (FHWA). Additional 
areas where federal support is needed include providing data and 
technical support to states, localities, and metropolitan planning 
organizations (MPOs) to identify and plan for EV charging 
infrastructure needs. Increased federal funding should also be provided 
to support the installation of charging stations in key areas such as 
Alternative Fuel Corridors designated by FHWA under the FAST Act.
    iii.)  Other State and Regional Efforts
    It is also important to recognize initiatives being undertaken by 
regional, state, and local bodies across the country to reduce 
transportation-related GHG emissions. For example, the Transportation 
and Climate Initiative (TCI) is a coalition of Northeast and Mid-
Atlantic states and the District of Columbia working to reduce carbon 
emissions and develop clean energy solutions for the transportation 
sector. Significantly, TCI members announced in December that they will 
embark on a year-long study to explore the creation of a regional ``cap 
and invest'' program that would limit transportation-related emissions 
and encourage investment in low-carbon technologies.\5\ Other important 
regional efforts include the bi-coastal Multi-State ZEV Task Force, 
comprised of eight states committed to taking action to expand the 
adoption of zero emissions vehicles and charging infrastructure. 
Similar initiatives include the West Coast Electric Highway and TCI's 
Northeast Electric Vehicle Network--both regional programs to create a 
network of EV charging stations to enable convenient travel both 
locally and throughout these regions.
---------------------------------------------------------------------------
    \5\ See TCI, ``Transportation and Climate Initiative Statement'' 
(Dec. 18, 2018), available at http://www.georgetownclimate.org/files/
Final_TCI-statement_20181218_formatted.pdf.
---------------------------------------------------------------------------
    There are also a host of individual and collaborative efforts being 
undertaken by states, localities, MPOs, and non-governmental 
organizations and businesses to contribute toward reducing our 
transportation GHG emissions. California is leading the way on a number 
of these initiatives, including through the adoption of its Sustainable 
Communities and Climate Protection Law (S.B. 375). S.B. 375 requires 
GHG reduction targets to be set for light duty vehicles for each MPO 
area of the state, as well as the development of transportation and/or 
land use strategies to meet these targets. California, along with New 
York, Massachusetts, and Oregon (all of which are U.S. Climate Alliance 
Members), have also established statewide VMT reduction targets.
    Congress and federal agencies should encourage these transformative 
efforts through data sharing and technical support, as well as 
increased grant and/or direct funding for these activities wherever 
possible through programs such as those identified in the previous 
section (Low-No, DERA, CMAQ, etc.). The U.S. Department of Energy's 
Clean Cities Coalition Network should also be continued and expanded, 
with an increasing emphasis on zero emissions vehicles. Finally, as 
discussed further below, we urge you to strengthen (or in some cases, 
reinstate) nationwide strategies along the lines of a number of these 
efforts, including transportation GHG performance standards and 
reduction targets for the National Highway System applicable to all 
states and MPOs, as well as the potential establishment of related VMT 
reduction targets.
B. Reducing Vehicle Miles Traveled
    Studies are clear that technological improvements alone--such as 
EVs--will not sufficiently reduce GHG emissions from the transportation 
sector. Meaningfully reducing GHG emissions from transportation will 
also require reducing VMT from both passenger and freight vehicles. In 
order to do so, we must provide greater travel options for both 
residents and businesses, while also prioritizing transportation 
investments that encourage more compact and transit-oriented 
development patterns and enable our communities to reduce their 
reliance on personal car travel.
    i.)  Encouraging Cleaner Transportation Modes
    An essential component in reducing VMT is to significantly increase 
our investment in multimodal, shared, and active transportation 
options. Public transit, passenger rail, bicycle, and pedestrian 
options can meet people's transportation needs without the high GHG 
emissions associated with solo private car trips. When bus and ride-
sharing fleets are powered with electricity, the GHG emissions 
reductions are even greater. Increasing investment in freight rail can 
also provide significant benefits--railroads are on average four times 
more fuel efficient than trucks, generating 75% fewer GHG emissions.\6\ 
Congress should explore how best to incentivize, and increase funding 
for, multimodal transportation projects and services which will help 
reduce VMT, while also benefitting Americans beyond the direct 
reduction in GHG emissions.
---------------------------------------------------------------------------
    \6\ See 2017 Virginia Statewide Rail Plan at 2, available at http:/
/www.drpt.virginia.gov/rail/reference-materials/virginiastate-rail-
plan/.
---------------------------------------------------------------------------
    Reducing VMT through greater mode options creates healthier 
communities. One study of individuals living near the Charlotte Lynx 
light rail system showed significant increases in physical health, 
including that light rail users lost weight and substantially reduced 
their likelihood of becoming obese.\7\ Public transportation access and 
walkable communities are also associated with numerous mental health 
benefits, such as reducing emotional stress and symptoms of 
depression.\8\ Moreover, public transit use is generally safer, with a 
much lower fatality rate than private automobile travel.\9\ As one 
researcher has observed, ``[p]eople who live or work in transit 
oriented communities tend to drive fewer annual miles, drive at lower 
speeds, and have better travel options that allow them to avoid high 
risk driving, such as after drinking alcohol or when ill.'' \10\ Mixed-
use neighborhoods with public transportation access correspond to lower 
rates of obesity, while sprawling neighborhoods correspond to higher 
rates of hypertension, diabetes, asthma, and cancer.\11\
---------------------------------------------------------------------------
    \7\ John M. MacDonald, et al., The Effect of Light Rail Transit on 
Body Mass Index and Physical Activity, 39 AM. J. PREVENTIVE MED. 105, 
108 (2010). The study concluded that ``[t]he findings from the current 
study suggest that increasing the access to LRT transit for individuals 
to commute to work may help overcome some of the barriers to engaging 
in daily utilitarian exercise.'' Id. at 110.
    \8\ TODD LITMAN, VICTORIA TRANSPORT POLICY INSTITUTE, EVALUATING 
PUBLIC TRANSPORTATION HEALTH BENEFITS 17 (2015), available at http://
www.vtpi.org/tran_health.pdf.
    \9\ Id. at 8-9.
    \10\ Id. at 8.
    \11\ Id. at 15.
---------------------------------------------------------------------------
    Expanding public transit and designing for ``complete streets'' 
that serve all transportation users, including bicyclists and 
pedestrians, are also important in creating a more equitable 
transportation system. Elderly and disabled residents often rely on 
public transit for their transportation needs. Similarly, ensuring 
public transit is affordable and connects key employment and education 
hubs helps provide disenfranchised communities, such as low-income and 
minority families, with greater access to upward mobility 
opportunities. In turn, transit stations that can be reached by 
bicycling or walking are more accessible by a diverse array of 
passengers.
    Further, reducing VMT through shifts to other modes does not come 
at a cost to economic development. Recent examples have illustrated 
that businesses are increasingly seeking to locate and invest in 
communities with good public transit systems, and which are walkable 
and bikeable. During their respective headquarters searches, both 
Amazon and Apple identified access to public transit as important to 
their decisions. Mercedes-Benz relocated to downtown Atlanta, \12\ and 
Kaiser-Permanente decided on Georgia over Colorado because of the 
public transit options available, specifically the rail system in 
Atlanta's Midtown area.\13\ The Charlotte Lynx light rail system has 
proven to be an enormous economic success for the area with around $2 
billion invested in development along the rail line's original route, 
and a slew of new development projects along the line's extension that 
opened in 2018.\14\
---------------------------------------------------------------------------
    \12\ Matt Kempner and J. Scott Trubey, MARTA A Sudden Factor in 
Company Moves, THE ATLANTA JOURNAL-CONSTITUTION, Jan. 16, 2015, http://
www.myajc.com/news/business/marta-a-sudden-factor-in-company-moves/
njpnF/.
    \13\ Maria Saporta, Transit and Walkability Key Factors in Kaiser 
Permanente's Decision to Put 900 New Jobs in Midtown, SAPORTAREPORT, 
Apr. 17, 2015, http://saportareport.com/transit-and-walkability-key-
factors-in-kaiser-permanentes-decision-to-put-900-new-jobs-in-midtown/.
    \14\ Melissa Oyler, Charlotte's Light Rail: A City Changed Forever, 
BISNOW, Mar. 12, 2018, https://www.bisnow.com/charlotte/news/
construction-development/development-popping-up-like-weeds-along-
charlottes-light-rail-opening-this-week-85974.
---------------------------------------------------------------------------
    ii.)  Prioritizing Investments that Encourage Sustainable Land Use 
Patterns
    In order to make effective reductions in VMT, and in turn GHG 
emissions, state, local and federal transportation planners need to 
plan for a future transportation network that is less dependent on 
single occupancy driving. Simply put, transportation and land use 
decisions need to be considered together. Much of our current land use 
patterns have been developed with private car use in mind.\15\ In turn, 
we have a transportation network that facilitates car-centric suburban 
and exurban sprawl--this both leads to increased VMT and swaths of 
natural areas being destroyed for large highways and corresponding 
sprawling neighborhoods. Such destruction of key environmental 
resources further contributes to climate change by eliminating carbon 
sinks like forests and wetlands. These pressures are particularly acute 
in the South, where sprawling suburban development has already led to 
environmental destruction, and where population numbers are expected to 
explode in coming years.
---------------------------------------------------------------------------
    \15\ DOT, Transportation's Role in Reducing U.S. Greenhouse Gas 
Emissions--Volume 1: Synthesis Report to Congress ES-10 (2010), 
available at http://ntl.bts.gov/lib/32000/32700/32779/
DOT_Climate_Change_Report_-_April_2010_-_Volume_1_and_2.pdf. (``[O]ur 
historic approach to transportation and land use has created an energy-
intensive system dependent on carbon-based fuels and automobiles.'').
---------------------------------------------------------------------------
    Moving away from these land use patterns is both necessary for 
climate goals and in line with changing preferences of the American 
public. Suburban living with lengthy commutes is no longer the American 
dream. Instead, younger generations are increasingly looking to live in 
communities where they can live, work, and play without getting into a 
car. More and more people, particularly in the Millennial generation, 
are consciously driving less and prefer to use alternate modes of 
transportation.\16\ The vast majority of Millennials express a 
preference for living in more urbanized, mixed-use, walkable 
communities with public transportation access.\17\ Existing compact, 
mixed-use development along public transportation routes have shown 
that such less automobile-dependent communities are a reality with 
corresponding real benefits: ``[r]esidents of communities with high-
quality, well integrated public transit . . . own half as many 
vehicles, drive half as many annual miles, walk and bicycle four times 
more, and use public transit ten times more than residents of more 
automobile-dependent communities.'' \18\
---------------------------------------------------------------------------
    \16\ TONY DUTZIK & PHINEAS BAXANDALL, U.S. PIRG FUND & FRONTIER 
GRP., A NEW DIRECTION: OUR CHANGING RELATIONSHIP WITH DRIVING AND THE 
IMPLICATIONS FOR AMERICA'S FUTURE 21-25 (2013), available at http://
www.uspirg.org/sites/pirg/files/reports/A%20New%20Direction%20vUS.pdf.
    \17\ Id. at 23; Millennials Prefer Cities to Suburbs, Subways to 
Driveways, NIELSON (Mar. 4, 2014), http://www.nielsen.com/us/en/
insights/news/2014/millennials-prefer-cities-to-suburbs-subways-to-
driveways.html.
    \18\ LITMAN, supra note 8, at 3.
---------------------------------------------------------------------------
    These preferences are pertinent to decisions about our future 
transportation network and climate change. A USDOT report identified 
changes to land use patterns as one of the transportation-related 
strategies with the greatest potential to reduce emissions,\19\ and it 
has been estimated that compact development can decrease driving rates 
by as much as 40% and in turn help reduce GHG emissions.\20\ These 
considerations must be a key factor in transportation planning and 
funding decisions at all levels of government, not only to meet our 
communities' evolving transportation needs, but also to ensure that we 
are capturing the significant GHG reduction potential offered by these 
changing preferences.
---------------------------------------------------------------------------
    \19\ DOT, Transportation's Role in Reducing U.S. Greenhouse Gas 
Emissions--Volume 1: Synthesis Report to Congress 3-18 (2010), 
available at http://ntl.bts.gov/lib/32000/32700/32779/
DOT_Climate_Change_Report_-_April_2010_-_Volume_1_and_2.pdf.
    \20\ Reid Ewing et al., Urban Land Institute, Growing Cooler: The 
Evidence on Urban Development and Climate Change 9, 33, 114 (2008).
---------------------------------------------------------------------------
C. Considering GHG Emissions in Planning and Environmental Reviews
    Another crucial strategy to reduce GHG emissions from the 
transportation sector is to ensure that GHG considerations are made a 
central component of planning and decision-making for our 
transportation systems. An important action was taken in this area in 
early 2017 when FHWA published a final rule to incorporate a CO2-
specific performance measure into transportation planning 
processes.\21\ This measure would have required states and MPOs to 
track carbon emissions of vehicles traveling on the National Highway 
System, establish targets for reducing these emissions, and report on 
progress in meeting their targets. The Trump Administration, however, 
subsequently delayed and then ultimately repealed the performance 
measure. This measure would have been a key step toward ensuring that 
states and MPOs give due consideration to the GHG emissions-related 
effects of their transportation planning decisions, and should be 
reinstated.
---------------------------------------------------------------------------
    \21\ National Performance Management Measures; Assessing 
Performance of the National Highway System, Freight Movement on the 
Interstate System, and Congestion Mitigation and Air Quality 
Improvement Program, 82 Fed. Reg. 5970 (Jan. 18, 2017).
---------------------------------------------------------------------------
    A similar scenario has played out in the context of environmental 
reviews under the National Environmental Policy Act (NEPA). In the wake 
of court decisions finding that NEPA requires consideration of the GHG 
emissions of proposed actions and in relation to reasonable 
alternatives, and after years of public input and discussion, the 
Council on Environmental Quality (CEQ) published guidance in August 
2016 outlining how federal agencies should approach climate change 
analyses in NEPA documents to ensure compliance with the statute.\22\ 
Among other things, CEQ provided that NEPA reviews should include 
analysis of a proposed action's expected GHG emissions, the relative 
GHG emissions of the proposal and alternative options, and potential 
climate-related risks and resiliency considerations related to the 
action and potential alternatives.\23\ In March 2017, President Trump 
signed an Executive Order directing that this guidance be revoked.\24\ 
We understand that new guidance may soon be issued, and we hope that 
such guidance will be consistent with settled law that requires 
agencies to consider air quality and climate change impacts likely to 
result from a project, including indirect impacts.\25\ It is also 
important that this new guidance echo the 2016 version in providing 
clarity to federal agencies about the proper review of alternatives in 
relation to climate change, as well as resiliency considerations.
---------------------------------------------------------------------------
    \22\ Christina Goldfuss, CEQ, ``Final Guidance for Federal 
Departments and Agencies on Consideration of Greenhouse Gas Emissions 
and the Effects of Climate Change in National Environmental Policy Act 
Reviews'' (Aug. 1, 2016); see also Notice of Availability at 81 Fed. 
Reg. 51866 (Aug. 5, 2016).
    \23\ In this regard, the guidance stated: ``Considering 
alternatives, including alternatives that mitigate GHG emissions, is 
fundamental to the NEPA process . . . Agency decisions are aided when 
there are reasonable alternatives that allow for comparing GHG 
emissions and carbon sequestration potential, trade-offs with other 
environmental values, and the risk from--and resilience to--climate 
change inherent in a proposed action and its design.'' Goldfuss, supra 
note 23 at 14-15.
    \24\ Exec. Order No. 13783, 82 Fed. Reg. 16093 (Mar. 28, 2017).
    \25\ See, e.g. Mid States Coal. for Progress v. Surface Transp. 
Bd., 345 F.3d 520, 549-50 (8th Cir. 2003) (holding an Environmental 
Impact Statement insufficient with regards to climate impacts from 
increased coal consumption because ``when the nature of the effect is 
reasonably foreseeable but its extent is not,'' the agency cannot 
ignore that effect); Sierra Club, et al. v. FERC, 867 F.3d 1357, 1375 
(D.C. Cir. 2017) (concluding that FERC should have estimated amount of 
power-plant carbon emissions that would result from project pipelines).
---------------------------------------------------------------------------
               ii. enhancing resiliency of infrastructure
    Even as we discuss how to reduce GHG emissions, we are experiencing 
the effects of climate change right now with rising sea levels, 
increasing frequency and severity of storms, heavier rainfall events 
and more.\26\ Southeastern states are being hit particularly hard with 
many coastal communities regularly suffering from flood and storm 
events. Indeed, Southern communities such as Hampton Roads and 
Charleston are among the areas most-threatened by sea level rise in the 
nation.
---------------------------------------------------------------------------
    \26\ See Trip Pollard, Damage Control: Adapting Transportation to a 
Changing Climate, 39 WM. & MARY ENVTL. L. & POL'Y REV. 365 (2014).
---------------------------------------------------------------------------
    On average, Southeastern coastline areas have already experienced 
one foot of sea level rise in the last century.\27\ By the end of this 
century, Southeastern shorelines could see over six feet of sea level 
rise by intermediate estimates, and the severity of storms and the 
damages they cause will continue to increase. For example, with 
Hurricane Matthew in 2016 and Hurricane Florence in 2018, the Carolina 
coast was dealt two so-called 1,000-year storms in only two years.\28\ 
Scientists found that climate change made Florence able to grow larger 
and drop 50% more rain compared to a world without high greenhouse gas 
emissions.\29\ One study found that if there had not been the 
significant sea level rise seen in the area since 1970, one out of five 
of the homes impacted by Florence along the Carolina coast would have 
had far less damage.\30\
---------------------------------------------------------------------------
    \27\ According to gauge observational data not modeling. S. 
Jevrejeva et al., Sea Level Projections to AD2500 with a New Generation 
of Climate Change Scenarios, 80-81 GLOBAL & PLANETARY CHANGE 14 (2012), 
doi:10.1016/j.gloplacha.2011.09.006.
    \28\ Exceedance Probability Analysis for Selected Storm Events, 
Nat'l Oceanic & Atmospheric Admin.'s Nat'l Weather Serv.'s 
Hydrometeorological Design Studies Ctr., http://www.nws.noaa.gov/oh/
hdsc/aep_storm_analysis (last modified Apr. 21, 2017).
    \29\ Kevin A. Reed et al., The Human Influence on Hurricane 
Florence, Stoney Brook University (Sept. 12, 2018), https://cpb-
use1.wpmucdn.com/you.stonybrook.edu/dist/4/945/files/2018/09/
climate_change_Florence_0911201800Z_final-262u19i.pdf.
    \30\ Andrew Freedman, Study: Sea Level Rise Boosted Hurricane 
Florence's Coastal Flooding, Axios (Sept. 24, 2018), https://
www.axios.com/sea-level-rise-hurricane-florence-coastal-flooding-
a32d013f-5b66-470a-9536-7a54c3001d64.html.
---------------------------------------------------------------------------
    Transportation infrastructure projects must be planned, and 
maintained, against this backdrop of climate change impacts. While much 
discussion of adaptation and resiliency focuses on how to effectively 
rebuild after a flood or storm event, more attention must be paid to 
how thoughtful planning of transportation projects can prevent some of 
this damage from happening in the first place.
A. Incorporating Resiliency into Location and Planning Decisions
    Large transportation infrastructure projects have a profound impact 
on the built and natural environments. For example, large highways 
often require the destruction of significant natural resources in their 
path such as forests and wetlands, and can cause further indirect harm 
by inducing growth into previously undisturbed areas. In the context of 
sea level rise and storm events, this dynamic of induced growth 
counsels against supporting projects that will bring growth into flood-
prone areas. For example, the proposed Mid-Currituck Bridge along the 
North Carolina Outer Banks would encourage growth in areas that will be 
underwater from rising seas within a few decades. Similarly problematic 
are proposals that would encourage growth in flood plains that are 
becoming increasingly subject to flood events. In essence, such 
projects invite greater future storm damage. Additionally, as sea level 
rise brings the coast inland, marshes will similarly migrate inland, 
which means that transportation proposals must be considered based on 
both existing wetland areas as well as anticipated future wetland 
locations. Transportation planners must take a long view when 
considering whether a project makes sense; just because it can be built 
now, does not mean it should be.
    Such transportation projects also run the risk of replacing natural 
features that manage flood events and sea level rise--such as forests, 
wetlands, and marshes--with impervious surfaces, undermining the 
natural ability of a project area to mitigate these effects and 
potentially exacerbating flooding issues. Transportation agencies must 
take a hard look at how proposed projects might harm natural resiliency 
features in the face of storm, flooding, and sea level projections. 
Specifically, as discussed above, transportation agencies must take 
these climate change impacts into account in their environmental 
reviews under NEPA. This should include reconsidering the regulations 
that allow agencies to rebuild a road, highway or bridge in its exact 
same location after being destroyed in a state-declared emergency 
event, without being subject to NEPA review to consider whether the 
facility should in fact be rebuilt at all in light of changing storm, 
flooding, and sea level patterns. See 23 C.F.R. Sec.  771.117(c)(9).
B. Ensuring Proper Maintenance of Existing Facilities
    A proactive approach with a long-term view is also needed with 
existing transportation facilities. Increasingly extreme weather events 
have meant increasing wear on our transportation infrastructure. Main 
corridors have been shut down for days at a time in the wake of severe 
storms, such as I-40 in North Carolina after Hurricane Florence. As 
these events become increasingly common, transportation agencies need 
to inventory their existing facilities and determine how best to 
maintain or upgrade infrastructure to be ready for the next severe 
weather or flooding event. Adequate and properly maintained stormwater 
facilities can help to guard against flooding of our roads and bridges 
and in some cases enable agencies to avoid building costly and 
unnecessary new infrastructure to address flooding issues. Such a ``fix 
it first'' approach is more cost-effective both in terms of dollars and 
environmental impacts.
                               conclusion
    Thank you for the opportunity to submit these comments. To 
meaningfully reduce GHG emissions and plan for a resilient future it is 
imperative that transportation laws, policies, and decision-makers take 
climate change seriously. We encourage you to continue exploring and to 
take steps to increase funding opportunities and make policy changes to 
reduce transportation-related GHG emissions along the lines of the 
recommendations provided above. We further encourage you to ensure that 
climate change and its effects, like sea level rise and severe storm 
events, are being adequately considered during transportation project 
planning and environmental reviews.

                                 <F-dash>
 Letter of February 22, 2019, from Matthew J. Strickler, Secretary of 
 Natural Resources, Commonwealth of Virginia, Submitted for the Record 
                       by Hon. DeFazio of Oregon
                                                 February 22, 2019.
Hon. Peter DeFazio
Chair
Hon. Sam Graves
Ranking Member
House Committee on Transportation and Infrastructure, 2134 Rayburn 
        Office Building, Washington, DC 20515
    Dear Chairman Defazio and Ranking Member Graves:
    I am writing today to offer the Commonwealth of Virginia's 
perspective on ways the federal government can better assist Virginia 
and other states in mitigating and adapting to the impacts of sea level 
rise and extreme weather events. Please accept this testimony for the 
record of the February 27, 2019 Transportation and Infrastructure 
Committee hearing titled ``Examining How Federal Infrastructure Policy 
Could Help Mitigate and Adapt to Climate Change.''
    Virginia has much at stake as Congress considers legislation to 
address our country's aging infrastructure. In addition to help 
repairing and modernizing roads, bridges, and railways, the 
Commonwealth requires the assistance of the federal government to make 
coastal communities and critical assets more resilient to climate 
change and natural hazards.
    Sea level rise and more frequent and intense weather events have 
combined with land subsidence to dramatically increase flooding and 
storm damage risk to coastal Virginia. We are not unique among coastal 
states in this regard, but with nearly 10,000 miles of tidal shoreline, 
the deepest and one of the busiest ports on the east coast, and 
numerous military installations including the largest naval base in the 
world, we are uniquely vulnerable.\1\
---------------------------------------------------------------------------
    \1\ https://www.vims.edu/bayinfo/faqs/shoreline_miles.php
---------------------------------------------------------------------------
    The recently published, Fourth National Climate Assessment report 
summary includes the following findings regarding infrastructure:

      Climate change and extreme weather events are expected to 
increasingly disrupt our Nation's energy and transportation systems, 
threatening more frequent and longer-lasting power outages, fuel 
shortages, and service disruptions, with cascading impacts on other 
critical sectors. The continued increase in the frequency and extent of 
high-tide flooding due to sea level rise threatens America's trillion-
dollar coastal property market and public infrastructure, with 
cascading impacts to the larger economy . . . Expected increases in the 
severity and frequency of heavy precipitation events will affect inland 
infrastructure in every region, including access to roads, the 
viability of bridges, and the safety of pipelines. Flooding from heavy 
rainfall, storm surge, and rising high tides is expected to compound 
existing issues with aging infrastructure in the Northeast.\2\
---------------------------------------------------------------------------
    \2\ https://nca2018.globalchange.gov/

    In Virginia, these warnings are already ringing true. According to 
the National Oceanic and Atmospheric Administration's 2017 Sea Level 
Trends Map, all eight of the sea level monitoring stations in the 
Commonwealth show a relative sea level rise of one to two feet per 
century, among the highest rates of sea level rise on the east or west 
coasts.\3\ The Hampton Roads Planning District Commission estimates the 
negative impacts on private property and public infrastructure from 
three feet of sea level rise in Southeastern Virginia, in the tens of 
billions of dollars.\4\ As this trend continues, the costs and profound 
impacts of natural hazards associated with climate change will only 
increase the longer we wait to address them. Public health and safety, 
our environment and natural resources, and the economic wellbeing of 
the Commonwealth, including our ports, military installations, 
transportation infrastructure, tourism assets, farms, forests, and 
fisheries are all at risk.
---------------------------------------------------------------------------
    \3\ https://tidesandcurrents.noaa.gov/sltrends/slrmap.html
    \4\ https://www.hrpdcva.gov/uploads/docs/
HRPDC_ClimateChangeReport2012_Full_
Reduced.pdf
---------------------------------------------------------------------------
    We must act now to protect lives and property and reduce taxpayer 
exposure through fiscally responsible planning. It is important to 
understand that we must not only work to make our existing 
infrastructure more resilient to sea level rise and other natural 
hazards, but that we will need to build new infrastructure, both green 
and grey, for the express purpose of making our coastal communities 
more resilient.
    Virginia is already doing its part. Last November, Governor Northam 
issued Executive Order (EO) 24: Increasing Virginia's Resilience to Sea 
Level Rise and Natural Hazards. This sweeping directive establishes a 
roadmap for making Virginia more resilient, including the creation of a 
Coastal Resilience Master Plan for the Commonwealth. A copy of E0-24 is 
attached for your reference.
    Given the enormous scope of this problem and the significant cost 
required to better protect people and property from extreme weather and 
sea level rise, Virginia will require the assistance of the federal 
government to address this pressing issue and to implement our Master 
Plan. On behalf of the Commonwealth of Virginia, we respectfully urge 
the Committee and Congress to consider the following recommendations as 
you develop infrastructure legislation:
1. Provide robust funding to help states and localities address sea 
        level rise and extreme weather events
    As detailed in this letter, the cost of making the United States 
more resilient to extreme weather and sea level rise is enormous. 
Without consistent, dedicated funding, coordinated fully across federal 
agencies, states like Virginia will not be able to adequately protect 
their citizens and the built and natural infrastructure that underpins 
their economies. In particular, we urge Congress to make significant 
investments in pre-disaster mitigation and resilience funding, and U.S. 
Army Corps of Engineers (Corps) flood protection projects. To meet the 
challenge before us, we will need unprecedented investment from the 
federal government to better protect America's coasts. We urge the 
committee to prioritize flood control projects for those areas most at 
risk, and to also prioritize projects that are part of comprehensive 
regional or multi-state plans rather than free-standing projects that 
may be advanced by a particular locality or interest.
2. Encourage green infrastructure solutions where applicable
    Science has shown us that natural defenses against flooding, storm 
surge, erosion, and other forces are often our most effective--and most 
cost effective--solutions for protecting vulnerable areas. By reducing 
storm water runoff and allowing floodplains to function, green 
infrastructure can help manage both localized and riverine floods. In 
areas impacted by localized flooding, green infrastructure practices 
absorb rainfall, preventing water from overwhelming pipe networks and 
pooling in streets or basements. In coastal areas, natural or nature-
based buffers and living shorelines can reduce storm surge and absorb 
flood waters. In addition, green infrastructure provides an array of 
co-benefits including improved water quality and productive fish and 
wildlife habitat. To the maximum extent possible, the Corps should look 
first toward natural and nature based infrastructure solutions for 
coastal protection and flood risk reduction, reserving more costly gray 
infrastructure for situations where it is the only feasible option. In 
Virginia, we hope to anchor our Coastal Resilience Master Plan with a 
limited number of structural flood protection projects, while we fill 
in the gaps with an array of softer solutions including coastal barrier 
protection, land acquisition, property buyouts, buffers, living 
shorelines and more.
3. Help states organize and prioritize flood control proiects
    For years, cities and towns have taken the lead on requesting Army 
Corps flood control studies and construction projects, which has led 
led to a long list of regional studies that either overlap or leave 
gaps in coverage along jurisdictional lines. To ensure that studies are 
providing the maximum benefit, the Corps should assist states in 
prioritizing and aggregating flood control projects. Furthermore, the 
Corps should prioritize new studies and new projects according to the 
greatest flood risk and the greatest economic needs, as well as giving 
priority to projects that are part of a regional comprehensive plan. In 
addition, the Corps should provide regional guidance for how to best 
address sea level rise and pre-disaster hazard mitigation.
4. Deliver timely Army Corps studies and consider third party analysis 
        and study
    In recent years, appropriations bills have limited the number of 
Corps flood control feasibility studies and project starts in any given 
year. We simply cannot afford the delay. Congress and the Corps must 
devise a way to expand capacity to complete such studies more quickly 
and begin detailed planning and project execution to reduce flooding 
and extreme weather risk.
    In an effort to address the critical need for flood control and 
pre-disaster hazard mitigation, some cities or towns have engaged 
private engineering companies to undertake studies on how to best 
reduce flooding. For example, Virginia Beach has spent more than $4 
million studying its vulnerabilities to flooding and sea level rise. 
Rather than begin a new feasibility study by the Corps, Congress should 
ensure that the Corps will accept and validate viable commercial and 
academic study work as the basis for, or in lieu of, a full feasibility 
study.
5. Ensure strong environmental review
    While both the need and desire for coastal protection projects are 
urgent, we must resist the temptation to circumvent or weaken bedrock 
environmental laws. This goes for all infrastructure projects. Robust 
reviews under the National Environmental Policy Act will help ensure 
that projects with negative unintended consequences are not selected, 
and that the needs of impacted communities--particularly environmental 
justice communities--are taken into account. Similarly, thorough and 
effective consultation under the Endangered Species Act is necessary to 
protect vulnerable fish, wildlife, and plants that serve as proxies for 
the health of entire natural systems.
    I understand and appreciate the challenging task that lies ahead of 
you in developing this infrastructure package, and I thank you for your 
consideration of these requests. Please do not hesitate to contact me 
if I can be of further assistance.
        Sincerely,
                                      Matthew J. Strickler,
           Secretary of Natural Resources, Commonwealth of Virginia



                                Appendix

                              ----------                              


 Questions from Hon. Henry C. ``Hank'' Johnson, Jr. for Daniel Sperling

Question 1: A few days ago, Vice President Mike Pence promised members 
of the National Association of Governors that Congress would pass an 
historic infrastructure bill next year. And of course, that would 
require bipartisan support.
    Do you believe that the administration's unpopular infrastructure 
proposal with this panel will muzzle governors in terms of their 
interactions with the Federal Government henceforth on infrastructure?
    Answer. I apologize, but I have no expertise in this area.

        Questions from Hon. Mark DeSaulnier for Daniel Sperling

Question 2: Your testimony raised the issue of the importance of land 
use in reducing greenhouse emissions. One problem we face in California 
is a shortage of housing located at a reasonable distance from job 
opportunities, with the consequence of more development sprawling out 
from urban centers and long, ``super commutes.''
    How do you think federal policy changes can achieve better 
coordination of land use and housing production with infrastructure 
investments?
    Answer. The federal government should review the design of two 
California laws (Senate Bills 375 and 743), and what we have learned. 
These two laws, described below, provide a framework for better 
coordinating land use, housing and transportation.
    The Sustainable Communities and Climate Protection Act of 2008, 
Senate Bill (SB) 375, (Chapter 728, Statutes of 2008) is intended to 
encourage regional planning that integrates land use, housing and 
transportation policy in a way that reduces greenhouse gas (GHG) 
emissions from driving, and ultimately results in healthier, more 
efficient, and equitable communities. Under SB 375, metropolitan 
planning organizations (MPOs) incorporate sustainable transportation 
strategies (e.g. local, regional and state transportation projects) and 
land use decisions (e.g. local general plans) in the development of 
their regional transportation plans to meet greenhouse gas reduction 
targets.
    We have learned two lessons so far from the implementation of this 
law. First, most of the strategies for achieving GHG emission 
reductions are the same strategies one would pursue to improve the 
performance and benefits of transportation investments and decisions. 
And second, for this type of law to be successful, strong carrots are 
needed. Carrots are needed to motivate local leaders and community 
groups to reframe and align transportation and environmental strategies 
and investments--a paradigm shift for the transportation community.
    California's Senate Bill 743 (Steinberg, Chapter 386, Statutes of 
2013), creates a process to change the way transportation impacts are 
analyzed under the California's Environmental Quality Act (CEQA). 
Specifically, it changes the metric of transportation impact in 
environmental reviews of projects from ``level of service'' to vehicle 
miles travelled (VMT). Lead agencies evaluate vehicle travel associated 
with new development as part of the project's environmental review and, 
if the impact is significant, mitigate those impacts by reducing 
vehicle travel. This new metric is aligned with the achievement of SB 
375 and more broadly, sustainable transportation goals.

    Question 3: What role do you think metropolitan planning 
organizations can play in helping to reduce emissions of greenhouse 
gases? What should the federal government ask MPOs to do differently in 
the way that they formulate transportation plans and prioritize 
investments in transportation improvements?
    Answer. See above No. 2. CARB has compiled a list of best practices 
for MPOs in the development of regional transportation plans that meet 
GHG reduction targets under SB 375. They can be found in Appendix C of 
a legislatively-required review of SB375 at https://ww2.arb.ca.gov/
sites/default/files/2018-11/
Final2018Report_SB150_112618_05_AppendixC.pdf

    Question 4: Should the federal government require states to measure 
and report on their annual greenhouse gas emissions from mobile 
sources? What about measuring and reporting on aggregate vehicle miles 
traveled (VMT)?
    Answer. Yes. The California Department of Transportation and the 
California Air Resources Board submitted comments on the Federal 
Highway Administration (FHWA) MAP-21 Notice of Proposed Rulemaking for 
the National Performance Management Measures. California strongly urged 
the FHWA to retain and implement the GHG performance measure 
established in the third performance measure final rule. As FHWA 
correctly recognized then, the GHG performance measure is an important 
mechanism to contribute to states' and U.S.'s efforts to reduce 
transportation's contribution to climate change by creating 
transparency and clarity in tracking total emissions from the sector. 
The comment letter can be found here: http://www.dot.ca.gov/hq/
transprog/map21/implementation/
ctcarb_110317_jt_cmt_ltr_for_the_fhwa_map-21_pm3_ghg_mea_nprm.pdf

Question 5: Even when transit service options exist, passengers may 
instead choose to drive or take a taxi, because they perceive that the 
transit service is unreliable, too slow, or simply too inconvenient.
    Besides the obvious need for greater investment in transit and the 
need for land use planning and housing development coordinated with 
transit, is there anything the federal government can do to incentivize 
transit agencies to perform better, spend money more effectively, and 
do more to innovate to provide better service to passengers?
    Answer. A wide variety of new technologies and business models have 
come into existence in the past few years. They present many 
opportunities to reduce costs to users, transit operators, and 
infrastructure providers. But they are new and often untested.
    i.  The federal government should create a large program to fund 
pilot projects that bring together innovators, technical experts, 
community members, and decision-making partners to find creative 
solutions for accelerating a change in travel choices away from single-
occupancy vehicles while improving accessibility and access to 
opportunity. Pilot projects could test which incentives best motivate 
travelers to shift to more sustainable travel modes; provide real-time 
consumer information; develop strategies for making the traveler 
experience outside of the single-occupancy vehicle more seamless; 
explore enhancements to transit operations; and/or better integrate 
walking, cycling, transit, and carpool options via mobility hubs or 
other approaches.
    ii.  Leverage experts to provide insight into the demands on the 
future transportation system, identify the transformative technologies, 
solutions, partnerships, and critical steps to meet those demands, in a 
way that provides clear environmental benefits and fosters greater 
livability, access to destinations, and compact infill development 
rather than accelerating sprawl. To highlight a few examples in 
California that could be done nationally: the State has initiated a 
Multi-agency Workgroup on Automated Vehicles to address deployment of 
connected and automated vehicles in California, and Senate Bill 1014 
(Skinner, 2018) now directs a number of agencies within the state to 
foster the use of cleaner cars and more carpooling in ride-hailing 
trips and directs establishment of goals for reducing the greenhouse 
gas emissions, including targets for the use of zero emission vehicles.
    iii.  Electrification of buses. Electric buses substantially lower 
operating costs, due to more efficient use of fuel and substantially 
lower maintenance costs. It is likely that EV transit buses will 
eventually have a lower total cost of ownership than diesel in most 
applications.
    iv.  New types of buses. DOT and others should start re-evaluating 
the standard 40 foot bus as the default transit vehicle. Automated and 
networked technologies may offer the ability to provide high-grade 
service using minibuses or vans, to areas which are often uneconomical 
for conventional buses.

Question 6: Between electrification, automation, and so-called ``smart 
cities'' we are clearly in the midst of technological innovations in 
transportation. Some may go so far as to put complete faith in 
technology's ability to solve many of our urban transportation 
challenges, believing that advances in technology will make certain 
forms of public transit obsolete. However, these technological advances 
will not necessarily, by themselves, address our needs for greater 
equity in mobility and accessibility, for connecting underserved 
communities with more opportunities, for walkable and bike-able urban 
spaces, for dynamic, diverse, and thriving neighborhoods. And our 
transit systems are clearly suffering from inadequate investment.
    Given our current need for better public transit on one hand, and 
the many technological innovations that are appearing on the horizon on 
the other hand, how should the current, changing landscape of 
technology innovations inform our planning and decision-making around 
public transportation?
    Answer. Planning should explore a range of possible futures and 
identify what policies can be expected to provide win-win solutions. 
California's MPOs are already exploring the impacts on innovations on 
their plans and policies.
    Also see No. 5 above.

          Questions from Hon. Mark Meadows for Daniel Sperling

Question 7: You mention in your testimony that California has, in part, 
addressed energy efficiency through performance standards. In 1993, 
President Bill Clinton issued Executive Order 12866, ``Regulatory 
Planning and Review'', which instructed regulatory agencies to 
``specify performance objectives, rather than specifying the behavior 
or manner of compliance that regulated entities must adopt.'' This 
policy was maintained by President George W. Bush and President Barack 
Obama.
    In your experience, do you agree that performance and outcome-based 
regulations, which provide just as much safety, are more effective than 
prescriptive procedural regulations in seeing efficiencies made across 
various industries?
    Answer. As a generalization, using market-based and performance-
based policies are preferable because they do not pick winners and 
losers and they motivate innovation. Prescriptive regulations are 
sometimes appropriate, but only if the desired technologies or actions 
are clear, obvious, and likely to be effective. CARB's success in 
reducing emissions from mobile sources has relied on a combination of 
incentives, prescriptive regulations, performance standards, and market 
instruments. This approach has allowed the state to overcome market and 
technology barriers for low carbon fuels and low and zero emissions 
vehicles, and develop pilot programs to support innovation and 
technology deployment. California has long recognized that there is no 
single solution for any sector and that working with industry and the 
broader public through a transparent process can help identify which 
approach is most cost-effective and feasible while achieving the 
desired environmental and public health outcomes. California's 
regulatory process requires that a performance-based regulation be 
considered when any rule is proposed. As a result, in practice, most of 
California's regulations are performance based and most major 
greenhouse gas regulations affecting transportation include a credit-
trading market mechanism.

      Question from Hon. Jesus G. ``Chuy'' Garcia for Vicki Arroyo

Question 1: In your testimony, you discussed the historical burdens 
disproportionately shouldered by low-income communities.
    Can you discuss how climate change heightens those discrepancies 
for communities of color or low-income individuals and what Federal 
programs can help to reverse years of inequitable planning and 
development?
    Answer. The negative impacts of climate change are not experienced 
equally by all individuals and communities; rather, communities of 
color, low-income communities, and individuals with disabilities are 
among those that typically feel the burdens of increased heat and heat 
waves, flooding, drought, hurricanes and other storms, and other 
climate stressors disproportionately.\1\ These ``frontline 
communities'' are more likely to live in areas with higher exposure to 
pollutants and impacts like extreme heat and flooding that are 
exacerbated by a changing climate. At the same time they are less 
likely to have the resources to adapt to the impacts of climate change 
or to evacuate when faced with a major disaster event like a hurricane, 
as was clearly demonstrated during Hurricane Katrina.\2\ This unequal 
distribution of climate and disaster impacts is due in large part to 
the effects of decades of systematic oppression through inequitable 
planning and policymaking at federal, state, and local levels. As a 
result, individuals in frontline communities may be more vulnerable to 
health-related effects (e.g., asthma) and infrastructure failures 
(e.g., due to sub-standard housing and aging infrastructure) resulting 
from climate change and natural disasters, while receiving less 
protection from government services and policies.
---------------------------------------------------------------------------
    \1\ For more discussion on how frontline communities experience 
climate change and disaster event impacts disproportionately, see 
NAACP, In the Eye of the Storm: A People's Guide to Transforming Crisis 
and Advancing Equity in the Disaster Continuum, (2018), available at 
https://live-naacp-site.pantheonsite.io/wp-content/uploads/2018/09/
NAACP_InTheEyeOfTheStorm.pdf; Rejane Frederick, Rebecca Cokley, Hannah 
Leibson, and Eliza Schultz, Center for American Progress, Serving the 
Hardest Hit: Centering People with Disabilities in Emergency Planning 
and Response Efforts, Sept. 24, 2018, available at https://
www.americanprogress.org/issues/disability/reports/2018/09/24/458467/
serving-hardest-hit/.
    \2\ For a discussion of historical inequality in disaster law and 
policy, see Daniel A. Farber, Disaster Law and Inequality, available at 
https://ccrm.berkeley.edu/pdfs_papers/
Disaster_Law_and_Inequality_Farber.pdf.
---------------------------------------------------------------------------
    Furthermore, in addition to the disproportionate effects of 
environmental disasters on frontline communities, recent research has 
shown that FEMA disaster aid may also be contributing to an increase in 
wealth inequality along racial lines.\3\ While the researchers note 
that the cause is unclear, it has been shown from past events (e.g., 
Hurricane Katrina) that FEMA aid is not distributed equitably and the 
impacts of selective infrastructure redevelopment, while positive for 
some communities, can be conversely detrimental to others.
---------------------------------------------------------------------------
    \3\ University of Pittsburgh News Services, ``Natural Disasters, 
FEMA Aid Widen Racial Wealth Gap,'' Aug. 27, 2018, http://
www.news.pitt.edu/news/natural-disasters-fema-aid-widen-racial-wealth-
gap.
---------------------------------------------------------------------------
    Congress should act to ensure that funding through Federal disaster 
recovery programs (as well as other programs that provide funding to 
states and local governments for infrastructure or community 
investments) is distributed equitably to help reverse decades of 
inequality in Federal investments at state and local levels. 
Additionally, more could be done to ensure that frontline communities 
and environmental justice and community-based organizations have a 
voice in decision making relating to Federal investments and disaster 
planning and recovery. The Federal government should also be doing more 
to track these disproportionate impacts of climate change and natural 
disasters so as to better target future investments and government 
services (e.g., emergency management and response) to benefit frontline 
communities.\4\
---------------------------------------------------------------------------
    \4\ For example, in Disaster Law and Inequality, Farber notes that 
FEMA should include demographic information alongside flood hazard maps 
and consider such information in environmental reviews of major federal 
projects that impact disaster preparedness (e.g., levees), and 
demographic statistics should be collected and immediately published 
following disaster events. Daniel A. Farber, Disaster Law and 
Inequality, 13, available at https://ccrm.berkeley.edu/pdfs_papers/
Disaster_Law_and_Inequality_Farber.pdf.
---------------------------------------------------------------------------

   Question from Hon. Henry C. ``Hank'' Johnson, Jr. for Vicki Arroyo

Question 2: A few days ago, Vice President Mike Pence promised members 
of the National Association of Governors that Congress would pass an 
historic infrastructure bill next year. And of course, that would 
require bipartisan support.
    Do you believe that the administration's unpopular infrastructure 
proposal with this panel will muzzle governors in terms of their 
interactions with the Federal Government henceforth on infrastructure?
    Answer. Governors from both parties are enacting ambitious 
proposals to invest in transportation infrastructure, reduce greenhouse 
gas emissions, and make transportation systems more resilient to the 
impacts of climate change. For example, Massachusetts Governor Baker 
established the Commission on the Future of Transportation in the 
Commonwealth to advise his administration on the needs and challenges 
of the transportation system of the future.\5\ In California, governors 
from both parties have enacted a cap-and-trade system that includes 
transportation fuels, and have used the proceeds generated from the 
program to invest in multi-modal low-carbon transportation 
solutions.\6\ A federal infrastructure bill would be strengthened and 
made more effective by building from the successful investments and 
planning processes underway in states across the country.
---------------------------------------------------------------------------
    \5\ Commonwealth of Massachusetts, Commission on the Future of 
Transportation, https://www.mass.gov/orgs/commission-on-the-future-of-
transportation
    \6\ State of California, California Climate Investments, http://
www.caclimateinvestments.ca.gov/
---------------------------------------------------------------------------

          Questions from Hon. Mark DeSaulnier for Vicki Arroyo

Question 3: A Your testimony raised the issue of the importance of land 
use in reducing greenhouse emissions. One problem we face in California 
is a shortage of housing located at a reasonable distance from job 
opportunities, with the consequence of more development sprawling out 
from urban centers and long, ``super commutes.''
    How do you think federal policy changes can achieve better 
coordination of land use and housing production with infrastructure 
investments?
    Answer. One important strategy for transportation and housing 
policy is transit-oriented development. One policy idea to incentivize 
transit-oriented development would be a federal program to provide low-
cost financing for housing investment near transit and rail hubs. This 
program could be structured similarly to the Federal Highway 
Administration's Transportation Infrastructure Finance and Innovation 
Act (TIFIA).\7\
---------------------------------------------------------------------------
    \7\ Smart Growth America, Legislative Priorities, https://
smartgrowthamerica.org/our-vision/advocacy/legislative-priorities/
---------------------------------------------------------------------------
    States have explored incentive programs for smart growth and in-
fill development, as an effective strategy for creating more affordable 
housing and reducing greenhouse gas emissions. In Massachusetts, the 
Smart Growth Zoning Overlay District Act has offered cities and towns a 
financial incentive to build residential dwellings in designed ``smart 
growth'' districts.\8\ A federal program that made community 
development funding available for smart growth, infill, and transit-
oriented development could serve as an effective policy mechanism.
---------------------------------------------------------------------------
    \8\ See: 760 CMR 59, http://www.mass.gov/hed/community/planning/
chapter-40-r.html

    Question 4: What role do you think metropolitan planning 
organizations can play in helping to reduce emissions of greenhouse 
gases? What should the federal government ask MPOs to do differently in 
the way that they formulate transportation plans and prioritize 
investments in transportation improvements?
    Answer. Metropolitan Planning Organizations (MPOs) have a critical 
role in reducing transportation GHG emissions through their roles 
coordinating active transportation, public transit, and traffic demand 
management strategies as part of the transportation planning process. 
The importance of MPOs to transportation and emission reduction 
planning is increasingly due to demographic trends: suburban counties 
are the fastest growing area type in the United States, with a 16 
percent growth since 2000, \9\ and MPOs can play a critical ensuring 
that population and economic growth in urban and suburban counties is 
decoupled from increases in greenhouse gas emissions.
---------------------------------------------------------------------------
    \9\ Pew Research Center, Demographic and economic trends in urban, 
suburban and rural communities (May 22, 2018), https://
www.pewsocialtrends.org/2018/05/22/demographic-and-economic-trends-in-
urban-suburban-and-rural-communities/
---------------------------------------------------------------------------
    While most land use planning authority is held at the state and 
local level, the federal government could incentive MPOs and regional 
planners to consider GHG emissions and develop strategies to reduce 
emissions through the structure of transportation funding programs. For 
example, the federal government could require transportation GHG 
emissions evaluation as part of the longrange transportation plans and 
three-year statewide transportation improvement programs developed by 
MPOs.
    Several states already require MPOs to set and meet mandatory or 
voluntary GHG emission reduction goals for transportation. For example, 
under California's Sustainable Communities and Climate Protection Act 
of 2008 (S.B. 375), the state sets a GHG target for each MPO and 
requires each MPO to develop a Sustainable Communities Strategies to 
meet its GHG target.\10\ These Sustainable Communities Strategies are 
incorporated into each MPO's federally required long-range 
transportation plan.\11\ The California requirement does not penalize 
MPOs that do not achieve the target, but does provide incentives for 
those that do. Oregon has passed legislation that requires the MPO for 
Portland (and encourages other MPOs) to conduct scenario planning for 
meeting transportation-sector GHGs reductions targets set by the 
state.\12\
---------------------------------------------------------------------------
    \10\ California Air Resources Board, Sustainable Communities, 
https://www.arb.ca.gov/cc/sb375/sb375.htm
    \11\ Cal . Gov't Code Sec.  14522.1
    \12\ Chapter 865 Oregon Laws 2009 (House Bill 2001); Chapter 85 
Oregon Laws 2010 Special Session (Senate Bill 1059). See also Oregon 
Land Conservation and Development Commission, Metropolitan Greenhouse 
Gas Reduction Targets, Oregon Administrative Rule (OAR) 660-012, (May 
19, 2011).

    Question 5: Should the federal government require states to measure 
and report on their annual greenhouse gas emissions from mobile 
sources? What about measuring and reporting on aggregate vehicle miles 
traveled (VMT)?
    Answer. In January 2017, the U.S. Federal Highway Administration 
(FHWA) issued a regulation requiring states to identify a GHG 
performance measure and report on progress.\13\ The GHG performance 
measure was repealed in May 2018.\14\
---------------------------------------------------------------------------
    \13\ National Performance Management Measures; Assessing 
Performance of the National Highway System, Freight Movement on the 
Interstate System, and Congestion Mitigation and Air Quality 
Improvement Program, 82 Fed. Reg. 5979, 5993-6003 (Jan. 18, 2017).
    \14\ National Performance Management Measures; Assessing 
Performance of the National Highway System, Freight Movement on the 
Interstate System, and Congestion Mitigation and Air Quality 
Improvement Program, 83 Fed. Reg. 24920, (May 31, 2018).
---------------------------------------------------------------------------
    When U.S. FHWA issued the draft rule to establish the performance 
measure (and again during regulatory repeal of the performance 
measure), several state departments of transportation submitted 
comments in favor of the GHG performance measure. For example, 
Minnesota Department of Transportation Commissioner Zelle submitted a 
comment suggesting that the performance measure was ``needed as an 
authority to track efforts to reduce transportation GHG emissions'' and 
that the rule as originally promulgated would not be an administrative 
burden; estimating the ``burden for analysis and reporting to be less 
than two hours per year.'' \15\
---------------------------------------------------------------------------
    \15\ Comment from Charles A. Zelle, Commissioner, Minnesota 
Department of Transportation; Re: Federal Highway Administration's 
``National Performance Management Measures; Assessing the Performance 
of the National Highway System, Freight Movement on the Interstate 
System, and Congestion Mitigation and Air Quality Improvement 
Program;'' proposed rule (Docket Number FHWA-2017-0025); https://
www.regulations.gov/document?D=FHWA-2017-0025-0148
---------------------------------------------------------------------------
    For an institution such as Georgetown Climate Center, with a goal 
of supporting state and local government policymakers, accurate and 
timely data on vehicle miles traveled and GHG emissions from the 
transportation sector is important for conducting analysis.

Question 6: Even when transit service options exist, passengers may 
instead choose to drive or take a taxi, because they perceive that the 
transit service is unreliable, too slow, or simply too inconvenient.
    Besides the obvious need for greater investment in transit and the 
need for land use planning and housing development coordinated with 
transit, is there anything the federal government can do to incentivize 
transit agencies to perform better, spend money more effectively, and 
do more to innovate to provide better service to passengers?
    Answer. Electric transit buses offer an enormous opportunity for 
improved public transit that reduces air pollution and GHG emissions, 
while providing a better experience for passengers. Federal programs to 
increase technical support for transit agencies will lead to a more 
efficient and faster transition to electric fleets. Additionally, 
federal funding programs could significantly increase their impact by 
incentivizing private financing of transit buses (monetizing the 
operational cost savings of electric buses).
Technical Assistance to Support Fleet Transition:
    The federal government could provide valuable support for transit 
fleet electrification by significantly expanding grant funding for both 
technical analyses and fleet transition planning for transit agencies. 
This planning assistance could be highly effective at ensuring cost-
efficient investments in electric buses and charging infrastructure. 
Transit agencies with medium-term plans to electrify their entire fleet 
face significant logistical challenges for operations, routing, and 
charging buses. While limited-scale pilot deployments of electric 
transit buses provide valuable experience, many of the challenges of 
full fleet electrification will not be answered through a pilot 
deployment. For example, the charging infrastructure considerations for 
five electric buses will be very different than those for 100 electric 
buses (for example, depending on electric distribution infrastructure 
capacity and constraints, a transit agency may favor `depot' charging 
for a limited pilot deployment, but will require on-route charging for 
a fully electrified fleet). Federal funding for fleet assessment and 
transition plans for transit agencies will help to ensure that pilot 
projects are effectively and efficiently deployed.
Leveraging Public Funds with Electric Transit Bus Financing
    Electric transit buses are already nearly competitive with diesel 
buses on a total cost of ownership basis (when including fuel and 
maintenance costs), and will reach cost parity over the coming 
years.\16\ One important opportunity is to explore how clean energy 
financing strategies, such as ``Pay As You Save'' financing, \17\ could 
to increase the impact of federal funding and help meet the huge demand 
from transit bus fleets for federal support. Clean energy financing 
strategies could leverage limited public-sector funding by attracting 
low-cost private financing that monetizes the operational cost savings 
of electric transit buses. The U.S. Department of Transportation 
Federal Transit Administration's ``Low- or No-Emission'' (``Low-No'') 
Grant program has been instrumental in providing the funding needed by 
transit agencies to add zero-emission buses to their fleets, but this 
funding is generally not paired with financing--in general, the grant 
funding pays for the entire upfront cost premium of electric transit 
buses. Congress could authorize a modified or expanded Low-No grant 
program that incentivizes transit agency applications that include 
private financing and investment. As an alternative (to avoid 
penalizing transit agencies without a willing financing partner) this 
could be developed as a complementary program in addition to the 
existing Low-No grant program.
---------------------------------------------------------------------------
    \16\ Electric Buses in Cities: Driving Towards Cleaner Air and 
Lower CO2, C40 (Mar. 29, 2018), 
https://c40-productionimages.s3.amazonaws.com/other_uploads/images/
1726_BNEF_C40_Electric_buses_in_cities_
FINAL_APPROVED_%282%29.original.pdf?1523363881.
    \17\ Tariffed On-Bill Finance to Accelerate Clean Transit, CLEAN 
ENERGY WORKS, http://www.cleanenergyworks.org/home/clean-transit/

Question 7: Between electrification, automation, and so-called ``smart 
cities'' we are clearly in the midst of technological innovations in 
transportation. Some may go so far as to put complete faith in 
technology's ability to solve many of our urban transportation 
challenges, believing that advances in technology will make certain 
forms of public transit obsolete. However, these technological advances 
will not necessarily, by themselves, address our needs for greater 
equity in mobility and accessibility, for connecting underserved 
communities with more opportunities, for walkable and bike-able urban 
spaces, for dynamic, diverse, and thriving neighborhoods. And our 
transit systems are clearly suffering from inadequate investment.
    Given our current need for better public transit on one hand, and 
the many technological innovations that are appearing on the horizon on 
the other hand, how should the current, changing landscape of 
technology innovations inform our planning and decision-making around 
public transportation?
    Answer. While automated vehicles have the potential to create 
significant benefits for public safety and mobility; the energy, 
emissions, equity, and land use implications are very uncertain, and 
may depend on the fuel type and public transportation infrastructure 
used by these vehicles, as well as public policy intervention.\18\ 
Leading transportation researchers and forecasts are showing that the 
deployment of automated vehicles could lead to a significant increase 
or decrease in emissions. A recent study conducted by several U.S. 
national labs concluded that the deployment of highly automated 
vehicles (in the absence of electrification) could lead to a 200 
percent increase or 60 percent decrease in fuel use.\19\ Recent 
analysis has discussed the enormous opportunities from aligning the 
emerging technology trends of vehicle electrification and automation, 
along with shared use of vehicles. However, most analyses point to the 
need for strong public policies to ensure that automated vehicles 
result in a reduction in vehicle emissions and increase in mobility 
options, rather than an increase in congestion, vehicle miles traveled, 
fuel use, and emissions.\20\
---------------------------------------------------------------------------
    \18\ Zia Wadud, Don MacKenzie, and Paul Leiby (2016) https://
www.sciencedirect.com/science/article/pii/S0965856415002694
    \19\ T.S. Stephens, et. al., National Renewable Energy Laboratory, 
Estimated Bounds and Important Factors for Fuel Use and Consumer Costs 
of Connected and Automated Vehicles (2016), https://www.nrel.gov/docs/
fy17osti/67216.pdf
    \20\ See generally UC Davis Institute for Transportation Studies, 
Three Revolutions Policy Initiative, https://3rev.ucdavis.edu/
policybriefs/
---------------------------------------------------------------------------
    Additionally, the timeline for deployment of fully automated 
vehicles outside of small geo-fenced areas is highly uncertain. Ford 
Motor Co. chief executive officer Jim Hackett said at an April 2019 
event: ``We overestimated the arrival of autonomous vehicles,'' and 
that the near-term applications will be limited.\21\ Policy makers 
should not wait for the arrival of full vehicle automation to address 
challenges such as air pollution, GHG emissions, and more inequitable 
mobility.
    At the same time, policymakers can implement programs to improve 
transportation in the near term while preparing for the ultimate 
arrival of highly automated vehicles. For example, transitioning to 
zero-emission transit and for-hire vehicle fleets will establish the 
charging infrastructure and routing logistics that will enable zero-
emission driverless transit (when the technology is mature). Cities 
across the country are developing strategies and working with 
businesses to deploy shared electric mobility.\22\ The federal 
government could provide additional support to better integrate 
traditional, fixed-line transit with new on-demand shared-use options. 
For example, transit agencies across the country are exploring 
partnerships with transportation networking companies to offer 
discounts for trips that begin or end at a transit station.\23\ Another 
idea being piloted is transit agencies replacing low-occupancy transit 
routes with an on-demand ride-hailing option, \24\ which can create the 
opportunity to reinvest cost savings into providing better service 
along core transit routes. If done effectively and in consultation with 
affected communities, programs such as these can help to modernize 
transit services and prepare for upcoming technology deployments. On 
the other hand, policymakers should be mindful of recent studies 
finding that transportation networking companies such as Lyft and Uber 
are increasing vehicle miles traveled and congestion and decreasing 
transit use.\25\ Policies to encourage shared trips (such as a per-trip 
fee, rather than per-booking fee), connections with transit, and 
electrification of these vehicles will be critical for this new 
mobility option to be in the public interest.\26\
---------------------------------------------------------------------------
    \21\ Keith Naughton, Bloomberg News, ``Ford CEO Tamps Down 
Expectations for First Autonomous Vehicles'' (April 9, 2019), https://
www.bloomberg.com/news/articles/2019-04-09/ford-ceo-tamps-down-
expectations-for-first-autonomous-vehicles
    \22\ Seattle Department of Transportation, EVSE Roadmap for Shared 
Mobility Hubs (December 2018), http://evsharedmobility.org/wpcontent/
uploads/2018/12/SDOT_EVSE_Roadmap_
for_Shared_Mobility_Hubs.pdf
    \23\ See, e.g., City of Charlotte, North Carolina, ``CATS Announces 
First Mile / Last Mile Partnership with Lyft'' (April 9, 2018), https:/
/charlottenc.gov/newsroom/releases/Pages/PR-20180409.aspx
    \24\ For example, the City of Arlington, Texas, contracts with Via 
to provide on-demand rides. ``Transportation--City of Arlington, TX,'' 
www.arlington-tx.gov/residents/transportation
    \25\ See e.g., Schaller Consulting, The New Automobility: Lyft, 
Uber and the Future of American Cities (July 25, 2018), http://
www.schallerconsult.com/rideservices/automobility.pdf
    \26\ Daniel Sperling, Three Revolutions: Steering Automated, 
Shared, and Electric Vehicles to a Better Future, Island Press 2018.
---------------------------------------------------------------------------

           Questions from Hon. Mark Meadows for Vicki Arroyo

Question 8: In your testimony, you talk about how the United States has 
experienced extreme weather-related events that have cost over $1 
billion (adds up to $1.6 trillion since 1980). In fiscal year 2018 
alone, Congress provided over $100 billion in assistance for federal 
disasters, in large part due to hurricanes Harvey, Irma, and Maria--
causing damage to infrastructure, communities, and cities. 
Understanding your testimony focuses on transportation resiliency, 
clearly there is more that the federal government can do on projects to 
mitigate and help communities recover from disasters.
    Do you think the federal government can be doing more to track how 
federal money is being spent on disasters, including the nature of 
specific awards and loans?
    Answer. Better tracking of federal disaster recovery dollars across 
the many agencies involved in recovery efforts could significantly 
improve the efficiency of research efforts relating to disaster 
recovery, and lead to improved program effectiveness. Organizations 
that have conducted research in the past on federal disaster recovery 
programs have overwhelmingly noted the complexity and administrative 
challenges of these programs, and lack of transparency in assessing how 
funds are spent and how effective those investments are after the fact. 
For example, our Center hosted workshops with federal agencies, states, 
and other stakeholders several years back to discuss opportunities for 
improving federal programs to better support state and local 
resilience, including one workshop focused primarily on disaster relief 
programs. Based on input at those events, we found across the board 
that beneficiaries of federal program funding could benefit from 
improved interagency collaboration and alignment of program funding 
streams, paperwork, and regulatory requirements. Along these lines, 
stakeholders reported a need for recipients' reporting requirements to 
be aligned across federal disaster relief programs as well.\27\ 
Similarly, by aligning federal agencies' reporting requirements 
relating to their disaster-related expenditures, overall transparency 
regarding disaster costs could be improved; this was suggested in a 
recent CRS report on 2017 disaster supplemental appropriations.\28\ 
Improved tracking of federal spending related to disaster events could 
also help to identify where post-disaster investments are contributing 
to improved resilience and future hazard mitigation, which ultimately 
will help translate to cost savings through avoided losses in the 
future when the next disaster strikes, thereby saving taxpayer dollars.
---------------------------------------------------------------------------
    \27\ See Georgetown Climate Center, Preparing Our Communities for 
Climate Impacts: Recommendations for Federal Action, Chapter 2 (2014), 
available at https://www.georgetownclimate.org/files/report/GCC%20-
%20Recommendations%20for%20Federal%20Action%20-%20September%202014.pdf.
    \28\ See Congressional Research Service, 2017 Disaster Supplemental 
Appropriations: Overview, 22-23 (March 20, 2018), available at https://
fas.org/sgp/crs/homesec/R45084.pdf.

    Question 9: Should the Federal government have a more centralized 
way to report how Federal money is being spent so that researchers like 
you can better understand what efforts the federal government is doing 
to focus and help mitigate disasters?
    Answer. A centralized reporting system for tracking federal 
spending relating to disasters would be a vast improvement in terms of 
government transparency and accountability. With a trend towards 
increasing extreme weather events and related costs, it is important 
for the Federal government and researchers to understand where and how 
recovery dollars are being utilized. This may help identify 
opportunities for cost-effective pre-disaster mitigation, and ensure 
that post-disaster recovery funds in the future are spent wisely on 
investments that will withstand extreme storms and other environmental 
conditions of the future.

Question 10: As a follow-up, my home state of North Carolina has been 
recovering from Hurricane Matthew for more than two years. Extreme 
weather conditions like hurricanes and flooding put immense strain on, 
not only federal resources, but also on state and local resources in 
responding to these events. We have identified that there are more than 
17 federal agencies involved in federal assistance, not to mention 
countless state, local, tribal, and various non-profit organizations as 
well. In your research of states and cities and how they respond to 
natural disasters, surely you must have seen many instances of 
bureaucratic slow-downs and inefficiencies that should be addressed.
    Do you think it would be beneficial to have a lead federal agency 
in charge of coordinating state, local, and federal response efforts, 
as well as undertaking efforts to provide assessments related to damage 
caused by disasters to better streamline the federal response?
    Answer. If done effectively, having a lead federal agency to 
coordinate disaster response across federal agencies and with state and 
local emergency management agencies could prove useful to improve the 
efficiency and effectiveness of disaster response and recovery. 
Similarly, it would benefit federal agencies, researchers, and the 
American public if federal agencies improved in their tracking of 
disaster spending and efforts, and having a single agency to coordinate 
the gathering and reporting of these efforts could help to improve 
government efficiency and accountability.

            Question from Hon. David Rouzer for Vicki Arroyo

Question 11: Any discussion of energy infrastructure must include 
nuclear and natural gas. Nuclear provides 20 percent of our Nation's 
electricity, creates good paying jobs, and is reliable around the 
clock, all without producing emissions. My community is lucky to have 
the Brunswick Nuclear Plant and is also poised to benefit from natural 
gas pipeline infrastructure, specifically the Atlantic Coast Pipeline 
(ACP). Energy customers in eastern North Carolina--including 
homeowners, small businesses, and manufacturers--are depending on the 
ACP to provide affordable and reliable natural gas.
    Shouldn't we keep assets like the Brunswick running while 
developing new critical infrastructure like the ACP?
    Answer. States across the country are taking different approaches 
to existing nuclear power generation assets as part of the transition 
to lower carbon electricity generation. For example, New York developed 
a clean energy standard (CES) that includes a renewable energy standard 
(RES) and the zero-emissions credit (ZEC) requirement.\29\ The CES was 
established to ``provide[]support for safely-operating upstate nuclear 
plants'' while ensuring that 50 percent of New York State's electricity 
will be generated by renewables by 2030 (this goal was later increased 
to 70 percent renewable sources, such as solar and wind, by 2030).\30\ 
The New York Clean Energy Standard complements other regulatory 
programs, such as the Regional Greenhouse Gas Initiative. The New York 
Public Service Commission order approving the CES cited the example of 
Germany, where an ``abrupt closure of all its nuclear plants resulted 
in a large increase in the use of coal, causing total carbon emissions 
to rise despite an aggressive increase in solar generation.'' \31\
---------------------------------------------------------------------------
    \29\ Order Adopting a Clean Energy Standard, N.Y. Pub. Serv. Comm., 
Case 15-E-0302 (Aug. 1, 2016).
    \30\ New York State Energy Research and Development Agency, 
``Renewing the Energy Vision, Clean Energy Standard,'' https://
www.nyserda.ny.gov/All-Programs/Programs/Clean-Energy-Standard
    \31\ Order Adopting a Clean Energy Standard, N.Y. Pub. Serv. Comm., 
Case 15-E-0302 (Aug. 1, 2016).
---------------------------------------------------------------------------

            Questions from Hon. Scott Perry for Vicki Arroyo

    Question 12: Please list all the modes of transportation you used 
en-route to this hearing (If a vehicle was used for travel, please 
clarify if it had an internal combustion engine).
    Answer. I drove from my home in Arlington to the Georgetown Climate 
Center in the morning in my electric car, a Chevrolet Bolt. For the 
trip from Georgetown Law to the Capitol Visitor Center, my staff and I 
traveled in a taxi cab licensed by the District of Columbia Department 
of For-Hire Vehicles. It had an internal combustion engine, but may 
have been a hybrid.

    Questions 13 and 14: During the hearing, I asked about spatial gaps 
in the global surface temperature station coverage and the impact these 
unaccounted-for swaths of the globe on the temperature record's 
validity. Based on your response, it seems like there was some 
confusion about the study I cited and the temperature record it 
referred to so I'd like to take this opportunity to clarify a few 
things and explore this issue further.
    First, the global average surface temperature data refers to the 
input data for the three main global temperature histories--the NOAA 
Merged Land-Ocean Surface Temperature (MLOST) record, the NASA-GISS 
(GISTEMP) record, and the Hadley-CRU (HADCRU) record--not the satellite 
record. The satellite datasets did not begin until 1979 so even if this 
was the dataset in question, it would do nothing to alleviate the gaps 
in station coverage in the Southern Hemisphere and the oceans 
referenced in Hansen et al. (1981). It is incredibly important to 
understand that the gap in coverage referenced by Hansen et al. (1981) 
is not for any one of the three temperature records, rather this 
surface area is not recorded in the data archives used as the land 
temperature and sea surface temperature (SST) inputs used for all three 
records. Though they are produced by different entities, these three 
records are comprised of nearly identical surface temperature input 
data--the Global Historical Climatology Network (GHCN) for land surface 
temperature (LST) inputs and the International Comprehensive Ocean-
Atmosphere Data Set (ICOADS) for SST inputs--with very little 
exception; the best available estimate is that 90-95 percent of the raw 
data is the same in all three records.\32\ \33\ Given the significant 
overlap of raw data underlying the three temperature records, it is 
incredibly important that the data be accurate and its coverage be 
widespread. As I stated in my line of questioning, Hansen et al. 
(1981), relaying concerns about the existence of Southern Hemisphere 
and oceanic data,\34\ seriously calls into question the extent of the 
raw data coverage and the validity of the three temperature records 
relying upon the raw data in the GHCN and ICOADS that now claim to have 
credible station temperature records going back to 1880.\35\
---------------------------------------------------------------------------
    \32\ McKitrick, Ross, A Critical Review of Global Surface 
Temperature Data Products (August 5, 2010): 4. https://ssrn.com/
abstract=1653928
    \33\ Pielke, R. A., Sr. et al., Unresolved issues with the 
assessment of multidecadal global land surface temperature trends, J. 
Geophys. Res., 112, (December 29, 2007), D24S08, doi:10.1029/
2006JD008229.
    \34\ ``Problems in obtaining a global temperature history are due 
to the uneven station distribution with the Southern Hemisphere and 
ocean areas poorly represented, and the small number of stations for 
earlier times.'' James Hansen et al., ``Climate Impact of Increasing 
Atmospheric Carbon Dioxide'', Science, Vol. 213, no. 4511 (August 28, 
1981): 961. See: http://www.sealevel.info/1981_Hansen_etal_1.pdf.
    \35\ ``Source of the temperature data: GHCN-v3 1880-01/2019'', 
NASA-GISS, S.HEMISPH. Station Temperature Index in 0.01 degrees 
Celsius, https://data.giss.nasa.gov/gistemp/tabledata_v3/SH.Ts.txt
---------------------------------------------------------------------------
    It should be noted that Dr. James Hansen is not a scientist who 
``might quibble with'' the theory of global warming; in fact, he was 
one of the earliest and remains one of the most prominent proponents of 
the theory of catastrophic anthropomorphic global warming. Dr. Hansen 
became the Director of NASA Goddard Institute for Space Studies in 1981 
and oversaw the creation and development of the GISTEMP temperature 
analysis; which filled in the gaps by extrapolating the existing 
southern hemisphere data to fill the entire hemisphere.\36\ 
Interestingly, GISTEMP was refined in 1987; providing the scientific 
basis of his 1988 testimony before the Senate Committee on Energy and 
Natural Resources where he claimed ``it was 99 percent certain that the 
warming trend was not a natural variation but was caused by a buildup 
of carbon dioxide and other artificial gases in the atmosphere.'' \37\ 
This timeline is suspect and his predictions were significantly warmer 
than what has been observed.
---------------------------------------------------------------------------
    \36\ NASA-GISS, ``History of GISTEMP'', https://data.giss.nasa.gov/
gistemp/history/
    \37\ Shabecoff, ``Global Warming Has Begun'', NYT (1988).
---------------------------------------------------------------------------
    Years later, other leaders in the climate science community 
privately acknowledged the lack of temperature data and its impact on 
the warming trend in the data. Dr. Raymond Bradley, Research Director 
at the Climate System Research Center at UMass-Amherst, responded to an 
email from Dr. Thomas Crowley, at the University of Edinburgh, stating: 
``One cautionary note--talking to Phil Jones last week, he mentioned 
that the recent addition of SH buoy data has added data from areas of 
the globe hitherto undersampled; it may have `suppressed' the ocean 
area warming relative to land.'' \38\ In response to this exchange, Dr. 
Phil Jones, then-Director of the Climatic Research Unit at the 
University of East Anglia, responded, ``in addition to the issue of 
many more drifters providing measurements over the last 5-10 years, the 
measurements are coming in from places where we didn't have much ship 
data in the past. For much of the SH between 40 and 60S the normal are 
mostly made up as there is very little ship data there. Whatever causes 
the divergence in your plot is down to the ocean.'' \39\
---------------------------------------------------------------------------
    \38\ Email from Dr. Raymond Bradley to Drs. Thomas Crowley and 
Michael Mann. April 13, 2009. http://di2.nu/foia/foia2011/mail/2729.txt
    \39\ Email from Dr. Phil Jones to Dr. Thomas Crowley April 14, 
2009. http://di2.nu/foia/foia2011/mail/2729.txt (emphasis added).
---------------------------------------------------------------------------
    This is an especially damning admission because it shows that the 
addition of actual observational data curbed the warming trend in the 
extrapolated data. Worse, the directors of two of the three main 
organizations overseeing global temperature histories have admitted 
that the raw data underlying their histories are incomplete.
    Questions 13 and 14 Given this background information, do you 
believe the data is credible and there is a sufficient enough amount of 
it to claim that it is a reasonable depiction of the global average 
surface temperature since the 1880s? If so, please explain how these 
significant problems with the data were overcome in a manner that 
allows you to claim this.
    Answer. It is important to point out that the Hansen paper you cite 
was from 1981, the year I graduated from high school. This was long 
before the dramatic increase in computing power that has revolutionized 
climate science and allowed us to carry phones with as much power as 
the original supercomputers in our pockets. Since then, scientists have 
collected 38 years of additional data, both from sensors all over the 
world and from satellites. They have also made tremendous strides in 
analyzing the data. All of this scientific work tells the same story: 
that the planet has warmed at a rapid pace since pre-industrial days.
    For example, the Berkeley Earth Surface Temperature (BEST) project 
aimed to address many of the questions and concerns raised by the 
congressman. The project used 39,390 unique stations in their analysis, 
``more than five times the 7,280 stations found in the Global 
Historical Climatology Network Monthly data set (GHCN-M).'' http://
static.berkeleyearth.org/pdf/berkeley-earth-summary.pdf
    Using this vastly larger data set led them to the same conclusions 
as earlier studies. In fact: ``Berkeley Earth also has carefully 
studied issues raised by skeptics, such as possible biases from urban 
heating, data selection, poor station quality, and data adjustment. We 
have demonstrated that these do not unduly bias the results.'' http://
berkeleyearth.org/summary-of-findings/
    In addition, four leading scientific institutions, UK's Met Office 
Hadley Centre, NASA's Goddard Institute for Space Studies, NOAA's 
National Climatic Data Center, and the Japanese Meteorological Agency 
have all analyzed the temperature data using different approaches.\40\ 
Their results are remarkably similar, increasing the level of 
confidence in the results. There is no question that the planet has 
warmed significantly (and rapidly) due to human activities.
---------------------------------------------------------------------------
    \40\ NASA Climate 365 project--a collaboration of the NASA Earth 
Science News Team, NASA Goddard and Jet Propulsion Laboratory 
communications teams, and NASA websites Earth Observatory and Global 
Climate Change. https://climate.nasa.gov/climate_resources/9/graphic-
earths-temperature-record/
---------------------------------------------------------------------------
    Finally, even though the planetary warming as seen in actual 
temperature measurements is both complete and scientifically 
persuasive, it is also important to add that the detailed record of 
past climate does not rely on temperature measurements alone. Important 
data also come from tree rings, coral reefs, sediments, pollen--and 
especially ice cores. In fact, data from those sources have enabled 
scientists to put together a remarkably detailed picture of the 
planet's temperature over thousands and even millions of years. That 
record shows that the recent planetary warming from human activities is 
unprecedented in the planet's history, in both the size and speed of 
the warming.\41\
---------------------------------------------------------------------------
    \41\ NASA Goddard Space Flight Center. https://
earthobservatory.nasa.gov/features/GlobalWarming/page3.php

    Question 15: In response to my questions regarding the extent of 
the global temperature observational station coverage, you stated the 
following: ``The impacts have only become more severe and more obvious 
based on what we are seeing in terms of these extreme events. We know 
that we are at CO2 levels that have never been experienced since 
millions of years ago and that's going to lead to dramatic impacts like 
sea level rise and more intense and frequent storms, etc., etc.'' Given 
the pervasiveness of these claims in the public discourse about climate 
change and the Committee's jurisdiction over the federal management of 
emergencies, natural disasters, and flood control, I'd like to explore 
the link between human greenhouse gas emissions and these extreme 
weather events.
    All the rhetoric around rapid climate change related sea level rise 
in the 20th century are not in line with the validated tidal gauge 
data. For example, the Fourth National Climate Assessment (NCA4) 
claimed ``global average sea level has risen by about 7-8 inches since 
1900, with almost half (about 3 inches) of that rise occurring since 
1993. Human-caused climate change has made a substantia contribution to 
this rise since 1900, contributing to a rate of rise that is greater 
than during any preceding century in at least 2,800 years.'' \42\ Dr. 
Nils-Axel Morner reviewed the rates of sea level change projected by 
the Intergovernmental Panel on Climate Change (IPCC) and others with 
the actual tidal gauge and satellite data. He found, ``At most, global 
average sea level is rising at a rate equivalent to 2-3 inches per 
century. It is probably not rising at all.'' \43\ Claims that tidal 
gauges show a significant trend in sea level rise fail to account for 
non-climate change related factors causing localized rise; this leaves 
them ``bound to exaggerate sea-level rise.'' \44\ Removing the gauges 
that are sited in uplifted and subsiding locations, separates the 
actual sea level rise from the noise created due to shifts in the 
gauges physical location. ``This leaves 68 [NOAA] sites of reasonable 
stability. These sites give a present rate of sea level rise of 1.0 
(<plus-minus> 1.0) mm/year [.039 (<plus-minus> .039) in/year].'' \45\ 
\46\ The raw data from ``two distinct satellite systems [the TOPEX/
POSEIDON sea-level satellites and the GRACE gravitational-anomaly 
satellites], using very different measurement methods, produced raw 
data reaching identical conclusions: sea level is barely rising, if at 
all.'' \47\ This shows the NCA4 significantly over-estimated the sea-
level rise of the past century.
---------------------------------------------------------------------------
    \42\ Wuebbles, D.J., et al., 2017, Executive summary: 10.
    \43\ Nils-Axel Morner, Sea level is not rising, Centre for 
Democracy and Independence, Reprinted by Science and Public Policy 
Institute, December 6, 2012: 4. http://scienceandpublicpolicy.org/wp-
content/uploads/2012/12/sea_level_not_rising.pdf
    \44\ Ibid.
    \45\ Ibid. 11.
    \46\ This sample size of 68 sites is still significantly larger 
than those used by IPCC authors in their ``representative'' records. 
Morner notes that the studies used rely upon 6, 9 and 25 gauges 
respectively; their rates of rise of higher than the mean of all 159 
NOAA sites by a range of 0.8-1.3. Morner, 10-11.
    \47\ Ibid. 4.
---------------------------------------------------------------------------
    Given this track record of failure, do you still believe they are 
correct in claiming: ``Global average sea levels are expected to 
continue to rise--by at least several inches in the next 15 years and 
by 1-4 feet by 2100. A rise of as much as 8 feet by 2100 cannot be 
ruled out''? \48\
---------------------------------------------------------------------------
    \48\ Wuebbles, D.J., et al., 2017, Executive summary: 10.
---------------------------------------------------------------------------
    Answer. The ``researcher'' whom you cite on sea level rise, Dr. 
Nils-Axel Morner is a well-known climate ``denier \49\'' funded by such 
climate-denying donors as the Koch brothers and the Mercer Family 
Foundation.\50\ His interpretation of the sea level rise data has been 
thoroughly debunked by the scientific community. To quote from one of 
the rebuttals, ``Nils-Axel Morner's claims regarding sea level rise are 
the very definition of denial, involving nothing more than conspiracy 
theories and unsubstantiated accusations of data falsification which 
are easily proven untrue. The mainstream media needs to realize that 
Morner is simply not a credible source of information about sea level 
rise or climate science in general.'' \51\
---------------------------------------------------------------------------
    \49\ https://www.desmogblog.com/2018/01/18/climate-denial-co2-
coalition-trump-morner-funding-sea-level-research-dodgy-journals
    \50\ https://www.desmogblog.com/co2-coalition
    \51\ https://www.skepticalscience.com/Nils-Axel-Morner-wrong-about-
sea-level-rise.html
---------------------------------------------------------------------------
    Dr. Morner's assertions have also been considered in the NCA4's 
assessment of the data, which has concluded, as your question states, 
that sea levels ``are expected to continue to rise. . . . [and] a rise 
of as much as 8 feet by 2100 cannot be ruled out.'' Given the NCA4's 
thorough analysis of the data (and the careful debunking of Dr. 
Morner's false claims), there is, in fact, no ``track record of 
failure'' (as your question claims) and no reason to doubt the NCA4's 
conclusion. If you have further concerns with the NCA4's conclusions, 
it would be more appropriate to raise those concerns with the federal 
agency scientists who conducted the Assessment directly.
    It is also important to note that many of the past predictions 
about the rate of climate change (including sea level rise) have been 
wrong--because they underestimated the rate of change. As scientists 
have gathered more empirical data, they have consistently learned that 
planetary warming is occurring at a faster rate than previously 
expected.\52\ In two of the many recent examples, research has shown 
that oceans are warming 40% faster than expected \53\, and that 
glaciers are melting faster than expected.\54\ Both phenomena are 
contributing to a faster-than-predicated rate of sea level rise.
---------------------------------------------------------------------------
    \52\ Global warming will happen faster than we think, Nature 564, 
30-32 (2018)doi: 10.1038/d41586-018-07586-5
    \53\ How fast are the oceans warming? Science, 11 Jan 2019: Vol. 
363, Issue 6423, pp. 128-129, DOI: 10.1126/science.aav7619
    \54\ Zemp, M., Huss, M., Thibert, E., Eckert, N., McNabb, R., 
Huber, J., Barandun, M., Machguth, H., Nussbaumer, S.U., Gartner-Roer, 
I., Thomson, L., Paul, F., Maussion, F., Kutuzov, S., and Cogley, J.G. 
Global glacier mass changes and their contributions to sea-level rise 
from 1961 to 2016. Nature, 2019 DOI: 10.1038/s41586-019-1071-0
---------------------------------------------------------------------------
    Our Center serves states and cities on a bipartisan basis that are 
already struggling with the impacts of climate change, including 
increased ``sunny day'' flooding (not associated with storms) and with 
saltwater intrusion. To the residents of these communities, this is not 
an academic question or debate.

    Question 16: NCA4 claimed, ``A projected increase in the intensity 
of hurricanes in the North Atlantic (medium confidence) could increase 
the probability of extreme flooding along most of the U.S. Atlantic and 
Gulf Coast states beyond what would be projected based solely on 
relative sea level rise.'' \55\ It is important to note that NOAA's 
overview of the current research on the topic concluded, ``Therefore, 
we conclude that it is premature to conclude with high confidence that 
human activity--and particularly greenhouse warming--has already caused 
a detectable change in Atlantic hurricane activity.'' \56\ 
Additionally, the claim that climate change will contribute to more 
intense storms is not brought out by the recent past. Despite claims of 
rapid warming during the past century, the recent past is marked by an 
overall lack of intense storms. As noted in the Wall Street Journal, 
there was a 12-year drought in major land-falling US hurricanes prior 
to Hurricane Harvey in August 2017 and despite the intensity of the 
2017 hurricane season it was not the most active, ``Last year's 
Atlantic hurricane season was particularly hyperactive, ranking as the 
seventh most intense Atlantic season since records began in 1851.'' 
\57\ They further note, that ``cyclones (as hurricanes are known 
elsewhere) are found in all three tropical oceans, and globally the 
Accumulated Cyclone Energy index--which measures the combined intensity 
and duration of these storms--is currently running 20% below its long-
term average.'' \58\
---------------------------------------------------------------------------
    \55\ Wuebbles, D.J., et al., 2017, Executive Summary: 27.
    \56\ Geophysical Fluid Dynamics Laboratory, NOAA, Global Warming 
and Hurricanes: An Overview of Current Research Results, (Last Revised: 
February 8, 2019). https://www.gfdl.noaa.gov/global-warming-and-
hurricanes/
    \57\ Peiser, B. and Ridley M., ``Bad Weather is No Reason for 
Climate Alarm'', Wall Street Journal, January 12, 2018. https://
www.wsj.com/articles/bad-weather-is-no-reason-for-climate-alarm-
1515779859
    \58\ Peiser and Ridley, ``Bad Weather''
---------------------------------------------------------------------------
    Given the above information, can you please elaborate on what you 
meant when you claimed, ``the impacts have only become more severe and 
more obvious based on what we are seeing in terms of these extreme 
events'' and explain the causal link to human-caused greenhouse gas 
concentrations?
    Answer. As mentioned above, our Center supports communities and 
states on the front lines of climate impacts experiencing changes that 
are not consistent with past norms since recordkeeping began.This 
question suggests that you may not yet be familiar with a relatively 
new field of climate science that is known as ``climate attribution'' 
science. The idea is to ask the question of whether extreme events like 
severe rain storms or heat waves have become more intense or common 
because of climate change caused by human activities. Thanks to recent 
advances in climate science, the question can now be addressed with a 
significant amount of certainty and accuracy.\59\ \60\ \61\ More than 
170 studies have shown that, in case after case, from the European heat 
wave of 2003 \62\ to Hurricane Harvey, \63\ actual events were more 
extreme or more likely, or both, because of human-caused climate 
change. The link between events that are more extreme and/or more 
frequent can also be predicted from basic physics. Because of planetary 
warming, the atmosphere contains more energy and more moisture. And 
because of more complicated atmospheric physics, that moisture is more 
likely to be released in more extreme rainfall events.\64\ This has 
been projected by models for some time but now it is coming to pass.
---------------------------------------------------------------------------
    \59\ ``Droughts, heatwaves and floods: How to tell when climate 
change is to blame,''Nature 560, 20-22 (2018)
    \60\ ``Scientists Can Now Blame Individual Natural Disasters on 
Climate Change,'' Scientific American, January 2, 2018. https://
www.scientificamerican.com/article/scientists-can-now-blame-individual-
natural-disasters-on-climate-change/
    \61\ Attribution of Extreme Weather Events in the Context of 
Climate Change, National Academies of Science, 2016.https://
www.nap.edu/read/21852/chapter/1
    \62\ Daniel Mitchell et al 2016 Environ. Res. Lett. 11 074006, 
https://doi.org/10.1088/1748-9326/11/7/074006
    \63\ Trenberth, K. E., Cheng, L., Jacobs, P., Zhang, Y., & Fasullo, 
J. (2018). Hurricane Harvey links to ocean heat content and climate 
change adaptation. Earth's Future, 6. https://doi.org/10.1029/ 
2018EF000825
    \64\ ``Why extreme rains are gaining strength as the climate 
warms.'' Nature 563, 458-460 (2018) https://www.nature.com/articles/
d41586-018-07447-1

    Question 17: The NCA4 Climate Science Special Report claimed: 
``Global annually averaged surface air temperature has increased by 
about 1.8 +F (1.0 +C) over the last 115 years (1901-2016). This period 
is now the warmest in the history of modern civilization . . . it is 
extremely likely that human activities, especially emissions of 
greenhouse gases, are the dominant cause of the observed warming since 
the mid-20th century. For the warming over the last century, there is 
no convincing alternative explanation supported by the extent of the 
observational evidence.'' \65\ These claims are contradicted by EPA's 
US Annual Heat Wave Index,\66\ which clearly shows the 1930s to be the 
hottest decade on record and Dr. John Christy's testimony before the 
House Science, Space, and Technology Committee, ``In terms of heat 
waves, the number of 100 +F days observed in the U.S. from a controlled 
set of weather stations. It is not only clear that hot days have not 
increased, but it is interesting that in the most recent years there 
has been a relative dearth of them.'' \67\ The US data record is by far 
the most complete in the world so using it alleviates the station 
distribution concerns that exist in the global record. By using a 
controlled set, Dr. Christy eliminates the potential contamination 
effects by citing stations in compliance with NOAA standards. Once the 
data quality concerns are significantly addressed, it becomes clear 
that temperature doesn't necessarily rise as greenhouse gas 
concentrations increase.
---------------------------------------------------------------------------
    \65\ Wuebbles, D.J., et al., 2017: Executive summary. In: Climate 
Science Special Report: Fourth National Climate Assessment, Volume I 
[Wuebbles, D.J., D.W. Fahey, K.A. Hibbard, D.J. Dokken, B.C. Stewart, 
and T.K. Maycock (eds.)]. U.S. Global Change Research Program, 
Washington, DC, USA, pp. 10, doi: 10.7930/J0DJ5CTG.
    \66\ EPA. US Annual Heat Wave Index. Updated August, 2016. https://
www.epa.gov/climate-
indicators/climate-change-indicators-high-and-low-temperatures
    \67\ Christy, J.R., Testimony before the House Science, Space, and 
Technology Committee, February 2, 2016.
---------------------------------------------------------------------------
    Given this information, can you explain why the NCA4 claim provides 
a reasonable representation of the temperature throughout the 20th 
century?
    Answer. The 1930s were indeed a relatively hot period in U.S. 
history. But that information needs to be put in the proper context--
which, if done, actually supports the overwhelming evidence for human-
caused planetary warming.
    First, the complete temperature record shows that 1934, while warm, 
was not as hot as temperatures in the U.S. in at least seven other 
years (all recent)--1998, 2006, 2012, 2015, 2016 (and possibly 2017 & 
2018).
    Second, and more important, it's crucial to remember that the U.S. 
represents only 2% of the total surface area of the planet. When the 
whole planet is considered, 1934 was not especially hot. In fact, 
globally, 1934 temperatures were actually cooler than average for the 
20th century.\68\
---------------------------------------------------------------------------
    \68\ https://skepticalscience.com/1934-hottest-year-on-record.htm
---------------------------------------------------------------------------
    Third, there is some intriguing evidence that suggests that the 
1934 heat wave in the U.S. is actually an early example of human-caused 
climate change. To quote from the paper, ``We identify the first 
record-breaking warm summers and years for which a discernible 
contribution can be attributed to human influence. We find a 
significant human contribution to the probability of record-breaking 
global temperature events as early as the 1930s.'' \69\ Since the 
Industrial Revolution was already well underway, perhaps this finding 
should not be surprising after all.
---------------------------------------------------------------------------
    \69\ King, A. D., M. T. Black, S.-K. Min, E. M. Fischer, D. M. 
Mitchell, L. J. Harrington and S. E. Perkins-Kirkpatrick (2016), 
Emergence of heat extremes attributable to anthropogenic influences, 
Geophys Res. Lett.,43, 3438-3443, doi:10.1002/2015GL067448
---------------------------------------------------------------------------

           Questions from Hon. Rick Larsen for Thomas P. Lyon

    Question 1: Is there a conflict between calling for continuing tax 
cuts for EV and for EV technology, versus relying on the market to 
place where those EV charging stations are, much like we rely on the 
market to place gas stations? Should the market lead or should Federal 
tax credit policy lead?
    Answer. Thank you for this question, which raises some complex 
issues. As Jaffe et al. (2005) explain, markets--while extremely useful 
for allocation of most goods and services--may fail us in a variety of 
ways when it comes to the environment. First, pollution harms innocent 
third parties and damages the environment, but market prices will not 
force the polluter to pay for these damages; as a result there tends to 
be too much pollution and too much damage to human health and to the 
natural environment. Second, research and development (R&D) generates 
an accumulation of knowledge whose benefits cannot be fully 
appropriated by the researcher; as a result there tends to be too 
little R&D. Third, early adopters of a new technology produce benefits 
for later adopters by testing the product and building a network of 
users, benefits that are not appropriated by the early adopter; as a 
result adoption of beneficial new technologies tends to be too slow.
    Subsidies for the adoption of new technologies such as electric 
vehicles (EVs) and EV chargers redress the first and the third of these 
market failures. With regard to the first failure, subsidies directly 
induce buyers to switch from internal combustion engines (ICEs) to EVs, 
which are cleaner in most parts of the U.S. This aspect of the subsidy 
will remain justifiable as long as the U.S. fails to impose a price on 
carbon. With regard to the third failure, subsidies accelerate the 
adoption of the new technology, helping it come down the learning curve 
faster and thereby lower its production costs and improve its quality. 
As adoption diffuses throughout society, and the new technology reaches 
maturity, the need for this aspect of the subsidy will gradually 
disappear.
    It is appropriate to raise the question of how close EV technology 
is to maturity. There are over a million EVs on the road in the U.S., 
\1\ out of 276.1 million registered vehicles, roughly 0.3% of the 
total. This suggests that EV technology has some way to go to reach 
maturity. Nevertheless, most manufacturers see them becoming a much 
bigger part of the market over the next decade, suggesting that 
maturity is within sight.
---------------------------------------------------------------------------
    \1\ https://www.scientificamerican.com/article/the-u-s-has-1-
million-electric-vehicles-but-does-it-matter/
---------------------------------------------------------------------------
    The placement of charging stations raises a separate issue. There 
is a chicken-and-egg aspect to the rollout of EVs and fast charging 
stations. Manufacturers are reluctant to install charging stations 
until the market for EVs gets large enough to make them profitable. But 
consumers are reluctant to buy EVs until the network of charging 
stations is extensive enough to allay range anxiety. To make matters 
worse, there is currently a range of charging standards used in the 
market place, which means not all EVs can charge at all charging 
stations. This further weakens incentives to invest in charging 
stations, because the competing standards reduce the demand for any one 
of them. Thus, there is a case to be made for public policy to lead by 
(1) requiring compatibility between charging standards, and (2) funding 
the rollout of EV charging stations.

  Question from Hon. Henry C. ``Hank'' Johnson, Jr. for Thomas P. Lyon

Question 2: A few days ago, Vice President Mike Pence promised members 
of the National Association of Governors that Congress would pass an 
historic infrastructure bill next year. And of course, that would 
require bipartisan support.
    Do you believe that the administration's unpopular infrastructure 
proposal with this panel will muzzle governors in terms of their 
interactions with the Federal Government henceforth on infrastructure?
    Answer. Thank you for this question. Unfortunately, I am afraid I 
am not in a good position to answer it. It is of a political nature, 
and I would defer to members of the Committee on questions like this, 
as they will likely have more insight into the politics of the 
situation than I will.

           Question from Hon. David Rouzer for Thomas P. Lyon

Question 3: Any discussion of energy infrastructure must include 
nuclear and natural gas. Nuclear provides 20 percent of our Nation's 
electricity, creates good paying jobs, and is reliable around the 
clock, all without producing emissions. My community is lucky to have 
the Brunswick Nuclear Plant and is also poised to benefit from natural 
gas pipeline infrastructure, specifically the Atlantic Coast Pipeline 
(ACP). Energy customers in eastern North Carolina--including 
homeowners, small businesses, and manufacturers--are depending on the 
ACP to provide affordable and reliable natural gas.
    Shouldn't we keep assets like the Brunswick running while 
developing new critical infrastructure like the ACP?
    Answer. Thank you for this question, which raises two different 
sets of complex issues. Nuclear power in the U.S. has been at a virtual 
standstill since the incident at Three Mile Island in 1979. No new 
nuclear plants were begun after the incident until 2013, when 
construction on the V. C. Summer Generating Station Units 2 and 3 in 
South Carolina and the Vogtle Generating Station units 3 and 4 in 
Georgia commenced. The Summer units have subsequently been cancelled, 
after the company invested roughly $9 billion in them. South Carolina 
customers have already paid out $2 billion to cover the costs of these 
units that will never produce a single megawatt-hour of energy.\2\ On 
October 19, 2016, TVA's Unit-2 reactor at the Watts Bar Nuclear 
Generating Station became the first US reactor to enter commercial 
operation since 1996--after being under construction for 43 years. 
Unfortunately, the plant has already suffered an extended, unplanned 
shutdown for maintenance.\3\ These plants illustrate the challenging 
economics of building new nuclear plants in the U.S.
---------------------------------------------------------------------------
    \2\ https://www.governing.com/topics/transportation-infrastructure/
gov-south-carolina-nuclear-reactors.html
    \3\ https://www.latimes.com/business/hiltzik/la-fi-hiltzik-nuclear-
shutdown-20170508-story.html
---------------------------------------------------------------------------
    Despite the difficulty of building new nuclear plants, there is a 
strong case to be made for continuing to operate existing plants, since 
they produce carbon-free electricity. In fact, one could make a case 
for providing subsidies for the continued operation of nuclear plants 
due to their climate benefits.
    Natural gas raises a different set of issues. Some argue that it 
can be used as a ``bridge fuel'' in the medium-term because it is 
cleaner than burning coal. Others argue that we should not be investing 
in long-lived equipment that will lock us into using natural gas for 
the next 50 years. It is true that when combusted to produce 
electricity, natural gas is much cleaner than coal--provided methane 
leakage is controlled. New evidence has emerged in recent years that 
there is substantial leakage from natural gas pipelines and associated 
equipment, and this can overwhelm the climate benefits of using natural 
gas to produce electricity if there is as much as 3% leakage of 
methane. The most recent estimates put the leakage rate at 2.3%, so the 
climate benefits of natural gas do appear to exist, but they are 
considerably smaller than once thought.\4\ Even as a ``bridge fuel,'' 
then, natural gas needs to be monitored much more carefully than it has 
been in the past and leaks must be eliminated.
---------------------------------------------------------------------------
    \4\ https://theconversation.com/the-us-natural-gas-industry-is-
leaking-way-more-methane-than-previously-thought-heres-why-that-
matters-98918
---------------------------------------------------------------------------
    There remains the question of whether it makes sense to commit to 
new infrastructure that would lock the U.S. into the use of fossil 
fuels for 50 years or more, corresponding to the expected lifespan of a 
new pipeline. Scientific research indicates a need to radically reduce 
greenhouse gas emissions over the next 20 years, \5\ so investing in 
new infrastructure that will increase natural gas production and its 
associated emissions for 50 years is hard to justify. Justification 
from a social perspective would require that natural gas will displace 
coal-fired electric generation, that any new pipelines will be 
monitored intensively for leaks, that there is a credible system for 
remediation of leaks, and that there is no realistic possibility of 
using renewable sources instead of natural gas.
---------------------------------------------------------------------------
    \5\ https://www.nytimes.com/2018/10/07/climate/ipcc-climate-report-
2040.html
---------------------------------------------------------------------------
References
Jaffe, Adam B., Richard G. Newell, and Robert N. Stavins. ``A tale of 
two market failures: Technology and environmental policy.'' Ecological 
economics 54, no. 2-3 (2005): 164-174.

  Question from Hon. Henry C. ``Hank'' Johnson, Jr. for Ben Prochazka

Question 1: A few days ago, Vice President Mike Pence promised members 
of the National Association of Governors that Congress would pass an 
historic infrastructure bill next year. And of course, that would 
require bipartisan support.
    Do you believe that the administration's unpopular infrastructure 
proposal with this panel will muzzle governors in terms of their 
interactions with the Federal Government henceforth on infrastructure?
    Answer. Historically, there has been a critical need for federal, 
state, and local governments to cooperate on transportation 
infrastructure. In general, our hope is that any federal infrastructure 
bill would help to support the nationwide expansion of charging 
infrastructure and help to support all sectors of on-road electrified 
transportation.
    While range anxiety is gradually decreasing as battery capacity 
improves, there is a clear need to expand electric vehicle (EV) 
charging infrastructure across the country in order to accelerate the 
transition to EVs and meet the future needs of our transportation 
system. There are opportunities to simultaneously enhance coordination 
around signage and wayfinding in order to increase the visibility of EV 
chargers and bolster consumer and business confidence in their 
availability.
    As I highlighted at the hearing, we can address this challenge 
through a combination of incentives, sound policies, and pilot programs 
to spur the installation of more EV chargers--and, more broadly, 
establish a network of charging corridors spanning the United States.
    Some of this work has already begun at the Federal Highway 
Administration (FHWA) through the Alternative Fuel Corridors program, 
which was authorized under the FAST Act of 2015. Since enactment, FHWA 
has already conducted two rounds of designations for sections of the 
National Highway System that currently have, or are on track to have, 
sufficient EV charging infrastructure. However, much work remains to be 
done. Significant gaps remain throughout the National Highway System--
and the FAST Act did not authorize funding through this program to 
support state and local efforts to expand the availability of charging 
infrastructure in their jurisdictions.
    It is our hope that any infrastructure legislation advanced in this 
Congress will empower the federal government, states, and localities to 
accelerate the transition to electrified transportation. This is best 
accomplished through sound, forward-looking policies that promote 
productive collaboration across all levels of government.

           Question from Hon. Lloyd Smucker for Ben Prochazka

    Question 2: How do electric vehicles do their part in providing for 
user fees to pay for our roads and highways?
    Answer. For nearly a century, gasoline taxes have been a primary 
method for extracting user fees to fund transportation infrastructure. 
There is not yet a widely agreed-upon solution for charging EV drivers 
for their use of the road. However, as EVs begin to comprise a larger 
share of the national fleet, they will need to do their part in 
contributing to the federal Highway Trust Fund, as well as state and 
local transportation funds. In the process, and in order to not stifle 
American innovation, it will be important to make sure we are only 
asking EV drivers to pay no more than their fair share.
    While drivers of battery electric vehicles do not pay gas taxes at 
the pump, there are other ways that they contribute to transportation 
funding at the state and local level today. Whenever drivers charge 
their EVs, there is a tax associated with the electricity usage that 
goes toward the general fund of their state and/or locality, which has 
a formula that is used to finance transportation infrastructure. 
Additionally many states are already working to address a fair and 
equitable cost solution for all who use our nation's roads.
    One proposed solution is the establishment of a vehicle miles 
traveled (VMT) fee, which can align user fees with the number of miles 
driven rather than quantity of gas purchased. This would also insulate 
dedicated transportation funding from further volatility as EVs take a 
growing share of the U.S. fleet. VMT pilot programs are currently 
underway in states like Oregon and Washington, which are experimenting 
with a range of different technologies and reporting methods that would 
be needed to support the creation of a statewide VMT fee. The findings 
of these pilots will provide valuable insights for other states and 
Congress in evaluating how to adequately fund our infrastructure in the 
future.
    Ultimately, providing the necessary funding to support our roads 
and highways is a challenge that extends far beyond EVs, which still 
account for a very small portion of road use and road impacts at this 
stage. Increases in fuel efficiency and the growing hybrid vehicle 
market have also contributed to reductions in the amount of fuel 
purchased. This represents an opportunity to reevaluate the concept of 
anchoring transportation funding to a single commodity, rather than a 
driver's actual use of the roadways. Moving forward, we must remain 
open to a range of solutions in order to establish a user fee system 
wherein everyone pays their fair share.

  Question from Hon. Henry C. ``Hank'' Johnson, Jr. for Nancy N. Young

Question 1: A few days ago, Vice President Mike Pence promised members 
of the National Association of Governors that Congress would pass an 
historic infrastructure bill next year. And of course, that would 
require bipartisan support.
    Do you believe that the administration's unpopular infrastructure 
proposal with this panel will muzzle governors in terms of their 
interactions with the Federal Government henceforth on infrastructure?
    Answer. As noted in A4A's March 26, 2019 Statement for the Record 
submitted to the House Transportation and Infrastructure Committee and 
the testimony A4A presented at the February 26, 2019 hearing on the 
intersection of infrastructure and climate change policy, A4A and our 
members strongly support necessary investments in aviation 
infrastructure and airports across the country. The facts clearly show 
that airport development is blossoming--and it is doing so within a 
multi-tool financing system that easily allows for investment without 
adding additional taxes on passengers. Further, the historic five-year 
FAA reauthorization bill that Congress approved last year provided 
significant, consistent and stable funding for airports and broadly 
supported an array of aviation infrastructure programs. That said, 
there are significant opportunities in Congress' consideration of a 
broad-based infrastructure bill and other legislation to home in on 
making aviation investments more business-case-based and efficient. For 
example, A4A supports the Chairman's proposal to shield FAA programs 
and personnel from the effects of government shutdowns, which would 
prevent the delays to infrastructure advancement we saw with the most 
recent partial government shutdown. Further we urge additional 
congressional support for smart implementation of NextGen projects 
prioritizing existing equipage and renew our call for an end to the 
practice of revenue diversion, which inappropriately siphons away from 
aviation a significant portion of aviation infrastructure dollars.
    A4A looks forward to continuing to constructively engage in these 
important infrastructure discussions and we welcome such engagement 
from an array of stakeholders across the country.

          Question from Hon. Garret Graves for Nancy N. Young

Question 2: You noted that moving forward with NextGen and performance-
based navigation procedures will further enhance airlines' carbon-
efficiency and reduce overall greenhouse gas emissions from aviation. 
Yet many people are objecting to such ``NextGen'' procedures at their 
local airports because new flight procedures--even if they reduce 
aviation emissions--may shift aircraft noise exposures to new 
communities.
    Based on this apparent conflict, how should the government and 
industry address both climate change and noise?
    Answer. The U.S. airlines have been simultaneously limiting both 
greenhouse gas (GHG) emissions associated with climate change and 
aircraft noise exposures, with a strong record of success. As detailed 
below, A4A and our members are committed to further progress in both 
areas, which is best supported by complementary government policies.
    As noted in our February 26, 2019 testimony, between 1978 and year-
end 2017, the U.S. airlines improved their fuel efficiency by more than 
125 percent, saving over 4.6 billion metric tons of carbon dioxide 
(CO2), equivalent to taking 25 million cars off the road each of those 
years. And we carried 34 percent more passengers and cargo in 2017 than 
we did in 2000, while emitting no more CO2. Over that same time period, 
we reduced the number of people exposed to significant aircraft noise 
by 94 percent, even as the number of people flying quadrupled. And even 
though enplanements rose 26 percent between 2000 and 2017, significant 
aircraft noise exposures were decreased by 48 percent.
    The U.S. airlines and aviation industry achieved these records 
through technology, operational and infrastructure advances that have 
made aircraft and aircraft operation quieter and ever more fuel-
efficient, and additional improvements are on the way. For example, 
with improved finances, U.S. airlines have invested billions of dollars 
to upgrade their fleets with newer, quieter aircraft that produce less 
noise and fewer emissions, purchasing more than 480 new aircraft in 
2017, and more than 1,550 additional planes are expected in the coming 
years. Additionally, airlines, airframe and engine manufacturers, 
business aviation and the FAA continue to break new ground through the 
public-private research and development programs highlighted in A4A's 
February 26 testimony. Indeed, although we cited in our testimony the 
energy efficiency and emissions reduction projects under FAA's 
Continuous Lower Energy, Emissions and Noise (CLEEN) program, FAA's 
Center of Excellence for Alternative Jet Fuels and the Environment 
(ASCENT), and NASA's Aeronautics Research (ARMD) program, all of these 
initiatives include noise projects and projects that address potential 
interdependencies between aircraft noise and emissions.
    Likewise, more efficient air traffic management, such as that 
enabled by well-implemented NextGen procedures, can simultaneously 
reduce both noise and emissions. For example, performance-based 
navigation can enable Optimized Profile Descents (OPDs), which reduce 
noise exposure on the ground by holding arriving aircraft at higher 
altitudes for longer and reduce noise and emissions by supporting 
reduced thrust as aircraft glide toward landing.
    As noted in your question, even though more efficient and precise 
flight paths can result in fewer people being exposed to aircraft 
noise, these procedures can shift who is exposed or concentrate noise 
exposures, raising community concerns. This potential is addressed by 
the array of statutory and regulatory provisions for aircraft noise 
assessment and management and community outreach and engagement 
policies, which have been greatly enhanced in recent years to further 
address ATC procedure changes.
    Current law requires significant environmental review and outreach, 
expressly including aircraft noise exposure assessment, when new or 
revised ATC procedures are considered. Specifically, the National 
Environmental Policy Act (NEPA) requires environmental assessment of 
and community outreach regarding procedure changes. Further, Section 
4(f) of the U.S. Department of Transportation (DOT) Act and the 
National Historic Preservation Act (NHPA) require assessment of and 
notice to the public regarding potential impacts on environmentally 
sensitive resources, historic properties and communities and include 
provisions to avoid excessive noise or other impacts to them. Moreover, 
in response to congressional direction included in Public Law 114-328 
and consistent with recommendations from the NextGen Advisory Committee 
(NAC), FAA has updated and significantly augmented its community 
outreach policies attendant to consideration of new and revised ATC 
procedures.
    In addition to and separate from the environmental review, 
mitigation and community engagement provisions directly applying to 
FAA's consideration and approval of new and revised ATC procedures, FAA 
regulates aircraft noise and management of community noise exposures. 
In 2017, FAA codified into U.S. law a new (``Stage 5'') aircraft noise 
standard, which requires future aircraft to be seven decibels quieter 
than the previous standard, equating to a 35 percent noise reduction at 
the source. Further, under the Aviation Safety and Noise Abatement Act 
(ASNA), FAA has the obligation to establish science-based noise 
exposure metrics and thresholds to assess community noise exposure and 
received direction from Congress in last-year's FAA reauthorization 
legislation on timing for the latest assessment. Moreover, ASNA and the 
regulations thereunder provide for noise assessment and mitigation 
funding to airports and surrounding communities, noise compatibility 
planning, sound insulation and other noise abatement programs.
    We are confident that the measures A4A and our members are taking 
will continue to limit and reduce aviation's carbon footprint and limit 
aircraft noise exposures, while allowing commercial aviation to 
continue to provide an invaluable service and be a key contributor to 
our nation's economy. Efficient implementation of NextGen procedures, 
supported by the web of environmental assessment, community outreach 
and aircraft noise management provisions, can reduce both noise and 
emissions impacts while providing means for resolving local concerns. 
Further, we urge continued congressional support for the public-private 
CLEEN, ASCENT and NASA ARMD programs, which, as noted in A4A's February 
26 testimony, are critical to further breakthroughs.

   Question from Hon. Henry C. ``Hank'' Johnson, Jr. for Kevin DeGood

Question 1: A few days ago, Vice President Mike Pence promised members 
of the National Association of Governors that Congress would pass an 
historic infrastructure bill next year. And of course, that would 
require bipartisan support.
    Do you believe that the administration's unpopular infrastructure 
proposal with this panel will muzzle governors in terms of their 
interactions with the Federal Government henceforth on infrastructure?
    Answer. I cannot speak to the possible future actions of U.S. 
governors.

            Questions from Hon. Scott Perry for Kevin DeGood

Question 2: In your written testimony, you stated, ``If federal, state, 
and local officials and administrators are to succeed, they need access 
to the most accurate--and to the greatest extent possible localized--
models for temperature, precipitation and peak storm flows, and sea 
level rise.'' I could not agree more. If the models aren't correct, 
then they offer little assistance in projecting future climate trends. 
This is why I'm extremely concerned about the continued use of the 
model predictions found in the Intergovernmental Panel on Climate 
Change's (IPCC) Fifth Assessment Report (AR-5) for public policy. Dr. 
John Christy, the head of climate research at the University of Alabama 
in Huntsville, conducted research on the efficacy of these modeled 
predictions and his findings were alarming. These models, on average, 
over-predicted measured temperatures by more than a factor of three. 
These significantly overheated projections were the basis of the 
Climate Science Special Report released by the U.S. Global Change 
Research Program in November 2017.
    Given this disparity--modeled projections are warmer observations 
by a factor of three, on average--do you believe these models produce 
credible estimates of the impact increased atmospheric CO2 
concentrations on future global average surface temperatures that are 
valid for policy analysis?
    Answer. My comments were directed at the need for the production of 
localized climate impact models by the U.S. government.

    Question 3: Is it possible that, over the years, the models have 
been tuned to data not reflective of the observed state of the climate, 
leading them to make projections based on a historical climate record 
that never existed?
    Answer. I cannot speak to the validity of the modeling methodology 
of either the IPCC report nor the rebuttal by Dr. Christy.

Question from Hon. Henry C. ``Hank'' Johnson, Jr. for James M. Proctor 
                                   II

Question 1: A few days ago, Vice President Mike Pence promised members 
of the National Association of Governors that Congress would pass an 
historic infrastructure bill next year. And of course, that would 
require bipartisan support.
    Do you believe that the administration's unpopular infrastructure 
proposal with this panel will muzzle governors in terms of their 
interactions with the Federal Government henceforth on infrastructure?
    Answer. I am not familiar enough with the details of the plan or 
how governors might react to comment about how the proposal might 
affect their ineteractions, but I can offer some thoughts about what an 
infrastructure bill might include. In addition to the topics discussed 
in my written testimony, legislation should:
    1.  Incentivize partnerships among water and wastewater systems and 
the consolidation of failing water and wastewater systems.
      a.  Reduce the number of water systems that lack operational, 
technical and financial capacity to meet federal and state water 
quality standards. Many failing systems serve small to midsize 
communities (less than 100,000 population) and lack the capacity to 
maintain compliant and resilient water and wastewater systems. 
Thousands of such systems are in significant non-compliance (SNC) and 
unable to meet minimal performance and health-based standards. These 
systems should be incentivized and, in cases where public health is 
seriously compromised or in long-standing SNC status, compelled, to 
partner with or seek a new owner/operator that can adequately provide 
water services. Regionalization should also be encouraged by, among 
other things, repurposing SRF and other grants for that purpose.
      b.  Provide more financial incentives and ``safe harbor'' 
protections for ``Good Neighbors''. To encourage financially sound and 
well-managed water systems to partner with or take over distressed 
systems, the government must reduce the significant financial and legal 
liabilities posed to the acquirer or ``Good Neighbor''. Provide set 
asides and expand SRF funding exclusively to fund consolidation. For 
example, California currently provides up to $5M for systems that wish 
to explore and implement consolidation.
    2.  Encourage more private sector participation and investment by 
eliminating barriers.
      a.  Remove debt defeasance penalty. A simple way to accelerate 
investment is the elimination of the need to ``defease'' public bonds 
alongside an asset purchase. This can be achieved through a simple IRS 
interpretation change, thereby allowing municipal system acquisitions 
to improve net proceeds the municipalities receive when their systems 
are purchased or consolidated at their option. The current rule 
inadvertently deters beneficial agreements, as its requirements are 
often cost-prohibitive, adding up to 15-20% of the total value of the 
transaction. Treasury could make this change through a rule-making.
      b.  Remove tax-exempt water infrastructure private activity bonds 
from state volume caps. In addition to federal dollars, another 
effective option for the federal government to provide long-term, 
capital-intensive infrastructure projects is the private activity bond 
(PAB). These bonds are a form of tax-exempt financing for state and 
municipal governments that want to collaborate with a private entity to 
meet a public need. This partnership approach makes infrastructure 
repair and construction more affordable for municipalities and 
ultimately for users or customers. This well-established program would 
provide significant benefit to water-sector investments were the state 
volume cap to be lifted and defeasance penalty eliminated.
      c.  Provide all water systems with equal access to SRF loans. EPA 
has long interpreted the Clean Water State Revolving Fund (SRF) to 
apply only to the publicly owned systems due to the statute applying to 
``publicly owned treatment works'' (POTW). Although EPA has long held 
that private water systems are eligible for Drinking Water SRF funds, 
numerous states disallow such funds for private entities. This 
disparity prevents the private sector from leveraging federal 
investment to benefit the same communities (and rate payers) otherwise 
eligible for federal funds.
    3.  Modernize and streamline the SRFs.
      a.  Streamline procedures. Eliminate federal/state redundancies 
in cross-cutters and streamline the application process and paperwork 
to make it easier for smaller systems to seek assistance.
Additional Considerations:
    Although Congress should hold communities accountable for results, 
they should encourage federal agencies to defer to local communities 
and their engineers of record by the means employed. For too long 
Washington has imposed unfunded, one-size-fits-all mandates that have 
increased burdens and costs on local water systems without regard to 
the diverse water and wastewater infrastructure needs of local 
communities, who must evaluate numerous factors when considering the 
proper design and materials for their community and water projects. 
Encouraging and supporting local governance allows those closest to the 
problem to determine the best solutions, including the use of green 
infrastructure and water recovery and recycling solutions, which 
stimulates innovation and saves money as local communities can hold 
those in their community more accountable.
    The recommendations described above focus on more immediate actions 
that either Congress or the President could initiate to help improve 
and rebuild the Nation's water infrastructure. These recommendations 
are actions that can be taken in addition to supporting certain 
existing programs and policies. For example, tax-exempt municipal bonds 
are the principal finance tool that most utilities use to finance 
large-scale projects. Congress and the Administration need to protect 
these as tax reform moves forward. Other useful existing tools are in 
the Rural Utility Services programs at the Department of Agriculture 
and Community Development Block Grants.
    Similarly, there is a type of secondary infrastructure that 
supports the water sector: the network of research organizations that 
support and execute research that guides the water sector toward 
smarter, more efficient water infrastructure. Currently, federal 
support is virtually absent for water infrastructure-related research.
    In addition, while the bulk of infrastructure discussion focuses on 
capital assets, the people who manage and operate water systems are the 
sector's most valuable assets. The sector faces the aging workforce 
issues that many other sectors of American society faces. While there 
is already a strong cadre of technical training organizations in the 
water sector, federal funding to facilitate ongoing sector-led training 
would be beneficial. EPA, through its oversight capabilities, could be 
a mechanism for facilitating greater coordination and consistency in 
training across state borders to enable the water workforce to move 
more easily from one state to another to meet workforce needs.
    Lastly, in addition to legislative and administrative options, the 
President should consider issuing a Presidential Policy Directive 
outlining a vision for the development of integrated, efficient and 
effective water infrastructure strategy to (1) elevate water 
infrastructure modernization, improvement, and security as a national 
priority; (2) establishing inter-agency coordination and oversight 
mechanisms, resources, and staffing to align U.S. government agencies' 
priorities, actions and budgets, and improve collaboration, 
coordination, and efficiency across federal agencies; (3) encourage 
local co-finance, full-cost and life-cycle accounting, and information 
sharing for federal assistance; (5) promoting economic growth, 
development, and exports of U.S. technologies, products and services; 
and (6) advance national security and international cooperation over 
water.

        Question from Hon. David Rouzer for James M. Proctor II

Question 2: Any discussion of energy infrastructure must include 
nuclear and natural gas. Nuclear provides 20 percent of our Nation's 
electricity, creates good paying jobs, and is reliable around the 
clock, all without producing emissions. My community is lucky to have 
the Brunswick Nuclear Plant and is also poised to benefit from natural 
gas pipeline infrastructure, specifically the Atlantic Coast Pipeline 
(ACP). Energy customers in eastern North Carolina--including 
homeowners, small businesses, and manufacturers--are depending on the 
ACP to provide affordable and reliable natural gas.
    Shouldn't we keep assets like the Brunswick running while 
developing new critical infrastructure like the ACP?
    Answer. Although I am not an expert on power generation issues, I 
do believe that nuclear power is an undervalued and underutilized 
alternative for the production of carbon-free electricity.

         Questions from Hon. Rick Larsen for Whitley Saumweber

Importance of Funding the Coast Guard
Question 1: You provided several recommendations in your written 
statement regarding Arctic maritime infrastructure, most of which 
highlighted responsibilities of the U.S. Coast Guard. In fact, as our 
nation's sole military, maritime law enforcement agency, the Coast 
Guard appears to be a pivotal element to ensure the Federal Government 
can capably provide an active presence in an open and accessible Arctic 
region.
    Do our future efforts in the Arctic depend on having the Coast 
Guard present and active in the region?
    Answer. Response was not received at the time of publication.

    Question 2: What are the security implications if the Coast Guard 
is unable to maintain mission readiness and operational capability in 
the Arctic?
    Answer. Response was not received at the time of publication.

    Question 3: Considering the importance of the Coast Guard, not only 
in the Arctic but in the coterminous United States, should Congress 
pass legislation such as H.R. 367, the Coast Guard Pay Parity Act, to 
ensure that in any future lapse in appropriations that the Coast Guard 
gets paid just like the other four military services?
    Answer. Response was not received at the time of publication.

Arctic Risk Assessment
Question 4: In your testimony, you recommended that Congress invest in 
Coast Guard programs to support comprehensive risk assessments at major 
U.S. ports to the primary climate risk factors found in the Committee 
on the Marine Transportation System's Risk Matrix.
    Should the Coast Guard itself conduct a comprehensive assessment of 
how climate risk factors might affect all Coast Guard facilities and 
the Service's operational readiness?
    Answer. Response was not received at the time of publication.

    Question 5: Are all of the risk factors in the CMTS Risk Matrix 
applicable to the Coast Guard?
    Answer. Response was not received at the time of publication.

    Question 6: Should Congress pass H.R. 1322, to direct the Coast 
Guard to undertake such an assessment and report to Congress?
    Answer. Response was not received at the time of publication.

Port Infrastructure Resiliency
Question 7: In the recently passed Fiscal Year 2109 Consolidated 
Appropriations Act, the Congress appropriated $293 million for a new 
Port Infrastructure Development Grant program. You recommended in your 
written statement that resiliency standards should be developed for 
port infrastructure that map to regional predictions of sea level 
change under a variety of scenarios projected by the Intergovernmental 
Panel on Climate Change (IPCC).
    To your knowledge, have port infrastructure resiliency standards 
been developed, either in the U.S. or abroad?
    Answer. Response was not received at the time of publication.

    Question 8: What factors should be included in resiliency standards 
for port infrastructure?
    Answer. Response was not received at the time of publication.

    Question 9: Regarding the new port infrastructure development grant 
program, should we prioritize grant applications that design resiliency 
into the project? Are there other types of incentives you might 
recommend to encourage applicants to account for resiliency in their 
grant proposals?
    Answer. Response was not received at the time of publication.

Question from Hon. Henry C. ``Hank'' Johnson, Jr. for Whitley Saumweber

Question 10: A few days ago, Vice President Mike Pence promised members 
of the National Association of Governors that Congress would pass an 
historic infrastructure bill next year. And of course, that would 
require bipartisan support.
    Do you believe that the administration's unpopular infrastructure 
proposal with this panel will muzzle governors in terms of their 
interactions with the Federal Government henceforth on infrastructure?
    Answer. Response was not received at the time of publication.

  Question from Hon. Henry C. ``Hank'' Johnson, Jr. for Lynn Scarlett

Question 1: A few days ago, Vice President Mike Pence promised members 
of the National Association of Governors that Congress would pass an 
historic infrastructure bill next year. And of course, that would 
require bipartisan support.
    Do you believe that the administration's unpopular infrastructure 
proposal with this panel will muzzle governors in terms of their 
interactions with the Federal Government henceforth on infrastructure?
    Answer. A backlog of investment needed to upgrade, maintain and 
make more resilient our nation's infrastructure is widely understood 
and accepted. Congress has demonstrated bipartisan cooperation on 
infrastructure related bills in the last couple of years as seen in 
passage of the Water Resources Development Act and the Federal Aviation 
Administration reauthorization, among others. Thoughtfully drafted, 
such bills address significant infrastructure needs facing our nation.
    My testimony before the Transportation and Infrastructure Committee 
focused in large part on the need to consider natural infrastructure 
when making our nation's infrastructure investments. Infrastructure 
investments should include nature-based solutions to support robust 
economic development, improve the quality of life in our communities 
and sustain America's lands and waters for future generations. When 
using the term ``natural infrastructure,'' we mean actions like 
restoring floodplains along rivers to allow better absorption of 
floodwaters and enlarging and using natural features for culverts to 
allow for larger flows of water to pass through without blowing out the 
culverts and the road structures along with them.
    Natural infrastructure can be used alone or alongside gray 
infrastructure (like seawalls, dams, levees and water and wastewater 
systems) to provide cost-effective and sustainable solutions that bring 
multiple benefits. In addition to helping reduce risk, natural 
infrastructure can deliver clean water and air, sustain lands that grow 
food and provide enhanced recreational opportunities and wildlife 
habitat--all benefiting local economies.
    During the past several years, Congress has included provisions in 
bills such as the Water Resources Development bill just passed in 2018 
that includes increased consideration of using natural infrastructure. 
These provisions received bipartisan support, and the bill passed with 
overwhelming bipartisan support.

      Question from Hon. Debbie Mucarsel-Powell for Lynn Scarlett

Question 2: You discussed runoff in your testimony. As you know, South 
Florida has been trying to complete the Comprehensive Everglades 
Restoration Project for the past 18 years.
    What is the importance of this type of project to the future 
resiliency of our community?
    Answer. The Comprehensive Everglades Restoration Plan (CERP) is a 
critical resiliency effort benefiting Floridians, U.S. residents and 
beyond. In addition to the restoration of the Everglades, CERP will 
help protect the domestic wellfields in south Florida, provide ongoing 
aquifer recharge through its existence and maximize water management 
flexibility to serve the areas of six million residents. The work of 
the CERP also helps preserve a globally important ecosystem, 
maintaining the important source of tourism for the region as well as 
natural infrastructure that provides storm risk reduction benefits and 
critical habitat to important plants and animals.

                                    
</pre></body></html>
